No. 20-815
In the Supreme Court of the United States
TIMOTHY KING, Et Al.,
Petitioners,
v.
GRETCHEN WHITMER,
GOVERNOR OF MICHIGAN, Et Al.,
Respondents
BRIEF OF CITY OF DETROIT IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI
DAVID H. FINK*
*Counsel of Record
FINK BRESSACK
CITY OF DETROIT LAW
David H. Fink (P28235)
DEPARTMENT
Darryl Bressack(P67820)
Lawrence T. Garcia
Nathan J. Fink (P75185)
(P54890)
38500 Woodward Ave.,
James D. Noseda (P52563)
Suite 350
2 Woodward Ave.,
Bloomfield Hills, MI 48304
5th Floor
(248) 971-2500
Detroit, MI 48226
dfink@finkbressack.com
(313) 237-5037
dbressack@finkbressack.com garcial@detroitmi.goc
nfink@finkbressack.com
nosej@detroitmi.gov
Counsel for Intervenor-Defendant/Respondent
City of Detroit
January 14, 2021

i

QUESTIONS PRESENTED
1.

Whether Petitioners should be granted the writ

of certiorari where their factual allegations and legal claims
are frivolous and where they sought extraordinary relief that
could not possibly be available even if they stated a
legitimate claim.
2.

Whether the District Court was correct that

Petitioners were not entitled to the extraordinary relief they
sought, the effective reversal of the 2020 presidential
election.
3.

Whether the District Court was correct that

Petitioners’ claims are barred by Eleventh Amendment
Immunity.
4.

Whether the District Court was correct that the

relief sought by Petitioners was moot and whether
subsequent events have further mooted the case.
5.

Whether the District Court was correct that

Petitioners’ claims are barred by laches.
6.

Whether the District Court was correct that

abstention is appropriate in deference to State court
proceedings.
7.

Whether the District Court was correct that

Petitioners do not have Article III standing.

ii

PARTIES TO THE PROCEEDINGS
Petitioners are plaintiffs Timothy King, Marian Ellen
Sheridan, John Earl Haggard, Charles James Ritchard,
James David Hooper, and Daren Wade Rubingh, all of whom
purport to be registered Michigan voters and nominees of the
Republican Party to be Presidential Electors on behalf of the
State of Michigan.
Respondents are as follows: defendant Gretchen
Whitmer, Governor of the State of Michigan; defendant
Jocelyn Benson, Secretary of State of the State of Michigan;
intervenor-defendant, the City of Detroit; intervenordefendants Democratic National Committee and Michigan
Democratic Party, and; intervenor-defendant Michigan
citizen Robert Davis.

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ............................................... i
PARTIES TO THE PROCEEDINGS ................................ ii
TABLE OF CONTENTS ................................................... iii
TABLE OF AUTHORITIES ...............................................4
OPINIONS BELOW ...........................................................1
JURISDICTION..................................................................1
STATEMENT OF THE CASE ............................................2
SUMMARY OF THE ARGUMENT ...................................3
ARGUMENT .......................................................................5

I. Petitioners’ Allegations of Fact are Primarily
Deliberate Falsehoods ............................................................... 5
II.
As the District Court Correctly Concluded,
this Lawsuit is Barred by Eleventh Amendment Immunity .. 10
III.
As the District Court Correctly Concluded,
this Lawsuit is Moot ................................................................ 11
IV.
As the District Court Correctly Concluded,
this Lawsuit is Barred by Laches ............................................ 14
V.
As the District Court Correctly Concluded,
this Lawsuit is Barred Under the Colorado River Doctrine ... 15
VI.
As the District Court Correctly Concluded,
Petitioners Do Not Have Standing .......................................... 17
A.

Elections and Electors Clauses ................................. 18

B.
Equal Protection, Due Process and Michigan
Election Law Theories .......................................................... 20

CONCLUSION..................................................................22

iv
TABLE OF AUTHORITIES
Cases
Am. Civil Rights Union v. Martinez-Rivera,
166 F. Supp. 3d 779 (W.D. Tex. 2015) ..............................21
Blachy v. Butcher, 221 F.3d 896 (6th Cir.2000) ..................17
Bognet v. Secretary Commonwealth of Pennsylvania,
980 F.3d 336 (3rd Cir., Nov. 13, 2020) .................. 19, 20, 21
Bowyer v. Ducey, CV-20-02321,
2020 WL 7238261 (D. Ariz. Dec. 9, 2020) ........................19
Carson v. Simon, 978 F.3d 1051 (8th Cir. 2020) .................19
Carten v. Kent State Univ., 282 F.3d 391 (6th Cir. 2002)...10
Chirco v. Crosswinds Communities, Inc.,
474 F.3d 227 (6th Cir. 2007) .............................................15
Colorado River Water Conservation District v. United
States, 424 U.S. 800 (1976) ........................................... 4, 15
Costantino v. Detroit, No. 162245,
2020 WL 6882586 (Mich. Nov. 23, 2020) ...........................6
Courtney v. Smith, 297 F.3d 455 (6th Cir. 2002) ................17
Donald J. Trump for President, Inc. v. Boockvar, No.
4:20-CV-02078, 2020 WL 6821992 (M.D. Pa. Nov. 21,
2020), aff'd sub nom. Donald J. Trump for President,
Inc. v. Pennsylvania, No. 20-3371, 2020 WL 7012522
(3d Cir. Nov. 27, 2020) ......................................................21
Donald J. Trump for President, Inc. v. Secy of State,
No. 162320, 2020 WL 7315923 (Mich. Dec. 11, 2020) .......6
Ex parte Young, 209 U.S. 123 (1908) ...................................10
Feehan v. Wisconsin Elections Comm'n, 20-CV-177, 2020
WL 7250219 (E.D. Wis. Dec. 9, 2020) ........................ 19, 21
Georgia Republican Party v. Secy of State of Georgia, No.
20-14741, 2020 WL 7488181 (11th Cir. Dec. 21, 2020) ...21
Gleason v. Kincaid, 323 Mich. App. 308;

v
917 N.W.2d 685 (2018)......................................................13
Hotze v. Hollins, 4:20-CV-03709,
2020 WL 6437668 (S.D. Tex. Nov. 2, 2020)......................19
Lance v. Coffman, 549 U.S. 437 (2007) ...............................19
Lujan v. Defs. of Wildlife, 504 U.S. 555 (1992) ...................18
Martel v. Condos, No. 5:20-cv-131, ––– F.Supp.3d ––––,
2020 WL 5755289 (D. Vt. Sept. 16, 2020) ........................21
McLeod v. Kelly, 7 N.W.2d 240 (Mich. 1942) ......................10
Paher v. Cegavske, 457 F. Supp. 3d 919 (D. Nev. 2020) .....21
Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89 (1984) .............................................................11
Reynolds v. Sims, 377 U.S. 533 (1964) ................................22
Russell v. Lundergan-Grimes,
784 F.3d 1037 (6th Cir. 2015) ...........................................11
United States v. Hays, 515 U.S. 737 (1995) ........................22
Valley Forge Christian Coll. v. Americans United
for Separation of Church and State, Inc.,
454 U.S. 464 (1982) ..................................................... 17, 19
Wood v. Raffensperger, No. 1:20-CV-04651, 2020 WL
6817513 (N.D. Ga. Nov. 20, 2020) .............................. 19, 21
Statutes
3 U.S.C. § 5 ...........................................................................14
3 U.S.C. § 7 ...........................................................................14
M.C.L. § 168.47 ....................................................................14
M.C.L. § 168.843 ..................................................................12
M.CL. § 168.832 ...................................................................12
M.CL. § 168.879 ...................................................................12

1

OPINIONS BELOW
The District Court’s Opinion and Order denying
Petitioners’ Request for Injunctive Relief is reported as King
v. Whitmer, No. CV 20-13134, 2020 WL 7134198 (E.D. Mich.
Dec. 7, 2020).
JURISDICTION
Petitioners argue this Court has jurisdiction pursuant
to 28 U.S.C. § 1343, because the case purportedly involves a
“significant departure from the legislative scheme for
appointing Presidential electors….” Petition at *4 (citing
Bush v. Gore, 531 U.S. 98, 113 (2000) (Rehnquist, C.J.,
concurring)). But, Petitioners do not—and cannot—present
any legitimate argument as to how the State’s actions
departed from the legislative scheme.
Petitioners argue this Court has jurisdiction under
the All Writs Act, 28 U.S.C. § 1651(a), and Supreme Court
Rule 20, because “Petitioners will suffer irreparable harm if
they do not obtain immediate relief … [as] Electors are set to
vote on December 14, 2020.” Petition at *6. Setting aside the
fact that Petitioners do not state a legitimate claim, the
December 14,

2020 deadline

has passed,

rendering

Petitioners’ request fully moot and thus insufficient to
invoke jurisdiction.

2

STATEMENT OF THE CASE
Petitioners filed this case to halt the orderly workings
of the democratic process, by preventing the State of
Michigan from certifying the electoral college results for the
November 3, 2020 presidential election. The City of Detroit
(the “City”) intervened to protect the rights of its citizens and
because most of the allegations of purported fraud are based
on allegations relating to the processing and tabulation of
absentee ballots by the City.
There is no question that the District Court was
correct when it denied Petitioners’ request for injunctive
relief. Petitioners’ factual allegations have no merit. As
detailed in the City’s Motion to Dismiss and Motion for
Sanctions, both of which are pending as of the date of this
brief, this case is predicated almost entirely on falsehoods.
See City of Detroit Appendix (“COD Appx.”) 001-274.
Nothing Petitioners allege could possibly support an
injunction that would prevent the vote of every single
Michigan citizen from being counted.

3

SUMMARY OF THE ARGUMENT
1.

Petitioners have not made—and cannot make—

a colorable argument in favor of this Court granting the writ
of certiorari. Nor can they make a colorable argument in
favor of bypassing the Sixth Circuit Court of Appeals. The
“facts” in the Complaint have been rejected in numerous
courts and debunked every time they have been tested. This
unprecedented case was predicated on an extraordinary
collection of intentional falsehoods and startlingly-weak
“expert” reports.
2.

As the District Court concluded, the case is

barred by Eleventh Amendment Immunity.
3.

The District Court was correct that this case is

moot. Even by December 7, the date the Complaint was filed,
the time had passed to provide most of the relief Petitioners
requested. Numerous subsequent events have further
mooted the claims. Petitioners asked the District Court to
enjoin the Michigan Secretary of State and Governor from
transmitting election results to the Electoral College or to
transmit results somehow stating that President Trump was
entitled to Michigan’s electoral college votes. That request is
moot; the actual results were sent. Petitioners asked the
District Court to order “that no votes received or tabulated
by machines not certified as required by federal and state
law be counted.” But the results have already been certified.
The electoral college for each State has met and sent results

4

to the United States Congress. And, Congress has counted
the results. The election is over. This case is moot.
4.

As the District Court found, the case was

barred by laches because, Petitioners “waited too long to
knock on the Court’s door.”
5.

The District Court was correct that abstention

was appropriate under the doctrine announced in Colorado
River Water Conservation District v. United States, 424 U.S.
800 (1976), because the same allegations and claims were
being litigated in Michigan state courts.
6.

As the District Court concluded, Petitioners do

not have Article III standing to pursue their purported
claims under the Equal Protection or Elections/Electors
clauses.

5

ARGUMENT
I.

Petitioners’ Allegations of Fact are Primarily
Deliberate Falsehoods
Supreme Court Rule 15 states that a brief in

opposition to a request for certiorari “should address any
perceived misstatement of fact or law in the petition that
bears on what issues properly would be before the Court if
certiorari were granted.” Here, the allegations of purported
facts made by Petitioners would not properly be before the
Court if certiorari were granted, because Petitioners appeal
from the denial of an injunction that they frivolously
requested. The underlying factual claims are irrelevant,
because, as the District Court concluded, Petitioners request
failed on numerous legal grounds, such as mootness,
Eleventh Amendment Immunity, laches, abstention and
lack of Article III standing.
That said, it must be noted that nearly all of
Petitioners’ allegations are deliberate falsehoods. It is
unlikely that any other party has sought such extraordinary
relief—overturning the results of a democratic election—
based on such a flimsy and false pretext. The allegations of
“electoral fraud” in Michigan are premised on supposed
violations of state law during the City of Detroit’s processing
and tabulation of absentee ballots. The rest of the allegations
appear to be intended to show that bad actors could change
election results. None of the allegations are true.

6

The allegations relating to the City of Detroit have
been presented to federal and state courts in Michigan at
least nine times since the November general election. In the
cases that were not withdrawn before a ruling could be
entered on the requested injunctive relief, the court either
found the claims to be without merit or not worthy of an
injunction. In fact, Michigan’s Supreme Court has now
considered these allegations in three separate post-election
lawsuits and each time concluded that the plaintiffs were not
entitled to an injunction. See Costantino v. Detroit, No.
162245, 2020 WL 6882586 (Mich. Nov. 23, 2020); Johnson v.
Secy of State, No. 162286, 2020 WL 7251084 (Mich. Dec. 9,
2020); Donald J. Trump for President, Inc. v. Secy of State,
No. 162320, 2020 WL 7315923 (Mich. Dec. 11, 2020).
Petitioners recycle the same affidavits and same
allegations which were rejected in the other cases. For
instance, the Complaint recirculates the falsehood that
Republican challengers were not given “meaningful” access
to the ballot processing and tabulation at the Absent Voter
Counting Board for the City of Detroit. Pet. Appx. Ex. 1, R6,
¶¶ 13, 42, 47, 57, 59-61. This claim was disproven before
Petitioners raised it here. As Michigan’s Wayne County
Circuit Court concluded the first time this claim was
addressed, while six feet of separation was necessary for
health reasons, “a large monitor was at the table where
individuals could maintain a safe distance from poll workers

7

to see what exactly was being performed.” COD Appx. 27587; Costantino v. Detroit, Opinion and Order, Wayne County
Circuit Court Case No. 20-014780-AW (Nov. 13, 2020).
Similarly, the Complaint repeats the false claim that
Republican challengers were exclusively barred from
entering the Detroit absentee ballot counting center. Pet.
Appx. Ex. 1, R6. In fact, there was a short period of time,
where

Republican

and

Democratic

challengers

were

“prohibited from reentering the room because the maximum
occupancy of the room had taken place.” COD Appx. 275-87;
Costantino Opinion, at *8. As stated by that court, “[g]iven
the COVID-19 concerns, no additional individuals could be
allowed into the counting area ... Democratic party
challenger David Jaffe and special consultant Christopher
Thomas in their affidavits both attest to the fact that neither
Republican nor Democratic challengers were allowed back in
during the early afternoon of November 4th as efforts were
made to avoid overcrowding.” Id. And, it is undisputed that
at all times some Republican challengers were in the room.
The allegations of “pre-dating” (Pet. Appx. Ex. 1, R6,
¶¶ 88 and 90) were also based on claims initially submitted
and rejected in Costantino. COD Appx. 275-87, *4. The
employees were not “pre-dating”; they were accurately
marking dates the ballots had been received, consistent with
time-stamps on the ballot envelopes. Id.
The allegations of ballots being repeatedly run

8

through tabulation machines in Wayne County, Michigan or
votes being switched in Antrim County, Michigan were
proven false before Petitioners latched on to the conspiracy
theories and alleged them in this case. The actual canvass of
votes in Wayne County conclusively disproved any claim of
ballots being counted more than once. COD Appx, 288-302;
Affidavit of Chris Thomas, ¶¶ 18-20. Similarly, the hand
recount audit in Antrim County conclusively refuted any
claim that votes had been changed. COD Appx. 303.
To the extent they are actually relevant to any of
Petitioners’ claims, the “expert” reports, declarations and
affidavits

are

fundamentally

flawed.

For

instance,

Petitioners rely on an affidavit from someone whose name
they redacted, but who they identified as a “former electronic
intelligence analyst with 305th Military Intelligence.” Pet.
Appx. Ex. 1, R6, ¶¶ 17, 161. When the identity of the
declarant was inadvertently revealed by Petitioners, it was
discovered that the individual was never in Military
Intelligence, but instead was a person who failed out of the
courses to join intelligence. COD Appx. 304-07. He
reportedly said that counsel for Petitioners added the false
claim to his affidavit. Id.
The

other

“expert”

analyses

lack

the

basic

underpinnings of proper expert testimony. The reports are
rife with misstatements of Michigan law and procedure (e.g.
that Michigan voters can be tracked by party registration,

9

when the State has not had party registration since 1992;
that every Michigan absentee voter voted by mail, when
many Michigan voters cast absentee ballots in person at the
local clerk’s office; and, that thousands of ballots could be
counted multiple times, when there are multiple steps in
Michigan’s tabulation, canvassing and certification process
where such errors would be detected and corrected). The
experts also rely on obviously incorrect factual assumptions
(e.g. that every voter who supported Donald Trump in 2016
voted for Donald Trump again in 2020; that a larger margin
of victory for Joe Biden, measured by raw vote totals, in
several counties is “statistically anomalous,” when the
counties identified happen to be the counties with the most
voters in the State; and, that there is no reason to believe
that, in 2020, when President Trump discouraged mail-in
voting, Biden voters would be more likely to vote by mail
than Trump voters). These “expert” reports fail to use even
elementary statistical methods, rely upon transparentlyunscientific surveys, include numerical inconsistencies, and
are prepared with the sort of sloppiness that would be
rejected even in low-stakes litigation. The reports are all
clearly intended to support a pre-determined conclusion. Not
one of them comes close to satisfying Daubert. 1

Many of the fabrications and flaws are identified in
the City’s Motion for Sanctions. COD Appx. 054-274.
1

10

As the District Court concluded in denying injunctive
relief, “this lawsuit seems to be less about achieving the
relief Plaintiffs seek—as much of that relief is beyond the
power of this Court—and more about the impact of their
allegations on People’s faith in the democratic process and
their trust in our government.” Pet. Appx. Ex. 42 R. 62, *3536. “Plaintiffs ask this Court to ignore the orderly statutory
scheme established to challenge elections and to ignore the
will of millions of voters … This, the Court cannot, and will
not, do.” Id.
II.

As the District Court Correctly Concluded, this
Lawsuit is Barred by Eleventh Amendment
Immunity
The named Defendants in this lawsuit are Michigan’s

Governor, Secretary of State and Board of State Canvassers
(the “Board”). The claim against the Board was clearly
barred by Eleventh Amendment Immunity, because the
Board is a State entity. See McLeod v. Kelly, 7 N.W.2d 240
(Mich. 1942); see also Pet. Appx. Ex. 42 R. 62, *8-13.
Congress has not abrogated immunity, and the State has not
waived immunity. See, e.g., Carten v. Kent State Univ., 282
F.3d 391, 398 (6th Cir. 2002).
The claims against the Governor and Secretary of
State are barred because they do not fall within the
exception to immunity first articulated by this Court in Ex
parte

Young,

209

U.S.

123

(1908).

The

immunity

11

“unquestionably” barred the state law claims. Pet. Appx. Ex.
42 R. 62, *11 (citing, inter alia, Pennhurst State Sch. & Hosp.
v. Halderman, 465 U.S. 89, 106 (1984). And, the immunity
barred the federal claims because, as the District Court
concluded, the lawsuit was an attempt to undo something
which had already occurred—certification and transmission
of Michigan’s election results—not an attempt to end an
ongoing violation of law. See Russell v. Lundergan-Grimes,
784 F.3d 1037, 1047 (6th Cir. 2015).
III.

As the District Court Correctly Concluded, this
Lawsuit is Moot
As the District Court held in its December 7 Opinion

and Order, as of the date this case was filed (November 25,
2020) it was already moot. The operative Complaint asked
the District Court to:
(a) order Defendants to decertify the results of the
election; (b) enjoin Secretary Benson and Governor
Whitmer from transmitting the certified election
results to the Electoral College; (c) order
Defendants “to transmit certified election results
that state that President Donald Trump is the
winner of the election”; (d) impound all voting
machines and software in Michigan for expert
inspection; (e) order that no votes received or
tabulated by machines not certified as required by
federal and state law be counted; and, (f) enter a
declaratory judgment that mail-in and absentee
ballot fraud must be remedied with a manual
recount or statistically valid sampling.
Pet. Appx. Ex. 42 R. 62, *13-14 (quoting First Amended

12

Complaint, Pet. Appx. Ex. 1, R6). However, the request was
moot because, by the time the Complaint was filed, “all 83
counties in Michigan had finished canvassing their results
for all elections and reported their results … The State Board
had certified the results of the 2020 General Election and
Governor Whitmer had submitted the slate of Presidential
Electors to the Archivists.” Pet. Appx. Ex. 42 R. 62, *14
(citing record and M.C.L. § 168.843). The time to request a
special election had expired, as “had the time for requesting
a recount for the office of President.” Id. at *14-15. (citing
record and M.CL. §§ 168.831, 168.832 and § 168.879).
Michigan

state

courts

have

reached

similar

conclusions. As early as November 6, 2020, the Michigan
Court of Claims determined that these challenges to the
election were moot. In Donald J. Trump Inc. v Benson, supra,
the plaintiffs sought an order in the Michigan Court of
Claims that the “counting and processing of absentee votes
cease immediately.” The court stated that:
the complaint and emergency motion were not
filed until approximately 4:00 p.m. on November 4,
2020—despite being announced to various media
outlets much earlier in the day. By the time this
action was filed, the votes had largely been
counted, and the counting is now complete.
Accordingly, and even assuming the requested
relief were available against the Secretary of
State—and overlooking the problems with the
factual and evidentiary record noted above—the
matter is now moot, as it is impossible to issue the

13

requested relief. See Gleason v Kincaid, 323 Mich
App 308, 314; 917 NW2d 685 (2018).
COD Appx. 308-13. Donald J. Trump for President, Inc. and
the other plaintiff delayed 24 days in perfecting their appeal,
so the Michigan Court of Appeals looked at the mootness
question anew, holding:
Once the election results have been certified, “[a]
candidate for office who believes he or she is
aggrieved on account of fraud or mistake in the
canvass or returns of the votes by the election
inspectors may petition for a recount of the votes
cast for that office in any precinct or precincts as
provided by in this chapter.” MCL 168.862 ….
Here, plaintiff filed its purportedly emergent
application on November 6, 2020, but did not
perfect the filing until 11:21 p.m. on November 30,
2020, when it filed its brief in support. The Wayne
County Board of Canvassers certified the results of
the November 3rd election on November 17, 2020,
almost a full two weeks before plaintiff perfected
the instant application. The Michigan Board of
State Canvassers certified the presidential
election results on November 23, 2020, a full week
before plaintiff perfected its application. Plaintiff
does not address whether the certification of the
election result by the Board of State Canvassers
had any impact on the viability of its suit below or
on the viability of the instant application.
Perhaps the reason for plaintiff failing to discuss
the impact of the certification is because such
action by the Michigan State Board of Canvassers
clearly rendered plaintiff’s claims for relief moot.
The Michigan State Board of Canvassers’
certification of the presidential election results
and the legislative directive found in MCL

14

168.862, requires plaintiff to pursue its fraud
allegations by way of a recount of the ballots cast
in Wayne County. Because plaintiff failed to follow
the clear law in Michigan relative to such matters,
their action is moot. MCL 168.862.
COD Appx. __. The Michigan Supreme Court rejected leave
to appeal from the Michigan Court of Claims and Court of
Appeals decisions.
Additional events which have transpired subsequent
to the District Court’s December 7 Opinion have further
mooted the case. The federal “safe harbor” provision
regarding certification of electors by states passed on
December 8. See 3 U.S.C. § 5. On December 14, Michigan’s
presidential electors convened in Lansing. M.C.L. § 168.47;
3 U.S.C. § 7. There, Michigan’s electors voted and confirmed
that all Michigan electoral college votes were for Joe Biden.
COD Appx. 316-21. Joe Biden defeated Donald Trump in the
State of Michigan by 154,188 votes. Id. On that same day,
the Electoral College in all 50 states met and cast their votes.
COD Appx. 322-25. Finally, on January 6, 2021 and into the
morning of January 7, a joint session of Congress met and
certified the results for Michigan and all other states. COD
Appx. 326-28.
IV.

As the District Court Correctly Concluded, this
Lawsuit is Barred by Laches
Laches arises from a “(1) lack of diligence by the party

against whom the defense is asserted … and (2) prejudice to

15

the party asserting the defense.” Chirco v. Crosswinds
Communities, Inc., 474 F.3d 227, 231 (6th Cir. 2007) (citation
omitted)).
All of Petitioners’ claims arise from allegations
relating to supposed events which occurred before the
election (including years before the election) or on the 3rd and
4th of November. If Petitioners had legitimate claims
regarding Dominion Voting Systems, they could have
brought those claims years ago. If Petitioners had legitimate
claims relating to the processing and tabulation of ballots in
Detroit, they could have brought the claims before that
tabulation was completed. Instead of bringing the claims
when they were timely (albeit not meritorious), Petitioners
chose to wait until after the election had been certified. The
claims are thus barred by laches.
V.

As the District Court Correctly Concluded, this
Lawsuit is Barred Under the Colorado River
Doctrine
The Colorado River doctrine counsels deference to

parallel state court proceedings. Colorado River Water
Conservation District v. United States, 424 U.S. 800 (1976).
Virtually all of the allegations of purported fraud relate to
the processing and tabulation of ballots in Detroit. See, e.g.,
Pet. Appx. Ex. 1, R6, ¶¶ 180-192, 206, 211, 213-228. The
“facts” identified in the Counts—which are the only “facts”
actually offered in support of the relief in the Counts—are

16

claims that election officials: did not allow Republican
challengers to observe the counting and processing of ballots;
discriminated

against

Republican

challengers;

added

“batches” of ballots; added voters to the Qualified Voter File;
changed dates on ballots; altered votes on ballots; double
counted

ballots;

violated

ballot

security;

accepted

“unsecured” ballots; counted ineligible ballots; and, failed to
check ballot signatures. Besides their falsity, the one thing
the allegations have in common is that they are based on
claims raised in Michigan state courts. In fact, each and
every one of those allegations is based on the allegations and
“evidence” submitted in the Costantino matter, supra. 2
All of the claims were being litigated in, or had been
resolved by, Michigan courts. The Wayne County Circuit
Court has already decided that the claims were frivolous and
not worthy of injunctive relief. The Michigan Court of
Appeals and the Michigan Supreme Court reviewed the
District Court’s decision on an expedited basis and did not
disagree. The claims remained before Michigan courts,
which were the proper courts to see them through to their
The other allegations in the Complaint are
essentially offered to provide “support” for the theory that
there could have been widespread fraud in Michigan that
resulted in President Elect Biden receiving 154,000 more
votes than Donald Trump in the State. Of course, if the
Trump campaign believed those claims, the proper avenue
for relief was a hand recount—no recount was requested.
2

17

inevitable dismissal with prejudice.
VI.

As the District Court Correctly Concluded,
Petitioners Do Not Have Standing
Article III of the United States Constitution restricts

the jurisdiction of federal courts to actual “Cases” and
“Controversies.” U.S. Const. art. III, § 2, cl. 1. “To satisfy this
‘case-or-controversy’ requirement, ‘a plaintiff must establish
three elements: (1) an injury in fact that is concrete and
particularized; (2) a connection between the injury and the
conduct at issue—the injury must be fairly traceable to the
defendant's action; and (3) [a] likelihood that the injury
would be redressed by a favorable decision of the Court.’”
Courtney v. Smith, 297 F.3d 455, 459 (6th Cir. 2002), quoting
Blachy v. Butcher, 221 F.3d 896, 909 (6th Cir.2000).
The first requirement—that the plaintiff establish an
“injury in fact”—limits justiciability to those cases involving
a well-defined injury to the plaintiff, which allows the parties
to develop the necessary facts and seek responsive remedies.
As this Court has repeatedly instructed, “[t]he requirement
of ‘actual injury redressable by the court’ . . . tends to assure
that the legal questions presented to the court will be
resolved, not in the rarified atmosphere of a debating society,
but in a concrete factual context conducive to a realistic
appreciation of the consequences of judicial action.” Valley
Forge Christian Coll. v. Americans United for Separation of
Church and State, Inc., 454 U.S. 464, 472 (1982) . To that

18

end, this Court “repeatedly has rejected claims of standing
predicated on the right, possessed by every citizen, to require
that the Government be administered according to law.” Id.
at 482–83. Moreover, this Court has “consistently held that
a plaintiff raising only a generally available grievance about
government—claiming only harm to his and every citizen's
interest in proper application of the Constitution and laws,
and seeking relief that no more directly and tangibly benefits
him than it does the public at large—does not state an
Article III case or controversy.” Lujan v. Defs. of Wildlife, 504
U.S. 555, 573–74 (1992).
A. Elections and Electors Clauses
Count I of the Complaint purports to bring a claim
under the Elections and Electors clause of the U.S.
Constitution. But, the underlying “factual allegations” are
the same “allegations” made throughout the Complaint: that
the named Defendants supposedly failed to follow the
Michigan Election Code, relating to election challengers and
the processing and tabulation of ballots in Detroit. See, e.g.,
Pet. Appx. Ex. 1, R6, ¶ 180. Petitioners do not allege that
their ballots were not counted or that they were not allowed
to vote. Instead, they allege their votes were somehow
diluted.
But that claim is “predicated on the right, possessed
by every citizen, to require that the Government be
administered according to law” that is insufficient to confer

19

standing. See, e.g., Valley Forge, 454 U.S. at 472. Petitioners’
reliance on Carson v. Simon is misplaced. Petition at 29,
citing Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020).
Carson is an outlier that erroneously conflated candidates
for electors with candidates for office based on a quirk of
Minnesota law. Id. Meanwhile, this Court has been clear
that citizens do not have Article III standing under the
clauses. See, e.g., Lance v. Coffman, 549 U.S. 437, 442 (2007)
(Holding plaintiffs did not have standing because the “only
injury plaintiffs allege is that the law—specifically the
Elections Clause—has not been followed. This injury is
precisely the kind of undifferentiated, generalized grievance
about the conduct of government that we have refused to
countenance in the past.”). And, all other courts ruling on
similar challenges to the November 2020 general election
have held that the expansion of standing in Carson v. Simon
was unwarranted and that plaintiffs (citizens, electors, and
candidate) do not have standing under the clause. See, e.g.,
Bognet v. Secretary Commonwealth of Pennsylvania, 980
F.3d 336 (3rd Cir., Nov. 13, 2020); Hotze v. Hollins, 4:20-CV03709, 2020 WL 6437668 at *2 (S.D. Tex. Nov. 2, 2020); Wood
v. Raffensperger, 1:20-CV-04651, 2020 WL 6817513, at *5
(N.D. Ga. Nov. 20, 2020) (L. Lin Wood as plaintiff); Feehan
v. Wisconsin Elections Comm'n, No. 20-CV-1771, 2020 WL
7250219, at *12 (E.D. Wis. Dec. 9, 2020); Bowyer v. Ducey,
CV-20-02321, 2020 WL 7238261 (D. Ariz. Dec. 9, 2020).

20

Additionally, these particular Petitioners do not have
standing for the claims, because they are actually purporting
to bring claims that, if they could be brought, could only be
brought by the Michigan Legislature. Petitioners are
effectively seeking to enforce “rights” of that body, not rights
that are particular to themselves. See, e.g., Bognet, 980 F.3d
at 349-50 (concluding that the plaintiffs’ Elections and
Electors Clause claims “belong, if they belong to anyone, only
to the Pennsylvania General Assembly”) (citation omitted)
B. Equal Protection, Due Process
Michigan Election Law Theories

and

The equal protection, due process and Michigan
Election Law theories (Counts II – IV) also rely on the
allegations relating to the processing and tabulation of votes
in Detroit. See Pet. Appx. Ex. 1, R6, ¶¶ 118-192, 206, 211,
213-228. Once again, Petitioners do not—and cannot—allege
an actual, particularized injury in fact. They do not claim
they were denied the right to vote; instead, they claim that
the grant of the franchise to others somehow infringed on
their right to equal protection, due process and compliance
with Michigan law. Setting aside just how misplaced this
theory is, it is clear that these Petitioners do not have
standing to pursue it.
Petitioners are alleging an “injury” identical to the
injury supposedly incurred by every Michigan voter. Under
Petitioners’ theory, the “effect” of an erroneously counted

21

vote will proportionally impact every Michigan voter to the
same mathematical degree. Because the approximately 5.5
million Michigan voters in the Presidential election suffer
the identical incremental dilution, the alleged injury
constitutes a quintessential generalized injury incapable of
conferring standing. Federal courts have addressed this
“novel” voter dilution claim, with each court finding the
claim fails to constitute an injury in fact. See Paher v.
Cegavske, 457 F. Supp. 3d 919, 926–27 (D. Nev. 2020); Martel
v. Condos, No. 5:20-cv-131, ––– F.Supp.3d ––––, 2020 WL
5755289, at *4 (D. Vt. Sept. 16, 2020); Am. Civil Rights
Union v. Martinez-Rivera, 166 F. Supp. 3d 779, 789 (W.D.
Tex. 2015). Numerous courts have also addressed the issue
in the context of the post-election lawsuits filed in the
“battleground” states, also concluding the plaintiffs lacked
standing. See, e.g., Bognet v. Pennsylvania, 980 F.3d at 35260; Wood v. Raffensperger, 2020 WL 6817513, at *5; Feehan
v. Wisconsin, 2020 WL 7250219, at *8-10 ; Bowyer v. Ducey,
2020 WL 7238261 at *5-6; Georgia Republican Party v. Secy
of State of Georgia, No. 20-14741, 2020 WL 7488181 (11th
Cir. Dec. 21, 2020); Donald J. Trump for President, Inc. v.
Boockvar, No. 4:20-CV-02078, 2020 WL 6821992, at *1 (M.D.
Pa. Nov. 21, 2020), aff'd sub nom. Donald J. Trump for
President, Inc. v. Pennsylvania, No. 20-3371, 2020 WL
7012522 (3d Cir. Nov. 27, 2020);
This is not to say that a claim under the label of “voter

22

dilution” can never be brought in federal court; but such
claims can only survive with facts starkly different from the
case at bar. First, voter dilution claims may be appropriate
in cases of racial gerrymandering, where the legislature
impermissibly relied on race when drawing legislative
districts. See, e.g., United States v. Hays, 515 U.S. 737, 744–
45 (1995). Second, voter dilution claims may proceed in
apportionment cases, where un-updated legislative districts
disfavor voters in specific districts merely due to the voter’s
geographic location. See, e.g., Reynolds v. Sims, 377 U.S. 533
(1964). Neither theory provides any support for Petitioners’
claims. The injury in the colorable dilution claims is
particularized to a specific group. In contrast to the specific
class of minority voters in a racially gerrymandered district,
or voters living in a growing but un-reapportioned district,
the supposed dilution here is shared in proportion by every
single Michigan voter. In alleging a generalized injury rather
than an actual and particularized injury in fact, Petitioners
lack standing.
CONCLUSION
The Court should DENY Petitioners’ Request for the
Writ of Certiorari.
Respectfully submitted,
DAVID H. FINK*
*Counsel of Record
FINK BRESSACK

23

David H. Fink (P28235)
Darryl Bressack(P67820)
Nathan J. Fink (P75185)
38500 Woodward Ave., Suite 350
Bloomfield Hills, MI 48304
(248) 971-2500
dfink@finkbressack.com
dbressack@finkbressack.com
nfink@finkbressack.com
CITY OF DETROIT LAW
DEPARTMENT
Lawrence T. Garcia (P54890)
James D. Noseda (P52563)
2 Woodward Ave., 5th Floor
Detroit, MI 48226
(313) 237-5037
garcial@detroitmi.goc
nosej@detroitmi.gov

January 14, 2021

Counsel for IntervenorDefendant/Respondent

APPENDIX

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3544 Filed 12/22/20 Page 1 of 37

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES
DAVID HOOPER and DAREN WADE
RUBINGH,
Plaintiffs,

No. 2:20-cv-13134
Hon. Linda V. Parker

v.
GRETCHEN WHITMER, in her official
capacity as Governor of the State of
Michigan, JOCELYN BENSON, in her
official capacity as Michigan Secretary of
State and the Michigan BOARD OF STATE
CANVASSERS,
Defendants.
THE CITY OF DETROIT’S MOTION TO DISMISS
AND
FOR AN AWARD OF SANCTIONS
The City of Detroit (the “City”) respectfully submits this Motion to Dismiss
Plaintiffs’ Complaint with Prejudice and with Sanctions.
This Motion is supported by the accompanying Brief.
Pursuant to Local Rule 7.1(a), on December 22, 2020, Counsel for the City
contacted Counsel for the Plaintiffs and explained the nature of this Motion and its

A001

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3545 Filed 12/22/20 Page 2 of 37

legal bases and requested concurrence in the relief sought but the Plaintiffs did not
concur.
WHEREFORE, for the foregoing reasons and the reasons stated in the
accompanying brief, the City of Detroit respectfully requests that this Court enter an
Order dismissing Plaintiffs’ Complaint with prejudice and requiring Plaintiffs and
their counsel to pay all costs and fees incurred by all Defendants and IntervenorDefendants.
December 22, 2020

Respectfully submitted,
FINK BRESSACK
By: /s/ David H. Fink
David H. Fink (P28235)
Darryl Bressack (P67820)
Nathan J. Fink (P75185)
Attorneys for City of Detroit
38500 Woodward Ave., Ste. 350
Bloomfield Hills, MI 48304
Tel: (248) 971-2500
dfink@finkbressack.com
dbressack@finkbressack.com
nfink@finkbressack.com
CITY OF DETROIT
LAW DEPARTMENT
Lawrence T. Garcia (P54890)
James D. Noseda (P52563)
Attorneys for City of Detroit
2 Woodward Ave., 5th Floor
Detroit, MI 48226
Tel: (313) 237-5037
garcial@detroitmi.goc
nosej@detroitmi.gov
ii

A002

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3546 Filed 12/22/20 Page 3 of 37

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES
DAVID HOOPER and DAREN WADE
RUBINGH,
Plaintiffs,

No. 2:20-cv-13134
Hon. Linda V. Parker

v.
GRETCHEN WHITMER, in her official
capacity as Governor of the State of
Michigan, JOCELYN BENSON, in her
official capacity as Michigan Secretary of
State and the Michigan BOARD OF STATE
CANVASSERS,
Defendants.
BRIEF IN SUPPORT OF
THE CITY OF DETROIT’S MOTION TO DISMISS
AND
FOR AN AWARD OF SANCTIONS

A003

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3547 Filed 12/22/20 Page 4 of 37

TABLE OF CONTENTS
INDEX OF AUTHORITIES..................................................................................... ii
CONTROLLING OR MOST APPROPRIATE AUTHORITIES .......................... vii
INTRODUCTION .....................................................................................................1
ARGUMENT .............................................................................................................6
I. Applicable Legal Standards ..............................................................................6
I. The Complaint Should be Dismissed Because the Case is Moot..................... 7
II. The Complaint Should be Dismissed Pursuant to the Doctrine of Laches
10
III. The Complaint Should be Dismissed Under Abstention Principles ..............11
IV. The Complaint Must be Dismissed Because Plaintiffs do not have
Standing ................................................................................................................13
A.

Plaintiffs Do Not Have Standing to Pursue Claims Under the Electors
and Election Clauses ...............................................................................14

B.

Plaintiffs Do Not Have Standing to Pursue Their Equal Protection, Due
Process or Michigan Electoral Law Theories .........................................16

V. The Complaint Should be Dismissed on its Lack of Merit ............................18
VI. Plaintiffs and their Counsel Should be Sanctioned ........................................23
CONCLUSION ........................................................................................................25

i

A004

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3548 Filed 12/22/20 Page 5 of 37

INDEX OF AUTHORITIES
Cases
Am. Civil Rights Union v. Martinez-Rivera,
166 F. Supp. 3d 779 (W.D. Tex. 2015) ..................................................................17
Ashcroft v. Iqbal, 556 U.S. 662 (2009) ......................................................................6
Bell Atl. Corp. v. Twombly, 550 U.S. 544 (2007) ......................................................6
Blachy v. Butcher, 221 F.3d 896 (6th Cir.2000) ......................................................13
Bodine v. Elkhart Cnty. Election Bd., 788 F.2d 1270 (7th Cir. 1986).....................19
Bognet v. Secretary Commonwealth of Pennsylvania,
980 F.3d 336 (3rd Cir., Nov. 13, 2020) ...................................................... 15, 16, 17
Bowyer v. Ducey, CV-20-02321, 2020 WL 7238261 (D. Ariz. Dec. 9, 2020) .......16
Breedlove v. Suttles, 302 U.S. 277 (1937),
overruled by Harper v. Virginia State Bd. of Elections, 383 U.S. 663 (1966) .......22
Carson v. Simon, 978 F.3d 1051 (8th Cir. 2020) .....................................................15
Chirco v. Crosswinds Communities, Inc., 474 F.3d 227 (6th Cir. 2007) ................10
Civil Rights Cases, 109 U.S. 3 (1883) .....................................................................22
Colorado River Water Conservation District v. United States,
424 U.S. 800 (1976) ............................................................................................4, 11
Costantino v Detroit, No. 162245, 2020 WL 6882586 (Mich. Nov. 23, 2020) ........5
Courtney v. Smith, 297 F.3d 455 (6th Cir. 2002).....................................................13
Donald J. Trump for President, Inc v. Secy’ of State,
Mich. Court of Claims Case No. 20-000225-MZ,
Opinion and Order (Nov. 4, 2020) ............................................................................4

ii

A005

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3549 Filed 12/22/20 Page 6 of 37

Donald J. Trump for President, Inc. v. Boockvar,
No. 4:20-CV-02078, 2020 WL 6821992 (M.D. Pa. Nov. 21, 2020), aff'd sub nom.
Donald J. Trump for President, Inc. v. Pennsylvania, No. 20-3371, 2020 WL
7012522 (3d Cir. Nov. 27, 2020) ...................................................................... 18, 22
Donald J. Trump for President, Inc. v. Secy of State,
No. 162320, 2020 WL 7315923 (Mich. Dec. 11, 2020) .....................................5, 12
Dred Scott v. Sandford, 60 U.S. 393 (1857) ............................................................22
Feehan v. Wisconsin Elections Comm'n, 20-CV-177,
2020 WL 7250219 (E.D. Wis. Dec. 9, 2020) .........................................................16
Feehan v. Wisconsin Elections Comm'n, No. 20-CV-1771, 2020 WL 7250219 (E.D.
Wis. Dec. 9, 2020) ................................................................................................17
Frank v. Dana Corp., 547 F.3d 564 (6th Cir. 2008)..................................................6
Georgia Republican Party v. Secy of State of Georgia,
No. 20-14741, 2020 WL 7488181 (11th Cir. Dec. 21, 2020).................................17
Gleason v. Kincaid, 323 Mich. App. 308, 314; 917 N.W.2d 685 (2018)..................8
Hotze v. Hollins, 4:20-CV-03709, 2020 WL 6437668 (S.D. Tex. Nov. 2, 2020) ...15
Johnson v. Secy of State,
No. 162286, 2020 WL 7251084 (Mich. Dec. 9, 2020) .......................................5, 13
King v. Whitmer,
No. CV 20-13134, 2020 WL 7134198 (E.D. Mich. Dec. 7, 2020) ......................3, 7
Korematsu v. United States,
323 U.S. 214 (1944); abrogated by Trump v. Hawaii, 138 S. Ct. 2392 (2018) .....22
Lance v. Coffman, 549 U.S. 437 (2007) ..................................................................15
Lujan v. Defs. of Wildlife, 504 U.S. 555 (1992) ......................................................14
Martel v. Condos, No. 5:20-cv-131,
––– F.Supp.3d ––––, 2020 WL 5755289 (D. Vt. Sept. 16, 2020) ..........................17
iii

A006

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3550 Filed 12/22/20 Page 7 of 37

Minn. Voters All. v. Ritchie, 720 F.3d 1029 (8th Cir. 2013)....................................19
Paher v. Cegavske, 457 F. Supp. 3d 919 (D. Nev. 2020) ........................................17
Plessy v. Ferguson, 163 U.S. 537 (1896), overruled by Brown v. Bd. of Ed. of
Topeka, Shawnee Cty., Kan., 347 U.S. 483 (1954) .............................................22
Reynolds v. Sims, 377 U.S. 533 (1964) ............................................................. 18, 19
Sanderson v. HCA-Healthcare Co., 447 F.3d 873 (6th Cir. 2006) ...........................6
Stoddard v. City Elect Comm of the City of Detroit, Wayne County Circuit Court
Case No. 20-014604-CZ, Opinion and Order (Nov. 6, 2020)................................5
Texas v Pennsylvania, No. 155 ORIG., 2020 WL 7296814 (U.S., Dec. 11, 2020) ..5
United States v. Hays, 515 U.S. 737 (1995) ............................................................18
Valley Forge Christian Coll. v. Americans United for Separation of Church and
State, Inc., 454 U.S. 464 (1982) .................................................................... 14, 15
Wood v. Raffensperger,
No. 1:20-CV-04651, 2020 WL 6817513 (N.D. Ga. Nov. 20, 2020) ............... 16, 17
Statutes
28 U.S.C. § 1927 ......................................................................................................22
3 U.S.C. § 5 ................................................................................................................9
3 U.S.C. § 7 ................................................................................................................9
M.C.L. § 168.47 .........................................................................................................9
M.C.L. § 168.730 .....................................................................................................19
M.C.L. § 168.764a ............................................................................................ 19, 20
M.C.L. § 168.765(5) ......................................................................................... 19, 20
M.C.L. § 168.765a ...................................................................................................19
M.C.L. § 168.843 .......................................................................................................7
M.CL. § 168.832 ........................................................................................................7
iv

A007

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3551 Filed 12/22/20 Page 8 of 37

M.CL. § 168.879 ........................................................................................................7
Other Authorities
U.S. Const. art. III, § 2 .............................................................................................12
Rules
Fed R. Civ. P. 12(b)(6)...............................................................................................5
Fed. R. Civ. P. 9(b) ....................................................................................................6

v

A008

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3552 Filed 12/22/20 Page 9 of 37

STATEMENT OF THE ISSUES PRESENTED
I.

Should the Complaint be dismissed because Plaintiffs do not have standing?
The City answers: “Yes.”

II.

Should the Complaint be dismissed under abstention principles?
The City answers: “Yes.”

III.

Should the Complaint be dismissed based on laches?
The City answers: “Yes.”

IV.

Should Plaintiffs’ counsel be ordered to pay sanctions pursuant to 28 U.S.C. §
1927?
The City answers “Yes”

vi

A009

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3553 Filed 12/22/20 Page 10 of 37

CONTROLLING OR MOST APPROPRIATE AUTHORITIES
Ashcroft v. Iqbal, 556 U.S. 662 (2009)
Colorado River Water Conservation District v. United States, 424 U.S. 800 (1976)
Costantino v. Detroit et al, Wayne County Circuit Case No. 20-014780-AW
Courtney v. Smith, 297 F.3d 455 (6th Cir. 2002)
Donald J. Trump for President, Inc. v. Pennsylvania, No. 20-3371, 2020 WL
7012522 (3d Cir. Nov. 27, 2020)
King v. Whitmer, No. CV 20-13134, 2020 WL 7134198 (E.D. Mich. Dec. 7, 2020)
Valley Forge Christian Coll. v. Americans United for Separation of Church and
State, Inc., 454 U.S. 464 (1982)
U.S. Const. art. III, § 2
28 U.S.C. § 1927
Fed. R. Civ. P. 9(b)

vii

A010

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3554 Filed 12/22/20 Page 11 of 37

INTRODUCTION
Plaintiffs and their counsel surely know that this case is built on lie upon lie,
each easily disproven by basic objective facts. They know that their so-called experts
rely on conspiracy theories to spew obviously flawed conclusions, based on junk
science. But they choose to deliberately spread their falsehoods by filing them with
this Court and not withdrawing them when given the opportunity (after the various
Defendants sought concurrence). While one might be tempted to laugh at the
absurdity of their claims, the point of these lawsuits is not to prevail. Certainly, no
court in the free world would ever seriously entertain this nonsense. No, the point of
all of these lawsuits was to sow doubt, to delegitimize the Biden presidency, to create
space for people to press the President to declare martial law, and, perhaps, to
fundraise from the millions who believe there must be some truth to these spurious
allegations because they are included in court filings and “affidavits.”
Some numbers put this in perspective:
• Certified popular vote totals for Biden/Harris: 81,281,888 1
• Certified popular vote totals for Trump/Pence: 74,223,2512
• Michigan certified vote totals for Biden/Harris: 2,804,040 3
2020 Presidential Election Results & Electoral Map, USA Today,
https://www.usatoday.com/elections/results/2020-11-03/presidential/?itm_
source=oembed&itm_medium=news&itm_campaign=electionresultshome&itm_content=presidential (last visited December 22, 2020).
2
Id.
3
Id.
1

1

A011

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3555 Filed 12/22/20 Page 12 of 37

• Michigan certified vote totals for Trump/Pence: 2,649,852 4
• Electoral College votes committed to Biden/Harris: 3065
• Electoral College votes committed to Trump/Pence: 2326
• Post-elections lawsuits challenging election lost or dismissed: 59 7
• Vote tally net change in Georgia’s three recounts: 891 for Trump 8
• Vote tally net change in Wisconsin recount: 132 for Biden9
• Vote tally net change in Antrim County hand count audit: 11 for Trump 10
• Number of recounts requested by Trump in Michigan: 0
• Percentage of Americans who reportedly believe the election lies: 36%11

4

Id.
Id.
6
Id.
7
Running tally which changes almost daily, and includes cases where the
relief was denied, but case not yet formally dismissed.
8
David Wickert, Patricia Murphy and Mark Niesse, Georgia recount confirms
Biden win, again, but Trump still battling, Atlanta Journal Constitution (December
7, 2020), https://www.ajc.com/politics/election/georgia-recount-confirms-bidenwin-again-but-trump-still-battling/OZGAOQCMKVFG7G43L5PSF3BNHM/.
9
Joe Biden gains votes in Wisconsin county after Trump-ordered recount,
The Guardian, https://www.theguardian.com/us-news/2020/nov/28/joe-bidengains-votes-in-wisconsin-county-after-trump-ordered-recount (last visited
December 22, 2020).
10
Beth LeBlanc, Antrim County audit shows 12-vote gain for Trump, The
DetroitNews,https://www.detroitnews.com/story/news/local/michigan/2020/12/17/
antrim-county-audit-shows-12-vote-gain-trump/3938988001/
(last
visited
December 22, 2020).
11
https://www.rasmussenreports.com/public_content/politics/elections/electi
on_2020/most_say_mail_in_voting_worked_but_47_say_fraud_likely. According
to the Rasmussen poll, 47% of likely voters say it is likely that Democrats stole votes
or destroyed pro-Trump ballots in several states to ensure that Joe Biden would win.
49% consider that unlikely. This includes 36% who say voter fraud was very likely.
5

2

A012

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3556 Filed 12/22/20 Page 13 of 37

• Number of stabbings at pro-Trump white supremacist rally in D.C.: 412
• Violent incidents by paid election fraud “investigators”: 313 14
• Dollars raised by Sidney Powell based upon election lawsuits: undisclosed
• Dollars raised off election lawsuits by Trump: at least $200 million.15
The City has served Plaintiffs with a proposed Rule 11 Motion and intends to
file that Motion at an appropriate time. But, for now, Plaintiffs’ counsel should be
sanctioned under 28 U.S.C. § 1927 and ordered to pay the City of Detroit the costs,
expenses, and attorneys’ fees incurred because of their conduct.
The reasons for dismissal are straightforward and were explained by this
Court in its December 7, 2020, Opinion and Order Denying Plaintiffs’ “Emergency
Motion for Declaratory, Emergency, and Permanent Injunctive Relief.” King v.
Whitmer, No. CV 20-13134, 2020 WL 7134198 (E.D. Mich. Dec. 7, 2020). There,
this Court made numerous rulings, which not only applied to the denial of injunctive
relief, but which also apply to dismissal.
https://www.washingtonpost.com/local/public-safety/enrique-tarrio-proudboys-black-lives-matter-sign/2020/12/18/c056c05e-415a-11eb-8db8-395dedaaa03
6_story.html.
13
Eric Miller, Fake ballots, Q Anon, and a Virginia senator: “Alarming”
incident prompts gun charges for men outside Philly vote-counting center,
MSN.com, https://www.msn.com/en-us/news/politics/fake-ballots-q-anon-and-avirgi nia-senator-alarming-incident-prompts-gun-charges-for-men-outside-a-phillyvote-counting-center/ar-BB1aMpKA (last visited December 22, 2020).
14
US election: Texas ex-officer charged for botched conspiracy, BBC.com,
(December 16, 2020), https://www.bbc.com/news/world-us-canada-55342288.
15
https://www.theguardian.com/us-news/2020/dec/19/trump-raised-200m-fr
om-false-election-claims-what-happens-to-the-money-now?CMP=oth_b-aplnews_
d-1.
12

3

A013

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3557 Filed 12/22/20 Page 14 of 37

First, the Court ruled that Plaintiffs’ claims against Defendants (Governor
Whitmer, Secretary of State Benson and the Board of State Canvassers) are barred
by Eleventh Amendment immunity. Id. at *3-5. Second, the case is moot because,
even by December 7, the time had “passed to provide most of the relief Plaintiffs
request in their Amended Complaint” with the remaining relief “beyond the power
of any court.” Id. at *5-6. Third, the case was barred by laches as of November 7
because Plaintiffs “waited too long to knock on the Court’s door.” Id. at *6-7. Fourth,
abstention is appropriate under the Colorado River doctrine16 because the same
allegations and claims are being (and have been) litigated in Michigan state courts.
Id. at *7-9. Fifth, the Plaintiffs did not have standing to pursue their purported claims
under the Equal Protection or Elections/Electors clauses. Id. at *9-11.
This Court’s Opinion and Order denying injunctive relief was entered on
December 7. All subsequent court decisions relating to the election in Michigan have
only lent further support for dismissal. As of December 7, the Michigan Court of
Appeals had rejected the request for injunctive relief in Donald J. Trump for
President, Inc v. Secy’ of State, Mich. Court of Claims Case No. 20-000225-MZ,
Opinion and Order (Nov. 4, 2020) (Ex. 1). The Michigan Supreme Court had already
denied the Application for Leave to Appeal from the denial of injunctive relief in the

16

(1976).

Colorado River Water Conservation District v. United States, 424 U.S. 800

4

A014

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3558 Filed 12/22/20 Page 15 of 37

Costantino matter. Costantino v Detroit, No. 162245, 2020 WL 6882586 (Mich.
Nov. 23, 2020). The Michigan Third Judicial District had denied injunctive relief in
Stoddard v. City Elect Comm of the City of Detroit, Wayne County Circuit Court
Case No. 20-014604-CZ, Opinion and Order (Nov. 6, 2020) (Ex. 2). Since December
7, the Michigan Supreme Court has rejected the Application for Appeal from the
denial of injunctive relief in Donald J. Trump for President, Inc. v. Secy of State,
No. 162320, 2020 WL 7315923 (Mich. Dec. 11, 2020). The Michigan Supreme
Court also rejected the petition for extraordinary writs in Johnson v. Secy of State,
No. 162286, 2020 WL 7251084 (Mich. Dec. 9, 2020). And, the U.S. Supreme Court
rejected the lawsuit filed by the State of Texas. Texas v Pennsylvania, No. 155
ORIG., 2020 WL 7296814, *1 (U.S., Dec. 11, 2020). 17
Every attempt to overturn the election has been turned away by the judiciary.
That is something we should all be proud of as Americans. There is no reason for a
different result here. Nevertheless, Plaintiffs refuse to dismiss their case, continuing
to use this Court to promote and profit from their false narrative. The case should be
dismissed and Plaintiffs and their counsel should be severely sanctioned.
Since this Motion is being filed under Fed. R. Civ. P. 12(b)(6), the City is
not including a rebuttal of the numerous falsehoods and outlandish claims in the
Complaint. The City, however, relies on the rebuttals contained in its Response to
Plaintiffs’ Emergency Motion for Declaratory, Emergency and Permanent
Injunctive Relief. ECF No. 39. The City intends to file a Motion for Rule 11
sanctions (after the safe harbor expires) laying out many of the intentional
misrepresentations made by Plaintiffs in their filings in this case.
17

5

A015

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3559 Filed 12/22/20 Page 16 of 37

ARGUMENT
I.

Applicable Legal Standards
Under Fed R. Civ. P. 12(b)(6), a court should dismiss a claim where a plaintiff

fails to plead facts sufficient to state a claim upon which relief can be granted. A
“complaint must contain sufficient factual matter, accepted as true, to ‘state a claim
to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). “Threadbare recitals
of the elements of a cause of action, supported by mere conclusory statements, do
not suffice.” Iqbal at 678. Allegations that are mere conclusions “are not entitled to
the assumption of truth.” Id. Claims that are “conceivable” or “possible,” but not
plausible, also fall short of the standard. Twombly at 570.
In alleging fraud, a party must state with particularity the “circumstances
constituting fraud.” Fed. R. Civ. P. 9(b). The complaint must “alert the defendants
to the precise misconduct with which they are charged” to protect them “against
spurious charges of immoral and fraudulent behavior.” Sanderson v. HCAHealthcare Co., 447 F.3d 873, 877 (6th Cir. 2006) (internal quotations omitted). A
complaint must “(1) specify the statements that the plaintiff contends were
fraudulent, (2) identify the speaker, (3) state where and when the statements were
made, and (4) explain why the statements were fraudulent.” Frank v. Dana Corp.,
547 F.3d 564, 570 (6th Cir. 2008) (internal quotations omitted).

6

A016

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3560 Filed 12/22/20 Page 17 of 37

I.

The Complaint Should be Dismissed Because the Case is Moot18
As this Court held in its December 7 Opinion and Order, as of November 25,

the date this case was filed, it was already moot. The operative Complaint asked the
Court to:
(a) order Defendants to decertify the results of the election; (b) enjoin
Secretary Benson and Governor Whitmer from transmitting the
certified election results to the Electoral College; (c) order Defendants
“to transmit certified election results that state that President Donald
Trump is the winner of the election”; (d) impound all voting machines
and software in Michigan for expert inspection; (e) order that no votes
received or tabulated by machines not certified as required by federal
and state law be counted; and, (f) enter a declaratory judgment that
mail-in and absentee ballot fraud must be remedied with a manual
recount or statistically valid sampling.
King, 2020 WL, at *5 (quoting ECF No. 6 at Pg ID 955-56, ¶ 233). However, the
request was moot because by the time the Complaint was filed, “all 83 counties in
Michigan had finished canvassing their results for all elections and reported their
results … The State Board had certified the results of the 2020 General Election and
Governor Whitmer had submitted the slate of Presidential Electors to the
Archivists.” Id., at *6 (citing record and M.C.L. § 168.843). The time to request a
special election had expired, as “had the time for requesting a recount for the office
of President.” Id. (citing record and M.CL. §§ 168.831, 168.832 and § 168.879).

Although the City does not repeat them here, the City full concurs with the
State’s arguments regarding Eleventh Amendment immunity.
18

7

A017

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3561 Filed 12/22/20 Page 18 of 37

Michigan state courts have reached similar conclusions. As early as
November 6, 2020, the Michigan Court of Claims determined that these challenges
to the election were moot. In Donald J. Trump Inc. v Benson, supra, the plaintiffs
sought an order in the Michigan Court of Claims that the “counting and processing
of absentee votes cease immediately.” The court stated that:
the complaint and emergency motion were not filed until approximately
4:00 p.m. on November 4, 2020—despite being announced to various
media outlets much earlier in the day. By the time this action was filed,
the votes had largely been counted, and the counting is now complete.
Accordingly, and even assuming the requested relief were available
against the Secretary of State—and overlooking the problems with the
factual and evidentiary record noted above—the matter is now moot, as
it is impossible to issue the requested relief. See Gleason v Kincaid, 323
Mich App 308, 314; 917 NW2d 685 (2018).
Ex. 1. Donald J. Trump for President, Inc. and the other plaintiff delayed 24 days in
perfecting their appeal, so the Michigan Court of Appeals looked at the mootness
question anew, holding:
Once the election results have been certified, “[a] candidate for office
who believes he or she is aggrieved on account of fraud or mistake in
the canvass or returns of the votes by the election inspectors may
petition for a recount of the votes cast for that office in any precinct or
precincts as provided by in this chapter.” MCL 168.862 ….
Here, plaintiff filed its purportedly emergent application on November
6, 2020, but did not perfect the filing until 11:21 p.m. on November 30,
2020, when it filed its brief in support. The Wayne County Board of
Canvassers certified the results of the November 3rd election on
November 17, 2020, almost a full two weeks before plaintiff perfected
the instant application. The Michigan Board of State Canvassers
certified the presidential election results on November 23, 2020, a full
week before plaintiff perfected its application. Plaintiff does not
8

A018

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3562 Filed 12/22/20 Page 19 of 37

address whether the certification of the election result by the Board of
State Canvassers had any impact on the viability of its suit below or on
the viability of the instant application.
Perhaps the reason for plaintiff failing to discuss the impact of the
certification is because such action by the Michigan State Board of
Canvassers clearly rendered plaintiff’s claims for relief moot. The
Michigan State Board of Canvassers’ certification of the presidential
election results and the legislative directive found in MCL 168.862,
requires plaintiff to pursue its fraud allegations by way of a recount of
the ballots cast in Wayne County. Because plaintiff failed to follow the
clear law in Michigan relative to such matters, their action is moot.
MCL 168.862.
Ex. 3. 19 The Michigan Supreme Court rejected leave to appeal from the Court of
Claims and Court of Appeals decisions.

Instead of immediately perfecting the appeal (by submitted the required
application for leave to appeal), Donald J. Trump for President, Inc. went forum
shopping in the Western District of Michigan, filing a new Complaint there as part
of a group of election cases, where the plaintiffs submitted a notice of related action
for a case assigned to Judge Robert Jonker, even though the supposedly related
action clearly had no relation whatsoever to the post-election lawsuits. Donald J.
Trump for President Inc. v. Secy’ of State, W.D. Mich. Case No. 20-cv-01083 (filed
Nov 11, 2020). The gambit to choose their own judge failed and the cases were
assigned to District Judge Janet T. Neff. Within days of the judicial reassignment,
all of the plaintiffs in the Western District voluntarily dismissed their cases under
Fed. R. Civ. P. 41(a)(1)(A). The filing by Donald J. Trump for President, Inc.,
effectively conceded the case was being dismissed because it was mooted by the fact
that the Wayne County Board of Canvassers had met. Even though the plaintiffs
speciously asserted that the Board had refused to certify the election results (belied
by the obvious fact that the certification occurred in open public session) they cannot
deny that they stated they were dismissing because their request to enjoin
certification by Secretary Benson, the Board of State Canvassers and the Wayne
County Board of Canvassers was moot.
19

9

A019

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3563 Filed 12/22/20 Page 20 of 37

Additional events which have transpired subsequent to this Court’s December
7 Opinion have further mooted the case. The federal “safe harbor” provision
regarding certification of electors by states passed on December 8. See 3 U.S.C. § 5.
On December 14, Michigan’s presidential electors convened in Lansing. M.C.L. §
168.47; 3 U.S.C. § 7. There, Michigan’s electors voted and confirmed that all
Michigan electoral college votes were for Joe Biden. 20 Joe Biden defeated Donald
Trump in the State of Michigan by 154,188 votes. On that same day, the Electoral
College in all 50 states met and cast their votes. Joe Biden will be our next President
and Kamala Harris will be our next Vice-President.
II.

The Complaint Should be Dismissed Pursuant to the Doctrine of
Laches
Laches arises from a “(1) lack of diligence by the party against whom the

defense is asserted, here the plaintiffs, and (2) prejudice to the party asserting the
defense.” Chirco v. Crosswinds Communities, Inc., 474 F.3d 227, 231 (6th Cir.
2007) (citation omitted)).
All of Plaintiffs’ claims arise from allegations relating to supposed events
which occurred well-before the election (including years before the election) or on
the 3rd and 4th of November. If Plaintiffs had legitimate claims regarding Dominion
Voting Systems, they could have brought those claims years ago. If Plaintiffs had

https://www.mlive.com/politics/2020/12/michigan-casts-electoral-collegevotes-for-president-elect-joe-biden.html.
20

10

A020

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3564 Filed 12/22/20 Page 21 of 37

legitimate claims relating to the processing and tabulation of ballots in Detroit, they
could have brought the claims at the time. Instead of bringing the claims when they
were timely (albeit still frivolous), they issued press releases and fundraised.
Plaintiffs chose to wait until after the election had been certified. The claims cannot
proceed.
III.

The Complaint Should be Dismissed Under Abstention Principles

The Colorado River doctrine counsels deference to parallel state court
proceedings. Colorado River Water Conservation District v. United States, 424 U.S.
800 (1976). While there is much extraneous noise in the Complaint, it is clear from
the actual legal Counts that virtually all of the “factual” assertions actually relevant
to the Counts relate to the processing and tabulation of ballots in Detroit, primarily
at the TCF Center. See, e.g., Compl. ¶¶ 180-192, 206, 211, 213-228. The integrity
of the process in Detroit has already been litigated in state court in active lawsuits
(all of which denied any injunctive or declaratory relief based on the specious
claims). The “facts” identified in the Counts—which are the only “facts” actually
offered in support of the relief in the Counts—are claims that election officials: did
not allow Republican challengers to observe the counting and processing of ballots;
discriminated against Republican challengers; added “batches” of ballots; added
voters to the Qualified Voter File; changed dates on ballots; altered votes on ballots;
double counted ballots; violated ballot security; accepted “unsecured” ballots;

11

A021

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3565 Filed 12/22/20 Page 22 of 37

counted ineligible ballots; and, failed to check ballot signatures. Besides their falsity,
the one thing the allegations have in common is that they are based on claims raised
in Michigan state courts. In fact, each and every one of those allegations is based on
the allegations and “evidence” submitted in the Costantino matter. 21
All of Plaintiffs’ claims (frivolous as they may be) are being (or have been)
litigated in State Court. The fact that the Plaintiffs here may, incredibly enough, be
making even more frivolous allegations than the litigants in Costantino does not
change the fact that the same underlying issue—the integrity of the process
employed in Detroit—is already in suit. The Wayne County Circuit Court has
already decided that the claims were frivolous and not worthy of injunctive relief.
The Michigan Court of Appeals and the Michigan Supreme Court reviewed the trial
court’s decision on an expedited basis and did not disagree. The claims remain
before Judge Kenny, which is the proper court to see them through to their inevitable
dismissal with prejudice. The claims were also brought and rejected in: Donald J.
Trump for President, Inc. v. Secy of State, 2020 WL 7315923 ; Stoddard v. City Elect

The other allegations in the Complaint are essentially offered to provide
“support” for the central theory that there was somehow widespread fraud in Detroit
that resulted in President Elect Biden receiving 154,000 more votes than Donald
Trump in the State.
21

12

A022

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3566 Filed 12/22/20 Page 23 of 37

Comm of the City of Detroit, 20-014604; and, Johnson v. Secy of State, No. 2020
WL 7251084.22
IV.

The Complaint Must be Dismissed Because Plaintiffs do not have
Standing

Article III of the United States Constitution restricts the jurisdiction of federal
courts to actual “Cases” and “Controversies.” U.S. Const. art. III, § 2, cl. 1. “To
satisfy this ‘case-or-controversy’ requirement, ‘a plaintiff must establish three
elements: (1) an injury in fact that is concrete and particularized; (2) a connection
between the injury and the conduct at issue—the injury must be fairly traceable to
the defendant's action; and (3) [a] likelihood that the injury would be redressed by a
favorable decision of the Court.’” Courtney v. Smith, 297 F.3d 455, 459 (6th Cir.
2002), quoting Blachy v. Butcher, 221 F.3d 896, 909 (6th Cir.2000).
The first requirement—that plaintiffs establish an “injury in fact”—limits
justiciability to those cases involving a well-defined injury to the plaintiff, which
allows the parties to develop the necessary facts and seek responsive remedies. As
the Supreme Court has repeatedly instructed, “[t]he requirement of ‘actual injury

Various pre-election lawsuits filed in Michigan made somewhat related
claims against the Secretary of State: Cooper-Keel v. Benson, Mich. Court of Claims
Case No. 20-000091-MM (filed May 20, 2020); Black v. Benson, Mich. Court of
Claims Case No. 20-000096-MZ (filed May 26, 2020); Davis v Benson, Mich. Court
of Claims Case No. 20-000099-MM (filed May 28, 2020); Election Integrity Fund
v. Benson, Mich. Court of Claims Case No. 20-000169-MM; Ryan v. Benson, Mich.
Court of Claims Case No. 20-000198-MZ (filed Oct. 5, 2020).
22

13

A023

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3567 Filed 12/22/20 Page 24 of 37

redressable by the court’ . . . tends to assure that the legal questions presented to the
court will be resolved, not in the rarified atmosphere of a debating society, but in a
concrete factual context conducive to a realistic appreciation of the consequences of
judicial action.” Valley Forge Christian Coll. v. Americans United for Separation of
Church and State, Inc., 454 U.S. 464, 472 (1982) . To this end, the Supreme Court
“repeatedly has rejected claims of standing predicated on the right, possessed by
every citizen, to require that the Government be administered according to law.” Id.
at 482–83. Moreover, the Court has “consistently held that a plaintiff raising only a
generally available grievance about government—claiming only harm to his and
every citizen's interest in proper application of the Constitution and laws, and
seeking relief that no more directly and tangibly benefits him than it does the public
at large—does not state an Article III case or controversy.” Lujan v. Defs. of Wildlife,
504 U.S. 555, 573–74 (1992).
A. Plaintiffs Do Not Have Standing to Pursue Claims Under the
Electors and Election Clauses
Count I of the Complaint purports to bring a claim under the Elections and
Electors clause of the U.S. Constitution. But, the underlying “factual allegations”
are the same “allegations” made throughout the Complaint: that Defendants
supposedly failed to follow the Michigan Election Code, relating to election
challengers and the processing and tabulation of ballots in Detroit. See, e.g., Compl.
¶ 180. Plaintiffs do not allege that their ballots were not counted or that they were
14

A024

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3568 Filed 12/22/20 Page 25 of 37

not allowed to vote. Plaintiffs’ claim is precisely the type of claim that is “predicated
on the right, possessed by every citizen, to require that the Government be
administered according to law” that is insufficient to confer standing. See, e.g.,
Valley Forge, 454 U.S. at 472.
Plaintiffs reliance on Carson v. Simon is misplaced. Brief at 8, citing Carson
v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020). Carson is an outlier that erroneously
conflated candidates for electors with candidates for office based on a quirk of
Minnesota law. Id. Meanwhile, the Supreme Court has been clear that citizens do
not have Article III standing under the clauses. See, e.g., Lance v. Coffman, 549 U.S.
437, 442 (2007) (Holding plaintiffs did not have standing because the “only injury
plaintiffs allege is that the law—specifically the Elections Clause—has not been
followed. This injury is precisely the kind of undifferentiated, generalized grievance
about the conduct of government that we have refused to countenance in the past.”).
And, all other courts ruling on similar challenges to the November 2020 general
election have held that the expansion of standing in Carson v. Simon was
unwarranted and that plaintiffs (citizens, electors, and candidate) do not have
standing under the clause. See, e.g., Bognet v. Secretary Commonwealth of
Pennsylvania, 980 F.3d 336 (3rd Cir., Nov. 13, 2020); Hotze v. Hollins, 4:20-CV03709, 2020 WL 6437668 at *2 (S.D. Tex. Nov. 2, 2020); Wood v. Raffensperger,
1:20-CV-04651, 2020 WL 6817513, at *5 (N.D. Ga. Nov. 20, 2020) (L. Lin Wood

15

A025

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3569 Filed 12/22/20 Page 26 of 37

as plaintiff); Feehan v. Wisconsin Elections Comm'n, No. 20-CV-1771, 2020 WL
7250219, at *12 (E.D. Wis. Dec. 9, 2020) (one of the three Sidney Powell, L. Lin
Wood “Kraken” cases); Bowyer v. Ducey, CV-20-02321, 2020 WL 7238261 (D.
Ariz. Dec. 9, 2020) (one of the three Sidney Powell, L. Lin Wood “Kraken” cases).
Additionally, these particular Plaintiffs do not have standing for the claims,
because they are actually purporting to bring claims that, if they could be brought,
could only be brought by the Michigan Legislature. Plaintiffs are effectively seeking
to enforce “rights” of that body, not rights that are particular to themselves. See, e.g.,
Bognet, 980 F.3d at 349-50 (concluding that the plaintiffs’ Elections and Electors
Clause claims “belong, if they belong to anyone, only to the Pennsylvania General
Assembly”) (citation omitted).
B. Plaintiffs Do Not Have Standing to Pursue Their Equal Protection,
Due Process or Michigan Electoral Law Theories
The equal protection, due process and Michigan Election Law theories (Counts
II – IV) also rely on the allegations relating to the processing and tabulation of votes
in Detroit. See Compl. ¶¶ 118-192, 206, 211, 213-228. Once again, Plaintiffs do
not—and cannot—allege an actual, particularized injury in fact. They do not claim
they were denied the right to vote; instead, they claim that the grant of the franchise
to others, somehow infringed on their right to equal protection, due process and
compliance with Michigan law. The apparent remedy for allowing the “wrong type

16

A026

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3570 Filed 12/22/20 Page 27 of 37

of people” to vote, is to take away the vote from everyone. Setting aside just how
absurd this theory is, it is clear that these Plaintiffs do not have standing to pursue it.
Plaintiffs are alleging an “injury” identical to the injury supposedly incurred by
every Michigan voter. Under Plaintiffs’ theory, the “effect” of an erroneously
counted vote will proportionally impact every Michigan voter to the same
mathematical degree. Because the approximately 5.5 million Michigan voters in the
Presidential election suffer the identical incremental dilution, the alleged injury
constitutes a quintessential generalized injury incapable of conferring standing.
Federal courts have addressed this “novel” voter dilution claim, with each court
finding the claim fails to constitute an injury in fact. See Paher v. Cegavske, 457 F.
Supp. 3d 919, 926–27 (D. Nev. 2020); Martel v. Condos, No. 5:20-cv-131, –––
F.Supp.3d ––––, 2020 WL 5755289, at *4 (D. Vt. Sept. 16, 2020); Am. Civil Rights
Union v. Martinez-Rivera, 166 F. Supp. 3d 779, 789 (W.D. Tex. 2015). Numerous
courts have also addressed the issue in the context of the post-election lawsuits filed
in the “battleground” states, also concluding the plaintiffs lacked standing. See, e.g.,
Bognet v. Pennsylvania, 980 F.3d at 352-60; Wood v. Raffensperger, 2020 WL
6817513, at *5; Feehan v. Wisconsin, 2020 WL 7250219, at *8-10 ; Bowyer v.
Ducey, 2020 WL 7238261 at *5-6; Georgia Republican Party v. Secy of State of
Georgia, No. 20-14741, 2020 WL 7488181 (11th Cir. Dec. 21, 2020); Donald J.
Trump for President, Inc. v. Boockvar, No. 4:20-CV-02078, 2020 WL 6821992, at

17

A027

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3571 Filed 12/22/20 Page 28 of 37

*1 (M.D. Pa. Nov. 21, 2020), aff'd sub nom. Donald J. Trump for President, Inc. v.
Pennsylvania, No. 20-3371, 2020 WL 7012522 (3d Cir. Nov. 27, 2020);
This is not to say that a claim under the label of “voter dilution” can never be
brought in federal court; but such claims can only survive with facts starkly different
from the case at bar. First, voter dilution claims may be appropriate in cases of racial
gerrymandering, where the legislature impermissibly relied on race when drawing
legislative districts. See, e.g., United States v. Hays, 515 U.S. 737, 744–45 (1995).
Second, voter dilution claims may proceed in apportionment cases, where unupdated legislative districts disfavor voters in specific districts merely due to the
voter’s geographic location. See, e.g., Reynolds v. Sims, 377 U.S. 533 (1964).
Neither theory provides any support for Plaintiffs’ claims. The injury in the colorable
dilution claims is particularized to a specific group. In contrast to the specific class
of minority voters in a racially gerrymandered district, or voters living in a growing
but un-reapportioned district, the supposed dilution here is shared in proportion by
every single Michigan voter. In alleging a generalized injury rather than an actual
and particularized injury in fact, Plaintiffs lack standing.
V.

The Complaint Should be Dismissed on its Lack of Merit
The Complaint should also be dismissed because Plaintiffs’ legal theories are

untenable. Plaintiffs’ equal protection, due process, and state law claims are
predicated on their “voter dilution” theories. Equal protection voter dilution claims

18

A028

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3572 Filed 12/22/20 Page 29 of 37

exist only under a narrow set of circumstances. See, e.g., Reynolds, 377 U.S. at 568
(“Simply stated, an individual’s right to vote for state legislators is unconstitutionally
impaired when its weight is in a substantial fashion diluted when compared with
votes of citizens living in other parts of the State.”). In those unique cases, the
plaintiffs can allege disparate treatment from similarly situated voters. See, e.g., id.
at 537 (The plaintiffs alleging devalued voting power when compared to similarly
situated voters in other parts of the state.).
In contrast, the gravamen of Plaintiffs’ claim—that Michigan voters will have
the value of their votes diluted—falls far wide of the mark. Plaintiffs allege breaches
of the Michigan Election Code due to a lack of access provided to poll watchers, as
well as a number of often hyper-localized violations of the Michigan Election Code.
However, even if Plaintiffs successfully showed an impermissible lack of
meaningful access for poll challengers, such a showing is plainly insufficient to
prove fraudulent votes were actually counted. And with regard to the allegations of
localized Election Code violations, the fundamental principle at issue is that “[t]he
Constitution is not an election fraud statute.” Minn. Voters All. v. Ritchie, 720 F.3d
1029, 1031 (8th Cir. 2013), quoting Bodine v. Elkhart Cnty. Election Bd., 788 F.2d
1270, 1271 (7th Cir. 1986). No case supports the notion that the Equal Protection
Clause of the U.S. Constitution can be turned into the weapon of oppression sought
by Plaintiffs.

19

A029

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3573 Filed 12/22/20 Page 30 of 37

The Michigan law claims fair no better. Plaintiffs allege violations of M.C.L.
§§ 168.730, 168.733, 168.764a, 168.765a and 168.765(5) (all supposedly at the TCF
Center) but for each claim either don’t understand the statute or rely on facts that
have been rejected by Michigan courts, especially the Circuit Court, Court of
Appeals and Supreme Court in Costantino.
M.C.L. §§ 168.730 and 168.733 are statutory provisions allowing partisan
challengers to observe the vote counting process. As the Costantino court concluded,
Republican challengers were always in the TCF Center, and, as long as they were
not yelling and causing disruptions (including by chanting “stop the vote”), they
were allowed to observe the process in full compliance with the law. Even if the
allegations were true, they could not possibly entitle Plaintiffs to any post-election
remedy. The “remedy” is in the statute itself, and does not include
disenfranchisement of all voters.
M.C.L. § 168.765(5) relates to a deadline to post certain information relating
to absentee ballots. Tellingly, as has been the case each time plaintiffs filed
Complaints derived from the same allegations, the allegation is made “upon
information and belief.” FAC ¶ 221. No plaintiff has ever presented an iota of
evidence, let alone a claim not made “upon information and belief” about this issue.
And, again, the “remedy” of disregarding the Constitution and throwing out

20

A030

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3574 Filed 12/22/20 Page 31 of 37

thousands or millions of votes is not something that could possibly be available for
an alleged violation of the deadline.
M.C.L. § 168.764a provides that ballots received after 8:00 p.m. on election
day cannot be counted. This allegation is also based “upon information and belief.”
FAC ¶ 224. Obviously, an “information and belief” allegation is woefully deficient
to obtain any relief, let alone the extraordinary relief Plaintiffs’ seek. And, even if
Plaintiffs proved that some ballots received after the deadline were counted (they
cannot), the “remedy” is not wholesale disenfranchisement.
MCL § 168.765a provides for ballots to be duplicated under the supervision
of inspectors (i.e., paid workers) from both major parties. Plaintiffs’ claim is based
on their conflation of the role of ballot inspectors and ballot challengers. Plaintiffs’
false claim about Republicans being excluded from the TCF Center, relates to
challengers, not inspectors. There was a short period of time when excess overflow
challengers of all parties were not able to enter the TCF Center until a challenger of
their party left, but there was never a time when inspectors were disallowed. And,
the “remedies” sought are not available even if Plaintiffs were correct.
Plaintiffs bring false claims, ostensibly available to every Michigan voter in
the event of any voting error, with the outrageous “remedy” being the rejection of
hundreds of thousands, if not millions, of votes. As a district court recently held in
one of the Trump election lawsuits brought in Pennsylvania, “[t]his Court has been

21

A031

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3575 Filed 12/22/20 Page 32 of 37

unable to find any case in which a plaintiff has sought such a drastic remedy in the
contest of an election, in terms of the sheer volume of votes asked to be invalidated.”
Donald J. Trump for President, Inc. v. Boockvar, 2020 WL 6821992, at *1. Plaintiffs
are asking for “relief” that would easily rank among the most momentous and most
reviled legal decisions in U.S. history, joining the ranks of cases we know by
shorthand, Dred Scott, the Civil Rights Cases, Plessy v. Ferguson, Breedlove, and
Korematsu. 23 Even though Plaintiffs and their lawyers strongly desire to be on the
wrong side of a reviled court decision, nothing they allege, or could allege, could
possibly entitle them to that actual relief. They must be content with knowing that
their filing of this lawsuit already puts them on the wrong side of history, even
though the lawsuit cannot accomplish anything more than line the attorneys’ pockets
with cash.

Dred Scott v. Sandford, 60 U.S. 393 (1857) (denying citizenship and basic
rights for all black people, slave or free), superseded (1868); Civil Rights Cases, 109
U.S. 3 (1883) (precluding Congress from outlawing racial discrimination); Plessy v.
Ferguson, 163 U.S. 537 (1896) (affirming constitutionality of “separate but equal”
segregation), overruled by Brown v. Bd. of Ed. of Topeka, Shawnee Cty., Kan., 347
U.S. 483 (1954); Breedlove v. Suttles, 302 U.S. 277 (1937) (upholding poll taxes),
overruled by Harper v. Virginia State Bd. of Elections, 383 U.S. 663 (1966);
Korematsu v. United States, 323 U.S. 214 (1944) (affirming internment of American
citizens of Japanese descent), abrogated by Trump v. Hawaii, 138 S. Ct. 2392
(2018).
23

22

A032

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3576 Filed 12/22/20 Page 33 of 37

VI.

Plaintiffs and their Counsel Should be Sanctioned

28 U.S.C. § 1927 provides that any attorney “who so multiplies the
proceedings in any case unreasonably and vexatiously may be required by the court
to satisfy personally the excess costs, expenses, and attorneys’ fees reasonably
incurred because of such conduct.” Sanctions under § 1927 “are warranted when an
attorney objectively “falls short of the obligations owed by a member of the bar to
the court and which, as a result, causes additional expense to the opposing party.”
Ruben v. Warren City Sch., 825 F.2d 977, 984 (6th Cir. 1987). They deter dilatory
litigation practices and punish tactics that exceed zealous advocacy. See Jones v.
Continental Corp., 789 F.2d 1225, 1230-31 (6th Cir. 1986); see also Thurmond v.
Wayne Cty. Sheriff Dep't, 564 F. App'x 823, 834 (6th Cir. 2014) (Affirming § 1927
where plaintiff “ignored opposing counsel’s reasonable requests to voluntarily
withdraw the complaint, necessitating the filing of a motion to dismiss and motion
for sanctions.”). Thus, the sanctioned attorney is required to personally satisfy the
excess costs attributable to their conduct. See In re Ruben, 825 F.2d at 983.
If sanctions are not deserved in this case, it is hard to imagine a case where
they would be. Sidney Powell has stated that the courts have rejected her lawsuits
“because the corruption goes deep and wide.”24 But, in truth, she filed lawsuits
devoid of any factual or legal merit, hoping not to prevail but to damage democracy.

24

https://twitter.com/AKA_RealDirty/status/1338401580299681793.
23

A033

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3577 Filed 12/22/20 Page 34 of 37

This Court correctly concluded that Plaintiffs have “nothing but speculation and
conjecture” and that “this lawsuit seems to be less about achieving the relief
Plaintiffs seek—as much of that relief is beyond the power of this Court—and more
about the impact of their allegations on People's faith in the democratic process and
their trust in our government.” King, 2020 WL 7134198, at *13.
This lawsuit is part a dangerous attack on the integrity of the democratic
process for the election of the President of the United States. Sidney Powell’s cocounsel L. Lin Wood has said on Twitter that “Georgia, Michigan, Arizona, Nevada,
Wisconsin, Minnesota & Pennsylvania are states in which martial law should be
imposed & machines/ballots seized.” Wood has said “[p]atriots are praying tonight
that @realDonaldTrump will impose martial law in disputed states, seize voting
machines for forensic examination, & appoint @SidneyPowell as special counsel to
investigate election fraud.” And, he has said “[i]t is time for Chief Justice John
Roberts to resign, admit his corruption & ask for forgiveness.”25

Greg Rohl, another attorney for the Plaintiffs in this case, and the only one
admitted to the Eastern District of Michigan, has previously been sanctioned for
filing a case which was deemed “frivolous from its inception” and ordered to pay
over $200,000 in costs and attorneys fees. See DeGeorge v. Warheit, 276 Mich. App.
587, 589, 741 N.W.2d 384 (2007). He was then held in criminal contempt and
sentenced to jail—affirmed by the Court of Appeals—for attempting to transfer
assets to evade payment. Id. The Court of Appeals noted that a bankruptcy court had
concluded that Rohl “intended to hinder, delay and defraud … and create a sham
transaction to prevent [a creditor] from reaching Rohl’s interest in his law firm
through the appointment of a receiver.” Id. at 590.
25

24

A034

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3578 Filed 12/22/20 Page 35 of 37

In a case involving the election of the President of the United States, the
parties and their attorneys should be held to the highest standards of factual and legal
due diligence; instead, they have raised false allegations and pursued unsupportable
legal theories. Apparently, this frivolous lawsuit continues because it serves other,
more nefarious, purposes. While the pending complaint cannot possibly result in
meaningful relief, it does serve the purpose of conveying to the world the impression
that something fraudulent occurred in Detroit’s vote count. This is not a legitimate
lawsuit; it is a public relations and fundraising weapon being used to advance the
false narrative that our democratic system is broken. Plaintiffs are trying to send the
message that our democracy cannot be trusted. It is time for this Court to send a
message back: lies and frivolous claims will not be tolerated. This abuse of our legal
system deserves the strongest possible sanctions. For now, those sanctions should
be under § 1927, later they should be under Rule 11.
CONCLUSION
WHEREFORE, for the foregoing reasons, the City of Detroit respectfully
requests that this Court enter an Order dismissing Plaintiffs’ Complaint with
prejudice and requiring Plaintiffs and their counsel to pay all costs and fees incurred
by all Defendants and Intervenor-Defendants.
December 22, 2020

Respectfully submitted,
FINK BRESSACK

25

A035

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3579 Filed 12/22/20 Page 36 of 37

By: /s/ David H. Fink
David H. Fink (P28235)
Darryl Bressack (P67820)
Nathan J. Fink (P75185)
Attorneys for City of Detroit
38500 Woodward Ave., Ste. 350
Bloomfield Hills, MI 48304
Tel: (248) 971-2500
dfink@finkbressack.com
dbressack@finkbressack.com
nfin@finkbressack.com
CITY OF DETROIT
LAW DEPARTMENT
Lawrence T. Garcia (P54890)
James D. Noseda (P52563)
Attorneys for City of Detroit
2 Woodward Ave., 5th Floor
Detroit, MI 48226
Tel: (313) 237-5037
garcial@detroitmi.goc
nosej@detroitmi.gov

26

A036

Case 2:20-cv-13134-LVP-RSW ECF No. 73, PageID.3580 Filed 12/22/20 Page 37 of 37

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on December 22, 2020, I electronically filed the
foregoing document with the Clerk of the Court using the ECF system, which will
send notification of such filing to all attorneys of record registered for electronic
filing.
FINK BRESSACK
By:

27

A037

/s/ John L. Mack
John L. Mack (P80710)
38500 Woodward Ave., Ste. 350
Bloomfield Hills, MI 48304
Tel.: (248) 971-2500
jmack@finkbressack.com

Case 2:20-cv-13134-LVP-RSW ECF No. 73-1, PageID.3581 Filed 12/22/20 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES
DAVID HOOPER and DAREN WADE
RUBINGH,
Plaintiffs,

No. 2:20-cv-13134
Hon. Linda V. Parker

v.
GRETCHEN WHITMER, in her official
capacity as Governor of the State of
Michigan, JOCELYN BENSON, in her
official capacity as Michigan Secretary of
State and the Michigan BOARD OF STATE
CANVASSERS,
Defendants.
THE CITY OF DETROIT’S MOTION TO DISMISS
AND
FOR AN AWARD OF SANCTIONS
Index of Exhibits
Exhibit 1 – November 4, 2020 Opinion and Order in Donald J. Trump for President,
Inc v. Secy’ of State
Exhibit 2 – November 6, 2020 Opinion and Order in Stoddard v. City Elect Comm
of the City of Detroit
Exhibit 3 – December 4, 2020 Order in Donald J. Trump for President, Inc v. Secy’
of State

A038

Case 2:20-cv-13134-LVP-RSW ECF No. 73-2, PageID.3582 Filed 12/22/20 Page 1 of 7

EXHIBIT 1

A039

Case 2:20-cv-13134-LVP-RSW ECF No. 73-2, PageID.3583 Filed 12/22/20 Page 2 of 7

STATE OF MICHIGAN
COURT OF CLAIMS

DONALD J. TRUMP FOR PRESIDENT, INC.
and ERIC OSTEGREN,

OPINION AND ORDER

Plaintiffs,
v

Case No. 20-000225-MZ

JOCELYN BENSON, in her official capacity as
Secretary of State,

Hon. Cynthia Diane Stephens

Defendants.
___________________________/

Pending before the Court are two motions. The first is plaintiffs’ November 4, 2020
emergency motion for declaratory relief under MCR 2.605(D). For the reasons stated on the record
and incorporated herein, the motion is DENIED. Also pending before the Court is the motion to
intervene as a plaintiff filed by the Democratic National Committee. Because the relief requested
by plaintiffs in this case will not issue, the Court DENIES as moot the motion to intervene.
According to the allegations in plaintiffs’ complaint, plaintiff Eric Ostegren is a
credentialed election challenger under MCL 168.730. Paragraph 2 of the complaint alleges that
plaintiff Ostegren was “excluded from the counting board during the absent voter ballot review
process.” The complaint does not specify when, where, or by whom plaintiff was excluded. Nor
does the complaint provide any details about why the alleged exclusion occurred.

-1-

A040

Case 2:20-cv-13134-LVP-RSW ECF No. 73-2, PageID.3584 Filed 12/22/20 Page 3 of 7

The complaint contains allegations concerning absent voter ballot drop-boxes. Plaintiffs
allege that state law requires that ballot containers must be monitored by video surveillance.
Plaintiff contends that election challengers must be given an opportunity to observe video of ballot
drop-boxes with referencing the provision(s) of the statute that purportedly grant such access, .
See MCL 168.761d(4)(c).
Plaintiffs’ emergency motion asks the Court to order all counting and processing of
absentee ballots to cease until an “election inspector” from each political party is allowed to be
present at every absent voter counting board, and asks that this court require the Secretary of State
to order the immediate segregation of all ballots that are not being inspected and monitored as
required by law. Plaintiffs argue that the Secretary of State’s failure to act has undermined the
rights of all Michigan voters. While the advocate at oral argument posited the prayer for relief as
one to order “meaningful access” to the ballot tabulation process, plaintiffs have asked the Court
to enter a preliminary injunction to enjoin the counting of ballots. A party requesting this
“extraordinary and drastic use of judicial power” must convince the Court of the necessity of the
relief based on the following factors:
(1) the likelihood that the party seeking the injunction will prevail on the merits,
(2) the danger that the party seeking the injunction will suffer irreparable harm if
the injunction is not issued, (3) the risk that the party seeking the injunction would
be harmed more by the absence of an injunction than the opposing party would be
by the granting of the relief, and (4) the harm to the public interest if the injunction
is issued. [Davis v Detroit Fin Review Team, 296 Mich App 568, 613; 821 NW2d
896 (2012).]
As stated on the record at the November 5, 2020 hearing, plaintiffs are not entitled to the
extraordinary form of emergency relief they have requested.
I.

SUBSTANTIAL LIKELIHOOD OF SUCCESS ON THE MERITS

-2-

A041

Case 2:20-cv-13134-LVP-RSW ECF No. 73-2, PageID.3585 Filed 12/22/20 Page 4 of 7

A. OSTEGREN CLAIM
Plaintiff Ostegren avers that he was removed from an absent voter counting board. It is
true that the Secretary of State has general supervisory control over the conduct of elections. See
MCL 168.21; MCL 168.31. However, the day-to-day operation of an absent voter counting board
is controlled by the pertinent city or township clerk. See MCL 168.764d. The complaint does not
allege that the Secretary of State was a party to or had knowledge of, the alleged exclusion of
plaintiff Ostegren from the unnamed absent voter counting board. Moreover, the Court notes that
recent guidance from the Secretary of State, as was detailed in matter before this Court in Carra
et al v Benson et al, Docket No. 20-000211-MZ, expressly advised local election officials to admit
credentialed election challengers, provided that the challengers adhered to face-covering and
social-distancing requirements. Thus, allegations regarding the purported conduct of an unknown
local election official do not lend themselves to the issuance of a remedy against the Secretary of
State.
B. CONNARN AFFIDAVIT
Plaintiffs have submitted what they refer to as “supplemental evidence” in support of their
request for relief. The evidence consists of: (1) an affidavit from Jessica Connarn, a designated
poll watcher; and (2) a photograph of a handwritten yellow sticky note. In her affidavit, Connarn
avers that, when she was working as a poll watcher, she was contacted by an unnamed poll worker
who was allegedly “being told by other hired poll workers at her table to change the date the ballot
was received when entering ballots into the computer.” She avers that this unnamed poll worker
later handed her a sticky note that says “entered receive date as 11/2/20 on 11/4/20.” Plaintiffs
contend that this documentary evidence confirms that some unnamed persons engaged in

-3-

A042

Case 2:20-cv-13134-LVP-RSW ECF No. 73-2, PageID.3586 Filed 12/22/20 Page 5 of 7

fraudulent activity in order to count invalid absent voter ballots that were received after election
day.
This “supplemental evidence” is inadmissible as hearsay. The assertion that Connarn was
informed by an unknown individual what “other hired poll workers at her table” had been told is
inadmissible hearsay within hearsay, and plaintiffs have provided no hearsay exception for either
level of hearsay that would warrant consideration of the evidence. See MRE 801(c). The note—
which is vague and equivocal—is likewise hearsay. And again, plaintiffs have not presented an
argument as to why the Court could consider the same, given the general prohibitions against
hearsay evidence. See Ykimoff v Foote Mem Hosp, 285 Mich App 80, 105; 776 NW2d 114 (2009).
Moreover, even overlooking the evidentiary issues, the Court notes that there are still no
allegations implicating the Secretary of State’s general supervisory control over the conduct of
elections. Rather, any alleged action would have been taken by some unknown individual at a
polling location.
C. BALLOT BOX VIDEOS
It should be noted at the outset that the statute providing for video surveillance of drop boxes
only applies to those boxes that were installed after October 1, 2020. See MCL 168.761d(2).
There is no evidence in the record whether there are any boxes subject to this requirement, how
many there are, or where they are. The plaintiffs have not cited any statutory authority that requires
any video to be subject to review by election challengers. They have not presented this Court with
any statute making the Secretary of State responsible for maintaining a database of such boxes.
The clear language of the statute directs that “[t]he city or township clerk must use video
monitoring of that drop box to ensure effective monitoring of that drop box.” MCL 168.761d(4)(c)
Additionally, plaintiffs have not directed the Court’s attention to any authority directing the
-4-

A043

Case 2:20-cv-13134-LVP-RSW ECF No. 73-2, PageID.3587 Filed 12/22/20 Page 6 of 7

Secretary of State to segregate the ballots that come from such drop-boxes, thereby undermining
plaintiffs’ request to have such ballots segregated from other ballots, and rendering it impossible
for the Court to grant the requested relief against this defendant. Not only can the relief requested
not issue against the Secretary of State, who is the only named defendant in this action, but the
factual record does not support the relief requested. As a result, plaintiffs are unable to show a
likelihood of success on the merits.
II.

MOOTNESS

Moreover, even if the requested relief could issue against the Secretary of State, the Court
notes that the complaint and emergency motion were not filed until approximately 4:00 p.m. on
November 4, 2020—despite being announced to various media outlets much earlier in the day. By
the time this action was filed, the votes had largely been counted, and the counting is now
complete.

Accordingly, and even assuming the requested relief were available against the

Secretary of State—and overlooking the problems with the factual and evidentiary record noted
above—the matter is now moot, as it is impossible to issue the requested relief. See Gleason v
Kincaid, 323 Mich App 308, 314; 917 NW2d 685 (2018)
IT IS HEREBY ORDERED that plaintiff’s November 4, 2020 emergency motion for
declaratory judgment is DENIED.
IT IS HEREBY FURTHER ORDERED that proposed intervenor’s motion to intervene is
DENIED as MOOT.
This is not a final order and it does not resolve the last pending claim or close the case.

-5-

A044

Case 2:20-cv-13134-LVP-RSW ECF No. 73-2, PageID.3588 Filed 12/22/20 Page 7 of 7

November 6, 2020

____________________________________
Cynthia Diane Stephens
Judge, Court of Claims

-6-

A045

Case 2:20-cv-13134-LVP-RSW ECF No. 73-3, PageID.3589 Filed 12/22/20 Page 1 of 5

EXHIBIT 2

A046

Case 2:20-cv-13134-LVP-RSW ECF No. 73-3, PageID.3590 Filed 12/22/20 Page 2 of 5
c

o
w
c
x:

o

STATE OF MICHIGAN

5
CD

IN THE THIRD JUDICIAL CIRCUIT COURT FOR THE COUNTY OF WAYNE

_c

a
03

2

2
<

Sarah Stoddard and
Election Integrity Fund,
Hon. Timothy M. Kenny
Case No. 20-01 4604-CZ

00

V
o
CM

o
CM
o>

City Election Commission of
The City of Detroit and
Janice Winfrey, in her official
Capacity as Detroit City Clerk and

Chairperson of the City Election
C£
ID

o

Commission, and

Wayne County Board of

Canvassers,

£
Z

3

o
o
UJ
Z

OPINION & ORDER

>.
<

£

At a session of this Court

ts
CD

Held on: November 6, 2020
In the Coleman A. Young Municipal Center

CD

County of Wayne, Detroit, Ml

CD

2

PRESENT: Honorable Timothy M. Kenny
Chief Judge
Third Judicial Circuit Court of Michigan

>,
JO

CO

O

Plaintiffs Sarah Stoddard and the Election Integrity Fund petition this Court for

UJ

o
u_

preliminary injunctive relief seeking:

LL

1.

Defendants be required to retain all original and duplicate ballots and poll books.

o

2.

The Wayne County Board of Canvassers not certify the election results until both

>

Republican and Democratic party inspectors compare the duplicate ballots with

original ballots.

z

3.
o

all duplicate and original ballots for comparison purposes.

UJ
u_

N

The Wayne County Board of Canvassers unseal all ballot containers and remove

4.

The Court provide expedited discovery to plaintiffs, such as limited
interrogatories and depositions.

O
<fr

1

o
CO
-tt-

o
o
CM

A047

Case 2:20-cv-13134-LVP-RSW ECF No. 73-3, PageID.3591 Filed 12/22/20 Page 3 of 5

When considering a petition for injunctive relief the Court must apply the
following four-prong test:
1.

The likelihood the party seeking the injunction will prevail on the merits.

2.

The danger the party seeking the injunction will suffer irreparable harm if the
injunction is not granted.

3.

The risk the party seeking the injunction would be harmed more by the absence
of an injunction than the opposing party would be by the granting of the
injunction.

4.

The harm to the public interest if the injunction is issued. Davis v City of Detroit
Financial Review Team, 296 Mich. App. 568, 613; 821 NW2d 896 (2012).

In the Davis opinion, the Court also stated that injunctive relief "represents an
extraordinary and drastic use of judicial power that should be employed sparingly and
only with full conviction of its urgent necessity" Id at 612 fn 135, quoting Senior

Accountants, Analysts & Appraisers Ass'n v. Detroit, 218 Mich. App. 263, 269; 553
NW2d 679 (1996).

When deciding whether injunctive relief is appropriate MCR 3.310 (A)(4)
indicates that the plaintiff bears the burden of proving the preliminary injunction should
be granted.

Plaintiffs' pleadings do not persuade this Court that they are likely to prevail on
the merits for several reasons. First, this Court believes plaintiffs misinterpret the
required placement of major party inspectors at the absent voter counting board
location. MCL 1 68.765a (1 0) states in part "At least one election inspector from each
major political party must be present at the absent voter counting place. . ."

While

plaintiffs contends the statutory section mandates there be a Republican and
Democratic inspector at each table inside the room, the statute does not identify this
requirement. This Court believes the plain language of the statute requires there be
election inspectors at the TCF Center facility, the site of the absentee counting effort.

Pursuant to MCL 168.73a the County chairs for Republican and Democratic
parties were permitted and did submit names of absent voter counting board
inspectors to the City of Detroit Clerk. Consistent with MCL 168.674, the Detroit City
Clerk did make appointments of inspectors. Both Republican and Democratic
inspectors were present throughout the absent voter counting board location.

An affidavit supplied by Lawrence Garcia, Corporation Counsel for the City of
Detroit, indicated he was present throughout the time of the counting of absentee

2

A048

Case 2:20-cv-13134-LVP-RSW ECF No. 73-3, PageID.3592 Filed 12/22/20 Page 4 of 5

ballots at the TCF Center. Mr. Garcia indicated there were always Republican and
Democratic inspectors there at the location. He also indicated he was unaware of any
unresolved counting activity problems.

By contrast, plaintiffs do not offer any affidavits or specific eyewitness evidence

to substantiate their assertions. Plaintiffs merely assert in their verified complaint
"Hundreds or thousands of ballots were duplicated solely by Democratic party
inspectors and then counted." Plaintiffs' allegation is mere speculation.

Plaintiffs' pleadings do not set forth a cause of action. They seek discovery in
hopes of finding facts to establish a cause of action. Since there is no cause of action,

the injunctive relief remedy is unavailable.

Terlecki v Stewart, 278 Mich. App. 644;

754 NW2d 899 (2008).

The Court must also consider whether plaintiffs will suffer irreparable harm.
Irreparable harm requires "A particularized showing of concrete irreparable harm or
injury in order to obtain a preliminary injunction." Michigan Coalition of State
Employee Unions v Michigan Civil Service Commission, 465 Mich. 212, 225; 634
NW2d 692, (2001).

In Dunlap v City of Southfield, 54 Mich. App. 398, 403; 221 NW2d 237 (1974)
the Michigan Court of Appeals stated "An injunction will not lie upon the mere
apprehension of future injury or where the threatened injury is speculative or
conjectural."

In the present case, Plaintiffs allege that the preparation and submission of
"duplicate ballots" for "false reads" without the presence of inspectors of both parties
violates both state law, MCL 168.765a (10), and the Secretary of State election
manual. However, Plaintiffs fail to identify the occurrence and scope of any alleged
violation The only "substantive" allegation appears in paragraph 15 of the First
Amended Complaint, where Plaintiffs' allege "on information and belief that hundreds
or thousands of ballots have been impacted by this improper practice. Plaintiffs'
Supplemental Motion fails to present any further specifics. In short, the motion is
based upon speculation and conjecture. Absent any evidence of an improper
practice, the Court cannot identify if this alleged violation occurred, and, if it did, the
frequency of such violations. Consequently, Plaintiffs fail to move past mere
apprehension of a future injury or to establish that a threatened injury is more than

speculative or conjectural.

3

A049

Case 2:20-cv-13134-LVP-RSW ECF No. 73-3, PageID.3593 Filed 12/22/20 Page 5 of 5

This Court finds that it is mere speculation by plaintiffs that hundreds or
thousands of ballots have, in fact, been changed and presumably falsified. Even with
this assertion, plaintiffs do have several other remedies available. Plaintiffs are
entitled to bring their challenge to the Wayne County Board of Canvassers pursuant to
MCL 168.801 et seq. and MCL 168.821 et seq. Additionally, plaintiffs can file for a

recount of the vote if they believe the canvass of the votes suffers from fraud or
mistake. MCL1 68.865-1 68.868. Thus, this Court cannot conclude that plaintiffs would
experience irreparable harm if a preliminary injunction were not issued.

Additionally, this Court must consider whether plaintiffs would be harmed more
by the absence of injunctive relief than the defendants would be harmed with one.

If this Court denied plaintiffs' request for injunctive relief, the statutory ability to
seek relief from the Wayne County Board of Canvassers (MCL 168.801 et seq. and
MCL 168.821 et seq.) and also through a recount (MCL 168.865-868) would be
available. By contrast, injunctive relief granted in this case could potentially delay the

counting of ballots in this County and therefore in the state. Such delays could
jeopardize Detroit's, Wayne County's, and Michigan's ability to certify the election.
This in turn could impede the ability of Michigan's elector's to participate in the
Electoral College.

Finally, the Court must consider the harm to the public interest. A delay in
counting and finalizing the votes from the City of Detroit without any evidentiary basis
for doing so, engenders a lack of confidence in the City of Detroit to conduct full and
fair elections. The City of Detroit should not be harmed when there is no evidence to
support accusations of voter fraud.

Clearly, every legitimate vote should be counted. Plaintiffs contend this has not
been done in the 2020 Presidential election. However, plaintiffs have made only a
claim but have offered no evidence to support their assertions. Plaintiffs are unable to
meet their burden for the relief sought and for the above-mentioned reasons, the
plaintiffs' petition for injunctive relief is denied.

It is so ordered.

November 6, 2020
Date

Hon. Timothy $l. Kenpy

Chief Judge

/

/

Third Judicial Circuit Coupt of Michigan

4

A050

Case 2:20-cv-13134-LVP-RSW ECF No. 73-4, PageID.3594 Filed 12/22/20 Page 1 of 3

EXHIBIT 3

A051

Case 2:20-cv-13134-LVP-RSW ECF No. 73-4, PageID.3595 Filed 12/22/20 Page 2 of 3

Court of Appeals, State of Michigan
ORDER
Stephen L. Borrello
Donald J Trump for President Inc v Secretary of State

Presiding Judge

Docket Nos.

355378; 355397

Patrick M. Meter

LC No.

2020-000225-MZ

Amy Ronayne Krause
Judges

The motions for immediate consideration are GRANTED.
The motion to intervene filed by the City of Detroit is DENIED, without prejudice to
refiling the motion in the proceedings below should the City of Detroit still deem intervention necessary.
The Democratic National Committee’s motion for leave to file amicus brief in Docket No.
355378 is GRANTED, and the brief received on December 3, 2020 is accepted for filing.
The applications for leave to appeal are DENIED. However, the Democratic National
Committee shall retain its status as amicus curiae in the Court of Claims.
We respond to our dissenting colleague because his assertions are not supported by law
or by fact. As the defendant correctly points out, Michigan’s election results have been certified. Once
the election results have been certified, “[a] candidate for office who believes he or she is aggrieved on
account of fraud or mistake in the canvass or returns of the votes by the election inspectors may petition
for a recount of the votes cast for that office in any precinct or precincts as provided by in this chapter.”
MCL 168.862; see also MCL 168.847, MCL 168.867; MCL 168.879. Recounts are remedial in nature.
Attorney General v Board of State Canvassers, 318 Mich App 242, 252; 896 NW2d 485 (2016), lv den
500 Mich 917 (2016). “ ‘The purpose of a recount is to determine whether the results of the first count
of the ballots should stand or should be changed because of fraud or mistake in the canvass of the votes .
. . ’ ” Id., quoting Michigan Education Ass’n Political Action Committee v Secretary of State, 241 Mich
App 432, 440; 616 NW2d 234 (2000), lv den 463 Mich 997 (2001).
Here, plaintiff filed its purportedly emergent application on November 6, 2020, but did
not perfect the filing until 11:21 p.m. on November 30, 2020, when it filed its brief in support. The
Wayne County Board of Canvassers certified the results of the November 3rd election on November 17,
2020, almost a full two weeks before plaintiff perfected the instant application. The Michigan Board of
State Canvassers certified the presidential election results on November 23, 2020, a full week before
plaintiff perfected its application. 1 Plaintiff does not address whether the certification of the election

1

The Secretary of State represents that the Governor has sent Michigan’s official slate of presidential
electors to the United States Secretary of the Senate.

A052

Case 2:20-cv-13134-LVP-RSW ECF No. 73-4, PageID.3596 Filed 12/22/20 Page 3 of 3

result by the Board of State Canvassers had any impact on the viability of its suit below or on the
viability of the instant application.
Perhaps the reason for plaintiff failing to discuss the impact of the certification is because
such action by the Michigan State Board of Canvassers clearly rendered plaintiff’s claims for relief
moot. The Michigan State Board of Canvassers’ certification of the presidential election results and the
legislative directive found in MCL 168.862, requires plaintiff to pursue its fraud allegations by way of a
recount of the ballots cast in Wayne County. Because plaintiff failed to follow the clear law in
Michigan relative to such matters, their action is moot. MCL 168.862.

_______________________________
Presiding Judge
Meter, J., would grant leave to appeal in each case, with the direction that the Clerk draw a random 3
judge panel to decide the cases within 3 days of filing of these orders, without oral argument.
The issue of mootness is more than the "elephant in the room". The issues are not moot because state
electors have not yet been seated, the Electoral College has not yet been assembled, and Congress has not
yet convened to consider whether to exercise its powers under Art.2, Sec. 1 and Am 20.
Further plaintiff’s prayer for segregation of absentee ballots has, on information, not yet been ordered by
defendant Secretary of State. Also, the right of plaintiff to election inspectors and to observe video of
ballot drop boxes is self-evident under state law, thus entitling plaintiff to, at the least, declaratory relief.

December 4, 2020

A053

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3616 Filed 01/05/21 Page 1 of 56

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES
DAVID HOOPER and DAREN WADE
RUBINGH,
Plaintiffs,

No. 2:20-cv-13134
Hon. Linda V. Parker

v.
GRETCHEN WHITMER, in her official
capacity as Governor of the State of
Michigan, JOCELYN BENSON, in her
official capacity as Michigan Secretary of
State and the Michigan BOARD OF STATE
CANVASSERS,
and

Defendants

CITY OF DETROIT, DEMOCRATIC
NATIONAL COMMITTEE and
MICHIGAN DEMOCRATIC PARTY,
Intervenor-Defendants.
THE CITY OF DETROIT’S MOTION FOR SANCTIONS, FOR
DISCIPLINARY ACTION, FOR DISBARMENT REFERRAL AND FOR
REFERRAL TO STATE BAR DISCIPLINARY BODIES
Intervenor-Defendant City of Detroit (the “City”), by and through counsel,
respectfully moves for sanctions against Plaintiffs and their counsel pursuant to

A054

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3617 Filed 01/05/21 Page 2 of 56

Federal Rule of Civil Procedure 11. The City further moves for disciplinary action
and referrals to be initiated against counsel.
The undersigned counsel certifies that counsel communicated in writing with
opposing counsel, explaining the nature of the relief to be sought by way of this
motion and seeking concurrence in the relief; opposing counsel thereafter denied
concurrence. Such concurrence was sought on December 15, 2020 and January 5,
2021.
The City also served Plaintiffs with a Motion for Sanctions under Fed. R. Civ.
P. 11 on December 15, 2020. Plaintiffs did not withdraw or correct any of the false
factual allegations and frivolous legal theories in their pleadings during the 21 day
“safe harbor” period.1 Thus, this Motion is timely.
No lawyer for the Plaintiffs responded to the email message forwarding the
Rule 11 motion. Instead, at least two of their attorneys made public statements, with
military analogies and references to opposing counsel as “the enemy.” According to
the news website Law and Crime, Plaintiffs’ counsel, Sidney Powell, when asked
about the proposed Rule 11 motion, “replied cryptically: ‘We are clearly over the
target.’” Ex. 1. Similarly, Plaintiffs’ counsel, L. Lin Wood, posted the following on
his Twitter account on December 17, 2020:
1

When you get falsely accused by the likes of David Fink & Marc Elias
of Perkins Coie (The Hillary Clinton Firm) in a propaganda rag like
Law & Crime, you smile because you know you are over the target &
the enemy is running scared!
L. Lin Wood (@llinwood), Twitter (Dec. 17, 2020). Perhaps the lack of civility is
related to counsels’ failure to apply for admission to the Eastern District of
Michigan’s bar. at least they would have been compelled to review and affirm their
commitment to our court’s Civility Principles.
ii

A055

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3618 Filed 01/05/21 Page 3 of 56

This Motion is supported by the accompanying Brief.
Sanctions Pursuant to Fed. R. Civ. P. 11(b)(1)
1.

Sanctions should be imposed under Fed. R. Civ. P. 11(b)(1) when a

pleading or other filing is presented for any improper purpose, such as to harass,
cause unnecessary delay, or needlessly increase the cost of litigation.
2.

Sanctions pursuant to the sub-rule should be imposed against Plaintiffs

and their counsel because they initiated the instant suit for improper purposes,
including harassing the City and frivolously undermining “People’s faith in the
democratic process and their trust in our government.” Opinion and Order Denying
Plaintiffs’ “Emergency Motion for Declaratory, Emergency, and Permanent
Injunctive Relief,” ECF No. 62, PageID.3329-30.
3.

Plaintiffs and their counsel understood that the mere filing of a suit (no

matter how frivolous) could, without any evidence, raise doubts in the minds of
millions of Americans about the legitimacy of the 2020 presidential election. As this
Court noted, “Plaintiffs ask th[e] Court to ignore the orderly statutory scheme
established to challenge elections and to ignore the will of millions of voters.” Id.
PageID.3330.
4.

The Complaints (ECF Nos. 1 and 6), Emergency Motion for

Declaratory, Emergency, and Permanent Injunctive Relief and Memorandum in

iii

A056

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3619 Filed 01/05/21 Page 4 of 56

Support Thereof (ECF No. 7), and Emergency Motion to Seal (ECF No. 8) were
devoid of merit and thus could only have been filed for improper purposes.
Sanctions Pursuant to Fed. R. Civ. P. 11(b)(2)
5.

Sanctions under Fed. R. Civ. P. 11(b)(2) are appropriately entered

where the claims, defenses, and other legal contentions are not warranted by existing
law or by a non-frivolous argument for extending, modifying, or reversing existing
law or for establishing new law.
6.

Sanctions pursuant to Rule 11(b)(2) should be imposed against counsel

for Plaintiffs because the causes of action asserted in the Complaints (ECF Nos. 1
and 6), Emergency Motion for Declaratory, Emergency, and Permanent Injunctive
Relief and Memorandum in Support Thereof (ECF No. 7), and Emergency Motion
to Seal (ECF No. 8) were frivolous and legally deficient under existing law and
because Plaintiffs failed to present any non-frivolous arguments to extend, modify,
or reverse existing law.
7.

The majority of Plaintiffs’ claims were moot. As this Court noted,

“[t]he time has passed to provide most of the relief Plaintiffs request in their
Amended Complaint; the remaining relief is beyond the power of any court. For
these reasons, this matter is moot.” ECF No. 62, PageID.3307.
8.

Plaintiffs’ claims were also barred by laches because “they waited too

long to knock on the Court’s door.” Id. at PageID.3310. Indeed, “Plaintiffs showed

iv

A057

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3620 Filed 01/05/21 Page 5 of 56

no diligence in asserting the claims at bar.” Id. at PageID.3311. This delay prejudiced
the City. Id. at PageID.3313.
9.

Plaintiffs lacked standing to pursue their claims. Id. at PageID.3317-

10.

Plaintiffs’ claim for violation of the Elections and Electors Clauses is

3324.

frivolous. As this Court held, “Plaintiffs ask the Court to find that any alleged
deviation from state election law amounts to a modification of state election law and
opens the door to federal review. Plaintiffs cite to no case – and this Court found
none – supporting such an expansive approach.” Id. at PageID.3325.
11.

Plaintiffs’ due process and equal protection clause claims are also

baseless. With regard to the due process claim, this Court held that “Plaintiffs do not
pair [the due process claim] with anything the Court could construe as a developed
argument. The Court finds it unnecessary, therefore, to further discuss the due
process claim.” Id. at PageID.3317. As to the equal protection claim, this Court
stated that “[w]ith nothing but speculation and conjecture that votes for President
Trump were destroyed, discarded or switched to votes for Vice President Biden,
Plaintiffs’ equal protection claim fails.” Id. at PageID.3328.
12.

For each of Plaintiffs’ claims, Plaintiffs did not identify valid legal

theories and the controlling law contradicted the claims. The claims were not

v

A058

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3621 Filed 01/05/21 Page 6 of 56

warranted by existing law or by a non-frivolous argument for extending, modifying,
or reversing existing law or for establishing new law.
13.

Plaintiffs’ Emergency Motion for Declaratory, Emergency, and

Permanent Injunctive Relief and Memorandum in Support Thereof (ECF No. 7) was
without any legal basis because, as described above, the underlying claims are
baseless, and the requests for relief were frivolous.
14.

Plaintiffs’ Emergency Motion to Seal (ECF No. 8) was without any

legal basis because Plaintiffs seek to anonymously file supposed evidence of a broad
conspiracy to steal the 2020 presidential election without providing any authority
whatsoever to attempt to meet their heavy burden to justify the sealed filing of these
documents.
Sanctions Pursuant to Fed. R. Civ. P. 11(b)(3)
15.

Sanctions can be imposed under Fed. R. Civ. P. 11(b)(3) where factual

contentions do not have evidentiary support or will likely not have evidentiary
support after a reasonable opportunity for further investigation or discovery.
16.

Sanctions should be entered against Plaintiffs and their counsel

pursuant to Fed. R. Civ. P. 11(b)(3) because the factual contentions raised in the
complaints and motions were false.
17.

The key “factual” allegations from the supposed fact witnesses, some

of whom attempt to cloak their identities while attacking democracy, have been

vi

A059

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3622 Filed 01/05/21 Page 7 of 56

debunked. The allegations about supposed fraud in the processing and tabulation of
absentee ballots by the City at the TCF Center have been rejected by every court
which has considered them. If any of the claims in this lawsuit had merit, that would
have been demonstrated in those cases. The City refers the Court to its Response to
Plaintiffs’ Emergency Motion for Declaratory, Emergency, and Permanent
Injunctive Relief for a detailed debunking of Plaintiffs’ baseless factual contentions.
ECF No. 39, PageID.2808-2933.
Disciplinary Proceedings
18.

E. D. Mich. LR 83.22 authorizes the Court to levy punishments other

than suspension or disbarment on a practicing attorney whose conduct has violated
the Rules of Professional Conduct, the Local Rules, the Federal Rules of Civil or
Bankruptcy Procedure, orders of the Court, or who has engaged in conduct
considered to be “unbecoming of a member of the bar of this court.”
19.

The Rule also authorizes the Court to refer counsel to the Chief Judge

of this District for disbarment or suspension proceedings.
20.

And, the Rule authorizes the Court to refer counsel to the Michigan

Attorney Discipline Board and to the disciplinary authorities of counsels’ home
jurisdictions for purposes of disciplinary proceedings.

vii

A060

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3623 Filed 01/05/21 Page 8 of 56

WHEREFORE, for the foregoing reasons and the reason stated in the
accompanying brief, the City of Detroit respectfully requests that this Court enter an
Order:
(a) Imposing monetary sanctions against Plaintiffs and their counsel in an
amount determined by this Court to be sufficient to deter future misconduct (such
amount should be, at the least, the amount that Plaintiffs’ counsel have collected in
their fundraising campaigns, directly or through entities they own or control, for their
challenges to the 2020 election);
(b) Requiring Plaintiffs and their counsel to pay all costs and attorney fees
incurred by the City in relation to this matter (as well as costs and fees incurred by
all other Defendants);
(c) Requiring Plaintiffs and/or their counsel to post a bond of $100,000 prior
to the filing of any appeal of this action (and to maintain their present appeal);
(d) Requiring Plaintiffs and their counsel to post a bond of $100,000 prior to
filing, in any court, an action against the City, or any other governmental entity or
their employees, relating to or arising from the facts alleged in this matter;
(e) Requiring Plaintiffs to post a substantial bond, in an amount determined
by the Court, prior to filing an action in the Eastern District of Michigan;
(f) Requiring Plaintiffs and their counsel to obtain certification from a
magistrate judge that the proposed claims are not frivolous or asserted for an

viii

A061

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3624 Filed 01/05/21 Page 9 of 56

improper purpose, before filing an action in the Eastern District of Michigan (and,
if the magistrate determines that the proposed claims are frivolous or asserted for an
improper purpose, requiring the plaintiff[s] to post a bond before filing the proposed
action in an amount the magistrate determines is sufficient to protect the
defendant[s]);
(g) Requiring Plaintiffs and their counsel to certify, via affidavit, under
penalty of perjury, that they have paid all amounts required to fully satisfy any nonappealable orders for sanctions entered by any court, prior to filing an action in the
Eastern District of Michigan;
(h) Barring Plaintiffs’ counsel from practicing law in the Eastern District of
Michigan (after the issuance of a show cause order);
(i) Referring Plaintiffs’ counsel to the Chief Judge of this District for initiation
of disbarment proceedings;
(j) Referring all Plaintiffs’ counsel to the Michigan Attorney Grievance
Commission (and also to the disciplinary authorities of their home jurisdictions,
including: Sidney Powell to the Michigan Bar and to the Texas bar; L. Lin Wood to
the Michigan Bar and to the Georgia bar; Greg Rohl to the Michigan bar; Emily
Newman to the Michigan Bar and to the Virginia bar; Julia Haller to the Michigan
Bar and to the Washington D.C. bar; Brandon Johnson to the Michigan Bar and to

ix

A062

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3625 Filed 01/05/21 Page 10 of 56

the Washington D.C. bar; Scott Hagerstrom to the Michigan bar; Howard
Kleinhendler to the Michigan Bar and to the New York bar); and,
(k) Granting any other relief that the Court deems just or equitable.
January 5, 2021

Respectfully submitted,
FINK BRESSACK
By: /s/ David H. Fink
David H. Fink (P28235)
Darryl Bressack (P67820)
Nathan J. Fink (P75185)
Attorneys for City of Detroit
38500 Woodward Ave., Ste. 350
Bloomfield Hills, MI 48304
Tel: (248) 971-2500
dfink@finkbressack.com
dbressack@finkbressack.com
nfink@finkbressack.com
CITY OF DETROIT
LAW DEPARTMENT
Lawrence T. Garcia (P54890)
James D. Noseda (P52563)
Attorneys for City of Detroit
2 Woodward Ave., 5th Floor
Detroit, MI 48226
Tel: (313) 237-5037
garcial@detroitmi.gov
nosej@detroitmi.gov

x

A063

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3626 Filed 01/05/21 Page 11 of 56

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES
DAVID HOOPER and DAREN WADE
RUBINGH,
Plaintiffs,

No. 2:20-cv-13134
Hon. Linda V. Parker

v.
GRETCHEN WHITMER, in her official
capacity as Governor of the State of
Michigan, JOCELYN BENSON, in her
official capacity as Michigan Secretary of
State and the Michigan BOARD OF STATE
CANVASSERS,
Defendants.
BRIEF IN SUPPORT OF
THE CITY OF DETROIT’S MOTION FOR SANCTIONS, FOR
DISCIPLINARY ACTION, FOR DISBARMENT REFERRAL AND FOR
REFERRAL TO STATE BAR DISCIPLINARY BODIES

A064

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3627 Filed 01/05/21 Page 12 of 56

TABLE OF CONTENTS
INDEX OF AUTHORITIES..................................................................................... II
STATEMENT OF THE ISSUES PRESENTED .................................................... IV
CONTROLLING OR MOST APPROPRIATE AUTHORITIES ............................ V
INTRODUCTION .....................................................................................................1
ARGUMENT .............................................................................................................4
I. Rule 11 Standards ............................................................................................. 4
II. The Complaint was Filed for an Improper Purpose ......................................... 5
III. The Factual Assertions in the Complaint Were Frivolous and Based on
Assertions Which Had Been Rejected by Michigan Courts ................................. 13
A.

Allegations Regarding Republican Challengers .....................................13

B.

Allegations of “Pre-Dating” ....................................................................14

C.

Allegations Regarding Ballots Supposedly Counted More than Once ...15

D.

Allegations Regarding Tabulating Machines ..........................................16

E.

The Declarations and Analyses “Supporting” the Complaint Were Full
of Intentional Lies ...................................................................................18

IV. Plaintiffs’ Legal Theories Were Frivolous ..................................................... 27
V. The Sanctions Which Should be Imposed Pursuant to Rule 11 ..................... 31
VI. Plaintiffs’ Counsel Should also be Disciplined and Referred to the Chief
Judge for Disbarment ............................................................................................ 35
CONCLUSION ........................................................................................................38

I

A065

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3628 Filed 01/05/21 Page 13 of 56

INDEX OF AUTHORITIES
Cases
Bognet v. Secy Commonwealth of Pennsylvania,
980 F.3d 336 (3rd Cir. Nov. 13, 2020) .................................................................28
Bowyer v. Ducey, CV-20-02321, 2020 WL 7238261
(D. Ariz. Dec. 9, 2020) .......................................................................... 2, 3, 18, 19
Costantino v Detroit, No. 162245, 2020 WL 6882586 (Mich. Nov. 23, 2020) ......13
Costantino v. Detroit, Opinion and Order,
Wayne County Circuit Court Case No. 20-014780-AW (Nov. 13, 2020) ...........13
DeGeorge v. Warheit, 276 Mich. App. 587, 741 N.W.2d 384 (2007) ....................37
Ex parte Young, 209 U.S. 123 (1908) ......................................................................29
Feathers v Chevron U.S.A., Inc., 141 F.3d 26 (6th Cir. 1998) ................................33
Feehan v. Wisconsin Elections Comm'n,
No. 20-CV-1771, 2020 WL 7250219 (E.D. Wis. Dec. 9, 2020) ............................2
Georgia Republican Party v. Secy of State of Georgia,
No. 20-14741, 2020 WL 7488181 (11th Cir. Dec. 21, 2020) ..............................28
Holling v. U.S., 934 F. Supp. 251 (E.D. Mich. 1996)..............................................36
INVST Financial Group, Inc. v. Chem-Nuclear Systems, Inc.,
815 F.2d 391 (6th Cir. 1987) ........................................................................... 5, 31
Johnson v. Secy of State, No. 162286, 2020 WL 7251084 (Mich. Dec. 9, 2020) ...24
King v. Whitmer,
No. CV 20-13134, 2020 WL 7134198 (E.D. Mich. Dec. 7, 2020) ........................1
Mann v. G &G Mfg., Inc., 900 F.2d 953 (6th Cir. 1990) .................................... 5, 31
Orlett v. Cincinnati Microwave, Inc., 954 F.2d 414 (6th Cir. 1992) .......................31
Ortman v. Thomas, 99 F.3d 807 (6th Cir. 1996) .....................................................33
Pearson v. Kemp, No. 1:20-cv-4809 (N.D. Ga. Dec. 7, 2020) ..................................2
II

A066

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3629 Filed 01/05/21 Page 14 of 56

Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89 (1984) ..........................29
Roberson v. Norfolk Southern Railway Co.,
2020 WL 4726937 (E.D. Mich. Aug. 14, 2020) ..................................................32
SLS v. Detroit Public Schools,
No. 08-14615, 2012 WL 3489653 (E.D. Mich. Aug. 15, 2012) ..........................32
Stephenson v. Central Michigan University,
No. 12-10261, 2013 WL 306514 (E.D. Mich. Jan. 25, 2013) ..............................32
Texas v. Pennsylvania, No. 155 ORIG., 2020 WL 7296814 (U.S. Dec. 11, 2020) ..9
Thomas v. Capital Sec. Servs., Inc., 836 F.2d 866 (5th Cir. 1988) .........................36
Wisconsin Voters Alliance v. Pence, No. 1:20-cv-03791 (D.C. Jan. 4, 2021) ..........6
Statutes and Rules
E. D. Mich. LR 83.20 ...............................................................................................35
E. D. Mich. LR 83.22 ...............................................................................................36
Fed. R. Civ. P. 11(b)(1).................................................................................... Passim
Fed. R. Civ. P. 11(b)(2).................................................................................... Passim
Fed. R. Civ. P. 11(b)(3).................................................................................... Passim
Fed. R. Civ. P. 11(c)(5) ..............................................................................................4

III

A067

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3630 Filed 01/05/21 Page 15 of 56

STATEMENT OF THE ISSUES PRESENTED
I.

Should the Court sanction Plaintiffs and their counsel pursuant to Fed.

R. Civ. P. 11?
The City answers: “Yes.”

II.

Should the Court discipline Plaintiffs’ counsel, refer them to the Chief

Judge of this District for disbarment proceedings and refer them to the Michigan
Attorney Grievance Commission and their home state bars for disciplinary
proceedings?
The City answers: “Yes.”

IV

A068

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3631 Filed 01/05/21 Page 16 of 56

CONTROLLING OR MOST APPROPRIATE AUTHORITIES

Fed. R. Civ. P. 11(b)(1)
Fed. R. Civ. P. 11(b)(2)
Fed. R. Civ. P. 11(b)(3)
E. D. Mich. LR 83.22
Bowyer v. Ducey, CV-20-02321, 2020 WL 7238261 (D. Ariz. Dec. 9, 2020)
Costantino v. Detroit, Opinion and Order, Wayne County Circuit Court Case No.
20-014780-AW (Nov. 13, 2020)
Ex parte Young, 209 U.S. 123 (1908)
King v. Whitmer, No. CV 20-13134, 2020 WL 7134198 (E.D. Mich. Dec. 7, 2020)
Mann v. G & G Mfg., Inc., 900 F.2d 953 (6th Cir. 1990)

V

A069

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3632 Filed 01/05/21 Page 17 of 56

INTRODUCTION
This Court has already concluded that Plaintiffs present “nothing but
speculation and conjecture” and that “this lawsuit seems to be less about achieving
the relief Plaintiffs seek—as much of that relief is beyond the power of this Court—
and more about the impact of their allegations on People’s faith in the democratic
process and their trust in our government.” King v. Whitmer, No. CV 20-13134, 2020
WL 7134198, at *13 (E.D. Mich. Dec. 7, 2020). Now, it is time for Plaintiffs and
their counsel to answer for that misconduct.
It is indelibly clear that this lawsuit was filed for an improper purpose, and the
failure to dismiss or amend the Complaint after service of a Rule 11 motion warrants
the strongest possible sanctions. There are so many objectively false allegations in
the Complaint that it is not possible to address all of them in a single brief. This brief
will address some of the more extreme examples.
For instance, Plaintiffs claim that their self-proclaimed experts include a
military intelligence analyst, but when they accidentally disclosed his name, the
“expert” was revealed to have washed out of the training course for military
intelligence. Plaintiffs’ counsel did not redact the information to “protect” the
“informant,” they did so to hide their fraud on the court.2

In addition to this case, Plaintiffs’ attorneys filed three other remarkably
similar, and similarly frivolous, “release the kraken” lawsuits. The requested relief
2

1
A070

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3633 Filed 01/05/21 Page 18 of 56

Plaintiffs’ “expert” reports are rife with misstatements of Michigan law and
election procedures. Those reports lack the simplest foundation of technical
expertise, fail to use even elementary statistical methods and reach conclusions that
lack any persuasive value. But, those unscientific conclusions, based upon false
premises and faulty techniques are presented here as though they embody the
uncontroverted truth.
Plaintiffs have no apparent interest in the accuracy of their allegations and
there is no innocent explanation for the numerous misrepresentations. They claim
that turnout in some jurisdictions in the State exceeded 100%, even up to 781.91%,
with turnout for Detroit at 139.29%. See Ramsland Aff., ECF No. 6-24,
PageID.1574. But they had to know that claim was false; the actual results were
readily available at the time Plaintiffs and their “experts” made the claim, and show
turnout well below 100%, including in Detroit at 50.88%. Ex. 2.3

was quickly denied or the case was dismissed for each. See Feehan v. Wisconsin
Elections Comm'n, No. 20-CV-1771, 2020 WL 7250219 (E.D. Wis. Dec. 9, 2020);
Bowyer v. Ducey, CV-20-02321, 2020 WL 7238261 (D. Ariz. Dec. 9, 2020); and
Pearson v. Kemp, No. 1:20-cv-4809 (N.D. Ga. Dec. 7, 2020) (Ex. 3).
3
Plaintiffs made the same claim about Michigan in the lawsuit they filed in
Georgia, but apparently because the “expert” confused the postal code abbreviation
for Minnesota with that of Michigan, used Minnesota jurisdictions to make the
argument that turnout exceeded 100%. Ex. 4. The fact that Plaintiffs’ counsel
discovered the error regarding postal abbreviations (after it was widely mocked in
the media), but then proceeded to make the same false claim here, substituting
Michigan jurisdictions, shows that the point was to make the claim, not to present
the truth. As stated by the district court in the Arizona “kraken” lawsuit when
2
A071

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3634 Filed 01/05/21 Page 19 of 56

Meanwhile, President Trump continues to use these lawsuits in his desperate
campaign to thwart the will of the voters. On January 2, 2021, during a call with
Georgia’s Secretary of State, Brad Raffensperger, in which the President is heard
attempting to extort Secretary Raffensperger into committing election fraud, Trump
trotted out the same hoary canards as the Plaintiffs falsely argue to this Court:
I mean there’s turmoil in Georgia and other places. You’re not the only
one, I mean, we have other states that I believe will be flipping to us
very shortly. And this is something that — you know, as an example, I
think it in Detroit, I think there’s a section, a good section of your state
actually, which we’re not sure so we’re not going to report it yet. But
in Detroit, we had, I think it was, 139 percent of the people voted. That’s
not too good.
See Ex. 5, pp. 3-4 (Transcript of January 2, 2021 Telephone Call, as transcribed for
the Washington Post).4
The City gave Plaintiffs and their counsel the opportunity to retract their lies
and baseless legal claims, and they have refused. The extent of the factual and legal
errors in this Complaint would warrant sanctions under any circumstances, but here
the Court’s processes are being perverted to undermine our democracy and to upset

dismissing the claims, and as equally applicable here, “[t]he various affidavits and
expert reports are largely based on anonymous witnesses, hearsay, and irrelevant
analysis of unrelated elections.” Bowyer v. Ducey, No. CV-20-02321, 2020 WL
7238261, at *13 (D. Ariz. Dec. 9, 2020).
4
President Trump also continues to use this lawsuit (and the suits filed in other
swing states which voted for President-Elect Biden) to fundraise. As of early
December 2020, Trump had reportedly raised $207.5 million in post-election
fundraising. Ex. 6.
3
A072

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3635 Filed 01/05/21 Page 20 of 56

the peaceful transition of power. The Plaintiffs and all of their attorneys deserve the
harshest sanctions this Court is empowered to order.
ARGUMENT
I.

Rule 11 Standards
Sanctions under Fed. R. Civ. P. 11(b)(1) are appropriate when a pleading or

other filing is presented for an improper purpose, such as to harass, cause
unnecessary delay, or needlessly increase the cost of litigation. Fed. R. Civ. P.
11(b)(1). Sanctions under Fed. R. Civ. P. 11(b)(2) are appropriate where the claims,
defenses, and other legal contentions of the offending party are not warranted by
existing law or by a non-frivolous argument for extending, modifying, or reversing
existing law or for establishing new law. Fed. R. Civ. P. 11(b)(2). Sanctions are
appropriate under Fed. R. Civ. P. 11(b)(3) where factual contentions do not have
evidentiary support or will likely not have evidentiary support after a reasonable
opportunity for further investigation or discovery.5
To determine whether a party’s pleading is frivolous or was filed for an
improper purpose, courts use an objective standard of reasonableness under the
circumstances and then weigh the evidence to determine if the pleadings, motions or

Monetary sanctions cannot be imposed against a represented party for
violation of Fed. R. Civ. P. 11(b)(2). See Fed. R. Civ. P. 11(c)(5). Thus, the City
requests non-monetary sanctions, as identified below, against Plaintiffs for violation
of 11(b)(2) and monetary and non-monetary sanctions against counsel.
5

4
A073

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3636 Filed 01/05/21 Page 21 of 56

papers are well-grounded in facts or warranted by existing law. Mann v. G &G Mfg.,
Inc., 900 F.2d 953 (6th Cir. 1990).6
II.

The Complaint was Filed for an Improper Purpose
It is clear that this lawsuit was not filed for any purpose consistent with the

Federal Rules of Civil Procedure. This Court has already addressed many of the
reasons that the Plaintiffs “are far from likely to succeed in this matter.” King, 2020
WL 7134198, at *13. The claims are barred by Eleventh Amendment Immunity; the
claims are barred by mootness and laches; Plaintiffs lack standing; and, even if
Plaintiffs could show a violation of state law, they have not offered a colorable claim
under federal statutory or constitutional law. To make matters worse, Plaintiffs were
always aware that their Complaint was deficient; no other inference can be drawn
from their failure to serve the Defendants before this Court issued its December 1,
2020, text-only order.7
Moreover, for the purposes of Rule 11 sanctions, a showing of “good faith,”
is not sufficient to avoid sanctions. INVST Financial Group, Inc. v. Chem-Nuclear
Systems, Inc., 815 F.2d 391 (6th Cir. 1987).
7
A similar circumstance was noted on January 4, 2021, in a ruling by the
United States District Court for the District of Columbia, addressing another
groundless Trump election lawsuit:
6

[Plaintiffs’] failure to make any effort to serve or formally notify any
Defendant — even after a reminder by the Court in its Minute Order —
renders it difficult to believe that the suit is meant seriously. Courts are
not instruments through which parties engage in such gamesmanship or
symbolic political gestures. As a result, at the conclusion of this
litigation, the Court will determine whether to issue an order to show
5
A074

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3637 Filed 01/05/21 Page 22 of 56

This lawsuit is the quintessential example of a case filed for an improper
purpose. As this Court concluded, in denying preliminary relief:
this lawsuit seems to be less about achieving the relief Plaintiffs seek—
as much of that is beyond the power of this Court—and more about the
impact of their allegations on People’s faith in the democratic process
and their trust in our government.
King, at *13. Plaintiffs’ counsel have not hidden their contempt for our courts and
for our democracy. Plaintiffs’ counsel Sidney Powell claims that courts have rejected
the election lawsuits, “because the corruption goes deep and wide.”8 She re-tweets
calls to impose martial law, to “suspend the December Electoral College vote,” and
to “set up Military Tribunals immediately.” @sidneypowell1, Twitter (Nov. 30,
2020). Her co-counsel, L. Lin Wood, unabashedly expresses his contempt for our
democratic processes and openly promotes a military coup:
Georgia, Michigan, Arizona, Nevada, Wisconsin, Minnesota &
Pennsylvania are states in which martial law should be imposed &
machines/ballots seized. 7 states under martial law. 43 states not under
martial law. I like those numbers. Do it @realDonaldTrump! Nation
supports you. (@llinwood, Twitter (Dec. 20, 2020)).
Patriots are praying tonight that @realDonaldTrump will impose
martial law in disputed states, seize voting machines for forensic

cause why this matter should not be referred to its Committee on
Grievances for potential discipline of Plaintiffs’ counsel.
Wisconsin Voters Alliance v. Pence, No. 1:20-cv-03791 (D.C. Jan. 4, 2021) (Ex. 7).
8
Quote from video interview of Sidney Powell, promoted on her twitter
account at https://twitter.com/AKA_RealDirty/status/1338401580299681793.
6
A075

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3638 Filed 01/05/21 Page 23 of 56

examination, & appoint @SidneyPowell as special counsel to
investigate election fraud. (Dec. 19, 2020).
When arrests for treason begin, put Chief Justice John Roberts, VP
Mike Pence @VP @Mike_Pence, & Mitch McConnell @senatemajldr
at top of list. (Jan. 1, 2021).
If Pence is arrested, @SecPompeo will save the election. Pence will be
in jail awaiting trial for treason. He will face execution by firing squad.
He is a coward & will sing like a bird & confess ALL. (Jan. 1, 2021).9
These are the lawyers who are trying to use this Court’s processes to validate their
conspiracy theories and to support their goal of overturning the will of the people in
a free and fair election. They were given an opportunity to dismiss or amend their
Complaint, but they chose to continue to use this case to spread their false messages.
Those false messages are not the result of occasional errors or careless editing.
Those false messages are deliberately advanced by these attorneys to support their
goals of undermining our democracy. Like Sidney Powell, L. Lin Wood, is a QAnon
disciple.10 He recently stated:
This country’s going to be shocked when they find the truth about
who’s been occupying the Oval Office for some periods of years.
They’re going to be shocked at the level of pedophilia. They are going
While Mr. Wood’s wrath was initially focused on Democrats, he has shifted
to attacking Republican officials (and judges and justices who he views as
Republican) for their perceived disloyalty to Trump and refusal to abuse the
Constitution.
10
A judge in Delaware is currently considering revoking Mr. Wood's right to
practice in Delaware, where he is currently representing former Trump adviser
Carter Page, based on his conduct in suits challenging the results of the general
election as a plaintiff in Georgia and as counsel in Wisconsin. Ex. 8.
9

7
A076

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3639 Filed 01/05/21 Page 24 of 56

to be shocked at what I believe is going to be a revelation in terms of
people who are engaged in Satanic worship.”11
A review of Mr. Wood’s Twitter account reveals a dark strain of paranoia—the same
strain which infects this lawsuit.
Mr. Wood repeatedly makes false allegations about the 2020 election, the
most secure in our country’s history.12 The following is a sampling of his tweets:
There should be NO Electoral College vote in any state today. Fraud is
rampant in all state elections. If U.S. Supreme Court does not have
courage to act, I believe our President @realDonaldTrump has the
courage. (Dec. 14, 2020).
We The People must now launch massive campaign to prevent our state
electors from EVER casting vote in Electoral College for Joe Biden &
Kamala Harris. Unless you want them to vote for Communism. In that
event, get out of our country & go enjoy your life in Communist China.
(Dec. 20, 2020).
Joe Biden & Kamala Harris are Communists by either ideology,
corruptness or extortion. Still want your state electors to vote for Biden
on 1/6? Want Communism & tyranny or a free America where you can
enjoy life, liberty & pursuit of happiness? (Dec. 20, 2020).

https://welovetrump.com/2020/11/23/lin-wood-americans-will-beshocked-at-level-of-pedophilia-satanic-worship-occupying-oval-office-for-yearsbefore-trump/.
12
The November 2020 general election was declared by the federal
government to be the most secure in the nation’s history. See Joint Statement from
Elections Infrastructure Government Coordinating Council & The Election
Infrastructure Sector Coordinating Executive Committees (“CISA”), issued Nov 12,
2020 (“The November 3rd election was the most secure in American history.”) (Ex.
9). The CISA statement further concluded “[t]here is no evidence that any voting
system deleted or lost votes, changed votes, or was in any way compromised.” Id.
Five days after this statement was released, Chris Krebs, director of CISA, was
terminated by presidential tweet.
11

8
A077

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3640 Filed 01/05/21 Page 25 of 56

When courts refuse to accept his invitation to disregard the fundamental tenets of
our democracy, he blames corruption and communism in the judiciary:
Attempted theft of Presidential election will NOT stand. Not on our
watch, Patriots. Communists & Communist sympathizers have
infiltrated our judicial system, including lawyers & judges in Georgia.
(Dec. 23, 2020).
Communism has infiltrated ALL levels of our government, including
our judiciary. Communism infiltrates by ideology, by
corruption/money & by extortion. (Dec. 20, 2020).
Too many of us have been asleep at switch in the past. … We believed
too many of our judges. Many are corrupt & traitors. (Dec. 19, 2020).
Some state & federal lower court rulings to date are troubling. Courage
lacking in some members of judiciary. (Dec. 10, 2020).
We CANNOT trust courts to save our freedom. They are IGNORING
massive evidence of fraud & unlawful election procedures. (Dec. 13,
2020).
We have had reports of judges & their families being threatened. This
would certainly explain some of the bizarre rulings by lower courts that
have refused to even mention the overwhelming evidence of fraud in
cases filed by @SidneyPowell. (Dec. 14, 2020).
When, the Supreme Court denied certiorari in Texas’s lawsuit against the “swing
states” which voted for Joe Biden,13 and when the Supreme Court took no action on
the nonsensical direct appeal in this case, Mr. Wood displayed his utter contempt for
that institution:
It is time for Chief Justice John Roberts to resign, admit his corruption
& ask for forgiveness. Roberts has betrayed his sacred oath office. He
13

2020).

Texas v. Pennsylvania, No. 155 ORIG., 2020 WL 7296814 (U.S. Dec. 11,
9
A078

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3641 Filed 01/05/21 Page 26 of 56

has betrayed his country. He has betrayed We The People. (Dec. 19,
2020).
I think many are today learning why SCOTUS is rejecting petitions
seeking FAIR review. Roberts & Breyer are “anti-Trumpers” They
should resign immediately. CJ Roberts has other reasons to resign. He
is a disgrace to office & to country. (Dec. 17, 2020).
Corruption & deceit have reached most powerful office in our country
- the Chief Justice of U.S. Supreme Court. This is a sad day for our
country but a day on which we must wake up & face the truth. Roberts
is reason that SCOTUS has not acted on election cases. (Dec. 17, 2020).
Justice John Roberts is corrupt & should resign immediately. Justice
Stephen Breyer should also resign immediately. (Dec. 17, 2020).
I am disappointed. I thought Justices Roberts & Breyer would avoid
public scandal & simply resign. Only a fool wants their dirty laundry
aired in public. Maybe I should consider filing a formal motion for
recusal & hang their laundry on the clothesline to be exposed to
sunlight? (Jan. 2, 2021).
This is the same L. Lin Wood who appears on the pleadings of this case, but who
has apparently chosen not to be sworn into the bar for the Eastern District of
Michigan and to affirm our Civility Principles.
Sidney Powell—who President Trump has reportedly considered appointing
as “special counsel,” who apparently has the ear of the President and who has
advocated for martial law—is less prolific on Twitter but shares Mr. Wood’s
perspective. She has tweeted that “[t]his ‘election’ was stolen from the voters in a
massive fraud.” @sidneypowell1, Twitter (Jan. 2, 2021). And, like Mr. Wood, she
channels 19502 McCarthy paranoia, seeing communists around every electoral

10
A079

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3642 Filed 01/05/21 Page 27 of 56

corner, stating “[i]t is impossible not to see the fraud here unless one is a communist
or part of it or part of the coup.” @sidneypowell1, Twitter (Jan. 2, 2021).14
As poorly presented as their pleadings were, as careless as they were in vetting
their allegations and expert reports, and as detached as their claims are from the law
and reality, the Plaintiffs and their counsel were provided 21 days to take corrective
action. So, 21 days before filing this motion, the City gave Plaintiffs an opportunity
to withdraw or amend their contemptuous pleadings. Rather than withdraw or amend
their Complaint, they chose to stand firm with their objectively false claims,
ridiculously incompetent expert reports and patently unsupportable arguments.
Why was this Complaint not dismissed or amended? Surely, in light of this
Court’s December 7, 2020, Opinion and Order, Plaintiffs cannot be expecting to
obtain judicial relief. Then, what purpose can this lawsuit serve? The answer to that
question goes to the heart of Rule 11. Much can be inferred from Plaintiffs’ actions.
Initially, this was one of several lawsuits used to support calls for state legislatures
to reject the will of the voters, to ignore the statutory process for selecting
presidential electors, and to instead elect a slate of Trump electors (six of whom are
Plaintiffs in this case). When the Michigan Legislature did not attempt to select a

Perhaps her motivation is less paranoid and more venal. The front page of
her website, “defendingtherepublic.org,” has a prominently placed “contribute here”
form, soliciting donations for her “Legal Defense Fund for Defending the American
Republic.”
14

11
A080

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3643 Filed 01/05/21 Page 28 of 56

slate of electors inconsistent with the will of the voters, despite the personal demands
of the President of the United States, who summoned their leaders to the White
House, this lawsuit took on a different meaning. It was then used to support
arguments for the United States Congress to reject the Michigan electors on January
6, 2021. On Saturday, January 2, 2021, false claims made by “experts” in this case
were cited by Donald Trump in his apparent attempt to extort Georgia Secretary of
State Brad Raffensperger. And, most ominously, these claims are referenced and
repeated by L. Lin Wood and others in support of martial law.
Irrespective of these attempts to overturn our democratic processes, the
continued pendency of this lawsuit accomplishes exactly the harm addressed by this
Court in its December 7, 2021, Opinion and Order. By undermining “People’s faith
in the democratic process and their trust in our government,” this lawsuit is being
used to delegitimize the presidency of Joe Biden.
While the First Amendment may protect the right of political fanatics to spew
their lies and unhinged conspiracy theories, it does not grant anyone a license to
abuse our courts for purposes which are antithetical to our democracy and to our
judicial system. Plaintiffs and their counsel cannot be allowed to use the court system
to undermine the constitutional and statutory process by which we select our leaders.

12
A081

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3644 Filed 01/05/21 Page 29 of 56

III.

The Factual Assertions in the Complaint Were Frivolous and Based
on Assertions Which Had Been Rejected by Michigan Courts

The Complaint in this matter relies heavily on affidavits submitted in
Costantino v. Detroit, Wayne County Circuit Court Case No. 20-014780-AW. The
Plaintiffs here either incorporate the affidavits into their allegations or attach them
as exhibits to their Complaint.
A. Allegations Regarding Republican Challengers
The Complaint repeatedly asserts that Republican challengers were not given
“meaningful” access to the ballot processing and tabulation at the Absent Voter
Counting Board located in Hall E of the TCF Center. First Amended Complaint
(“Compl.”) at ¶¶ 13, 42, 47, 57, 59-61. This claim was disproven long before
Plaintiffs raised it here. As Judge Kenny concluded in Costantino, while six feet of
separation was necessary for health reasons, “a large monitor was at the table where
individuals could maintain a safe distance from poll workers to see what exactly was
being performed.” Costantino v. Detroit, Opinion and Order, Wayne County Circuit
Court Case No. 20-014780-AW (Nov. 13, 2020) (Ex. 10). This had been proven with
photographic evidence. See, e.g., Ex. 11 (Nov. 11, 2020 Affidavit of Christopher
Thomas at last page). And, prior to the filing of this case, the Michigan Supreme
Court had already rejected the application for appeal from the trial court’s ruling,
deeming the same claims unworthy of injunctive relief. See Costantino v Detroit,
No. 162245, 2020 WL 6882586 (Mich. Nov. 23, 2020).
13
A082

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3645 Filed 01/05/21 Page 30 of 56

Similarly, the Complaint repeats the false claim that Republican challengers
were exclusively barred from entering the TCF Center. Compl. ¶¶ 62-63. Judge
Kenny rejected this claim, finding that there was a short period of time, where
Republican and Democratic challengers were “prohibited from reentering the room
because the maximum occupancy of the room had taken place.” Costantino Opinion,
at *8. As stated by the court, “[g]iven the COVID-19 concerns, no additional
individuals could be allowed into the counting area ... Democratic party challenger
David Jaffe and special consultant Christopher Thomas in their affidavits both attest
to the fact that neither Republican nor Democratic challengers were allowed back in
during the early afternoon of November 4th as efforts were made to avoid
overcrowding.” Id.
B. Allegations of “Pre-Dating”
Plaintiffs’ allegations of “pre-dating” were also based on claims initially
submitted and rejected in Costantino. Compl. ¶¶ 88 and 90.
The claims come from Jessy Jacob, a furloughed City employee, with no
known prior election experience, who was assigned to the Department of Elections
on a short-term basis. Ex. 12 (Affidavit of Daniel Baxter, ¶ 7). Her claim regarding
pre-dating is demonstrably false because all absentee ballots she handled at the TCF
Center had been received by 8:00 p.m. on November 3, 2020. For a small number
of ballots, election workers at the TCF Center were directed to enter the date the

14
A083

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3646 Filed 01/05/21 Page 31 of 56

ballots were received into the computer system, as stamped on the envelope. Ex.
11. Ms. Jacob was simply marking the date the ballot had been received. Id. Thus,
as explained by the court in Costantino, “[a]s to the allegation of ‘pre-dating’
ballots, Mr. Thomas explains that this action completed a data field inadvertently
left blank during the initial absentee ballot verification process.” Costantino
Opinion, *4. As the court noted, “[t]he entries reflected the date the City received
the absentee ballot.” Id.
C. Allegations Regarding Ballots Supposedly Counted More than
Once
Plaintiffs claim challengers observed ballots repeatedly run through tabulation
machines, including “a stack of about fifty ballots being fed multiple times into a
ballot scanner counting machine.” Compl. ¶ 94. This allegation primarily comes
from Melissa Carone, a contractor working for Dominion, who claimed that stacks
of 50 ballots were fed through tabulators as many as eight times. Exh. 5 to Compl.,
¶¶ 4-5.15 The allegation was obviously false when it was first raised by Carone in
Costantino. Whatever Carone and other challengers think they saw, ballots cannot
be counted in that manner. If they were correct, hundreds of extra votes would show
up in numerous precinct (or absent voter counting boards). This would obviously be

The Complaint states that “[p]erhaps the most probative evidence comes
from Melissa Carone ….” Compl. ¶ 84.
15

15
A084

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3647 Filed 01/05/21 Page 32 of 56

caught very quickly on site during the tabulation process or soon thereafter during
the County and State canvasses. Ex. 13 (Thomas Dec. 10, 2020 Aff. ¶¶ 18-20).
But, by the time the Plaintiffs here latched onto the absurd allegation, it had
already been conclusively disproven by the Wayne County canvass. Detroit had 501
precincts and 134 absent voter counting boards. Less than 36% of the total were out
of balance. Id. ¶ 12. A counting board is out of balance if there are: (1) more ballots
than voters or (2) more voters than ballots. In total 591 voters and ballots account
for the imbalances. Id. When voters and ballots are separated in Detroit there are 148
more names than ballots—out of 174,384 votes there are 148 more names in the poll
books than there are ballots. Id. The fact that there were more names than ballots
shows that ballots were not counted more than once. The total imbalance was .0008
(eight ten-thousandths of a 1%). Id. Of the 94 Detroit out of balance counting boards,
there were 87 with an imbalance of 11 or fewer voters/ballots; within those 87
counting boards, 48 were imbalanced by 3 or fewer voters/ballots. Id. There were
seven counting boards with higher imbalances that range from 13 more ballots to 71
fewer voters. Id. This minimal level of imbalance conclusively demonstrated that
the allegation was false, weeks before Plaintiffs filed this case.
D. Allegations Regarding Tabulating Machines
Perhaps the most baseless of Plaintiffs’ allegations is a conspiracy theory
about Dominion vote tabulators. Plaintiffs in the first election cases initially cited

16
A085

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3648 Filed 01/05/21 Page 33 of 56

two instances of errors—one in Antrim County and one in Oakland County
(Rochester Hills) to insinuate that the tabulating system used in many counties was
flawed. Certainly understanding the weakness of the initial theory, Plaintiffs here
wove in a nonsensical tale that a theoretical software weakness upended Michigan’s
election results. This Court readily recognized that the claims could not hold up.
The Michigan Department of State released a statement titled “Isolated User
Error in Antrim County Does Not Affect Election Results, Has no Impact on Other
Counties or States,” explaining what happened in Antrim County. Ex. 14. The
statement explains that the “error in reporting unofficial results in Antrim County
Michigan was the result of a user error that was quickly identified and corrected; did
not affect the way ballots were actually tabulated; and would have been identified in
the county canvass before official results were reported even if it had not been
identified earlier.” Id. Essentially, the County installed an update on certain
tabulators, but not others. Id. The tabulators worked correctly, but when they
communicated back to the County, the discrepancy in the software versions led to a
discrepancy in the reporting. Id. This was quickly discovered and would certainly
have been uncovered in the post-election canvass. Id. In fact, the integrity of the vote
in Antrim County was conclusively proven by the recent audit of the paper ballots.
The Republican clerk of Rochester County, Tina Barton, discredited the
allegations of fraud in that City. Officials realized they had mistakenly counted votes

17
A086

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3649 Filed 01/05/21 Page 34 of 56

from Rochester Hills twice, according to the Michigan Department of State. Oakland
County used software from a company called Hart InterCivic, not Dominion, though
the software was not at fault. Ms. Barton stated in a video she posted online: “As a
Republican, I am disturbed that this is intentionally being mischaracterized to
undermine the election process …. This was an isolated mistake that was quickly
rectified.” Ex. 15.16 Plaintiffs knew all of this before they filed this lawsuit.17
E. The Declarations and Analyses “Supporting” the Complaint Were
Full of Intentional Lies
The Complaint also relies heavily on “expert” declarations and affidavits,
many heavily redacted. As the district court held in Bowyer, “the ‘expert reports’

An audit of the paper ballots in Antrim County conclusively demonstrated
that the claim was false. The official tally was only off by 11 net votes. Ex. 16.
17
The Plaintiffs here added in a string of falsehoods about Dominion software.
The district court in Bowyer addressed those claims head on: “The Complaint is
equally void of plausible allegations that Dominion voting machines were actually
hacked or compromised in Arizona during the 2020 General Election. […] These
concerns and stated vulnerabilities, however, do not sufficiently allege that any
voting machine used in Arizona was in fact hacked or compromised in the 2020
General Election.” Bowyer v. Ducey, No. CV-20-02321, 2020 WL 7238261, at *14
(D. Ariz. Dec. 9, 2020). Just like here, “what is present is a lengthy collection of
phrases beginning with the words ‘could have, possibly, might,’ and ‘may have.’”
Id. Ramsland, similar to his claims here, “asserts there was ‘an improbable, and
possibly impossible spike in processed votes’ in Maricopa and Pima Counties at 8:46
p.m. on November 3, 2020 … [however, the defendant] points to a much more likely
plausible explanation: because Arizona begins processing early ballots before the
election, the spike represented a normal accounting of the early ballot totals from
Maricopa and Pima Counties, which were reported shortly after in-person voting
closed.” Id. “Plaintiffs have not moved the needle for their fraud theory from
conceivable to plausible, which they must do to state a claim under Federal pleading
standards.” Id.
16

18
A087

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3650 Filed 01/05/21 Page 35 of 56

reach implausible conclusions, often because they are derived from wholly
unreliable sources.” See Bowyer v. Ducey, No. CV-20-02321, 2020 WL 7238261, at
*14 (D. Ariz. Dec. 9, 2020).
From the outset, the “Michigan 2020 Voting Analysis Report” appended to
the Amended Complaint departs from any rational statistical analysis. PageID.17711801. Stanley Young identifies nine counties as “outliers,” because those counties
reported larger increases in Democratic votes for President. PageID.1776. His
analysis, however, is based entirely on raw vote totals with no consideration of
percentage changes. Not surprisingly, eight of the nine counties he identifies are
among the nine counties with the largest voting age population. Much of the
remaining analysis by Young and the other experts focuses on these counties, which
are allegedly “outliers.”
This sloppy analysis is followed by “another anomaly that indicates
suspicious results.” His “anomaly” is nothing more than the fact that President
Trump did not do as well with “mail-in votes” as he did with election day votes.
PageID.1777. Of course, that was widely expected and understood, for an election
in which President Trump discouraged absentee voting and Democrats promoted it.
Revealing an almost incomprehensible ignorance of Michigan election law
for supposed “experts,” Dr. Quinnell, together with Dr. Young, offer the finding that
in two Michigan counties (Wayne and Oakland) demonstrate “excessive vote in

19
A088

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3651 Filed 01/05/21 Page 36 of 56

favor of Biden often in excess of new Democrat registrations.” PageID.1778.
Apparently, none of the experts, none of the Plaintiffs and none of the Plaintiffs’
attorneys are aware that Michigan does not have party registration.
1. Spyder/Spider
Plaintiffs’ “experts” rely on the partially redacted declaration of “Spider” or
“Spyder,” who Plaintiffs identify as “a former US Military Intelligence expert” and
a “former electronic intelligence analyst with 305th Military Intelligence” Compl.
¶¶ 17, 161. But this was a lie by Plaintiffs’ counsel. Plaintiffs did not properly redact
the declarant’s name when they filed the same affidavit in a different court, and it
was publicly disclosed that the declarant’s name was Joshua Merritt. While in the
Army, Merritt enrolled in a training program at the 305th Military Intelligence
Battalion, the unit he cites in his declaration, but he never completed the entry-level
training course. A spokeswoman for the U.S. Army Intelligence Center of
Excellence, which includes the battalion, stated “[h]e kept washing out of courses
… [h]e’s not an intelligence analyst.” Ex. 17. According to the Washington Post,
“Merritt blamed ‘clerks’ for Powell’s legal team, who he said wrote the sentence
[and] said he had not read it carefully before he signed his name swearing it was
true. Id. He stated that “My original paperwork that I sent in didn’t say that.” Id. He
later stated that “he had decided to remove himself from the legal effort altogether”
(which has not happened). Id.

20
A089

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3652 Filed 01/05/21 Page 37 of 56

It is a near certainty that if Plaintiffs are compelled to publicly file unredacted
declarations and affidavits, as they should be, numerous other redacted names and
assertions will reveal that the redactions were made to keep the public from
discovering more fraud perpetrated on this Court.
2. Russell James Ramsland, Jr.
Plaintiffs’ “expert” Russell James Ramsland Jr. extrapolates large vote
discrepancies from the Antrim County error in reporting early unofficial results. In
doing so, he intentionally ignores the Secretary of State’s report or simply does not
do his homework. Ramsland reports “In Michigan we have seen reports of 6,000
votes in Antrim County that were switched from Donald Trump to Joe Biden and
were only discoverable through a hand counted manual recount.” Ramsland
Affidavit ¶10; emphasis added. But, there were no hand recounts in Michigan as of
that date.18 The Secretary of State report is not even discussed. Incredibly, Ramsland
has since doubled down on his perjury, after gaining access to a voting machine in
Antrim County. He now claims, in support for the request for Certiorari to the
Supreme Court in this action, that “[w]e observed an error rate of 68.05%” which

Plaintiffs, who include six nominees to be Trump electors, including the
Republican County Chair for Antrim County, the Republican County Chair of
Oceana County and the Chair of the Wayne County Eleventh Congressional District,
as well as their attorneys, should also know that when the expert report was prepared
there had been no hand recount in Antrim County. An actual hand recount did occur
at a later time, and that recount confirmed the accuracy of the official results, within
11 votes.
18

21
A090

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3653 Filed 01/05/21 Page 38 of 56

“demonstrated a significant and fatal error in security and election integrity.”
Although the basis for the percentage is unclear, the Antrim County clerk stated that
“the 68% error rate reported by Ramsland may be related to [the] original error
updating the ballot information.” Ex. 18. The clerk of the Republican-heavy County
said: “[t]he equipment is great — it’s good equipment … [i]t’s just that we didn’t
know what we needed to do (to properly update ballot information) … [w]e needed
to be trained on the equipment that we have.” Id. The claim was also proven to be
false by the hand recount audit of the paper ballots in Antrim County, which added
11 net votes to the tally, not the 15,000 predicted by Ramsland. Ex. 16.
Ramsland makes the claim that turnout throughout the state was statistically
improbable; but as discussed above, he bases this on fabricated statistics. He claims
turnout of 781.91% in North Muskegon, where the publicly-available official results
were known, as of election night, to be approximately 78%. Ex. 2. He claims turnout
of 460.51% (or, elsewhere on the same chart, 90.59%) in Zeeland Charter Township,
where it was already known to be 80%. Id. The only result out of 19 (not including
the duplicates) that Ramsland got right was for Grand Island Township, with a
turnout of 96.77%, comprised of 30 out of the township’s 31 registered voters. Id.19

Ramsland also claims it was “suspicious” that Biden’s share of the vote
increased as absentee ballots were tabulated. But, that suspicion require Ramsland
to close his eyes to the incontrovertible fact that for the 2020 general election,
absentee ballots favored Biden throughout the country, even in the deep red state of
19

22
A091

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3654 Filed 01/05/21 Page 39 of 56

President Trump repeated this blatantly false claim in his tape-recorded January 2,
2021 telephone conversation with Brad Raffensperger. Ex. 5.
Similarly, Ramsland relies upon the affidavit of Mellissa Carone in support of
his claim that “ballots can be run through again effectively duplicating them.”
Ramsland Affidavit; Compl. Exh. 24 at ¶13. It is understandable that inexperienced
challengers and Ms. Carone (who was a service contractor with no election
experience) with conspiratorial mindsets might not understand that there are
safeguards in place to prevent double counting of ballots in this way, but that does
not excuse Plaintiffs’ “experts,” who choose to rely on these false claims, even after
the official canvass had conclusively disproven the allegations.20
3.

William Briggs/Matt Braynard

Plaintiffs rely on an “analysis” by William M. Briggs of “survey” results
apparently posted in a tweet by Matt Braynard. Braynard’s survey was submitted in

Tennessee. https://tennesseestar.com/2020/11/05/republicans-dominate-the-2020tennessee-election-cycle/.
20
Emblematic of Plaintiffs’ contempt for facts is another “expert” report that
was filed with the original Complaint in this case, but not submitted with the
Amended Complaint. Paragraph 18 of the original Complaint introduced “Expert
Navid Kashaverez-Nia” and alleged that “[h]e concludes that hundreds of thousands
of votes that were cast for President Trump in the 2020 general election were
transferred to former Vice-President Biden.” Notably, the “expert” relied on a
finding that in “Edison County, MI, Vice President Biden received more than 100%
of the votes.…” There is no Edison County in Michigan (or anywhere in the United
States). The fabrication was only removed after it was discovered and reported by
the news media.
23
A092

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3655 Filed 01/05/21 Page 40 of 56

a different case (Johnson v. Secy of State, Michigan Supreme Court Original Case
No. 162286),21 so its underlying falsehoods have been exposed. Braynard
misrepresents Michigan election laws, and completely disregards standard analytical
procedures to reach his contrived conclusions. He refers to voters who have
“indefinitely confined status,” something which has never existed in our state. He
refers to individuals “who the State’s database identifies as applying for and the
State sending an absentee ballot,” when, in Michigan, absentee ballots are never sent
by the State. He refers repeatedly to “early voters,” when Michigan has absentee
voters, but, unlike some other states, has never allowed “early voting.” He apparently
believes (incorrectly) that every time a voter’s residence changes before election day
that voter is disenfranchised. Mr. Thomas addresses these factual and legal errors in
the attached Affidavit. Ex. 13.
The disturbing inadequacy of Braynard’s survey is also explained in the
affidavit of Dr. Charles Stewart III, the Kenan Sahin Distinguished Professor of
Political Science at the Massachusetts Institute of Technology. Dr. Stewart’s
credentials are impeccable and directly applicable to the subject matter. Ex. 20

The “survey” as submitted in Johnson is attached here as Ex. 19. The
request for relief was denied by the Supreme Court Johnson. See Johnson v. Secy of
State, No. 162286, 2020 WL 7251084 (Mich. Dec. 9, 2020).
21

24
A093

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3656 Filed 01/05/21 Page 41 of 56

(Affidavit of Charles Stewart II) (originally submitted in Johnson).22 At the request
of the City of Detroit, Dr. Stewart reviewed the Braynard survey and came to the
unqualified opinion that “Mr. Braynard’s conclusions are without merit.” (Id. ¶10).
He explains the basis for his opinion in clear and understandable detail.
Briggs’ analysis of Braynard’s report estimate that “29,611 to 36,529 ballots
out of the total 139,190 unreturned ballots (21.27% - 26.24%) were recorded for
voters who had not requested them.” Braynard says 834 people agreed to answer the
question of whether they requested an absentee ballot. But he does not report how
many respondents did not answer. More to the point, he does not explain how he
confirms that these respondents understood what it meant for them to “request” an
absentee ballot. Some might have gone to their local clerk’s office to vote, where
they signed a form, received a ballot and voted, without realizing that that form is
an absentee ballot “request.” Braynard concludes that certain people who failed to
return a ballot never requested that ballot. But he does not address the possibility
that the very people (139,190 out of more than 3.5 million) who would neglect to
return a ballot would likely be those who might forget that they had requested one.
Braynard offers a baffling array of inconsistent numbers. On Page 8 of his
report, he refers to “96,771 individuals who the State’s database identifies as having
Dr. Stewart is uniquely suited to address these issues. He is a member of
the Caltech/MIT Voting Technology Project and the founding director of the MIT
Election Data and Science Lab.
22

25
A094

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3657 Filed 01/05/21 Page 42 of 56

not returned an absentee ballot,” when for his first two opinions that number is
139,190. On page 8, he reports a percentage of 15.37% not having mailed back their
ballots, but on page 5 he identifies that percentage as 22.95%. Then, the actual
numbers of individuals answering the question in that manner, described on page 8
(241 out of 740), would establish a percentage of 32.56%. If this were not sloppy
enough, at the top of page 9, he reports, with no explanation “Based on these results,
47.52% of our sample of these absentee voters in the State did not request an
absentee ballot.” Even if his percentages were completely off and inconsistent, the
data would be meaningless. Braynard ignores Michigan election procedures when
he declares that there is evidence of illegal activity because some voters are
identified in the State’s database as having not returned an absentee ballot when
those voters “did in fact mail back an absentee ballot.…” But, when millions of
citizens voted absentee, some of those mailed ballots were not received by election
day. He also does not consider the possibility of a voter either not remembering
accurately or not reporting accurately whether a ballot was mailed.23
Braynards’ analysis of address changes is equally invalid. He misrepresents
how change of address notifications work. It is not at all uncommon for one person
A slightly modified version of the Briggs/Braynard analysis was rejected
by the Bowyer court. Bowyer, 2020 WL 7238261, at *14 (“The sheer unreliability
of the information underlying Mr. Briggs’ ‘analysis’ of Mr. Braynard’s ‘data’ cannot
plausibly serve as a basis to overturn a presidential election, much less support
plausible fraud claims against these Defendants.”).
23

26
A095

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3658 Filed 01/05/21 Page 43 of 56

to move and file a change of address that appears to affect more household members,
or a person might file a change of address for convenience during a temporary period
away from home, without changing their legal residence. Stewart Aff ¶ 21. Every
year, tens of thousands of Michigan voters spend long periods of time in other states
(e.g., Florida or Arizona) without changing their permanent residence or voting
address. Clerks have procedures in place to address these issues. Even voters who
do make a permanent move can vote at their prior residence for sixty days if they do
not register to vote at their new address.24
IV.

Plaintiffs’ Legal Theories Were Frivolous

Rule 11 places the failure to plead colorable legal theories squarely on the
attorney making the claim. In addition to pleading false allegations, this lawsuit has
always been legally dubious.

It is not possible that these experts were simply negligent. They consistently
ignore the obvious explanations for their so-called anomalies. For instance,
Bouchard intentionally ignores the fact that unofficial results are released on a
rolling basis, i.e. in “data dumps” accounting for hours of tabulation, to claim it was
somehow anomalous for there to be large increases in the number of votes between
data releases. Quinnell ignores the fact that voter turnout and preferences will change
between elections based on the identities of the candidates, when he claims it was
somehow anomalous for turnout to have increased for the 2020 election and for
Biden to have picked up votes in suburban areas (a phenomenon seen throughout the
country). He also ignores the well-known fact that urban core precincts in this
country are strongholds for the Democratic Party, when he claims there was
something anomalous about the fact that such precincts in Detroit strongly favored
Biden. Many of these issues are addressed in the responses, and supporting exhibits,
to Plaintiffs’ Motion for Temporary Restraining Order. ECF Nos. 31, 36 and 39.
24

27
A096

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3659 Filed 01/05/21 Page 44 of 56

First, even if there had been a semblance of truth to any of Plaintiffs’
allegations, the lawsuit would still have been frivolous because the relief requested
could, in no way, be supported by the claims. As this Court stated, the relief Plaintiffs
seek is to “disenfranchise the votes of the more than 5.5 million Michigan citizens
who, with dignity, hope, and a promise of a voice, participated in the 2020 General
Election.” King, 2020 WL 7134198, at *1. Nothing Plaintiffs allege—or could
allege—could lead to the “stunning” and “breathtaking” relief sought. See, e.g., Id.
(Stating Plaintiffs “seek relief that is stunning in its scope and breathtaking in its
reach.”)
Second, there has never been a colorable basis for Plaintiffs’ attorneys to
assert that the Plaintiffs had standing. The Complaint does not allege that Plaintiffs
were denied the right to vote—an injury which would be particularized to the
individual Plaintiffs—it alleges Plaintiffs’ votes were diluted. As numerous courts
have concluded, a dilution theory does not satisfy the Article III requirements of
causation and “injury in fact.” See, e.g., Georgia Republican Party v. Secy of State
of Georgia, No. 20-14741, 2020 WL 7488181 (11th Cir. Dec. 21, 2020); Bognet v.
Secy Commonwealth of Pennsylvania, 980 F.3d 336 (3rd Cir. Nov. 13, 2020).
Importantly, as this Court concluded, even if Plaintiffs had met those two
elements, the Plaintiffs would still not meet the redressability element, because “an
order de-certifying the votes of approximately 2.8 million people would not reverse

28
A097

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3660 Filed 01/05/21 Page 45 of 56

the dilution of Plaintiffs’ vote.” King, 2020 WL 7134198, at *9. Counsel for
Plaintiffs knew, or should have known, that their clients did not have Article III
standing.
Third, there was never a legitimate basis to believe the lawsuit could proceed
in the face Eleventh Amendment immunity. The one possibly applicable exception,
Ex Parte Young, “does not apply, however, to state law claims against state officials,
regardless of the relief sought.” King, at *4 (citing Pennhurst State Sch. & Hosp. v.
Halderman, 465 U.S. 89 (1984) and Ex Parte Young, 209 U.S. 123 (1908)). As this
Court noted, the issue has been long settled by the Supreme Court. See Pennhurst,
at 106. And, with respect to the § 1983 claim, before this lawsuit was filed “the
Michigan Board of State Canvassers had already certified the election results and
Governor Whitmer had transmitted the State’s slate of electors to the United States
Archivist … [therefore] [t]here is no continuing violation to enjoin.” King, at *5.
Fourth, there was never a basis to believe this case was not moot as of the date
it was filed. As this Court stated, “[t]he Michigan Election Code sets forth detailed
procedures for challenging an election, including deadlines for doing so … Plaintiffs
did not avail themselves of the remedies established by the Michigan legislature.”
Id., at *6. The deadline to pursue any such remedies had passed by the time the
Complaint was filed, therefore, “[a]ny avenue for this Court to provide meaningful
relief” was foreclosed from the start. Id.

29
A098

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3661 Filed 01/05/21 Page 46 of 56

Fifth, there was no reason for Plaintiffs’ counsel to believe the case would not
be barred by laches. As this Court concluded, the relief sought was barred by laches
because “Plaintiffs could have lodged their constitutional challenges much sooner
than they did, and certainly not three weeks after Election Day and one week after
certification of almost three million votes.” Id., at *7.
Sixth, there was no reason to believe that alleging violations of the Michigan
Election Code could support a claim for violation of the Elections & Electors
Clauses. As this Court concluded, “Plaintiffs cite to no case—and this Court found
none—supporting such an expansive approach.” Id., at *12.
Seventh, there was no basis to believe that the allegations could support an
equal protection claim. The equal protection claim “is not supported by any
allegation that Defendants’ alleged schemes caused votes for President Trump to be
changed to votes for Vice President Biden” with “the closest Plaintiffs get” being a
statement by one affiant stating “I believe some of these workers were changing
votes that had been cast for Donald Trump ...” Id. (citing to record). Similarly, “[t]he
closest Plaintiffs get to alleging that election machines and software changed votes
for President Trump to Vice President Biden in Wayne County is an amalgamation
of theories, conjecture, and speculation that such alterations were possible.” Id.
(citing to record). It was patently obvious from the day this lawsuit was filed, that
“[w]ith nothing but speculation and conjecture that votes for President Trump were

30
A099

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3662 Filed 01/05/21 Page 47 of 56

destroyed, discarded or switched to votes for Vice President Biden, Plaintiffs’ equal
protection claim fails.” Id., at *13 (citation omitted).
V.

The Sanctions Which Should be Imposed Pursuant to Rule 11
This lawsuit, and the lawsuits filed in the other states, are not just damaging

to our democratic experiment, they are also deeply corrosive to the judicial process
itself. When determining what sanctions are appropriate, the Court should consider
the nature of each violation, the circumstances in which it was committed, the
circumstances of the individuals to be sanctioned, the circumstances of the parties
who were adversely affected by the sanctionable conduct, and those sanctioning
measures that would suffice to deter that individual from similar violations in the
future. Orlett v. Cincinnati Microwave, Inc., 954 F.2d 414 (6th Cir. 1992).
Moreover, when considering the type of sanctions to impose, the Court should be
mindful that the primary purpose of Rule 11 is to deter future, similar actions by the
sanctioned party. Mann, 900 F.2d at 962.
Accordingly, this Court should impose monetary sanctions against Plaintiffs
and their counsel in an amount sufficient to deter future misconduct. See, e.g., INVST
Financial Group, Inc. v. Chem-Nuclear Systems, Inc., 815 F.2d 391, 401 (6th Cir.
1987) (courts have wide discretion in determining amount of monetary sanctions
necessary to deter future conduct). Here, an appropriate sanction amount is, at the
least, the amount that Plaintiffs’ counsel have collected in their fundraising

31
A100

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3663 Filed 01/05/21 Page 48 of 56

campaign, directly or through entities they own or control, for their challenges to the
2020 election. They should not be allowed to profit from their misconduct.
It is also appropriate for Plaintiffs and their counsel to pay all costs and
attorney fees incurred by Defendants. See, e.g., id.; see also Roberson v. Norfolk
Southern Railway Co., 2020 WL 4726937, at *7 (E.D. Mich. Aug. 14, 2020)
(awarding costs incurred by Defendant as a sanction against Plaintiff and Plaintiff’s
counsel for filing frivolous claims unsupported by law). In Stephenson v. Central
Michigan University, No. 12-10261, 2013 WL 306514, at *14 (E.D. Mich. Jan. 25,
2013), attorney fees and costs were awarded as sanctions after the plaintiff’s refusal
to withdraw her frivolous claims during the 21-day safe harbor period provided by
Rule 11. Sanctions were warranted because the plaintiff “brought a frivolous lawsuit
which lacked evidentiary support, and continued to pursue her claims once the lack
of support was evident ….” Id. The same applies here. Plaintiffs’ claims were
frivolous from the start, yet they refused to withdraw them when provided the
opportunity. As a result, Defendants should be reimbursed for their attorney fees and
costs.
Plaintiffs should also be required to post a bond of $100,000 to maintain their
present (frivolous) appeal and for each additional appeal in this action. See, e.g., SLS
v. Detroit Public Schools, No. 08-14615, 2012 WL 3489653, at *1 (E.D. Mich. Aug.
15, 2012) (requiring the plaintiff to file $300,000.00 security bond).

32
A101

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3664 Filed 01/05/21 Page 49 of 56

To protect against their future filing of frivolous lawsuits in this District,
Plaintiffs and their counsel should be required to obtain pre-clearance by a
magistrate judge of any proposed lawsuit. If the magistrate determines that the
proposed claims are frivolous or asserted for an improper purpose, the plaintiff[s]
would be required to post a bond before filing the proposed action in an amount the
magistrate determines is sufficient to protect the defendant[s]. See, e.g., Feathers v
Chevron U.S.A., Inc., 141 F.3d 26, 269 (6th Cir. 1998) (“There is nothing unusual
about imposing prefiling restrictions in matters with a history of repetitive or
vexatious litigation.”); see also, Ortman v. Thomas, 99 F.3d 807, 811 (6th Cir. 1996)
(permanently enjoining plaintiff from filing action based on particular factual or
legal claims without first obtaining certification from a United States Magistrate that
the claim is not frivolous).
Much of this brief addresses attorney misconduct, but this is the rare case
where the Plaintiffs themselves deserve severe sanctions. Each plaintiff in this case
is an experienced Michigan politician; each plaintiff was selected as a candidate to
serve as a Trump elector; and, each plaintiff had to know that the Complaint is rife
with false allegations. None of the Plaintiffs had any legitimate basis to believe any
of the factual assertions in the Complaint, yet they signed on. And, indeed, they
signed on to claims they had to know were false, including the numerous claims by
their supposed experts.

33
A102

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3665 Filed 01/05/21 Page 50 of 56

The Plaintiffs know that Michigan does not have party registration. They
know that Michigan does not have “early voting.” They know that the nine counties
identified as “outliers” because of larger raw vote shifts are simply some of the
largest counties in the State. They know that the State does not mail ballots to voters.
They know that it is common in Michigan for voters to vote absentee by appearing
at the clerk’s office, signing an application, receiving a ballot and returning it, all on
the same day. They know that some absentee ballots are mailed by voters but
received too late to be counted. They know that counting fifty ballots eight or ten
times (as alleged by Mellissa Carone) would be found and corrected at multiple
stages of the tabulation and canvassing process. They know that there could not have
been a hand recount in Antrim County before the lawsuit was filed. They know that
absentee ballots took longer to tabulate than in-person ballots and that Biden
supporters were more likely to vote absentee than Trump supporters. And, these
experienced Michigan politicians know that their “experts” based their findings on
disregarding all of these facts.
In a case of this magnitude, intended to upend the election of the President of
the United States, the Plaintiffs owed this Court the highest degree of due diligence
before filing suit. Instead, there are only two possibilities—these six Plaintiffs did
not read the Complaint and the expert reports supporting it; or, they did read the
Complaint and the faulty expert reports and did not care that false representations

34
A103

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3666 Filed 01/05/21 Page 51 of 56

were being made to this Court. Either way, this case cries out for sanctions to deter
this behavior in the future.
VI.

Plaintiffs’ Counsel Should also be Disciplined and Referred to the
Chief Judge for Disbarment

In addressing attorney misconduct, the most important sanction here is not a
Rule 11 sanction, but a disciplinary action pursuant to the Local Rules. The message
must be sent that the Eastern District of Michigan does not tolerate frivolous
lawsuits. The out of state attorneys appearing on the pleadings for the Plaintiffs never
sought admission to the Eastern District of Michigan and never affirmed their
acceptance of our Civility Principles. They have demonstrated their unwillingness
to be guided by those principles, and they should be barred from returning to our
courts.
E. D. Mich. LR 83.20(a)(1) defines “practice in this court,” to include: “appear
in, commence, conduct, prosecute, or defend the action or proceeding; appear in
open court; sign a paper; participate in a pretrial conference; represent a client at a
deposition; or otherwise practice in this court or before an officer of this court.”25
“When misconduct or allegations of misconduct that, if substantiated, would warrant

The Rule requires that a “person practicing in this court must know these
rules, including the provisions for sanctions for violating the rules.” Under 83.20(j)
an attorney “who practices in this court” is subject to the Michigan Rules of
Professional Conduct, “and consents to the jurisdiction of this court and the
Michigan Attorney Grievance Commission and Michigan Attorney Discipline
Board for purposes of disciplinary proceedings.”
25

35
A104

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3667 Filed 01/05/21 Page 52 of 56

discipline of an attorney” who is a member of the bar or has “practiced in this court”
come to the attention of a judicial officer by complaint or otherwise, the judicial
officer may refer the matter to: (1) the Michigan Attorney Grievance Commission,
(2) another disciplinary authority that has jurisdiction over the attorney, or (3) the
chief district judge for institution of disciplinary proceedings ...” LR 83.22.
This case clearly warrants the full imposition of each disciplinary option in
the Local Rules. This Court should enter an Order requiring Plaintiffs’ to show cause
why they should not be disciplined. LR 83.22(d) authorizes the Court to levy
punishments other than suspension or disbarment on a practicing attorney whose
conduct has violated the Rules of Professional Conduct, the Local Rules, the Federal
Rules of Civil or Bankruptcy Procedure, orders of the Court, or who has engaged in
conduct considered to be “unbecoming of a member of the bar of this court.” In
Holling v. U.S., 934 F. Supp. 251 (E.D. Mich. 1996), this Court levied monetary
sanctions and a formal reprimand against counsel for raising frivolous arguments.
“Enforcing Rule 11 is the judge’s duty, albeit unpleasant. A judge would do a
disservice by shying away from administering criticism … where called for.” Id., at
253 n. 6 (quoting Thomas v. Capital Sec. Servs., Inc., 836 F.2d 866, 878 (5th Cir.
1988)). The conduct of Plaintiffs’ counsel in knowingly asserting false and frivolous
claims while seeking relief with massive implications for our democracy warrants
the strongest possible disciplinary action.

36
A105

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3668 Filed 01/05/21 Page 53 of 56

The Court should refer Plaintiffs’ counsel to the Chief Judge of this District
for disbarment proceedings and to their state bars for disciplinary actions. It appears
that only one of the Plaintiffs’ attorneys in the case—Greg Rohl—is admitted to
practice in this District; he should be barred from further practice in the District.26
The other attorneys should be prohibited from obtaining admission to this District
or practicing in it in any manner, including, where, as here, they do not seek formal
admission, but sign the pleadings.
All Plaintiffs’ attorneys should also be referred for disciplinary proceedings
to the Michigan Attorney Grievance Commission as well as to the disciplinary
authorities in their home states (Sidney Powell, Texas; L. Lin Wood, Georgia; Emily

Greg Rohl is the one attorney for Plaintiffs currently admitted to the Eastern
District of Michigan. He has previously been sanctioned for filing a case which was
deemed “frivolous from its inception” and ordered to pay over $200,000 in costs and
attorney fees. See DeGeorge v. Warheit, 276 Mich. App. 587, 589, 741 N.W.2d 384
(2007). He was then held in criminal contempt and sentenced to jail—affirmed by
the Court of Appeals—for attempting to transfer assets to evade payment. Id. The
Court of Appeals noted that a bankruptcy court had concluded that Rohl “intended
to hinder, delay and defraud … and create a sham transaction to prevent [a creditor]
from reaching Rohl’s interest in his law firm through the appointment of a receiver.”
Id. at 590. Rohl was also suspended by the Michigan Attorney Discipline Board in
2016 based on his convictions for disorderly conduct, in violation of M.C.L. §
750.1671F, “telecommunications service - malicious use, in violation of M.C.L. §
750.540E” and based on his admissions to at least two additional allegations of
professional misconduct. Ex. 21. Those prior sanctions and disciplines were
insufficient to discourage Mr. Rohl from filing the case at bar, leaving this Court
with only one way to stop his behavior—he should be barred from practice in the
Eastern District of Michigan.
26

37
A106

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3669 Filed 01/05/21 Page 54 of 56

Newman, Virginia; Julia Halller, D.C.; Brandon Johnson, D.C.; Howard
Kleinhendler, New York). Those authorities can determine the appropriate response.
It is only by responding with the harshest possible discipline that these
attorneys and those who would follow in their footsteps will learn to respect the
integrity of the court system.
CONCLUSION
WHEREFORE, for the foregoing reasons, the City of Detroit respectfully
requests that this Court enter an Order sanctioning Plaintiffs and their counsel and
initiating disciplinary proceedings in the manner identified in the Motion.
January 5, 2021

Respectfully submitted,
FINK BRESSACK
By: /s/ David H. Fink
David H. Fink (P28235)
Darryl Bressack (P67820)
Nathan J. Fink (P75185)
Attorneys for City of Detroit
38500 Woodward Ave., Ste. 350
Bloomfield Hills, MI 48304
Tel: (248) 971-2500
dfink@finkbressack.com
dbressack@finkbressack.com
nfink@finkbressack.com
CITY OF DETROIT
LAW DEPARTMENT
Lawrence T. Garcia (P54890)
James D. Noseda (P52563)
Attorneys for City of Detroit
2 Woodward Ave., 5th Floor
38
A107

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3670 Filed 01/05/21 Page 55 of 56

Detroit, MI 48226
Tel: (313) 237-5037
garcial@detroitmi.gov
nosej@detroitmi.gov

39
A108

Case 2:20-cv-13134-LVP-RSW ECF No. 78, PageID.3671 Filed 01/05/21 Page 56 of 56

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on January 5, 2021, I electronically filed the
foregoing document with the Clerk of the Court using the ECF system, which will
send notification of such filing to all attorneys of record registered for electronic
filing.
FINK BRESSACK
By:

A109

/s/ Nathan J. Fink
Nathan J. Fink (P75185)
38500 Woodward Ave., Ste. 350
Bloomfield Hills, MI 48304
Tel.: (248) 971-2500
nfink@finkbressack.com

Case 2:20-cv-13134-LVP-RSW ECF No. 78-1, PageID.3672 Filed 01/05/21 Page 1 of 2

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
TIMOTHY KING, MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES
DAVID HOOPER and DAREN WADE
RUBINGH,
Plaintiffs,

No. 2:20-cv-13134
Hon. Linda V. Parker

v.
GRETCHEN WHITMER, in her official
capacity as Governor of the State of
Michigan, JOCELYN BENSON, in her
official capacity as Michigan Secretary of
State and the Michigan BOARD OF STATE
CANVASSERS,
and

Defendants

CITY OF DETROIT, DEMOCRATIC
NATIONAL COMMITTEE and
MICHIGAN DEMOCRATIC PARTY,
Intervenor-Defendants.
INDEX OF EXHIBITS TO:
THE CITY OF DETROIT’S MOTION FOR SANCTIONS, FOR
DISCIPLINARY ACTION AND FOR DISBARMENT REFERRAL
1.

News article (https://lawandcrime.com/2020-election/detroit-is-trying-toget-sidney-powell-fined-banned-from-court-and-referred-to-the-bar-forfiling-the-kraken/)

2.

Official Turnout Results – Detroit, North Muskegon and Zeeland Twp

3.

Slip Opinion, Pearson v. Kemp, No. 1:20-cv-4809 (N.D. Ga. Dec. 7, 2020)

A110

Case 2:20-cv-13134-LVP-RSW ECF No. 78-1, PageID.3673 Filed 01/05/21 Page 2 of 2

4.

Affidavit filed in Georgia lawsuit

5.

Transcript of Telephone Call Between Donald Trump and Brad
Raffensperger

6.

News article (https://www.politico.com/news/2020/12/03/trump-pacfundraising-442775)

7.

Slip Opinion, Wisconsin Voters Alliance v. Pence, No. 1:20-cv-03791
(D.C. Jan. 4, 2021)

8.

News article (https://www.law360.com/articles/1339984)

9.

CISA Statement

10. Costantino Opinion and Order
11. Nov. 11, 2020 Affidavit of Christopher Thomas
12. Affidavit of Daniel Baxter
13. Dec. 10, 2020 Affidavit of Christopher Thomas
14. Michigan Department of State Press Release regarding Antrim County
15. News report (https://www.bridgemi.com/michigan-government/gop-callsmichigan-election-probe-officials-say-their-claims-are-weak)
16. Antrim County Audit Results
17. News report (https://www.washingtonpost.com/investigations/sidneypowell-spider-spyder-witness/2020/12/11/0cd567e6-3b2a-11eb-98c425dc9f4987e 8_story.html)
18. News report
(https://www.freep.com/story/news/politics/elections/2020/12/15/trumpfact-check-defect-voting-machines-michigan/3902951001/)
19. Braynard Survey (as submitted in Johnson)
20. Affidavit of Charles Stewart
21. Rohl Notice of Suspension

A111

Case 2:20-cv-13134-LVP-RSW ECF No. 78-2, PageID.3674 Filed 01/05/21 Page 1 of 3

EXHIBIT 1

A112

Ocic-Q Q-On_^\/-1 Q1 Q/l-l \/D-Pg\A/
ere Mn 7Q-Q
Dorioin QRVC;
Cilorl CI1 /HP/OI
Dona O /"if Q
Case
2:20-cv-13134-LVP-RSW ECF
No. 78-2, PageID.3675
Filed
01/05/21 Page
2 of 3
sr

f

@

a

LAW-® CRIME

w

O WATCH LIVE

A DAN A&RAMS PRODUCTION

Live

Where to Watch w

TV Schedule

Law&Crime Daily

Shows »

Law&Crime Productions

Hosts

Podcasts

Subscribe

SM |»
5- -5

P

Woman Admits to Hate

'Charm City Kings' Actress

'Conspiracy Theorist'

Proud Boy Leader Arrested

WikiLeaks Founder Julian

Crimes After Threatening

Allegedly Stabbed

Pharmacist Who Ruined

Hours After Historic Black

Assange's Mental

to 'Bomb' Catholic School

Girlfriend to Death in Early

Hundreds of Moderna

Church Sues Over Black

Unraveling Drives U.K.

That Included Gay

Hours of New Year's Day

Doses Said He Believed

Lives Matter Sign

Judge to Block Extradition

Weddings in Alumni

COVID-19 Vaccine Could

Destruction

to United States

Magazine

Change DNA: Police

Detroit Is Trying to Get Sidney Powell Fined, Banned
from Court, and Referred to the Bar for Filing the
'Kraken'
ADAM KLASFELD | Dec 15th, 2020, 8:41 pm

1*817

Top of Today

1

Trump Lawyer Rudy Giuliani, in
Bizarre Ye3ar-End Video, Says

Americans

'

'Foolishly' Anointed Dr. Fauci
the 'Greek' or 'Roman God of

the Left Wing'
I
'Conspiracy Theorist"

lil

Pharmacist Who Ruined

Hundreds of Modema Doses
Said He Believed COVID-19
Vaccine Could Change DNA:

I
A

Police

Texas GOP Official Says Call for

w

Mitt Romney's Head Was Just a

Metaphor About 'Separation' of
Romneyfrom Voters

The City of Detroit wants Sidney Powell and her self-styled "Kraken"
This Is the Democratic DA for

team to face sanctions for "frivolously undermining 'People's faith in

Atlanta Lookingto Investigate

the democratic process and their trust in our government.'"

Trump's Phone Call with
Georgia's Secretary of State

The Motor City's motion asks a federal judge to fine the lawyers, Dan
them from practicing in the Eastern District in Michigan and refer
them to the Wolverine State's bar for grievance proceedings.

Tom Cotton Fears Supporting

'I

Trump on Jan. 6 Will Help
Dems Abolish Electoral College,
So Trump Is Trying to Abolish

Tom Cotton

"It's time for this nonsense to end," Detroit's lawyer David Fink told
Law&Crime in a phone interview.

Tips
"The lawyers filing these frivolous cases that undermine democracy
Have a tip or story idea?

must pay a price," Fink added.

Email us. Or to keep it

Under standard procedures for Rule 11 sanctions, opposing counsel
must be granted a 21-day window to withdraw offending litigation
before a request is filed in court. The motion has not yet been filed,

and it was briefly tweeted out by Marc Elias, an attorney from the
Washington-based firm Perkins Coie who has regularly intervened in
these cases on behalf of the Democratic Party and the Biden
campaign.

"Plaintiffs and their counsel understood that the mere filing of a suit

(no matter how frivolous) could, without any evidence, raise doubts in
the minds of millions of Americans about the legitimacy of the 2020
presidential election," Fink's 9-page motion states. "As this Court
noted, 'Plaintiffs ask th[e] Court to ignore the orderly statutory

scheme established to challenge elections and to ignore the will of
millions of voters.'"

Fink had been quoting a scathing ruling by U.S. District Judge Linda
Parker, who dismissed Powell's litigation with a resounding
invocation of the will of the Michigan electorate: "The People have

spoken."

"The right to vote is among the most sacred rights of our democracy
and, in turn, uniquely defines us as Americans," Parker noted in her
36-page ruling. "The struggle to achieve the right to vote is one that
has been both hard fought and cherished throughout our country's

history. Local, state, and federal elections give voice to this right
through the ballot. And elections that count each vote celebrate and
secure this cherished right."

Powell and her co-counsel Lin Wood! have filed three other suits like
it in Wisconsin, Arizona and Georgia, losing each of them in turn.

They claim to be en route to fighting them to the Supreme Court, but
there is no sign of a single cert petition on the high court's docket.

Asked about the sanctions motion, Powell replied cryptically: "We are
clearly over the target."

A113

On the other hand, every court that has heard her conspiracy

theories about a supposed plot involving Dominion voting machines,

ii^ifrvXC. anonymous. click here

O LISTEN LIVE

Case
Case 2:20-cv-13134-LVP-RSW
2:20-cv-13134-LVP-RSW ECF
ECF No.
No. 78-2,
78-2, PageID.3676
PageID.3676 Filed
Filed 01/05/21
01/05/21 Page
Page 3
3 of
of 3
3
dead Venezuelan strongman Hugo Chavez, bipartisan government
officials and election workers in counties across the United States
found that narrative untethered to reality.

"The key 'factual' allegations from the supposed fact witnesses,
some of whom attempt to cloak their identities while attacking

democracy, have been debunked," the sanctions motion states. "The
allegations about supposed fraud in the processing and tabulation of
absentee ballots by the City at the TCF Center have been rejected by
every court which has considered them. If any of the claims in this

lawsuit had merit, that would have been demonstrated in those
cases."

Powell has deployed a parade of anonymous and supposedly
confidential witness, including a purported military intelligence expert
code-named "Spyder" who later admitted to the Washington Post

that he was actually an auto mechanic named Joshua Merritt with
no such work experience.

Though the cases get quickly booted out of court, Detroit and other
cities across the country have been forced to defend them and their
appeals on the taxpayer dime.

"This abuse of the legal process at the expense of states should not
go unpunished," Fink said.

If the sanctions motion moved forward in court, Powell could be

forced to post a $100,000 bond before filing any more appeals of
her lawsuit, on top of the other penalties Fink requested.

Even if Powell withdraws her case in response to Detroit's motion,

Judge Parker can choose to sanction the "Kraken" team—so-named
after the mythical, octopus-like creature—on her own initiative.

Fink has earned distinction for his passionate and indignant effort to
turn the tables on attacks on the U.S. democratic process by
outgoing President Donald Trump and his allies. Their flood of

litigation reminded him of Bill Murray's "Groundhog Day," only a
deadly serious version that amounted to an effort to bring about what
he called a "court-ordered coup d'etat." He has sought to sanction
pro-Trump lawyers before for a campaign of "lies" and "frivolous"

litigation.

Also on T uesday, Detroit asked a judge in Wayne County to sanction
two pro-Trump non-profits behind a state court case that was thrown
out because it was backed by "no evidence."

"This is not a legitimate lawsuit; it is a public relations weapon being
used to advance the false narrative that our democratic system is

broken," Detroit's motion thunders. "This abuse of our legal system
deserves the strongest possible sanctions."

Brought by the so-called Election Integrity Fund—whose website
describes itself as 501(c)4 formed this year—the case was one of
several lawsuits filed across the country by the Thomas More Society.
That 501(c}3 named after the Catholic saint and author of "Utopia"
counted Rudy Giuliani as a "partner" in a spate of lawsuits dubbed
theAmistad Project.

Like "Utopia," none of the lawsuits described factual allegations that
another judge found to exist.

"This is not a minor lawsuit; it is a dangerous attack on the integrity
of the democratic process for the election of the President of the
United States," Fink wrote. "The parties and their attorneys should be
held to the highest standards of factual and legal due diligence;
instead, they have raised false allegations and pursued
unsupportable legal theories. Then, after being corrected by the
defendants and the Courts, they refuse to dismiss their lawsuit.
Apparently this frivolous lawsuit continues because it serves other,
more nefarious, purposes. While the pending complaint cannot
possibly result in meaningful relief, it does serve the purpose of
conveying to the world the impression that something fraudulent
occurred in Detroit's vote count."

Several other pro-Trump non-profits filed and lost meritless lawsuits
across the country.

King-lntervenor-Defendant-City-of-Detroits-Rule-ll-Motion

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
TIMOTHY KING. MARIAN ELLEN
SHERIDAN, JOHN EARL HAGGARD,

CHARLES JAMES RITCHARD. JAMES

DAVID HOOPER and DAREN WADE
RUBINGH.

A114

No. 2:20-cv-I3l34

p

Case 2:20-cv-13134-LVP-RSW ECF No. 78-3, PageID.3677 Filed 01/05/21 Page 1 of 8

EXHIBIT 2

A115

—

Case 2:20-cv-13134-LVP-RSW
Case
2:20-cv-13134-LVP-RSW ECF
ECF No.
No. 78-3,
78-3, PageID.3678
PageID.3678 Filed
Filed 01/05/21
01/05/2 Page 2 of 8

1 Page 2 ^of ^ 8 ...... ; .

Election Summary Report
November 3, 2020 - General Election
Detroit, Michigan
OFFICIAL RESULTS

Precincts Reported: 637 of 637 (100.00%)

Registered Voters: 257,619 of 506,305 (50.86%)

Ballots Cast: 257,619

Straight Party (Vote for 1)
Precincts Reported: 637 of 637 (100.00%)
Election Day
Times Cast

Candidate

83,235
Party

Election Day

AV Counting

174,384
AV Counting

Total
257,619/506,305

50.88%

Total

Board

Democrat Party

DEM

61,710

135,381

197,091

94.99%

Republican Party

REP

3,787

3,448

7,235

3.49%

Libertarian Party

LIB

310

292

602

0.29%

UST

378

271

649

0.31%

Working Class Party

WCP

610

550

1,160

0.56%

Green Party

GRN

218

219

437

0.21%

NLP

183

131

314

0.15%

67,196

140,292

207,488

U.S. Taxpayers Party

Natural Law Party
Total Votes

Election Day

AV Counting

Total

Board

Unresolved Write-in

0

0

1

A116

0

Case 2:20-cv-13134-LVP-RSW ECF No. 78-3, PageID.3679 Filed 01/05/21 Page 3 of 8

Precinct Results

Official Results

Muskegon County, Michigan

Registered Voters
96730 of 148377 = 65.19%

General Election

Election Night Results

Run Time

5:55 PM

Run Date

11/13/2020

Precincts Reporting
75 of 75 = 100.00%

11/3/2020
Page 460

Cityh of North Muskegon, Precinct 1

1,178 of 1,602 registered voters = 73.53%

United States Senator - Vote for not more than 1
Choice

Party

Absentee Voting

Election Day Voting

Gary Peters

DEM

391

58.53%

160

32.79%

551

47.66%

John James

REP

266

39.82%

314

64.34%

580

50.17%

Valerie L. Willis

UST

3

0.45%

8

1.64%

11

0.95%

Marcia Squier

GRN

5

0.75%

4

0.82%

9

0.78%

Doug Dern

NLP

3

0.45%

2

0.41%

5

0.43%

Leonard Paul Gadzinski (W)

0

0.00%

0

0.00%

0

0.00%

Rober william Carr (W)

0

0.00%

0

0.00%

0

0.00%

Cast Votes:

668

100.00%

488

100.00%

1,156

100.00%

Overvotes:

0

1

Total

1

Representative in Congress 2nd District - Vote for not more than 1
Choice

Party

Bryan Berghoef

DEM

Absentee Voting
368

55.59%

Election Day Voting
145

30.15%

513

44.88%

Bill Huizenga

REP

281

42.45%

321

66.74%

602

52.67%

Max Riekse

LIB

8

1.21%

9

1.87%

17

1.49%

Gerald T. VanSickle

UST

0

0.00%

4

0.83%

4

0.35%

Jean-Michel Creviere

GRN

5

0.76%

2

0.42%

7

0.61%

Cast Votes:

662

100.00%

481

100.00%

1,143

100.00%

Overvotes:

2

0

Total

2

Representative in State Legislature 92nd District - Vote for not more than 1
Choice

Party

Absentee Voting

Election Day Voting

Terry J. Sabo

DEM

452

68.69%

206

43.64%

658

58.23%

Michael L. Haueisen

REP

206

31.31%

266

56.36%

472

41.77%

Cast Votes:

658

100.00%

472

100.00%

1,130

100.00%

Overvotes:

0

0

A117

Total

0

Case 2:20-cv-13134-LVP-RSW ECF No. 78-3, PageID.3680 Filed 01/05/21 Page 4 of 8

Precinct Results

Official Results

Muskegon County, Michigan

Registered Voters
96730 of 148377 = 65.19%

General Election

Election Night Results

Run Time

5:55 PM

Run Date

11/13/2020

Precincts Reporting
75 of 75 = 100.00%

11/3/2020
Page 467

City of North Muskegon, Precinct 2

1,470 of 1,788 registered voters = 82.21%

Straight Party Ticket - Vote for not more than 1
Choice

Party

Absentee Voting

Election Day Voting

Democratic Party

DEM

209

62.20%

86

35.54%

295

51.04%

Republican Party

REP

125

37.20%

153

63.22%

278

48.10%

Libertarian Party

LIB

2

0.60%

1

0.41%

3

0.52%

US Taxpayers Party

UST

0

0.00%

1

0.41%

1

0.17%

Working Class Party

WCP

0

0.00%

1

0.41%

1

0.17%

Green Party

GRN

0

0.00%

0

0.00%

0

0.00%

Natural Law Party

NLP

0

0.00%

0

0.00%

0

0.00%

Cast Votes:

336

100.00%

242

100.00%

578

100.00%

Overvotes:

0

1

Total

1

Electors of President and Vice-President of the United States - Vote for not more than 1
Choice

Party

Joseph R. Biden
Kamala D. Harris

DEM

Absentee Voting
491

57.23%

Election Day Voting
208

34.55%

699

47.88%

Donald J. Trump
Michael R. Pence

REP

350

40.79%

381

63.29%

731

50.07%

Jo Jorgensen
Jeremy Cohen

LIB

17

1.98%

9

1.50%

26

1.78%

Don Blankenship
William Mohr

UST

0

0.00%

0

0.00%

0

0.00%

Howie Hawkins
Angela Walker

GRN

0

0.00%

3

0.50%

3

0.21%

Rocky De La Fuente
Darcy Richardson

NLP

0

0.00%

1

0.17%

1

0.07%

Brian T. Carrol (W)

0

0.00%

0

0.00%

0

0.00%

Jade Simmons (W)

0

0.00%

0

0.00%

0

0.00%

Kasey Wells (W)

0

0.00%

0

0.00%

0

0.00%

Tara Renee Hunter (W)

0

0.00%

0

0.00%

0

0.00%

Tom Hoefling (W)

0

0.00%

0

0.00%

0

0.00%

Cast Votes:

858

100.00%

602

100.00%

1,460

100.00%

Overvotes:

0

1

A118

Total

1

Case 2:20-cv-13134-LVP-RSW ECF No. 78-3, PageID.3681 Filed 01/05/21 Page 5 of 8

Precinct Report

Official Results

Ottawa County, Michigan

Registered Voters
169960 of 221421 = 76.76%

General Election

Ottawa County Canvass of Votes

Run Time

4:20 PM

Run Date

11/11/2020

Precincts Reporting
105 of 105 = 100.00%

11/3/2020
Page 918

Zeeland Charter Township, Precinct 1

1,580 of 2,122 registered voters = 74.46%

Straight Party Ticket - Vote for not more than 1
Choice

Party

Election Day Voting

Absentee Voting

Total

Democratic Party

DEM

96

15.92%

155

33.55%

251

23.57%

Republican Party

REP

500

82.92%

297

64.29%

797

74.84%

Libertarian Party

LIB

2

0.33%

3

0.65%

5

0.47%

U.S. Taxpayers Party

UST

1

0.17%

0

0.00%

1

0.09%

Working Class Party

WCP

1

0.17%

4

0.87%

5

0.47%

Green Party

GRN

1

0.17%

3

0.65%

4

0.38%

Natural Law Party

NLP

2

0.33%

0

0.00%

2

0.19%

Cast Votes:

603

100.00%

462

100.00%

1,065

100.00%

Undervotes:

297

218

515

Overvotes:

0

0

0

Electors of President and Vice-President of the United States - Vote for not more than 1
Choice

Party

Election Day Voting

Joseph R. Biden
Kamala D. Harris

DEM

177

19.82%

267

39.50%

444

28.30%

Donald J. Trump
Michael R. Pence

REP

696

77.94%

395

58.43%

1,091

69.53%

Jo Jorgensen
Jeremy Cohen

LIB

13

1.46%

7

1.04%

20

1.27%

Don Blankenship
William Mohr

UST

2

0.22%

3

0.44%

5

0.32%

Howie Hawkins
Angela Walker

GRN

3

0.34%

4

0.59%

7

0.45%

Rocky De La Fuente
Darcy Richardson

NLP

1

0.11%

0

0.00%

1

0.06%

Brian T. Carroll (W)

1

0.11%

0

0.00%

1

0.06%

Jade Simmons (W)

0

0.00%

0

0.00%

0

0.00%

Kasey Wells (W)

0

0.00%

0

0.00%

0

0.00%

Tara Renee Hunter (W)

0

0.00%

0

0.00%

0

0.00%

Tom Hoefling (W)

0

0.00%

0

0.00%

0

0.00%

Cast Votes:

893

100.00%

676

100.00%

1,569

100.00%

Undervotes:

6

4

10

Overvotes:

1

0

1

A119

Absentee Voting

Total

Case 2:20-cv-13134-LVP-RSW ECF No. 78-3, PageID.3682 Filed 01/05/21 Page 6 of 8

Precinct Report

Official Results

Ottawa County, Michigan

Registered Voters
169960 of 221421 = 76.76%

General Election

Ottawa County Canvass of Votes

Run Time

4:20 PM

Run Date

11/11/2020

Precincts Reporting
105 of 105 = 100.00%

11/3/2020
Page 927

Zeeland Charter Township, Precinct 2

2,110 of 2,626 registered voters = 80.35%

Straight Party Ticket - Vote for not more than 1
Choice

Party

Election Day Voting

Absentee Voting

Total

Democratic Party

DEM

75

15.86%

185

21.64%

260

19.58%

Republican Party

REP

389

82.24%

666

77.89%

1,055

79.44%

Libertarian Party

LIB

7

1.48%

4

0.47%

11

0.83%

U.S. Taxpayers Party

UST

0

0.00%

0

0.00%

0

0.00%

Working Class Party

WCP

1

0.21%

0

0.00%

1

0.08%

Green Party

GRN

1

0.21%

0

0.00%

1

0.08%

Natural Law Party

NLP

0

0.00%

0

0.00%

0

0.00%

Cast Votes:

473

100.00%

855

100.00%

1,328

100.00%

Undervotes:

298

484

782

Overvotes:

0

0

0

Electors of President and Vice-President of the United States - Vote for not more than 1
Choice

Party

Election Day Voting

Joseph R. Biden
Kamala D. Harris

DEM

157

20.60%

464

34.97%

621

29.73%

Donald J. Trump
Michael R. Pence

REP

584

76.64%

841

63.38%

1,425

68.21%

Jo Jorgensen
Jeremy Cohen

LIB

20

2.62%

17

1.28%

37

1.77%

Don Blankenship
William Mohr

UST

0

0.00%

3

0.23%

3

0.14%

Howie Hawkins
Angela Walker

GRN

1

0.13%

2

0.15%

3

0.14%

Rocky De La Fuente
Darcy Richardson

NLP

0

0.00%

0

0.00%

0

0.00%

Brian T. Carroll (W)

0

0.00%

0

0.00%

0

0.00%

Jade Simmons (W)

0

0.00%

0

0.00%

0

0.00%

Kasey Wells (W)

0

0.00%

0

0.00%

0

0.00%

Tara Renee Hunter (W)

0

0.00%

0

0.00%

0

0.00%

Tom Hoefling (W)

0

0.00%

0

0.00%

0

0.00%

Cast Votes:

762

100.00%

1,327

100.00%

2,089

100.00%

Undervotes:

9

12

21

Overvotes:

0

0

0

A120

Absentee Voting

Total

Case 2:20-cv-13134-LVP-RSW ECF No. 78-3, PageID.3683 Filed 01/05/21 Page 7 of 8

Precinct Report

Official Results

Ottawa County, Michigan

Registered Voters
169960 of 221421 = 76.76%

General Election

Ottawa County Canvass of Votes

Run Time

4:20 PM

Run Date

11/11/2020

Precincts Reporting
105 of 105 = 100.00%

11/3/2020
Page 936

Zeeland Charter Township, Precinct 3

2,046 of 2,531 registered voters = 80.84%

Straight Party Ticket - Vote for not more than 1
Choice

Party

Election Day Voting

Absentee Voting

Total

Democratic Party

DEM

72

10.94%

179

27.33%

251

19.12%

Republican Party

REP

581

88.30%

471

71.91%

1,052

80.12%

Libertarian Party

LIB

4

0.61%

3

0.46%

7

0.53%

U.S. Taxpayers Party

UST

0

0.00%

0

0.00%

0

0.00%

Working Class Party

WCP

0

0.00%

1

0.15%

1

0.08%

Green Party

GRN

1

0.15%

1

0.15%

2

0.15%

Natural Law Party

NLP

0

0.00%

0

0.00%

0

0.00%

Cast Votes:

658

100.00%

655

100.00%

1,313

100.00%

Undervotes:

365

366

731

Overvotes:

2

0

2

Electors of President and Vice-President of the United States - Vote for not more than 1
Choice

Party

Election Day Voting

Joseph R. Biden
Kamala D. Harris

DEM

176

17.27%

387

37.98%

563

27.63%

Donald J. Trump
Michael R. Pence

REP

831

81.55%

618

60.65%

1,449

71.10%

Jo Jorgensen
Jeremy Cohen

LIB

9

0.88%

6

0.59%

15

0.74%

Don Blankenship
William Mohr

UST

0

0.00%

2

0.20%

2

0.10%

Howie Hawkins
Angela Walker

GRN

2

0.20%

2

0.20%

4

0.20%

Rocky De La Fuente
Darcy Richardson

NLP

1

0.10%

0

0.00%

1

0.05%

Brian T. Carroll (W)

0

0.00%

4

0.39%

4

0.20%

Jade Simmons (W)

0

0.00%

0

0.00%

0

0.00%

Kasey Wells (W)

0

0.00%

0

0.00%

0

0.00%

Tara Renee Hunter (W)

0

0.00%

0

0.00%

0

0.00%

Tom Hoefling (W)

0

0.00%

0

0.00%

0

0.00%

Cast Votes:

1,019

100.00%

1,019

100.00%

2,038

100.00%

Undervotes:

6

2

8

Overvotes:

0

0

0

A121

Absentee Voting

Total

Case 2:20-cv-13134-LVP-RSW ECF No. 78-3, PageID.3684 Filed 01/05/21 Page 8 of 8

Precinct Report

Official Results

Ottawa County, Michigan

Registered Voters
169960 of 221421 = 76.76%

General Election

Ottawa County Canvass of Votes

Run Time

4:20 PM

Run Date

11/11/2020

Precincts Reporting
105 of 105 = 100.00%

11/3/2020
Page 945

Zeeland Charter Township, Precinct 4

1,239 of 1,461 registered voters = 84.80%

Straight Party Ticket - Vote for not more than 1
Choice

Party

Election Day Voting

Absentee Voting

Total

Democratic Party

DEM

41

9.60%

91

22.47%

132

15.87%

Republican Party

REP

375

87.82%

313

77.28%

688

82.69%

Libertarian Party

LIB

6

1.41%

1

0.25%

7

0.84%

U.S. Taxpayers Party

UST

1

0.23%

0

0.00%

1

0.12%

Working Class Party

WCP

0

0.00%

0

0.00%

0

0.00%

Green Party

GRN

4

0.94%

0

0.00%

4

0.48%

Natural Law Party

NLP

0

0.00%

0

0.00%

0

0.00%

Cast Votes:

427

100.00%

405

100.00%

832

100.00%

Undervotes:

221

186

407

Overvotes:

0

0

0

Electors of President and Vice-President of the United States - Vote for not more than 1
Choice

Party

Election Day Voting

Joseph R. Biden
Kamala D. Harris

DEM

102

15.84%

199

33.90%

301

24.45%

Donald J. Trump
Michael R. Pence

REP

525

81.52%

379

64.57%

904

73.44%

Jo Jorgensen
Jeremy Cohen

LIB

11

1.71%

8

1.36%

19

1.54%

Don Blankenship
William Mohr

UST

0

0.00%

0

0.00%

0

0.00%

Howie Hawkins
Angela Walker

GRN

5

0.78%

1

0.17%

6

0.49%

Rocky De La Fuente
Darcy Richardson

NLP

1

0.16%

0

0.00%

1

0.08%

Brian T. Carroll (W)

0

0.00%

0

0.00%

0

0.00%

Jade Simmons (W)

0

0.00%

0

0.00%

0

0.00%

Kasey Wells (W)

0

0.00%

0

0.00%

0

0.00%

Tara Renee Hunter (W)

0

0.00%

0

0.00%

0

0.00%

Tom Hoefling (W)

0

0.00%

0

0.00%

0

0.00%

Cast Votes:

644

100.00%

587

100.00%

1,231

100.00%

Undervotes:

4

4

8

Overvotes:

0

0

0

A122

Absentee Voting

Total

Case 2:20-cv-13134-LVP-RSW ECF No. 78-4, PageID.3685 Filed 01/05/21 Page 1 of 3

EXHIBIT 3

A123

CM/ECF-GA Northern District Court

1 of 2

https://gand-ecf.sso.dcn/cgi-bin/GANDc_mkmin.pl?943543211146275-...

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-04809-TCB
ECFDocument
No. 78-4, PageID.3686
74 Filed 12/07/20
Filed 01/05/21
Page 1 of Page
2
2 of 3

1:20-cv-04809-TCB
Pearson et al v. Kemp et al
Honorable Timothy C. Batten, Sr.
Minute Sheet for proceedings held In Open Court on 12/07/2020.
TIME COURT COMMENCED: 10:00 A.M.
TIME COURT CONCLUDED: 11:06 A.M.
TIME IN COURT: 1:06
OFFICE LOCATION: Atlanta
ATTORNEY(S)
PRESENT:

COURT REPORTER: Lori Burgess
DEPUTY CLERK: Uzma Wiggins

Joshua Belinfante representing Brad Raffensperger
Joshua Belinfante representing Brian Kemp
Joshua Belinfante representing David J. Worley
Joshua Belinfante representing Matthew Mashburn
Joshua Belinfante representing Rebecca N. Sullivan
Amanda Callais representing DCCC
Amanda Callais representing DSCC
Amanda Callais representing Democratic Party of Georgia, Inc.
Julia Haller representing Brian Jay Van Gundy
Julia Haller representing Carolyn Hall Fisher
Julia Haller representing Cathleen Alston Latham
Julia Haller representing Coreco Jaqan Pearson
Julia Haller representing Gloria Kay Godwin
Julia Haller representing James Kenneth Carroll
Julia Haller representing Vikki Townsend Consiglio
Harry MacDougald representing Brian Jay Van Gundy
Harry MacDougald representing Carolyn Hall Fisher
Harry MacDougald representing Cathleen Alston Latham
Harry MacDougald representing Coreco Jaqan Pearson
Harry MacDougald representing Gloria Kay Godwin
Harry MacDougald representing James Kenneth Carroll
Harry MacDougald representing Vikki Townsend Consiglio
Charlene McGowan representing Anh Le
Charlene McGowan representing Brad Raffensperger
Charlene McGowan representing Brian Kemp
Charlene McGowan representing David J. Worley

A124

12/7/2020, 2:36 PM

CM/ECF-GA Northern District Court

2 of 2

https://gand-ecf.sso.dcn/cgi-bin/GANDc_mkmin.pl?943543211146275-...

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-04809-TCB
ECFDocument
No. 78-4, PageID.3687
74 Filed 12/07/20
Filed 01/05/21
Page 2 of Page
2
3 of 3
Charlene McGowan representing Matthew Mashburn
Charlene McGowan representing Rebecca N. Sullivan
Carey Miller representing Anh Le
Carey Miller representing Brad Raffensperger
Carey Miller representing Brian Kemp
Carey Miller representing David J. Worley
Carey Miller representing Matthew Mashburn
Carey Miller representing Rebecca N. Sullivan
Sidney Powell representing Brian Jay Van Gundy
Sidney Powell representing Carolyn Hall Fisher
Sidney Powell representing Cathleen Alston Latham
Sidney Powell representing Coreco Jaqan Pearson
Sidney Powell representing Gloria Kay Godwin
Sidney Powell representing James Kenneth Carroll
Sidney Powell representing Vikki Townsend Consiglio
** Abigail Frye
PROCEEDING
CATEGORY:
MOTIONS RULED
ON:
MINUTE TEXT:
HEARING STATUS:

Motion Hearing(PI or TRO Hearing-Evidentiary);
[43]Motion to Dismiss GRANTED
[63]Motion to Dismiss GRANTED
Defendants' motions are GRANTED. TRO is DISSOLVED. Case is
DISMISSED. Clerk shall close the case.
Hearing Concluded

A125

12/7/2020, 2:36 PM

Case 2:20-cv-13134-LVP-RSW ECF No. 78-5, PageID.3688 Filed 01/05/21 Page 1 of 10

EXHIBIT 4

A126

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-04651-SDG
ECF
No. 78-5, PageID.3689
7-1
11/18/20
Filed
Page 1 of
Page
9
2
2:20(£as£31
24FfcVPfeSWS IEG
F Document
Noc1715,tP
&le I Filed
BilSQaEl/F8
I/2® 01/05/21
0 E0§/21
QP&ge
2 of
of 10
10

Affidavit of Russell James Ramsland, Jr.
1. My name is Russell James Ramsland, Jr., and I am a resident of Dallas County,

Texas.

2. I am part of the management team of Allied Security Operations Group, LLC,
(ASOG). ASOG provides a range of security services, but has a particular emphasis
on cyber security, OSINT and PEN testing of networks. We employ a wide variety of
cyber and cyber forensic analysts. We have patents pending in a variety of
applications from novel network security applications to SCADA protection and safe
browsing solutions for the dark and deep web.
3. In November 2018, ASOG analyzed audit logs for the central tabulation server of
the ES&S Election Management System (EMS) for the Dallas, Texas, General Election
of 2018. Our team was surprised at the enormous number of error messages that
should not have been there. They numbered in the thousands, and the operator

ignored and overrode all of them. This lead to various legal challenges in that
election, and we provided evidence and analysis in some of them.
4. As a result, ASOG initiated an 18-month study into the major EMS providers in
the United States, among which is Dominion/Premier that provides EMS services in
Michigan. We did thorough background research of the literature and discovered
there is quite a history from both Democrat and Republican stakeholders in the

vulnerability of Dominion. The State of Texas rejected Dominion/Premier's
certification for use there due to vulnerabilities. Next, we began doing PEN testing
into the vulnerabilities described in the literature and confirmed for ourselves that
in many cases, vulnerabilities already identified were still left open to exploit. We
also noticed a striking similarity between the approach to software and EMS
systems of ES&S and Dominion/Premier. This was logical since they share a
common ancestry in the Diebold voting system.
5. Over the past three decades, almost all of the states have shifted from a relatively
low-technology format to a high-technology format that relies heavily on a handful

of private services companies. These private companies supply the hardware and
software, often handle voter registrations, hold the voter records, partially manage
the elections, program counting the votes and report the outcomes. Michigan is one
of those states.
6. These systems contain a large number of vulnerabilities to hacking and
tampering, both at the front end where Americans cast their votes, and at the back
end where the votes are stored, tabulated, and reported. These vulnerabilities are
well known, and experts in the field have written extensively about them.

7. Dominion/Premier ("Dominion") is a privately held United States company that
provides election technologies and services to government jurisdictions. Numerous
counties across the state of Michigan use the Dominion/Premier Election

A127

Ex.
to TRO
TRO Motion:
Ex. Q
Q to
Motion:
Ramsland Affidavit
Affidavit
Ramsland

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-04651-SDG
ECF
No. cms
78-5, tPaLe
PageID.3690
7-1 I Filed
11/18/20
Filed 01/05/21
Page 2 of
Page
9
3
2:20£as£3±24)-k;VP>4SSW
S EG
F Document
Noc
BLI369LL./
KM
0 P0§£21
oP&ge
3 of
of 10
10

Management System. The Dominion/Premier system has both options to be an
electronic, paperless voting system with no permanent record of the voter's choices,
paper ballot based system or hybrid of those two.
8. The Dominion/Premier Election Management System's central accumulator does

not include a protected real-time audit log that maintains the date and time stamps

of all significant election events. Key components of the system utilize unprotected
logs. Essentially this allows an attacker the opportunity to arbitrarily add, modify,
or remove log entries, causing the machine to log election events. When a log is

unprotected, and can be altered, it can no longer serve the purpose of an audit log.
9. My colleagues and 1 at ASOG have studied the information that is publicly
available concerning the November 3, 2020, election results. Based on the
significant anomalies and red flags that we have observed, we believe there is a
significant probability that election results have been manipulated within the

Dominion/Premier system in Michigan. Dr. Andrew Appel, Princeton Professor of
Computer Science and Election Security Expert has observed, with reference to
Dominion Voting machines, "1 figured out how to make a slightly different computer
program that just before the polls were closed it switches some votes around from

one candidate to another. I wrote that computer program into a memory chip and
now to hack a voting machine you just need 7 minutes alone with it and a
screwdriver." Some of those red flags are listed below. Until a thorough analysis is
conducted, it will be impossible to know for certain.

10. One red flag has been seen in Antium County, Michigan. In Michigan we have
seen reports of 6,000 votes in Antium County that were switched from Donald
Trump to Joe Biden and were only discoverable through a hand counted manual
recount. While the first reports have suggested that it was due to a glitch after an
update, it was recanted and later attributed to "clerical error." This change is

important because if it was not due to clerical error, but due to a "glitch" emanating
from an update, the system would be required to be "re-certified" according to
Dominion officials. This was not done. We are skeptical of these assurances as we
know firsthand this has many other plausible explanations and a full investigation of

this event needs to be conducted as there are a reported 47 other counties using
essentially the same system in Michigan. It is our belief (based on the information
we have at this point) that the problem most likely did occur due to a glitch where
an update file didn't properly synchronize the ballot barcode generation and
reading portions of the system. If that is indeed the case, there is no reason to

assume this would be an isolated error. This glitch would cause entire ballot uploads
to read as zero in the tabulation batch, which we also observed happening in the
data (provisional ballots were accepted properly but in-person ballots were being
rejected (zeroed out and/or changed (flipped)). Because of the highly vulnerable
nature of these systems to error and exploits, it is quite possible that some, or all of
these other counties may have the same problem.

11. Another statistical red flag is evident in the number of votes cast compared to
the number of voters in some precincts. A preliminary analysis using data obtained

A128

Ex.
to TRO
TRO Motion:
Ex. Q
Q to
Motion:
Ramsland
Ramsland Affidavit
Affidavit

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-04651-SDG
ECF
No.
78-5, tRaie
PageID.3691
7-1 I Filed
11/18/20
Filed 01/05/21
Page 3 of
Page
9
4
2:20<css£3124)-fcVP46SW/S
EG
F Document
Doc 78-5,
BilSQani/
E3/2D
0 l/Ofj&n
oP&ge
4 of
of 10
10

from the Michigan Secretary of State pinpoints a statistical anomaly so far outside of
every statistical norm as to be virtually impossible. There are a stunning 3,276
precincts where the Presidential Votes Cast compared to the Estimated Voters
based on Reported Statistics ranges from 84% to 350%. Normalizing the Turnout
Percentage of this grouping to 80%, (still way above the national average for

turnout percentage), reveals 431,954 excess ballots allegedly processed. There

were at least 19 precincts where the Presidential Votes Cast compared to the
Estimated Voters based on Reported Statistics exceeded 100%.

Votes/SOS
Precinct Township

Est. Voters

BENVILLE TWP

350%

MONTICELLO P-l

144%

MONTICELLO P-2

138%

ALBERTVILLE P-2

138%

ALBERTVILLE P-l

136%

BRADFORD TWP.

104%

VELDT TWP.

104%

CHAMPION TWP

104%

KENT CITY

103%

WANGER TWP.

102%

KANDIYOHI TWP.

102%

LAKE LILLIAN TWP.

102%

HOKAH TWP.

102%

HOUSTON TWP.

101%

HILL RIVER TWP.

101%

SUNNYSIDE TWP.

101%

BROWNSVILLE TWP.

101%

OSLO

101%

EYOTA TWP.

101%

This pattern strongly suggests that the additive algorithm (a feature enhancement

referred to as "ranked choice voting algorithm" or "RCV") was activated in the code
as shown in the Democracy Suite EMS Results Tally and Reporting User Guide,
Chapter 11, Settings 11.2.2. It reads in part, "RCV METHOD: This will select the
specific method of tabulating RCV votes to elect a winner." For instance, blank

ballots can be entered into the system and treated as "write-ins." Then the operator
can enter an allocation of the write-ins among candidates as he wishes. The final

result then awards the winner based on "points" the algorithm in the compute, not
actual votes. The fact that we observed raw vote data that includes decimal places
suggests strongly that this was, in fact, done. Otherwise, votes would be solely
represented as whole numbers. Below is an excerpt from Dominion's direct feed to

news outlets showing actual calculated votes with decimals.

A129

Ex.
Ex. Q
Q to
to TRO
TRO Motion:
Motion:
Ramsland Affidavit
Affidavit
Ramsland

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-04651-SDG
ECF
No. 018-55
78-5, tF5£i1e
PageID.3692
7-1 I Filed
11/18/20
Filed) 01/05/21
Page 4 of
Page
9
5
2:20GC3S£3±2
4)-fcVro4eSWS EG
F Document
Noc
BLI36921/H3I/2
0 1/05/21
oP&ge
5 of
of 10
10

state

timestamp

eevp

trump

michigan

2020-ll-04T06:54:48Z

64

0.534

michigan

2020-ll-04T06:56:47Z

64

0.534

michigan

2020-ll-04T06:58:47Z

64

0.534

michigan

2020- 1 1-04T07 :00:37Z

64

michigan

2020-ll-04T07:01:46Z

michigan

2020-ll-04T07:03:17Z

biden

TV

BV

0.448

1925865.66

1615707.52

0.448

1930247.664

1619383.808

0.448

1931413.386

1620361.792

0.533

0.45

1941758.975

1639383.75

64

0.533

0.45

1945297.562

1642371.3

65

0.533

0.45

1948885.185

1645400.25

12. Yet another statistical red flag in Michigan concerns the dramatic shift in votes
between the two major party candidates as the tabulation of the turnout increased.
A significant irregularity surfaces. Until the tabulated voter turnout reached

approximately 83%, Trump was generally winning between 55% and 60% of every
turnout point. Then, after the counting was closed at 2:00 am, the situation

dramatically reversed itself, starting with a series of impossible spikes shortly after
counting was supposed to have stopped. The several spikes cast solely for Biden

could easily be produced in the Dominion system by pre-loading batches of blank
ballots in files such as Write-ins, then casting them all for Biden using the Override
Procedure (to cast Write-In ballots) that is available to the operator of the system. A
few batches of blank ballots could easily produce a reversal this extreme, a reversal

that is almost as statistically difficult to explain as is the impossibility of the votes
cast to number of voters described in Paragraph 11 above.
Dominion also has a "Blank Ballot Override" function. Essentially a save for later bucket that can
be manually populated later.

OVERRIDE PROCEDURE

(To Cast Blank Ballots)

*
p—

1

'

\V
EJ
-« ii

y«ynr| Hn

£

£ -qq

OfltBtWtftuMun

1*1 tW

2

f

ft

utunii

'

3

INAMi OViaJUM

4

•

5

ih.

"*

IWK

OS

13. The final red flag is perhaps the greatest. Something occurred in Michigan that
is physically impossible, indicating the results were manipulated on election night
within the EMS. The event as reflected in the data are the 4 spikes totaling 384,733

A130

Ex. Q
Ex.
to TRO
TRO Motion:
Q to
Motion:
Ramsland Affidavit
Ramsland
Affidavit

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-04651-SDG
ECF
No. i7t8-5,
78-5, tPaie
PageID.3693
7-1 I Filed
11/18/20
Filed 01/05/21
Page 5 of
Page
9
6
2:20C£asK±24)-fcVP46S
W/ S EG
F Document
Noc
Bil36l9!B1/
18/2)
0 H0§£21
oR&ge
6 of
of 10
10

ballots allegedly processed in a combined interval of only 2 hour and 38 minutes.
This is physically impossible given the equipment available at the 4 reference
locations (precincts/townships) we looked at for processing ballots, and cross
referencing that with both the time it took at each location and the performance

specifications we obtained using the serial numbers of the scanning devices used.

(Model DRM16011 - 60/min. without accounting for paper jams, replacement cover

sheets or loading time, so we assume 2,000 ballots/hr. in field conditions which is
probably generous). This calculation yields a sum of
94,867 ballots as the
maximum number of ballots that could be processed. And while it should be noted
that in the event of a jam and the counter is not reset, the ballots can be run through
again and effectively duplicated, this would not alleviate the impossibility of this
event because duplicated ballots still require processing time. The existence of the
spike is strongly indicative of a manual adjustment either by the operator of the
system (see paragraph 12 above) or an attack by outside actors. In any event, there
were 289,866 more ballots processed in the time available for processing in

four precincts/townships, than there was capacity. A look at the graph below
makes clear the This is not surprising because the system is highly vulnerable to a
manual change in the ballot totals as observed here.
2020 Spiked Vote Totals per County in Ml
lOOOOC

Wayne:

Oakland:
&den 90,912 (26%)

Men 67,630 <15%)
Trump 35.156(13%)

Trump 36,713 (12%)
75000

Macomb:
Biden: *49,244 (28%)
Trump; *39,870 (17%)

Kent:
B<den *48,070 (34%)

Trump *17,138 (11%)

50000

23000

„ ._Lj„ _klJilb

4 H a L

J.k.lj I JlLi Jiu.l! L

AAl . J.uJlJi

LiLi k

25000
R«>p (Trump}

Own (BideryCttnto*')

14. At AS0G, we believe that these statistical anomalies and impossibilities together
create a wholly unacceptable level of doubt as to the validity of the vote count in

Michigan, and in Wayne County, in particular.

A131

Ex.
to TRO
Ex. Q
Q to
TRO Motion:
Motion:
Ramsland
Ramsland Affidavit
Affidavit

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-04651-SDG
ECF
No. 78-5
78-5, tRaie
PageID.3694
7-1 I Filed
11/18/20
Filed 01/05/21
Page 6 of
Page
9
7
2:20€£ss£3124)-fcV
P4SSW S EG
F Document
Noc
Biie0941/
181/2)
0 0O§&1
oP&ge
7 of
of 10
10

15. If ASOG, or any other team of experts with the equivalent qualifications and
experience, could be permitted to analyze the raw data produced during the course
of the election, as well as the audit logs that the Dominion system generates, we
would likely be able to determine whether or not any fraudulent manipulation of
the election results occurred within the Dominion Election Management System.

These audit logs are in the possession of Dominion.
16. However, there are several deficiencies with the Dominion audit logs: (1)
because the logs are "voluntary" logs, they do not enforce the logging of all actions;
(2) the logs can be altered by the people who are operating the system; and (3) the
logs are not synchronized. Because of these deficiencies, it is of critical importance
that all of the daily full records of raw data produced during every step of the
election process also be made available for analysis (in addition to the audit logs), so
that gaps in the audit logs may be bridged to the best extent possible. This raw data,
which is in Dominion's possession, should be individual and cumulative.
17. Wayne County uses Dominion Equipment, where 46 out of 47

precincts/townships display a highly unlikely 96%+ as the number of votes cast,
using the Secretary of State's number of voters in the precinct/township; and 25 of

those 47 precincts/townships show 100% turnout.
Votes/SOS
Precinct Township

Est. Voters

SPRUCE GROVE TWP

100%

ATLANTA TWP

100%

RUNEBERG TWP

100%

WOLF LAKE TWP

100%

HEIGHT OF LAND TWP

100%

EAGLE VIEW TWP

100%

WOLF LAKE

100%

SHELL LAKE TWP

100%

SAVANNAH TWP

100%

CUBA TWP

100%

FOREST TWP

100%

RICEVILLE TWP

100%

WALWORTH TWP

100%

OGEMA

100%

BURLINGTON TWP

100%

RICHWOOD TWP

100%

AUDUBON

100%

LAKE EUNICE TWP

100%

OSAGE TWP

100%

DETROIT LAKES W2 PI

100%

CORMORANT TWP

100%

LAKE VIEW TWP

100%

A132

Ex.
to TRO
Ex. Q
Q to
TRO Motion:
Motion:
Ramsland Affidavit
Ramsland
Affidavit

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-04651-SDG
ECF
No. i7t8-5?
78-5, tRa$e
PageID.3695
7-1 I Filed
11/18/20
Filed 01/05/21
Page 7 of
Page
9
8
2:20Cas£3124)-fcVro
46S\iy S EG
F Document
Noc
BLI369EL/
EM
0 1/0§/21
oP&ge
8 of
of 10
10

AUDUBON TWP

100%

DETROIT LAKES W3 PI

100%

FRAZEE

100%

This pattern strongly suggests both the additive algorithm (a feature enhancement
referred to as "ranked choice voting algorithm" or "RCV") was activated in the code

as discussed in paragraph 11 above, as well as batch processing of blank votes, as
outlined in Paragraphs 12 and 13 above, where 74,119 more ballots were cast than
the capacity to cast them during the spike.
18. In order to analyze the data and determine the cause of these anomalies, ASOG
would need Administrator logs for the EMS Election Event Designer (EED) and EMS

Results Tally & Reporting (RTR) Client Applications. The following would be
required from Premier:
XML and XSLT logs for the:

•

Tabulators

•

Result Pair Resolution

•

Result Files

•

Provisional Votes

•

RTM Logs

•

Ranked Profiles and entire change history Audit Trail logs

•

Rejected Ballots Report by Reason Code

Identity of everyone accessing the domain name
Admin.enr.dominionvoting.com and
•

Windows software log,

•

Windows event log and

•

Windows security log of the server itself that is hosted at
Admin.enr.dominionvoting.com.

•

Access logs to their full extent and DNS logs.

•

Internal admin.enr.dominionvoting.com logs

•

Ranked Contests and entire change history Audit Trail logs

FTP Transfer Points Log

19. In order to evaluate the raw data of the election, the following records would be
required from Dominion.

•

Daily and Cumulative Voter Records for those who voted with sufficient
definition to determine:
Voters name and Registered Voting address
Address to for correspondence
D.O.B.
Voter ID number

How Voted (mail, in-person early, in person Election Day)
Where Voted (if applicable)

A133

Ex.
to TRO
Ex. Q
Q to
TRO Motion:
Motion:
Ramsland Affidavit
Affidavit
Ramsland

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-04651-SDG
ECF
No. 78-51
78-5, tf7(Je
PageID.3696
7-1 I Filed
11/18/20
Filed 01/05/21
Page 8 of
Page
9
9
2:20£ss£3±24)-fcVro
4SSW S EG
F Document
Noc
Bil369EL/
L81/2)
0 P0§/21
oP&ge
9 of
of 10
10

AUDUBON TWP

100%

DETROIT LAKES W3 PI

100%

FRAZEE

100%

This pattern strongly suggests both the additive algorithm (a feature enhancement
referred to as "ranked choice voting algorithm" or "RCV") was activated in the code

as discussed in paragraph 11 above, as well as batch processing of blank votes, as
outlined in Paragraphs 12 and 13 above, where 74,119 more ballots were cast than
the capacity to cast them during the spike.
18. In order to analyze the data and determine the cause of these anomalies, ASOG
would need Administrator logs for the EMS Election Event Designer (EED) and EMS

Results Tally & Reporting (RTR) Client Applications. The following would be
required from Premier:
XML and XSLT logs for the:

•

Tabulators

•

Result Pair Resolution

•

Result Files

•

Provisional Votes

•

RTM Logs

•

Ranked Profiles and entire change history Audit Trail logs

•

Rejected Ballots Report by Reason Code

Identity of everyone accessing the domain name
Admin.enr.dominionvoting.com and
•

Windows software log,

•

Windows event log and

•

Windows security log of the server itself that is hosted at
Admin.enr.dominionvoting.com.

•

Access logs to their full extent and DNS logs.

•

Internal admin.enr.dominionvoting.com logs

•

Ranked Contests and entire change history Audit T rail logs

FTP Transfer Points Log

19. In order to evaluate the raw data of the election, the following records would be
required from Dominion.

•

Daily and Cumulative Voter Records for those who voted with sufficient
definition to determine:
Voters name and Registered Voting address
Address to for correspondence
D.O.B.
Voter ID number

How Voted (mail, in-person early, in person Election Day)
Where Voted (if applicable)

A134

Ex.
to TRO
Ex. Q
Q to
TRO Motion:
Motion:
Ramsland Affidavit
Affidavit
Ramsland

Case
Case 1320-CXF0RS511:20-cv-04651-SDG
ECF No.
Document
78-5, PageID.3697
7-1 I EF.ffied
Filed 111/18/20
Filed 01/05/21
Page 19
9 of
Page
9 10
Case 2:20-cv-13134-LVP-RSW
2:20-CCa1S
SECF
IDmcTimSrilPagie
1/58/200
1PQ52
dP
age
10 of
of 10
10

Date voted (if applicable)
Party affiliation (if recorded)
Ballot by mail Request Date
Ballot by mail sent date
Ballot by mall voted date (If applicable)

Ballet cancelled date (If applicable)

•

RAW. HTML, XHTML and SVC files (Ballot Images)

20. Any removable media (such as thumbdrives, USB, memory cards. PCM1A cards,
etc.) used to transfer ballots to central counting from voting locations.

21- Access or control of ALL routers, tabulators or combinations thereof (some
routers are inside the tabulator case) in order to garner the system logs. At the
same time, the public IP of the router should be obtained
22. Any key. authorization key & yubtkey

Further affiant sayeth naught

0J)7
Ruirfll )agfes Ramslarra, |r.
Iworn before me on

Notary public

A135

Ex.
to TRO
Ex. Q
Q to
TRO Motion:
Motion:
Ramsland
Affidavit
Ramsland Affidavit

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3698 Filed 01/05/21 Page 1 of 18

EXHIBIT 5

A136

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3699 Filed 01/05/21 Page 2 of 18

Democracy Dies in Darkness

Here’s the full transcript and audio of the call between
Trump and Raffensperger
By Amy Gardner and Paulina Firozi
Jan. 3, 2021 at 4:15 p.m. EST
About 3 p.m. Saturday, President Trump held an hour-long call with Brad Raffensperger, Georgia’s secretary of
state, in which he repeatedly urged him to alter the outcome of the presidential vote in the state. He was joined on the
call by White House Chief of Staff Mark Meadows and several lawyers, including longtime conservative attorney
Cleta Mitchell and Georgia-based attorney Kurt Hilbert. Raffensperger was joined by his office’s general counsel,
Ryan Germany, and Deputy Secretary of State Jordan Fuchs.
The Washington Post obtained a copy of a recording of the call. This transcript has been edited to remove the name
of an individual about whom Trump makes unsubstantiated claims.
Meadows: Okay. Alright. Mr. President, everyone is on the line. This is Mark Meadows, the chief of staff. Just so we
all are aware. On the line is secretary of state and two other individuals. Jordan and Mr. Germany with him. You also
have the attorneys that represent the president, Kurt and Alex and Cleta Mitchell — who is not the attorney of record
but has been involved — myself and then the president. So Mr. President, I’ll turn it over to you.
Trump: Okay, thank you very much. Hello Brad and Ryan and everybody. We appreciate the time and the call. So
we’ve spent a lot of time on this, and if we could just go over some of the numbers, I think it’s pretty clear that we won.
We won very substantially in Georgia. You even see it by rally size, frankly. We’d be getting 25-30,000 people a rally,
and the competition would get less than 100 people. And it never made sense.
But we have a number of things. We have at least 2 or 3 — anywhere from 250 to 300,000 ballots were dropped
mysteriously into the rolls. Much of that had to do with Fulton County, which hasn’t been checked. We think that if you
check the signatures — a real check of the signatures going back in Fulton County — you’ll find at least a couple of
hundred thousand of forged signatures of people who have been forged. And we are quite sure that’s going to happen.

1
A137

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3700 Filed 01/05/21 Page 3 of 18
Another tremendous number. We’re going to have an accurate number over the next two days with certified
accountants. But an accurate number will be given, but it’s in the 50s of thousands — and that’s people that went to
vote and they were told they can’t vote because they’ve already been voted for. And it’s a very sad thing. They walked
out complaining. But the number’s large. We’ll have it for you. But it’s much more than the number of 11,779 that’s —
the current margin is only 11,779. Brad, I think you agree with that, right? That’s something I think everyone — at least
that’s a number that everyone agrees on.
But that’s the difference in the votes. But we’ve had hundreds of thousands of ballots that we’re able to actually — we’ll
get you a pretty accurate number. You don’t need much of a number because the number that in theory I lost by, the
margin would be 11,779. But you also have a substantial numbers of people, thousands and thousands, who went to the
voting place on November 3, were told they couldn’t vote, were told they couldn’t vote because a ballot had been put on
their name. And you know that’s very, very, very, very sad.
We had, I believe it’s about 4,502 voters who voted but who weren’t on the voter registration list, so it’s 4,502 who
voted, but they weren’t on the voter registration roll, which they had to be. You had 18,325 vacant address voters. The
address was vacant, and they’re not allowed to be counted. That’s 18,325.
Smaller number — you had 904 who only voted where they had just a P.O. — a post office box number — and they had
a post office box number, and that’s not allowed. We had at least 18,000 — that’s on tape, we had them counted very
painstakingly — 18,000 voters having to do with [name]. She’s a vote scammer, a professional vote scammer and
hustler [name]. That was the tape that’s been shown all over the world that makes everybody look bad, you, me and
everybody else.
Where they got — number one they said very clearly and it’s been reported that they said there was a major water main
break. Everybody fled the area. And then they came back, [name] and her daughter and a few people. There were no
Republican poll watchers. Actually, there were no Democrat poll watchers, I guess they were them. But there were no
Democrats, either, and there was no law enforcement. Late in the morning, early in the morning, they went to the table
with the black robe and the black shield, and they pulled out the votes. Those votes were put there a number of hours
before — the table was put there — I think it was, Brad, you would know, it was probably eight hours or seven hours
before, and then it was stuffed with votes.
They weren’t in an official voter box; they were in what looked to be suitcases or trunks, suitcases, but they weren’t in
voter boxes. The minimum number it could be because we watched it, and they watched it certified in slow motion
instant replay if you can believe it, but slow motion, and it was magnified many times over, and the minimum it was
18,000 ballots, all for Biden.
You had out-of-state voters. They voted in Georgia, but they were from out of state, of 4,925. You had absentee ballots
sent to vacant, they were absentee ballots sent to vacant addresses. They had nothing on them about addresses, that’s
2,326.
And you had dropboxes, which is very bad. You had dropboxes that were picked up. We have photographs, and we
have affidavits from many people.

2
A138

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3701 Filed 01/05/21 Page 4 of 18
I don’t know if you saw the hearings, but you have dropboxes where the box was picked up but not delivered for three
days. So all sorts of things could have happened to that box, including, you know, putting in the votes that you wanted.
So there were many infractions, and the bottom line is, many, many times the 11,779 margin that they said we lost by —
we had vast, I mean the state is in turmoil over this.
And I know you would like to get to the bottom of it, although I saw you on television today, and you said that you
found nothing wrong. I mean, you know, and I didn’t lose the state, Brad. People have been saying that it was the
highest vote ever. There was no way. A lot of the political people said that there’s no way they beat me. And they beat
me. They beat me in the . . . As you know, every single state, we won every state. We won every statehouse in the
country. We held the Senate, which is shocking to people, although we’ll see what happens tomorrow or in a few days.
And we won the House, but we won every single statehouse, and we won Congress, which was supposed to lose 15
seats, and they gained, I think 16 or 17 or something. I think there’s a now difference of five. There was supposed to be
a difference substantially more. But politicians in every state, but politicians in Georgia have given affidavits and are
going to that, that there was no way that they beat me in the election, that the people came out, in fact, they were
expecting to lose, and then they ended up winning by a lot because of the coattails. And they said there’s no way, that
they’ve done many polls prior to the election, that there was no way that they won.
Ballots were dropped in massive numbers. And we’re trying to get to those numbers and we will have them.
They’ll take a period of time. Certified. But but they’re massive numbers. And far greater than the 11,779.
The other thing, dead people. So dead people voted, and I think the number is close to 5,000 people. And they went to
obituaries. They went to all sorts of methods to come up with an accurate number, and a minimum is close to about
5,000 voters.
The bottom line is, when you add it all up and then you start adding, you know, 300,000 fake ballots. Then the other
thing they said is in Fulton County and other areas. And this may or may not be true . . . this just came up this morning,
that they are burning their ballots, that they are shredding, shredding ballots and removing equipment. They’re
changing the equipment on the Dominion machines and, you know, that’s not legal.
And they supposedly shredded I think they said 300 pounds of, 3,000 pounds of ballots. And that just came to us as a
report today. And it is a very sad situation.
But Brad, if you took the minimum numbers where many, many times above the 11,779, and many of those numbers
are certified, or they will be certified, but they are certified. And those are numbers that are there, that exist. And that
beat the margin of loss, they beat it, I mean, by a lot, and people should be happy to have an accurate count instead of
an election where there’s turmoil.
I mean there’s turmoil in Georgia and other places. You’re not the only one, I mean, we have other states that I believe
will be flipping to us very shortly. And this is something that — you know, as an example, I think it in Detroit, I think
there’s a section, a good section of your state actually, which we’re not sure so we’re not going to report it yet. But in
Detroit, we had, I think it was, 139 percent of the people voted. That’s not too good.

3
A139

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3702 Filed 01/05/21 Page 5 of 18
In Pennsylvania, they had well over 200,000 more votes than they had people voting. And that doesn’t play too well,
and the legislature there is, which is Republican, is extremely activist and angry. I mean, there were other things also
that were almost as bad as that. But they had as an example, in Michigan, a tremendous number of dead people that
voted. I think it was, I think, Mark, it was 18,000. Some unbelievably high number, much higher than yours, you were
in the 4-5,000 category.
And that was checked out laboriously by going through, by going through the obituary columns in the newspapers.
So I guess with all of it being said, Brad, the bottom line, and provisional ballots, again, you know, you’ll have to tell me
about the provisional ballots, but we have a lot of people that were complaining that they weren’t able to vote because
they were already voted for. These are great people.
And, you know, they were shellshocked. I don’t know if you call that provisional ballots. In some states, we had a lot of
provisional ballot situations where people were given a provisional ballot because when they walked in on November 3
and they were already voted for.
So that’s it. I mean, we have many, many times the number of votes necessary to win the state. And we won the state,
and we won it very substantially and easily, and we’re getting, we have, much of this is a very certified, far more
certified than we need. But we’re getting additional numbers certified, too. And we’re getting pictures of dropboxes
being delivered and delivered late. Delivered three days later, in some cases, plus we have many affidavits to that
effect.
Meadows: So, Mr. President, if I might be able to jump in, and I’ll give Brad a chance. Mr. Secretary, obviously there
is, there are allegations where we believe that not every vote or fair vote and legal vote was counted, and that’s at odds
with the representation from the secretary of state’s office.
What I’m hopeful for is there some way that we can, we can find some kind of agreement to look at this a little bit more
fully? You know the president mentioned Fulton County.
But in some of these areas where there seems to be a difference of where the facts seem to lead, and so Mr. Secretary, I
was hopeful that, you know, in the spirit of cooperation and compromise, is there something that we can at least have a
discussion to look at some of these allegations to find a path forward that’s less litigious?
Raffensperger: Well, I listened to what the president has just said. President Trump, we’ve had several lawsuits, and
we’ve had to respond in court to the lawsuits and the contentions. We don’t agree that you have won. And we don’t — I
didn’t agree about the 200,000 number that you’d mentioned. I’ll go through that point by point.
What we have done is we gave our state Senate about one and a half hours of our time going through the election issue
by issue and then on the state House, the government affairs committee, we gave them about two and a half hours of
our time, going back point by point on all the issues of contention. And then just a few days ago, we met with our U.S.
congressmen, Republican congressmen, and we gave them about two hours of our time talking about this past election.
Going back, primarily what you’ve talked about here focused in on primarily, I believe, is the absentee ballot process. I
don’t believe that you’re really questioning the Dominion machines. Because we did a hand re-tally, a 100 percent retally of all the ballots, and compared them to what the machines said and came up with virtually the same result. Then
we did the recount, and we got virtually the same result. So I guess we can probably take that off the table.
4
A140

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3703 Filed 01/05/21 Page 6 of 18
I don’t think there’s an issue about that.
Trump: Well, Brad. Not that there’s not an issue, because we have a big issue with Dominion in other states and
perhaps in yours. But we haven’t felt we needed to go there. And just to, you know, maybe put a little different spin on
what Mark is saying, Mark Meadows, yeah we’d like to go further, but we don’t really need to. We have all the votes we
need.
You know, we won the state. If you took, these are the most minimal numbers, the numbers that I gave you, those are
numbers that are certified, your absentee ballots sent to vacant addresses, your out-of-state voters, 4,925. You know
when you add them up, it’s many more times, it’s many times the 11,779 number. So we could go through, we have not
gone through your Dominion. So we can’t give them blessing. I mean, in other states, we think we found tremendous
corruption with Dominion machines, but we’ll have to see.
But we only lost the state by that number, 11,000 votes, and 779. So with that being said, with just what we have, with
just what we have, we’re giving you minimal, minimal numbers. We’re doing the most conservative numbers possible;
we’re many times, many, many times above the margin. And so we don’t really have to, Mark, I don’t think we have to
go through . . .
Meadows: Right
Trump: Because what’s the difference between winning the election by two votes and winning it by half a million
votes. I think I probably did win it by half a million. You know, one of the things that happened, Brad, is we have other
people coming in now from Alabama and from South Carolina and from other states, and they’re saying it’s impossible
for you to have lost Georgia. We won. You know in Alabama, we set a record, got the highest vote ever. In Georgia, we
set a record with a massive amount of votes. And they say it’s not possible to have lost Georgia.
And I could tell you by our rallies. I could tell you by the rally I’m having on Monday night, the place, they already have
lines of people standing out front waiting. It’s just not possible to have lost Georgia. It’s not possible. When I heard it
was close, I said there’s no way. But they dropped a lot of votes in there late at night. You know that, Brad. And that’s
what we are working on very, very stringently. But regardless of those votes, with all of it being said, we lost by
essentially 11,000 votes, and we have many more votes already calculated and certified, too.
And so I just don’t know, you know, Mark, I don’t know what’s the purpose. I won’t give Dominion a pass because we
found too many bad things. But we don’t need Dominion or anything else. We have won this election in Georgia based
on all of this. And there’s nothing wrong with saying that, Brad. You know, I mean, having the correct — the people of
Georgia are angry. And these numbers are going to be repeated on Monday night. Along with others that we’re going to
have by that time, which are much more substantial even. And the people of Georgia are angry, the people of the
country are angry. And there’s nothing wrong with saying that, you know, that you’ve recalculated. Because the 2,236
in absentee ballots. I mean, they’re all exact numbers that were done by accounting firms, law firms, etc. And even if
you cut ’em in half, cut ’em in half and cut ’em in half again, it’s more votes than we need.
Raffensperger: Well, Mr. President, the challenge that you have is the data you have is wrong. We talked to the
congressmen, and they were surprised.
5
A141

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3704 Filed 01/05/21 Page 7 of 18
But they — I guess there was a person named Mr. Braynard who came to these meetings and presented data, and he
said that there was dead people, I believe it was upward of 5,000. The actual number were two. Two. Two people that
were dead that voted. So that’s wrong.
Trump: Well, Cleta, how do you respond to that? Maybe you tell me?
Mitchell: Well, I would say, Mr. Secretary, one of the things that we have requested and what we said was, if you look,
if you read our petition, it said that we took the names and birth years, and we had certain information available to us.
We have asked from your office for records that only you have, and so we said there is a universe of people who have
the same name and same birth year and died.
But we don’t have the records that you have. And one of the things that we have been suggesting formally and
informally for weeks now is for you to make available to us the records that would be necessary —
Trump: But, Cleta, even before you do that, and not even including that, that’s why I hardly even included that
number, although in one state, we have a tremendous amount of dead people. So I don’t know — I’m sure we do in
Georgia, too. I’m sure we do in Georgia, too.
But we’re so far ahead. We’re so far ahead of these numbers, even the phony ballots of [name] , known scammer. You
know the Internet? You know what was trending on the Internet? “Where’s [name]?” Because they thought she’d be in
jail. “Where’s [name]?” It’s crazy, it’s crazy. That was. The minimum number is 18,000 for [name] , but they think it’s
probably about 56,000, but the minimum number is 18,000 on the [name] night where she ran back in there when
everybody was gone and stuffed, she stuffed the ballot boxes. Let’s face it, Brad, I mean. They did it in slow motion
replay magnified, right? She stuffed the ballot boxes. They were stuffed like nobody has ever seen them stuffed before.
So there’s a term for it when it’s a machine instead of a ballot box, but she stuffed the machine. She stuffed the ballot.
Each ballot went three times, they were showing: Here’s ballot No 1. Here it is a second time, third time, next ballot.
I mean, look. Brad. We have a new tape that we’re going to release. It’s devastating. And by the way, that one event,
that one event is much more than the 11,000 votes that we’re talking about. It’s, you know, that one event was a
disaster. And it’s just, you know, but it was, it was something, it can’t be disputed. And again, we have a version that
you haven’t seen, but it’s magnified. It’s magnified, and you can see everything. For some reason, they put it in three
times, each ballot, and I don’t know why. I don’t know why three times. Why not five times, right? Go ahead.
Raffensperger: You’re talking about the State Farm video. And I think it’s extremely unfortunate that Rudy Giuliani
or his people, they sliced and diced that video and took it out of context. The next day, we brought in WSB-TV, and we
let them show, see the full run of tape, and what you’ll see, the events that transpired are nowhere near what was
projected by, you know —
Trump: But where were the poll watchers, Brad? There were no poll watchers there. There were no Democrats or
Republicans. There was no security there.

6
A142

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3705 Filed 01/05/21 Page 8 of 18
It was late in the evening, late in the, early in the morning, and there was nobody else in the room. Where were the poll
watchers, and why did they say a water main broke, which they did and which was reported in the newspapers? They
said they left. They ran out because of a water main break, and there was no water main. There was nothing. There was
no break. There was no water main break. But we’re, if you take out everything, where were the Republican poll
watchers, even where were the Democrat pollwatchers, because there were none.
And then you say, well, they left their station, you know, if you look at the tape, and this was, this was reviewed by
professional police and detectives and other people, when they left in a rush, everybody left in a rush because of the
water main, but everybody left in a rush. These people left their station.
When they came back, they didn’t go to their station. They went to the apron, wrapped around the table, under which
were thousands and thousands of ballots in a box that was not an official or a sealed box. And then they took those.
They went back to a different station. So if they would have come back, they would have walked to their station, and
they would have continued to work. But they couldn’t do even that because that’s illegal, because they had no
Republican pollwatchers. And remember, her reputation is — she’s known all over the Internet, Brad. She’s known all
over.
I’m telling you, “Where’s [name] ” was one of the hot items . . . [name] They knew her. “Where’s [name]?” So Brad,
there can be no justification for that. And I, you know, I give everybody the benefit of the doubt. But that was — and
Brad, why did they put the votes in three times? You know, they put ’em in three times.
Raffensperger: Mr. President, they did not put that. We did an audit of that, and we proved conclusively that they
were not scanned three times.
Trump: Where was everybody else at that late time in the morning? Where was everybody? Where were the
Republicans? Where were the security guards? Were the people that were there just a little while before when everyone
ran out of the room. How come we had no security in the room. Why did they run to the bottom of the table? Why do
they run there and just open the skirt and rip out the votes. I mean, Brad. And they were sitting there, I think for five
hours or something like that, the votes.
Raffensperger: Mr. President, we’ll send you the link from WSB.
Trump: I don’t care about the link. I don’t need it. Brad, I have a much better —
Mitchell: I will tell you. I’ve seen the tape. The full tape. So has Alex. We’ve watched it. And what we saw and what
we’ve confirmed in the timing is that they made everybody leave — we have sworn affidavits saying that. And then they
began to process ballots. And our estimate is that there were roughly 18,000 ballots. We don’t know that. If you know
that . . .
Trump: It was 18,000 ballots, but they used each one three times.
Mitchell: Well, I don’t know about that.
Trump: I do think we had ours magnified out.
Mitchell: I’ve watched the entire tape.
7
A143

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3706 Filed 01/05/21 Page 9 of 18
Trump: Nobody can make a case for that, Brad. Nobody. I mean, look, you’d have to be a child to think anything other
than that. Just a child.
Mitchell: How many ballots, Mr. Secretary, are you saying were processed then?
Raffensperger: We had GBI . . . investigate that.
Germany: We had our — this is Ryan Germany. We had our law enforcement officers talk to everyone who was, who
was there after that event came to light. GBI was with them as well as FBI agents.
Trump: Well, there’s no way they could — then they’re incompetent. They’re either dishonest or incompetent, okay?
Mitchell: Well, what did they find?
Trump: There’s only two answers, dishonesty or incompetence. There’s just no way. Look. There’s no way. And on the
other thing, I said too, there is no way. I mean, there’s no way that these things could have been, you know, you have
all these different people that voted, but they don’t live in Georgia anymore. What was that number, Cleta? That was a
pretty good number, too.
Mitchell: The number who have registered out of state after they moved from Georgia. And so they had a date when
they moved from Georgia, they registered to vote out of state, and then it’s like 4,500, I don’t have that number right in
front of me.
Trump: And then they came back in, and they voted.
Mitchell: And voted. Yeah.
Trump: I thought that was a large number, though. It was in the 20s.
Germany: We’ve been going through each of those as well, and those numbers that we got, that Ms. Mitchell was just
saying, they’re not accurate. Every one we’ve been through are people that lived in Georgia, moved to a different state,
but then moved back to Georgia legitimately. And in many cases —
Trump: How may people do that? They moved out, and then they said, “Ah, to hell with it, I’ll move back.” You know,
it doesn’t sound like a very normal . . . you mean, they moved out, and what, they missed it so much that they wanted to
move back in? It’s crazy.
Germany: They moved back in years ago. This was not like something just before the election. So there’s something
about that data that, it’s just not accurate.
Trump: Well, I don’t know, all I know is that it is certified. And they moved out of Georgia, and they voted. It didn’t
say they moved back in, Cleta, did it?
Mitchell: No, but I mean, we’re looking at the voter registration. Again, if you have additional records, we’ve been
asking for that, but you haven’t shared any of that with us. You just keep saying you investigated the allegations.
Trump: Cleta, a lot of it you don’t need to be shared. I mean, to be honest, they should share it. They should share it
because you want to get to an honest election.
8
A144

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3707 Filed 01/05/21 Page 10 of 18
I won this election by hundreds of thousands of votes. There’s no way I lost Georgia. There’s no way. We won by
hundreds of thousands of votes. I’m just going by small numbers, when you add them up, they’re many times the
11,000. But I won that state by hundreds of thousands of votes.
Do you think it’s possible that they shredded ballots in Fulton County? Because that’s what the rumor is. And also that
Dominion took out machines. That Dominion is really moving fast to get rid of their, uh, machinery.
Do you know anything about that? Because that’s illegal, right?
Germany: This is Ryan Germany. No, Dominion has not moved any machinery out of Fulton County.
Trump: But have they moved the inner parts of the machines and replaced them with other parts?
Germany: No.
Trump: Are you sure, Ryan?
Germany: I’m sure. I’m sure, Mr. President.
Trump: What about, what about the ballots. The shredding of the ballots. Have they been shredding ballots?
Germany: The only investigation that we have into that — they have not been shredding any ballots. There was an
issue in Cobb County where they were doing normal office shredding, getting rid of old stuff, and we investigated that.
But this stuff from, you know, from you know past elections.
Trump: It doesn’t pass the smell test because we hear they’re shredding thousands and thousands of ballots, and now
what they’re saying, “Oh, we’re just cleaning up the office.” You know.
Raffensperger: Mr. President, the problem you have with social media, they — people can say anything.
Trump: Oh this isn’t social media. This is Trump media. It’s not social media. It’s really not; it’s not social media. I
don’t care about social media. I couldn’t care less. Social media is Big Tech. Big Tech is on your side, you know. I don’t
even know why you have a side because you should want to have an accurate election. And you’re a Republican.
Raffensperger: We believe that we do have an accurate election.
Trump: No, no you don’t. No, no you don’t. You don’t have. Not even close. You’re off by hundreds of thousands of
votes. And just on the small numbers, you’re off on these numbers, and these numbers can’t be just — well, why wont?
— Okay. So you sent us into Cobb County for signature verification, right? You sent us into Cobb County, which we
didn’t want to go into. And you said it would be open to the public. So we had our experts there, they weren’t allowed
into the room. But we didn’t want Cobb County. We wanted Fulton County. And you wouldn’t give it to us. Now, why
aren’t we doing signature — and why can’t it be open to the public?
And why can’t we have professionals do it instead of rank amateurs who will never find anything and don’t want to find
anything? They don’t want to find, you know they don’t want to find anything. Someday you’ll tell me the reason why,
because I don’t understand your reasoning, but someday you’ll tell me the reason why. But why don’t you want to find?
Germany: Mr. President, we chose Cobb County —
9
A145

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3708 Filed 01/05/21 Page 11 of 18
Trump: Why don’t you want to find . . . What?
Germany: Sorry, go ahead.
Trump: So why did you do Cobb County? We didn’t even request — we requested Fulton County, not Cobb County.
Go ahead, please. Go ahead.
Germany: We chose Cobb County because that was the only county where there’s been any evidence submitted that
the signature verification was not properly done.
Trump: No, but I told you. We’re not, we’re not saying that.
Mitchell: We did say that.
Trump: Fulton County. Look. Stacey, in my opinion, Stacey is as dishonest as they come. She has outplayed you . . . at
everything. She got you to sign a totally unconstitutional agreement, which is a disastrous agreement. You can’t check
signatures. I can’t imagine you’re allowed to do harvesting, I guess, in that agreement. That agreement is a disaster for
this country. But she got you somehow to sign that thing, and she has outsmarted you at every step.
And I hate to imagine what’s going to happen on Monday or Tuesday, but it’s very scary to people. You know, when the
ballots flow in out of nowhere. It’s very scary to people. That consent decree is a disaster. It’s a disaster. A very good
lawyer who examined it said they’ve never seen anything like it.
Raffensperger: Harvesting is still illegal in the state of Georgia. And that settlement agreement did not change that
one iota.
Trump: It’s not a settlement agreement, it’s a consent decree. It even says consent decree on it, doesn’t it? It uses the
term consent decree. It doesn’t say settlement agreement. It’s a consent decree. It’s a disaster.
Raffensperger: It’s a settlement agreement.
Trump: What’s written on top of it?
Raffensperger: Ryan?
Germany: I don’t have it in front of me, but it was not entered by the court, it’s not a court order.
Trump: But Ryan, it’s called a consent decree, is that right? On the paper. Is that right?
Germany: I don’t. I don’t. I don’t believe so, but I don’t have it in front of me.
Trump: Okay, whatever, it’s a disaster. It’s a disaster. Look. Here’s the problem. We can go through signature
verification, and we’ll find hundreds of thousands of signatures, if you let us do it. And the only way you can do it, as
you know, is to go to the past. But you didn’t do that in Cobb County. You just looked at one page compared to another.
The only way you can do a signature verification is go from the one that signed it on November whatever. Recently.
And compare it to two years ago, four years ago, six years ago, you know, or even one. And you’ll find that you have
many different signatures. But in Fulton, where they dumped ballots, you will find that you have many that aren’t even
signed and you have many that are forgeries.
10
A146

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3709 Filed 01/05/21 Page 12 of 18
Okay, you know that. You know that. You have no doubt about that. And you will find you will be at 11,779 within
minutes because Fulton County is totally corrupt, and so is she totally corrupt.
And they’re going around playing you and laughing at you behind your back, Brad, whether you know it or not, they’re
laughing at you. And you’ve taken a state that’s a Republican state, and you’ve made it almost impossible for a
Republican to win because of cheating, because they cheated like nobody’s ever cheated before. And I don’t care how
long it takes me, you know, we’re going to have other states coming forward — pretty good.
But I won’t . . . this is never . . . this is . . . We have some incredible talent said they’ve never seen anything . . . Now the
problem is they need more time for the big numbers. But they’re very substantial numbers. But I think you’re going to
find that they — by the way, a little information — I think you’re going to find that they are shredding ballots because
they have to get rid of the ballots because the ballots are unsigned. The ballots are corrupt, and they’re brand new, and
they don’t have seals, and there’s a whole thing with the ballots. But the ballots are corrupt.
And you are going to find that they are — which is totally illegal — it is more illegal for you than it is for them because,
you know, what they did and you’re not reporting it. That’s a criminal, that’s a criminal offense. And you can’t let that
happen. That’s a big risk to you and to Ryan, your lawyer. And that’s a big risk. But they are shredding ballots, in my
opinion, based on what I’ve heard. And they are removing machinery, and they’re moving it as fast as they can, both of
which are criminal finds. And you can’t let it happen, and you are letting it happen. You know, I mean, I’m notifying
you that you’re letting it happen. So look. All I want to do is this. I just want to find 11,780 votes, which is one more
than we have because we won the state.
And flipping the state is a great testament to our country because, you know, this is — it’s a testament that they can
admit to a mistake or whatever you want to call it. If it was a mistake, I don’t know. A lot of people think it wasn’t a
mistake. It was much more criminal than that. But it’s a big problem in Georgia, and it’s not a problem that’s going
away. I mean, you know, it’s not a problem that’s going away.
Germany: This is Ryan. We’re looking into every one of those things that you mentioned.
Trump: Good. But if you find it, you’ve got to say it, Ryan.
Germany: . . . Let me tell you what we are seeing. What we’re seeing is not at all what you’re describing. These are
investigators from our office, these are investigators from GBI, and they’re looking, and they’re good. And that’s not
what they’re seeing. And we’ll keep looking, at all these things.
Trump: Well, you better check on the ballots because they are shredding ballots, Ryan. I’m just telling you, Ryan.
They’re shredding ballots. And you should look at that very carefully. Because that’s so illegal. You know, you may not
even believe it because it’s so bad. But they’re shredding ballots because they think we’re going to eventually get there
. . . because we’ll eventually get into Fulton. In my opinion, it’s never too late. . . . So, that’s the story. Look, we need
only 11,000 votes. We have are far more than that as it stands now. We’ll have more and more. And . . . do you have
provisional ballots at all, Brad? Provisional ballots?
Raffensperger: Provisional ballots are allowed by state law.

11
A147

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3710 Filed 01/05/21 Page 13 of 18
Trump: Sure, but I mean, are they counted, or did you just hold them back because they, you know, in other words,
how many provisional ballots do you have in the state?
Raffensperger: We’ll get you that number.
Trump: Because most of them are made out to the name Trump. Because these are people that were scammed when
they came in. And we have thousands of people that have testified or that want to testify. When they came in, they were
proudly going to vote on November 3. And they were told, “I’m sorry, you’ve already been voted for, you’ve already
voted.” The women, men started screaming, “No. I proudly voted till November 3.” They said, “I’m sorry, but you’ve
already been voted for, and you have a ballot.” And these people are beside themselves. So they went out, and they
filled in a provisional ballot, putting the name Trump on it.
And what about that batch of military ballots that came in. And even though I won the military by a lot, it was 100
percent Trump. I mean 100 percent Biden. Do you know about that? A large group of ballots came in, I think it was to
Fulton County, and they just happened to be 100 percent for Trump — for Biden — even though Trump won the
military by a lot, you know, a tremendous amount. But these ballots were 100 percent for Biden. And do you know
about that? A very substantial number came in, all for Biden. Does anybody know about it?
Mitchell: I know about it, but —
Trump: Okay, Cleta, I’m not asking you, Cleta, honestly. I’m asking Brad. Do you know about the military ballots that
we have confirmed now. Do you know about the military ballots that came in that were 100 percent, I mean 100
percent, for Biden. Do you know about that?
Germany: I don’t know about that. I do know that we have, when military ballots come in, it’s not just military, it’s
also military and overseas citizens. The military part of that does generally go Republican. The overseas citizen part of
it generally goes very Democrat. This was a mix of ’em.
Trump: No, but this was. That’s okay. But I got like 78 percent of the military. These ballots were all for . . . They
didn’t tell me overseas. Could be overseas, too, but I get votes overseas, too, Ryan, in all fairness. No they came in, a
large batch came in, and it was, quote, 100 percent for Biden. And that is criminal. You know, that’s criminal. Okay.
That’s another criminal, that’s another of the many criminal events, many criminal events here.
I don’t know, look, Brad. I got to get . . . I have to find 12,000 votes, and I have them times a lot. And therefore, I won
the state. That’s before we go to the next step, which is in the process of right now. You know, and I watched you this
morning, and you said, well, there was no criminality.
But I mean all of this stuff is very dangerous stuff. When you talk about no criminality, I think it’s very dangerous for
you to say that.

12
A148

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3711 Filed 01/05/21 Page 14 of 18
I just, I just don’t know why you don’t want to have the votes counted as they are. Like even you when you went and
did that check. And I was surprised because, you know . . . And we found a few thousand votes that were against me. I
was actually surprised because the way that check was done, all you’re doing, you know, recertifying existing votes and,
you know, and you were given votes and you just counted them up, and you still found 3,000 that were bad. So that
was sort of surprising that it came down to three or five, I don’t know. Still a lot of votes. But you have to go back to
check from past years with respect to signatures. And if you check with Fulton County, you’ll have hundreds of
thousands because they dumped ballots into Fulton County and the other county next to it.
So what are we going to do here, folks? I only need 11,000 votes. Fellas, I need 11,000 votes. Give me a break. You
know, we have that in spades already. Or we can keep it going, but that’s not fair to the voters of Georgia because
they’re going to see what happened, and they’re going to see what happened. I mean, I’ll, I’ll take on anybody you want
with regard to [name] and her lovely daughter, a very lovely young lady, I’m sure. But, but [name] . . . I will take on
anybody you want. And the minimum, there were 18,000 ballots, but they used them three times. So that’s, you know,
a lot of votes. And they were all to Biden, by the way, that’s the other thing we didn’t say. You know, [name] , the one
thing I forgot to say, which was the most important. You know that every single ballot she did went to Biden. You know
that, right? Do you know that, by the way, Brad?
Every single ballot that she did through the machines at early, early in the morning went to Biden. Did you know that,
Ryan?
Germany: That’s not accurate, Mr. President.
Trump: Huh. What is accurate?
Germany: The numbers that we are showing are accurate.
Trump: No, about [name] . About early in the morning, Ryan. Where the woman took, you know, when the whole
gang took the stuff from under the table, right? Do you know, do you know who those ballots, do you know who they
were made out to, do you know who they were voting for?
Germany: No, not specifically.
Trump: Did you ever check?
Germany: We did what I described to you earlier —
Trump: No no no — did you ever check the ballots that were scanned by [name] , a known political operative,
balloteer? Did ever check who those votes were for?
Germany: We looked into that situation that you described.
Trump: No, they were 100 percent for Biden. 100 percent. There wasn’t a Trump vote in the whole group. Why don’t
you want to find this, Ryan? What’s wrong with you? I heard your lawyer is very difficult, actually, but I’m sure you’re a
good lawyer. You have a nice last name.

13
A149

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3712 Filed 01/05/21 Page 15 of 18
But, but I’m just curious, why wouldn’t, why do you keep fighting this thing? It just doesn’t make sense. We’re way over
the 17,779, right? We’re way over that number, and just if you took just [name] , we’re over that number by five, five or
six times when you multiply that times three.
And every single ballot went to Biden, and you didn’t know that, but now you know it. So tell me, Brad, what are we
going to do? We won the election, and it’s not fair to take it away from us like this. And it’s going to be very costly in
many ways. And I think you have to say that you’re going to reexamine it, and you can reexamine it, but reexamine it
with people that want to find answers, not people that don’t want to find answers. For instance, I’m hearing Ryan that
he’s probably, I’m sure a great lawyer and everything, but he’s making statements about those ballots that he doesn’t
know. But he’s making them with such — he did make them with surety. But now I think he’s less sure because the
answer is, they all went to Biden, and that alone wins us the election by a lot. You know, so.
Raffensperger: Mr. President, you have people that submit information, and we have our people that submit
information. And then it comes before the court, and the court then has to make a determination. We have to stand by
our numbers. We believe our numbers are right.
Trump: Why do you say that, though? I don’t know. I mean, sure, we can play this game with the courts, but why do
you say that? First of all, they don’t even assign us a judge. They don’t even assign us a judge. But why wouldn’t you . . .
Hey Brad, why wouldn’t you want to check out [name] ? And why wouldn’t you want to say, hey, if in fact, President
Trump is right about that, then he wins the state of Georgia, just that one incident alone without going through
hundreds of thousands of dropped ballots. You just say, you stick by, I mean I’ve been watching you, you know, you
don’t care about anything. “Your numbers are right.” But your numbers aren’t right. They’re really wrong, and they’re
really wrong, Brad. And I know this phone call is going nowhere other than, other than ultimately, you know — Look,
ultimately, I win, okay? Because you guys are so wrong. And you treated this. You treated the population of Georgia so
badly. You, between you and your governor, who is down at 21, he was down 21 points. And like a schmuck, I endorsed
him, and he got elected, but I will tell you, he is a disaster.
The people are so angry in Georgia, I can’t imagine he’s ever getting elected again, I’ll tell you that much right now. But
why wouldn’t you want to find the right answer, Brad, instead of keep saying that the numbers are right? ’Cause those
numbers are so wrong?
Mitchell: Mr. Secretary, Mr. President, one of the things that we have been, Alex can talk about this, we talked about
it, and I don’t know whether the information has been conveyed to your office, but I think what the president is saying,
and what we’ve been trying to do is to say, look, the court is not acting on our petition. They haven’t even assigned a
judge. But the people of Georgia and the people of America have a right to know the answers. And you have data and
records that we don’t have access to.

14
A150

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3713 Filed 01/05/21 Page 16 of 18
And you can keep telling us and making public statement that you investigated this and nothing to see here. But we
don’t know about that. All we know is what you tell us. What I don’t understand is why wouldn’t it be in everyone’s best
interest to try to get to the bottom, compare the numbers, you know, if you say, because . . . to try to be able to get to
the truth because we don’t have any way of confirming what you’re telling us. You tell us that you had an investigation
at the State Farm Arena. I don’t have any report. I’ve never seen a report of investigation. I don’t know that is. I’ve been
pretty involved in this, and I don’t know. And that’s just one of 25 categories. And it doesn’t even. And as I, as the
president said, we haven’t even gotten into the Dominion issue. That’s not part of our case. It’s not part of, we just
didn’t feel as though we had any to be able to develop —
Trump: No, we do have a way, but I don’t want to get into it. We found a way . . . excuse me, but we don’t need it
because we’re only down 11,000 votes, so we don’t even need it. I personally think they’re corrupt as hell. But we don’t
need that. All we have to do, Cleta, is find 11,000-plus votes. So we don’t need that. I’m not looking to shake up the
whole world. We won Georgia easily. We won it by hundreds of thousands of votes. But if you go by basic, simple
numbers, we won it easily, easily. So we’re not giving Dominion a pass on the record. We don’t need Dominion because
we have so many other votes that we don’t need to prove it any more than we already have.
Hilbert: Mr. President and Cleta, this is Kurt Hilbert, if I might interject for a moment. Ryan, I would like to suggest
that just four categories that have already been mentioned by the president that have actually hard numbers of 24,149
votes that were counted illegally. That in and of itself is sufficient to change the results or place the outcome in doubt.
We would like to sit down with your office, and we can do it through purposes of compromise and just like this phone
call, just to deal with that limited category of votes. And if you are able to establish that our numbers are not accurate,
then fine. However, we believe that they are accurate. We’ve had now three to four separate experts looking at these
numbers.
Trump: Certified accountants looked at them.
Hilbert: Correct. And this is just based on USPS data and your own secretary of state data. So that’s what we would
entreat and ask you to do, to sit down with us in a compromise and settlements proceeding and actually go through the
registered voter IDs and the registrations. And if you can convince us that 24,149 is inaccurate, then fine. But we tend
to believe that is, you know, obviously more than 11,779. That’s sufficient to change the results entirely in and of itself.
So what would you say to that, Mr. Germany?
Germany: I’m happy to get with our lawyers, and we’ll set that up. That number is not accurate. And I think we can
show you, for all the ones we’ve looked at, why it’s not. And so if that would be helpful, I’m happy to get with our
lawyers and set that up with you guys.
Trump: Well, let me ask you, Kurt, you think that is an accurate number. That was based on the information given to
you by the secretary of state’s department, right?
Hilbert: That is correct. That information is the minimum, most conservative data based upon the USPS data and the
secretary of state’s office data that has been made publicly available. We do not have the internal numbers from the
secretary of state. Yet we have asked for it six times. I sent a letter over to . . . several times requesting this information,
and it’s been rebuffed every single time. So it stands to reason that if the information is not forthcoming, there’s
something to hide. That’s the problem that we have.

15
A151

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3714 Filed 01/05/21 Page 17 of 18
Germany: Well, that’s not the case, sir. There are things that you guys are entitled to get. And there’s things that
under law, we are not allowed to give out.
Trump: Well, you have to. Well, under law, you’re not allowed to give faulty election results, okay? You’re not allowed
to do that. And that’s what you done. This is a faulty election result. And honestly, this should go very fast. You should
meet tomorrow because you have a big election coming up, and because of what you’ve done to the president — you
know, the people of Georgia know that this was a scam — and because of what you’ve done to the president, a lot of
people aren’t going out to vote. And a lot of Republicans are going to vote negative because they hate what you did to
the president. Okay? They hate it. And they’re going to vote. And you would be respected. Really respected, if this thing
could be straightened out before the election. You have a big election coming up on Tuesday. And I think that it is
really is important that you meet tomorrow and work out on these numbers. Because I know, Brad, that if you think
we’re right, I think you’re going to say, and I’m not looking to blame anybody, I’m just saying, you know, and, you
know, under new counts, and under new views, of the election results, we won the election. You know? It’s very simple.
We won the election. As the governors of major states and the surrounding states said, there is no way you lost
Georgia. As the Georgia politicians say, there is no way you lost Georgia. Nobody. Everyone knows I won it by
hundreds of thousands of votes. But I’ll tell you it’s going to have a big impact on Tuesday if you guys don’t get this
thing straightened out fast.
Meadows: Mr. President, this is Mark. It sounds like we’ve got two different sides agreeing that we can look at those
areas, and I assume that we can do that within the next 24 to 48 hours, to go ahead and get that reconciled so that we
can look at the two claims and making sure that we get the access to the secretary of state’s data to either validate or
invalidate the claims that have been made. Is that correct?
Germany: No, that’s not what I said. I’m happy to have our lawyers sit down with Kurt and the lawyers on that side
and explain to him, hey, here’s, based on what we’ve looked at so far, here’s how we know this is wrong, this is wrong,
this is wrong, this is wrong, this is wrong.
Meadows: So what you’re saying, Ryan, let me let me make sure . . . so what you’re saying is you really don’t want to
give access to the data. You just want to make another case on why the lawsuit is wrong?
Germany: I don’t think we can give access to data that’s protected by law. But we can sit down with them and say —
Trump: But you’re allowed to have a phony election? You’re allowed to have a phony election, right?
Germany: No, sir.
Trump: When are you going to do signature counts, when are you going to do signature verification on Fulton County,
which you said you were going to do, and now all of a sudden, you’re not doing it. When are you doing that?
Germany: We are going to do that. We’ve announced —
Hilbert: To get to this issue of the personal information and privacy issue, is it possible that the secretary of state
could deputize the lawyers for the president so that we could access that information and private information without
you having any kind of violation?

16
A152

Case 2:20-cv-13134-LVP-RSW ECF No. 78-6, PageID.3715 Filed 01/05/21 Page 18 of 18
Trump: Well, I don’t want to know who it is. You guys can do it very confidentially. You can sign a confidentiality
agreement. That’s okay. I don’t need to know names. But on this stuff that we’re talking about, we got all that
information from the secretary of state.
Meadows: Yeah. So let me let me recommend, Ryan, if you and Kurt will get together, you know, when we get off of
this phone call, if you could get together and work out a plan to address some of what we’ve got with your attorneys
where we can we can actually look at the data. For example, Mr. Secretary, I can you say they were only two dead
people who would vote. I can promise you there are more than that. And that may be what your investigation shows,
but I can promise you there are more than that. But at the same time, I think it’s important that we go ahead and move
expeditiously to try to do this and resolve it as quickly as we possibly can. And if that’s the good next step. Hopefully we
can, we can finish this phone call and go ahead and agree that the two of you will get together immediately.
Trump: Well, why don’t my lawyers show you where you got the information. It will show the secretary of state, and
you don’t even have to look at any names. We don’t want names. We don’t care. But we got that information from you.
And Stacey Abrams is laughing about you. She’s going around saying these guys are dumber than a rock. What she’s
done to this party is unbelievable, I tell you. And I only ran against her once. And that was with a guy named Brian
Kemp, and I beat her. And if I didn’t run, Brian wouldn’t have had even a shot, either in the general or in the primary.
He was dead, dead as a doornail. He never thought he had a shot at either one of them. What a schmuck I was. But
that’s the way it is. That’s the way it is. I would like you . . . for the attorneys . . . I’d like you to perhaps meet with Ryan,
ideally tomorrow, because I think we should come to a resolution of this before the election. Otherwise you’re going to
have people just not voting. They don’t want to vote. They hate the state, they hate the governor, and they hate the
secretary of state. I will tell you that right now. The only people that like you are people that will never vote for you.
You know that, Brad, right? They like you, you know, they like you. They can’t believe what they found. They want
more people like you. So, look, can you get together tomorrow? And, Brad, we just want the truth. It’s simple.
And everyone’s going to look very good if the truth comes out. It’s okay. It takes a little while, but let the truth come
out. And the real truth is, I won by 400,000 votes. At least. That’s the real truth. But we don’t need 400,000 votes. We
need less than 2,000 votes. And are you guys able to meet tomorrow, Ryan?
Germany: I’ll get with Chris, the lawyer who’s representing us in the case, and see when he can get together with
Kurt.
Raffensperger: Ryan will be in touch with the other attorney on this call, Mr. Meadows. Thank you, President
Trump, for your time.
Trump: Okay, thank you, Brad. Thank you, Ryan. Thank you. Thank you, everybody. Thank you very much. Bye.

17
A153

Case 2:20-cv-13134-LVP-RSW ECF No. 78-7, PageID.3716 Filed 01/05/21 Page 1 of 4

EXHIBIT 6

A154

Case
Case 2:20-cv-13134-LVP-RSW
2:20-cv-13134-LVP-RSW ECF
ECF No.
No. 78-7,
78-7, PageID.3717
PageID.3717 Filed
Filed 01/05/21
01/05/21 Page
Page 2
2 of
of 4
4

POLITICO

MAGAZINE

WHITE HOUSE

Advertisement

Trump's post-election cash grab floods
funds to new PAC
The Tramp operation raised $207.5 million since Election Day, including a hefty chunk
to a new leadership PAC Trump formed in November.

A

Ill

r^rrtTX.^'

en®
"kJ,-V
TheTirump

campaign

announced Thu rsday evening that the president's fundraising operation raised $207.5

mill ton since Election Day. I Rey Del Rio/Getty Images

By ZACH MONTELLARO and ELENA SCHNEIDER

f

12/03/2020 D7:14 PM EST

*

^

-

Updated: 12/04/2020 10:54 AM EST

President Donald Trump has been on a relentless, misleading and highly

lucrative fundraising drive since losing reelection, telling supporters that they
can help overturn the results if they donate while directing the bulk of the cash
to his newest political group instead of the entities fighting in court.

The Trump campaign announced Thursday evening that the president's
fundraising operation raised $207.5 million since Election Day, parts of which
were detailed in campaign finance reports filed later Thursday night. It's a
remarkable sum for a post-election period, usually the time when campaigns
wind down.

Advertisement

Trump has ginned up much of that money with alarmist fundraising pitches
multiple times a day, pleading for help. "We MUST defend the Election from
the Left!" one text signed by Trump and sent on Wednesday read. "I've
activated a 1000% offer for 1 HOUR to put America FIRST. Step up & act
NOW."

But the majority of that money is likely not going to any sort of legal account.
Trump's fundraising operation is instead sending it to a new political
organization created by the president: a leadership PAC called Save America
PAC, a type of vehicle popular with both parties on Capitol Hill but long
derided by watchdogs as essentially a type of slush fund, with few restrictions
on how the money they raise can be spent.

Trump's frenzied fundraising pitches are channeling most of the money raised
to Save America, the leadership PAC he created iust davs after major media
outlets projected Biden had defeated him. Current fundraising appeals from
Trump solicit money for a joint fundraising committee, the Trump Make
America Great Again Committee, which is directing 75 percent of each
contribution to Save America, up to a $5,000 legal limit. Only after that point
does money start flowing into a recount account set up by Trump's presidential
campaign. (The remaining 25 percent of donations go to various accounts for
the Republican National Committee.)

"Leadership PACs can be used to effectively keep your campaign staff on the
payroll, keep them in your orbit, pay for travel, pay for rallies, even for polling,"
said Brendan Fischer, the director of the federal reform program at the
Campaign Legal Center, which supports greater regulation of these entities.
"Trump could potentially use his new leadership PAC to not only preserve his

influence within the Republican party after he leaves the White House, but also
to potentially to benefit him and his family financially."

One thing Trump wouldn't be allowed to use the leadership PAC money for:
directly financing a 2024 presidential bid, should he announce olans to run
again. But in addition to other campaign-like activities, Trump could use his

PAC to weigh in on Republican primaries through big-money independent ad
buys.

The Trump campaign also announced that the fundraising operation will
report raising $495 million in various post-election filings, which cover activity
from Oct. 15 through Nov. 23, due to the FEC on Thursday. That total will not
include Save America, which was formed after the election. Fox News first
reported the massive-post Election Day haul.

Republicans are acutely aware that Trump can wield his platform — along with
his leadership PAC war chest and email list, easily the most valuable donor list

in Republican politics — as a cudgel to shape the future of the party.

"This is about maintaining relevance in 2022 to potentially set up 2024, all
while freezing the [presidential primary] field," said Dan Eberhart, a major

A155

Republican donor, who also noted that if Trump is able to "be a part of the
story of taking back the House" in 2022, then it could "show momentum in the
midterms, he could be exceedingly relevant in 2024."

Advertisemem

THE AGENDA

PRO

a

Case
Case 2:20-cv-13134-LVP-RSW
2:20-cv-13134-LVP-RSW ECF
ECF No.
No. 78-7,
78-7, PageID.3718
PageID.3718 Filed
Filed 01/05/21
01/05/21 Page
Page 3
3 of
of 4
4
Advertisement

The Trump campaign is also eager to stoke the fact that the rank-and-file is still
on the president's side. "These tremendous fundraising numbers show
President Trump remains the leader and source of energy for the Republican
Party, and that his supporters are dedicated to fighting for the rightful, legal
outcome of the 2020 general election," Bill Stepien, Trump 2020 campaign
manager, said in a statement, alluding to the president's conspiracy theories
that he actually won the election.

Matt Gorman, another GOP strategist, noted that Trump's post-White House
strength won't be determined by a PAC. Rather, "the power of Trump has
always laid more in his megaphone than in his money," he said.

President-elect Joe Biden also broke a major milestone: His campaign reported
raising and spending more than a billion dollars. His campaign spent down
close to zero to defeat Trump, reporting just Si. 6 million left in cash reserves.
Only one presidential campaign in history spent more than Biden's: Mike
Bloomberg's short-lived, self-funded primary run earlier this year, which
shelled out more than $1.1 billion.

O MOST READ

Biden, who started off his campaign struggling to equal other Democrats'
fundraising during the primary, ended up overseeing the most successful

> 4i

«. 1

,,-i%r

fundraising operation in the history of American politics while defeating an

J-

incumbent president. Trump's campaign, for comparison, raised just under
$690 million and spent a little under $734 million. It ended the filing period
with S18.4 million in the bank and S11.3 million in debt.

Biden's presidential transition has also been raising money to fund its

1

MAGA activists plot

revenge on

Republican 'traitors'

operations, especially before the General Services Administration made
2

Biden transition hoping lor
victory but bracing for dele
eat in
Georgia

3

Trump' s Electoral College

organized as a nonprofit, does not file with the Federal Election Commission. It
will disclose its donors in February.

scheme divides 2024 GOP

Other campaign finance disclosures reveal more than just the president's haul.

successors

From the ludicrously expensive Georgia Senate runoffs to the full extent of
Democrats' strong small-dollar fundraising, here are four other notable

4

s

Georgia Senate races attract big money

Iranian forces storm south
Korean tanker

takeaways from the campaign finance filings covering Oct. 15 through Nov. 23.

Senate in the balance: How
Georgia's runoffs break down

With control of the Senate hanging in the balance, the pair of Georgia Senate
runoffs between GOP Sen. David Perdue and Democrat Jon Ossoff and
Republican Sen. Kelly Loeffler and Democrat Raphael Warnock are expected to
be among the most expensive ever. The races already attracted a ton of big

money just in the first few weeks.

The NRSC, Senate Republicans' campaign arm, had S36.8 million in the bank,
as of Oct. 23, to help fund its defense of the two incumbents. It also repoited
raising over $75.5 million — including an S8 million loan — in the roughly fiveweek period the report covers, a major fundraising boon for the party. (For
comparison's sake: the NRSC reported raising $32.7 million in September, the
last full month covered in a single FEC report.)

Republicans have launched an all-hands-on-deck fundraising effort for the pair

of runoffs, with famed Republican strategist Karl Rove helming a joint
fundraising committee between the NRSC and the two GOP candidates that
has already raised tens-of-millions of dollars.

Advertisemenf

Senate Democrats' DSCC, meanwhile, raised about half that in the same time

any loans. Republican also maintain a cash advantage, carrying $36.8 million

in reserves (with S18 million in debt) to Democrats' S17.5 million in the bank
(with S20.6 million in debt).

The Georgia candidates themselves are not required to file new FEC reports
until Christmas Eve,

Super PACs are also poised to play a major role in the race as well, as they have

in cycles-past.

The Senate Leadership Fund, the Republican super PAC helmed by allies of
Senate Majority Leader Mitch McConnell, brought in over $104 million in the
filing period, with over 70 percent of that coming after Election Day. The group
spent an eye-popping S112.6 million in that same period.

"Money isn't everything, but fundraising is an early leading indicator of

enthusiasm," Steven Law, the president of the group, said in an interview with
Fox News on Wednesday announcing the totals.

SLF's opposite number, Democrats' Senate Majority PAC, similarly raised and
spent a lot of money in the same time period. SMP raised just shy of spending
$90 million and dropped S107 million in spending.

What separated the two super PACs was how much they had in cash reserves
on Nov. 23. SLF had $60.8 million in the bank, while SMP spent itself down
much closer to zero, with just $2.1 million left in reserv es.

Still, some Republicans complained that the party's efforts in Georgia could
have even more support, if Trump weren't redirecting resources to himself.
Eberhart, the GOP donor, said that Trump was "taking resources and attention
away from Georgia."

"As a Republican, the thing to do right now is to make [Mitch] McConnell

A156

stronger by winning these two seats in Georgia, and Trump has taken both
money and oxygen away from that pay his] failure to concede and fundraising

Acfvertisemerit

Case
ECF No. 78-7,
Case 2:20-cv-13134-LVP-RSW
2:20-cv-13134-LVP-RSWm. ECFNo.
78-7, PageID.3719
PageID.3719 Filed
Filed 01/05/21
01/05/21 Page
Page 4
4 of
of 4
4
ActBlue continued to rake in small-dollar cash
ActBlue, the preferred Democratic digital fundraising platform, notched
another record in 2020, processing $4.8 billion in online donations to 22,000
left-leaning candidates and causes throughout the two-year election cycle,
ActBlue announced.

That enormous total showed up in Democratic coffers up and down the ballot,
where those candidates routinely smashed fundraising records. But cash wasn't
enough to cam' Democrats to major down-ballot victories, with the party
narrowly holding onto its House majority and the Senate still hanging in the
balance in Georgia.

Even so, ActBlue's strength is clear: More than 71 percent of the 14.8 million
unique donors were first-time donors to the platform, demonstrating its
exponential growth in just two years. Of those donors, more than half
contributed more than once during the cycle, and about half also gave to a
presidential primary candidate and another campaign later in the cycle — a
sign of how they were able to turn small-dollar donors into a renewable
resource for Democrats.

WinRed, the GOP's answer to ActBlue, has handled $1.9 billion in donations in
the last 16 months. (It only launched in mid-2019). The platform said it has
processed $804 million in October and November — and S350 million since
Election Day.

Senate Dems make strange bedfellows with Never
Trumpers
The Lincoln Project was spawned by a group of "Never Trump" Republican
operatives trying to sink the president's reelection bid. But the group, flush
with cash from enraged Democratic donors, soon set its sights on Senate
Republicans the group deemed to be Trump enablers.

Advertisement

The Lincoln Project launched bombastic ads that mirrored its attacks on the
president. (One, for example, compared South Carolina Sen. Lindsay Graham
to a "parasite" that used footage of a decomposing fox.)

And for that mission, it found a willing partner: Senate Democrats' main
outside groups. Senate Majority PAC, which is run by allies of Senate Minority'
Leader Chuck Schumer, gave $550,000 to The Lincoln Project on Oct. 30,
according to new FEC reports. Majority Forward, the nonprofit group affiliated
with SMP, also gave $650,000 to The Lincoln Project in mid-October, after
previously donating to the group.

The disclosure that Senate Democrats' big money arm was working with a
group of Republican consultants, even ones who disavowed the president,
provoked eye-rolls from some Democrats.

"WTF SMP," a Democratic aide who worked on a Senate campaign tested after
a POLITICO reporter tweeted out the fundraising figures. "This is why Dems
lose. I'm just stunned."

The GOP's most prolific donors never abandoned Trump
Trump's formidable campaign fundraising machine was eventually lapped by
Biden's huge financial surge. But big donors stepped into the void to try to
close the gap.

Several prominent Republican megadonors shelled out millions to Preserve
America PAC in the closing weeks of the presidential race, which was launched
at the tail end of the summer as Trump was getting drubbed on the TV

airwaves.

The biggest donors were Sheldon and Miriam Adelson, who collectively gave
the super PAC $15 million in the latter half of October. Altogether, the
megadonor couple donated $90 million to Preserve America over the course of
the campaign, part of an enormous $200 million they gave in disclosed
donations to outside groups in 2019 and 2020. Before Thursday's filing
deadline, the Adelsons had given $180 million, according to a tracker from the
Center for Responsive Politics.

Beraie Marcus, the founder of Home Depot, also gave S5 million at the end of
October to Restoration PAC.

America First Action, the super PAC Trump endorsed as his preferred vehicle
for outside spending, also had its patrons in the closing weeks of the race. The
group raised over $21 million over the same period, with $10 million of that
coming from Linda McMahon, Trump's former small business administrator
who now leads the super PAC.

On the Democratic side, Priorities USA Action, one of the largest pro-Biden
super PACs, brought in S14 million in that same time period.

Anita Kumar contributed to this report.

FILED UNDER: FUNDRAISING. PACS. PAC. POLITICAL FUNDRAISING. 2020 ELECTIONS. @

Help us do better!

To support and inlorm our journalism, it helps to learn more

i*:-

about you.

4-

SENIORITY

1

POLITICO

Select Seniority

INDUSTRY

Select Industry

A157

a
Submit

£
til

Case 2:20-cv-13134-LVP-RSW ECF No. 78-8, PageID.3720 Filed 01/05/21 Page 1 of 8

EXHIBIT 7

A158

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-03791-JEB
ECFDocument
No. 78-8, PageID.3721
10 Filed 01/04/21
Filed 01/05/21
Page 1 of 7Page 2 of 8

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

WISCONSIN VOTERS ALLIANCE, et al.,
Plaintiffs,
v.

Civil Action No. 20-3791 (JEB)

VICE PRESIDENT MICHAEL R.
PENCE, et al.,
Defendants.

MEMORANDUM OPINION
Plaintiffs’ aims in this election challenge are bold indeed: they ask this Court to declare
unconstitutional several decades-old federal statutes governing the appointment of electors and
the counting of electoral votes for President of the United States; to invalidate multiple state
statutes regulating the certification of Presidential votes; to ignore certain Supreme Court
decisions; and, the coup de grace, to enjoin the U.S. Congress from counting the electoral votes
on January 6, 2021, and declaring Joseph R. Biden the next President.
Voter groups and individual voters from the states of Wisconsin, Pennsylvania, Georgia,
Michigan, and Arizona have brought this action against Vice President Michael R. Pence, in his
official capacity as President of the Senate; both houses of Congress and the Electoral College
itself; and various leaders of the five aforementioned states. Simultaneous with the filing of their
Complaint, Plaintiffs moved this Court to preliminarily enjoin the certifying of the electors from
the five states and the counting of their votes. In addition to being filed on behalf of Plaintiffs
without standing and (at least as to the state Defendants) in the wrong court and with no effort to
even serve their adversaries, the suit rests on a fundamental and obvious misreading of the
1

A159

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-03791-JEB
ECFDocument
No. 78-8, PageID.3722
10 Filed 01/04/21
Filed 01/05/21
Page 2 of 7Page 3 of 8

Constitution. It would be risible were its target not so grave: the undermining of a democratic
election for President of the United States. The Court will deny the Motion.
I.

Background
To say that Plaintiffs’ 116-page Complaint, replete with 310 footnotes, is prolix would be

a gross understatement. After explicitly disclaiming any theory of fraud, see ECF No. 1
(Complaint), ¶ 44 (“This lawsuit is not about voter fraud.”), Plaintiffs spend scores of pages
cataloguing every conceivable discrepancy or irregularity in the 2020 vote in the five relevant
states, already debunked or not, most of which they nonetheless describe as a species of fraud.
E.g., id., at 37–109. Those allegations notwithstanding, Plaintiffs’ central contention is that
certain federal and state election statutes ignore the express mandate of Article II of the
Constitution, thus rendering them invalid. Id. at 109–12. Although the Complaint also asserts
causes of action for violations of the Equal Protection and Due Process Clauses, those are merely
derivative of its first count. Id. at 112–15.
In order to provide an equitable briefing and hearing schedule on a very tight timetable,
this Court immediately instructed Plaintiffs to file proofs of service on Defendants so that they
could proceed on their preliminary-injunction Motion. See 12/23/20 Min. Order; Fed. R. Civ. P.
65(a)(1) (“The court may issue a preliminary injunction only on notice to the adverse party.”).
Twelve days later, Plaintiffs have still not provided proof of notice to any Defendant, let alone
filed a single proof of service or explained their inability to do so.
II.

Legal Standard
“A preliminary injunction is an extraordinary remedy never awarded as of right.” Winter

v. NRDC, 555 U.S. 7, 24 (2008). “A plaintiff seeking a preliminary injunction must establish [1]
that he is likely to succeed on the merits, [2] that he is likely to suffer irreparable harm in the

2

A160

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-03791-JEB
ECFDocument
No. 78-8, PageID.3723
10 Filed 01/04/21
Filed 01/05/21
Page 3 of 7Page 4 of 8

absence of preliminary relief, [3] that the balance of equities tips in his favor, and [4] that an
injunction is in the public interest.” Sherley v. Sebelius, 644 F.3d 388, 392 (D.C. Cir. 2011)
(quoting Winter, 555 U.S. at 20). “The moving party bears the burden of persuasion and must
demonstrate, ‘by a clear showing,’ that the requested relief is warranted.” Hospitality Staffing
Solutions, LLC v. Reyes, 736 F. Supp. 2d 192, 197 (D.D.C. 2010) (citing Chaplaincy of Full
Gospel Churches v. England, 454 F.3d 290, 297 (D.C. Cir. 2006)).
Before the Supreme Court’s decision in Winter, courts weighed these factors on a
“sliding scale,” allowing “an unusually strong showing on one of the factors” to overcome a
weaker showing on another. Davis v. Pension Ben. Guar. Corp., 571 F.3d 1288, 1291–92 (D.C.
Cir. 2009) (quoting Davenport v. Int’l Bhd. of Teamsters, 166 F.3d 356, 361 (D.C. Cir. 1999)).
Both before and after Winter, however, one thing is clear: a failure to show a likelihood of
success on the merits alone is sufficient to defeat the motion. Ark. Dairy Coop. Ass’n, Inc. v.
USDA, 573 F.3d 815, 832 (D.C. Cir. 2009) (citing Apotex, Inc. v. FDA, 449 F.3d 1249, 1253–54
(D.C. Cir. 2006)); Archdiocese of Wash. v. Wash. Metro. Area Transit Auth., 281 F. Supp. 3d
88, 99 (D.D.C. 2017), aff’d on other grounds, 897 F.3d 314 (D.C. Cir. 2018).
III.

Analysis
Given that time is short and the legal errors underpinning this action manifold, the Court

treats only the central ones and in the order of who, where, what, and why. Most obviously,
Plaintiffs have not demonstrated the “irreducible constitutional minimum of standing.” Lujan v.
Defs. of Wildlife, 504 U.S. 555, 560 (1992). Although they claim to have been
“disenfranchised,” ECF No. 4 (PI Mem.) at 37, this is plainly not true. Their votes have been
counted and their electors certified pursuant to state-authorized procedures; indeed, any vote
nullification would obtain only were their own suit to succeed. To the extent that they argue

3

A161

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-03791-JEB
ECFDocument
No. 78-8, PageID.3724
10 Filed 01/04/21
Filed 01/05/21
Page 4 of 7Page 5 of 8

more broadly that voters maintain an interest in an election conducted in conformity with the
Constitution, id. at 38, they merely assert a “generalized grievance” stemming from an attempt to
have the Government act in accordance with their view of the law. Hollingsworth v. Perry, 570
U.S. 693, 706 (2013). This does not satisfy Article III’s demand for a “concrete and
particularized” injury, id. at 704, as other courts have recently noted in rejecting comparable
election challenges. See Wood v. Raffensperger, 981 F.3d 1307, 1314–15 (11th Cir. 2020);
Bowyer v. Ducey, No. 20-2321, 2020 WL 7238261, at *4–5 (D. Ariz. Dec. 9, 2020); King v.
Whitmer, No. 20-13134, 2020 WL 7134198, at *10 (E.D. Mich. Dec. 7, 2020). Plaintiffs’
contention that the state legislature is being deprived of its authority to certify elections,
moreover, cannot suffice to establish a distinct injury-in-fact to the individuals and organizations
before this Court. Finally, to the extent that Plaintiffs seek an injunction preventing certain state
officials from certifying their election results, see PI Mem. at 1, that claim is moot as
certification has already occurred. Wood, 981 F.3d at 1317.
Moving on from subject-matter jurisdiction, the Court must also pause at personal
jurisdiction. Plaintiffs cannot simply sue anyone they wish here in the District of Columbia. On
the contrary, they must find a court or courts that have personal jurisdiction over each Defendant,
and they never explain how a court in this city can subject to its jurisdiction, say, the Majority
Leader of the Wisconsin State Senate. Absent personal jurisdiction over a particular Defendant,
of course, this Court lacks authority to compel him to do anything.
Even if the Court had subject-matter and personal jurisdiction, it still could not rule in
Plaintiffs’ favor because their central contention is flat-out wrong. “Plaintiffs claim that Article
II of the U.S. Constitution provides a voter a constitutional right to the voter’s Presidential vote
being certified as part of the state legislature’s post-election certification of Presidential electors.

4

A162

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-03791-JEB
ECFDocument
No. 78-8, PageID.3725
10 Filed 01/04/21
Filed 01/05/21
Page 5 of 7Page 6 of 8

Absence [sic] such certification, the Presidential electors’ votes from that state cannot be counted
by the federal Defendants toward the election of President and Vice President.” Compl., ¶ 32
(emphasis added); see also PI Mem. at 1. More specifically, “Plaintiffs [sic] constitutional
claims in this lawsuit are principally based on one sentence in Article II of the U.S.
Constitution.” Compl., ¶ 54; see also PI Mem. at 1. That sentence states in relevant part that the
President “shall hold his Office during the Term of four Years, and . . . be elected[] as follows:
[¶] Each State shall appoint, in such Manner as the Legislature thereof may direct, a Number of
Electors . . . .” U.S. Const., art. II, § 1.
Plaintiffs somehow interpret this straightforward passage to mean that state legislatures
alone must certify Presidential votes and Presidential electors after each election, and that
Governors or other entities have no constitutionally permitted role. See Compl., ¶ 55. As a
result, state statutes that delegate the certification to the Secretary of State or the Governor or
anyone else are invalid. Id., ¶ 58. That, however, is not at all what Article II says. The abovequoted language makes manifest that a state appoints electors in “such Manner as the Legislature
thereof may direct.” So if the legislature directs that the Governor, Secretary of State, or other
executive-branch entity shall make the certification, that is entirely constitutional. This is
precisely what has happened: in each of the five states, the legislature has passed a statute
directing how votes are to be certified and electors selected. See Ariz. Rev. Stat. Ann. § 16212(B); Ga. Code Ann. § 21-2-499(b); Mich. Comp. Laws Ann. § 168.46; Wis. Stat. Ann.
§ 7.70(5)(b); 25 Pa. Stat. § 3166.
For example, Georgia requires its Secretary of State to “certify the votes cast for all
candidates . . . and lay the returns for presidential electors before the Governor. The Governor
shall enumerate and ascertain the number of votes for each person so voted and shall certify the

5

A163

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-03791-JEB
ECFDocument
No. 78-8, PageID.3726
10 Filed 01/04/21
Filed 01/05/21
Page 6 of 7Page 7 of 8

slates of presidential electors receiving the highest number of votes.” Ga. Code Ann. § 21-2499(b). Similarly, under Michigan law, “the governor shall certify, under the seal of the state, to
the United States secretary of state, the names and addresses of the electors of this state chosen
as electors of president and vice-president of the United States.” Mich. Comp. Laws Ann.
§ 168.46. Plaintiffs’ theory that all of these laws are unconstitutional and that the Court should
instead require state legislatures themselves to certify every Presidential election lies somewhere
between a willful misreading of the Constitution and fantasy.
Plaintiffs readily acknowledge that their position also means that the Supreme Court’s
decisions in Bush v. Gore, 531 U.S. 98 (2000), and Texas v. Pennsylvania, No. 155 (Orig.), 2020
WL 7296814 (U.S. Dec. 11, 2020), “are in constitutional error.” Compl., ¶ 76. They do not,
however, explain how this District Court has authority to disregard Supreme Court precedent.
Nor do they ever mention why they have waited until seven weeks after the election to bring this
action and seek a preliminary injunction based on purportedly unconstitutional statutes that have
existed for decades — since 1948 in the case of the federal ones. It is not a stretch to find a
serious lack of good faith here. See Trump v. Wis. Elections Comm’n, No. 20-3414, 2020 WL
7654295, at *4 (7th Cir. Dec. 24, 2020).
Yet even that may be letting Plaintiffs off the hook too lightly. Their failure to make any
effort to serve or formally notify any Defendant — even after reminder by the Court in its
Minute Order — renders it difficult to believe that the suit is meant seriously. Courts are not
instruments through which parties engage in such gamesmanship or symbolic political gestures.
As a result, at the conclusion of this litigation, the Court will determine whether to issue an order
to show cause why this matter should not be referred to its Committee on Grievances for
potential discipline of Plaintiffs’ counsel.

6

A164

Case 2:20-cv-13134-LVP-RSW
Case 1:20-cv-03791-JEB
ECFDocument
No. 78-8, PageID.3727
10 Filed 01/04/21
Filed 01/05/21
Page 7 of 7Page 8 of 8

IV.

Conclusion
As Plaintiffs have established no likelihood of success on the merits here, the Court will

deny their Motion for Preliminary Injunction. A contemporaneous Order so stating will issue
this day.
/s/ James E. Boasberg
JAMES E. BOASBERG
United States District Judge
Date: January 4, 2021

7

A165

Case 2:20-cv-13134-LVP-RSW ECF No. 78-9, PageID.3728 Filed 01/05/21 Page 1 of 3

EXHIBIT 8

A166

Case 2:20-cv-13134-LVP-RSW ECF No. 78-9, PageID.3729 Filed 01/05/21 Page 2 of 3

Portfolio Media. Inc. | 111 West 19th Street, 5th floor | New York, NY 10011 | www.law360.com
Phone: +1 646 783 7100 | Fax: +1 646 783 7161 | customerservice@law360.com

Atty Lin Wood Under Fire From Del. Judge For
Election Suits
By Dave Simpson

Law360 (December 21, 2020, 11:42 PM EST) -- Attorney L. Lin Wood's representation of former
Trump adviser Carter Page in Delaware state court could be revoked based on his conduct in suits
challenging the results of the general election as a plaintiff in Georgia and as counsel in Wisconsin, a
state court judge said Friday.
Delaware Superior Court Judge Craig A. Karsnitz ordered Wood to show why his representation of
Page in the case should not be revoked, given that Wood's Georgia suit was found to have "no basis
in fact or law" and the Wisconsin suit had "multiple deficiencies."
Wood, a high-profile trial attorney in Atlanta, was given permission to represent Page in the Delaware
suit in August but, Judge Karsnitz said, the cases filed since the election appear to violate the
Delaware Lawyers' Rules of Professional Conduct.
Wood's Nov. 13 suit against Georgia Secretary of State Brad Raffensperger and Georgia Election
Board members challenged the election officials' March settlement agreement with the Democratic
Party of Georgia to strengthen signature checks for absentee ballots. Wood, as the plaintiff, claimed
the change in procedure was made without authority and went against what was approved by the
state's Legislature.
But a week later U.S. District Judge Steven D. Grimberg denied on multiple grounds the
emergency bid to halt the certification of Georgia's general election results, saying the request by
Wood was too late, without merit and would disenfranchise millions of voters.
The judge said Wood had no standing as a private citizen, individual voter or campaign donor to bring
his claims of constitutional violations against his rights to equal treatment under the law, a fair and
transparent election, and due process. He also criticized Wood for waiting more than eight months to
challenge the March settlement agreement, a stretch in which there were three state elections.
Judge Karsnitz also said Friday that in the Georgia case Wood "filed or caused to be filed" an affidavit
with "materially false information" misidentifying the counties as to which claimed fraudulent voting
occurred.
In the Wisconsin litigation Wood was not the plaintiff, but the suit was "filed on behalf of a person
who had not authorized it," Judge Karsnitz said.
And the complaint and related filings had "multiple deficiencies," the judge said.
"All of the foregoing gives the court concerns as to the appropriateness of continuing the order
granting Mr. Wood authorization to appear in the court pro hac vice," Judge Karsnitz said.
He gave Wood until Jan. 6 to respond.
Wood became known nationally for representing Richard Jewell, the security guard falsely accused of
planting a bomb at the 1996 Summer Olympics in Atlanta, in his defamation suits against NBC News,
the New York Post and other media outlets.

A167

Case 2:20-cv-13134-LVP-RSW ECF No. 78-9, PageID.3730 Filed 01/05/21 Page 3 of 3
Wood did not immediately respond to requests for comment Monday night.
Attorneys attempting to overturn the election are taking heat in other venues as well.
Earlier this month, hundreds of attorneys, including retired judges and former American Bar
Association presidents, called for bar associations to investigate and condemn the lawyers behind
Trump's lawsuits seeking to overturn the results of the presidential election.
More than 1,500 attorneys signed an open letter calling out Rudy Giuliani, Joseph diGenova, Jenna
Ellis, Victoria Toensing and Sidney Powell as being in violation of the ABA's rules of professional
conduct, which prohibit lawyers from making frivolous claims and engaging in conduct involving
dishonesty and deceit in or out of court, the nonpartisan organization Lawyers Defending American
Democracy said.
Late last month, U.S. Rep. Bill Pascrell, D-N.J., told disciplinary authorities in five states that Giuliani
and nearly two dozen other lawyers should be disbarred for representing Trump's campaign in
"absurd" election-related lawsuits.
But experts told Law360 last month that attorney ethics enforcers are unlikely to target Trump's
lawyers for trying to overturn Biden's election win in court.
The case is Carter Page v. Oath Inc., case number S20C-07-030 CAK, in the Superior Court for the
State of Delaware.
--Editing by Bruce Goldman.
All Content © 2003-2021, Portfolio Media, Inc.

A168

Case 2:20-cv-13134-LVP-RSW ECF No. 78-10, PageID.3731 Filed 01/05/21 Page 1 of 2

EXHIBIT 9

A169

Case
Case 2:20-cv-13134-LVP-RSW
2:20-cv-13134-LVP-RSW . ECF
ECF No.
No. 78-10,
78-10, PageID.3732
PageID.3732 Filed
Filed 01/05/21
01/05/21 Page
Page 2
2 of
of 2
2

c

5D i

Search

#

CYBERSECURITY
& INFRASTRUCTURE
SECURITY AGENCY

CYBERSECURITY

J

COVID Questions

)

^Report Cyber Issue^)

INFRASTRUCTURE

EMERGENCY

NATIONAL RISK

ABOUT

SECURITY

COMMUNICATIONS

MANAGEMENT

CISA

[P

MEDIA

JOINT STATEMENT FROM ELECTIONS INFRASTRUCTURE GOVERNMENT

COORDINATING COUNCIL & THE ELECTION INFRASTRUCTURE SECTOR
COORDINATING EXECUTIVE COMMITTEES
Original release date: November 12, 2020

WASHINGTON - The members of Election Infrastructure Government Coordinating Council (GCC) Executive Committee - Cybersecurity and Infrastructure Security
Agency (CISA) Assistant Director Bob Kolasky, U.S. Election Assistance Commission Chair Benjamin Hovland, National Association of Secretaries of State (NASS)
President Maggie Toulouse Oliver, National Association of State Election Directors (MASED) President Lori Augino, and Escambia County (Florida) Supervisor of
Elections David Stafford - and the members of the Election Infrastructure Sector Coordinating Council (SCC) - Chair Brian Hancock (Unisyn Voting Solutions), Vice
Chair Sam Derheimer (Hart InterCivic), Chris Wlaschin (Election Systems & Software), Ericka Haas (Electronic Registration Information Center), and Maria Bianchi
(Democracy Works) - released the following statement:
"The November 3rd election was the most secure in American history. Right now, across the country, election officials are reviewing and double checking the
entire election process prior to finalizing the result.
"When states have close elections, many will recount ballots. All of the states with close results in the 2020 presidential race have paper records of each vote,
allowing the ability to go back and count each ballot if necessary. This is an added benefit for security and resilience. This process allows forthe identification and
There is no evidence that any voting system deleted or lost votes, changed votes, or was in any way compromised.

correction of any mistakes

"Other security measures like pre-election testing, state certification of voting equipment, and the U.S. Election Assistance Commission's (EAC) certification of
voting equipment help to build additional confidence in the voting systems used in 2020.

"While we know there are many unfounded claims and opportunities for misinformation about the process of our elections, we can assure you we have the
utmost confidence in the security and integrity of our elections, and you should too. When you have questions, turn to elections officials as trusted voices as they

administer elections."

###
Topics: Election Security
Keywords: CISA, Election security

Last Published Date: November 12, 2020

CYBERSECURITY &

INFRASTRUCTURE
SECURITY AGENCY

Accountability

CONTACT

SUBSCRIBE

O®@0©@

Privacy Policy

Fear Act

f REPORT ^

Accessibility

Plain Writing

Plug-ins

A170

Inspector General

s

The White House

USA.gov

Case 2:20-cv-13134-LVP-RSW ECF No. 78-11, PageID.3733 Filed 01/05/21 Page 1 of 14

EXHIBIT 10

A171

Case 2:20-cv-13134-LVP-RSW ECF No. 78-11, PageID.3734 Filed 01/05/21 Page 2 of 14
c

o
t/5
C
JC

o

STATE OF MICHIGAN
5
ts

IN THE THIRD JUDICIAL CIRCUIT COURT FOR THE COUNTY OF WAYNE

03

5

Q_
05
Xj"

Cheryl A. Costaritino and
Edward P. McCall, Jr.
Plaintiffs,
Hon. Timothy M. Kenny

o
CM

o
CM
00

Case No. 20-014780-AW

City of Detroit; Detroit Election
Commission; Janice M. Winfrey,

in her official capacity as the
Clerk of the City of Detroit and
the Chairperson and the Detroit
Election Commission; Cathy Garrett,
cr
UJ

o

In her official capacity as the Clerk of

Wayne County; and the Wayne County
Board of Canvassers,
Defendants.

z
D

o
o
UJ

z

>

<

£

OPINION & ORDER

ts
CO

0

At a session of this Court
Held on: November 13. 2020
In the Coleman A. Young Municipal Center

County of Wayne, Detroit, Ml
si
CO

O

PRESENT: Honorable Timothy M. Kenny

Chief Judge
LU

Third Judicial Circuit Court of Michigan

o
US
UI.

O

This matter comes before the Court on Plaintiffs' motion for preliminary injunction,

>_

2
z

o

protective order, and a results audit of the November 3, 2020 election. The Court

having read the parties' filing and heard oral arguments, finds:

LU

LL

With the exception of a portion of Jessy Jacob affidavit, all alleged fraudulent claims

£

<
I

o
00
ho
o
CM

brought by the Plaintiffs related to activity at the TCF Center. Nothing was alleged to
1

A172

Case 2:20-cv-13134-LVP-RSW ECF No. 78-11, PageID.3735 Filed 01/05/21 Page 3 of 14

have occurred at the Detroit Election Headquarters on West Grand Blvd. or at any
polling place on November 3, 2020.
The Defendants all contend Plaintiffs cannot meet the requirements for injunctive

relief and request the Court deny the motion.
When considering a petition for injunction relief, the Court must apply the following
four-pronged test:
1.

The likelihood the party seeking the injunction will prevail on the merits.

2.

The danger the party seeking the injunction will suffer irreparable harm if the
injunction is not granted.

3.

The risk the party seeking the injunction would be harmed more by the absence
an injunction than the opposing party would be by the granting of the injunction.

4.

The harm to the public interest if the injunction is issued. Davis v City of Detroit

Financial Review Team, 296 Mich. App. 568, 613; 821 NW2nd 896 (2012).
In the Davis opinion, the Court also stated that injunctive relief "represents an
extraordinary and drastic use of judicial power that should be employed sparingly and
only with full conviction of its urgent necessity." Id. at 612 fn 135 quoting Senior
Accountants, Analysts and Appraisers Association v Detroit, 218 Mich. App. 263, 269;

553 NW2nd 679(1996).
When deciding whether injunctive relief is appropriate MCR 3.310 (A)(4) states that
the Plaintiffs bear the burden of proving the preliminary injunction should be granted. In
cases of alleged fraud, the Plaintiff must state with particularity the circumstances
constituting the fraud. MCR 2.1 1 2 (B) (1 )
Plaintiffs must establish they will likely prevail on the merits. Plaintiffs submitted
seven affidavits in support of their petition for injunctive relief claiming widespread voter
2

A173

Case 2:20-cv-13134-LVP-RSW ECF No. 78-11, PageID.3736 Filed 01/05/21 Page 4 of 14

fraud took place at the TCF Center. One of the affidavits also contended that there was
blatant voter fraud at one of the satellite offices of the Detroit City Clerk. An additional

affidavit supplied by current Republican State Senator and former Secretary of State
Ruth Johnson, expressed concern about allegations of voter fraud and urged "Court
intervention", as well as an audit of the votes.
In opposition to Plaintiffs' assertion that they will prevail, Defendants offered six
affidavits from individuals who spent an extensive period of time at the TCF Center. In
addition to disputing claims of voter fraud, six affidavits indicated there were numerous
instances of disruptive and intimidating behavior by Republican challengers. Some
behavior necessitated removing Republican challengers from the TCF Center by police.

After analyzing the affidavits and briefs submitted by the parties, this Court
concludes the Defendants offered a more accurate and persuasive explanation of
activity within the Absent Voter Counting Board (AVCB) at the TCF Center.
Affiant Jessy Jacob asserts Michigan election laws were violated prior to November
3, 2020, when City of Detroit election workers and employees allegedly coached voters

to vote for Biden and the Democratic Party. Ms. Jacob, a furloughed City worker
temporarily assigned to the Clerk's Office, indicated she witnessed workers and
employees encouraging voters to vote a straight Democratic ticket and also witnessed
election workers and employees going over to the voting booths with voters in order to
encourage as well as watch them vote. Ms. Jacob additionally indicated while she was
working at the satellite location, she was specifically instructed by superiors not to ask
for driver's license or any photo ID when a person was trying to vote.
The allegations made by Ms. Jacob are serious. In the affidavit, however, Ms. Jacob
does not name the location of the satellite office, the September or October date these
3

A174

Case 2:20-cv-13134-LVP-RSW ECF No. 78-11, PageID.3737 Filed 01/05/21 Page 5 of 14

acts of fraud took place, nor does she state the number of occasions she witnessed the
alleged misconduct. Ms. Jacob in her affidavit fails to name the city employees
responsible for the voter fraud and never told a supervisor about the misconduct.
Ms. Jacob's information is generalized. It asserts behavior with no date, location,
frequency, or names of employees. In addition, Ms. Jacob's offers no indication of
whether she took steps to address the alleged misconduct or to alter any supervisor

about the alleged voter fraud. Ms. Jacob only came forward after the unofficial results
of the voting indicated former Vice President Biden was the winner in the state of
Michigan.
Ms. Jacob also alleges misconduct and fraud when she worked at the TCF Center.
She claims supervisors directed her not to compare signatures on the ballot envelopes
she was processing to determine whether or not they were eligible voters. She also
states that supervisors directed her to "pre-date" absentee ballots received at the TCF
Center on November 4, 2020. Ms. Jacob ascribes a sinister motive for these directives.

Evidence offered by long-time State Elections Director Christopher Thomas, however,
reveals there was no need for comparison of signatures at the TCF Center because
eligibility had been reviewed and determined at the Detroit Election Headquarters on
West Grand Blvd. Ms. Jacob was directed not to search for or compare signatures
because the task had already been performed by other Detroit city clerks at a previous
location in compliance with MCL 168.765a. As to the allegation of "pre-dating" ballots,

Mr. Thomas explains that this action completed a data field inadvertently left blank
during the initial absentee ballot verification process. Thomas Affidavit, #12. The

entries reflected the date the City received the absentee ballot. Id.

4

A175

Case 2:20-cv-13134-LVP-RSW ECF No. 78-11, PageID.3738 Filed 01/05/21 Page 6 of 14

The affidavit of current State Senator and former Secretary of State Ruth Johnson

essentially focuses on the affidavits of Ms. Jacob and Zachery Larsen. Senator
Johnson believed the information was concerning to the point that judicial intervention
was needed and an audit of the ballots was required. Senator Johnson bases her
assessment entirely on the contents of the Plaintiffs' affidavits and Mr. Thomas'
affidavit. Nothing in Senator Johnson's affidavit indicates she was at the TCF Center
and witnessed the established protocols and how the AVCB activity was carried out.
Similarly, she offers no explanation as to her apparent dismissal of Mr. Thomas'

affidavit. Senator Johnson's conclusion stands in significant contrast to the affidavit of
Christopher Thomas, who was present for many hours at TCF Center on November 2, 3
and 4. In this Court's view, Mr. Thomas provided compelling evidence regarding the
activity at the TCF Center's AVCB workplace. This Court found Mr. Thomas'
background, expertise, role at the TCF Center during the election, and history of
bipartisan work persuasive.

Affiant Andrew Sitto was a Republican challenger who did not attend the October

29th walk- through meeting provided to all challengers and organizations that would be
appearing at the TCF Center on November 3 and 4, 2020. Mr. Sitto offers an affidavit
indicating that he heard other challengers state that several vehicles with out-of-state

license plates pulled up to the TCF Center at approximately 4:30 AM on November 4th.
Mr. Sitto states that "tens of thousands of ballots" were brought in and placed on eight
long tables and, unlike other ballots, they were brought in from the rear of the room.
Sitto also indicated that every ballot that he saw after 4:30 AM was cast for former Vice
President Biden.

5

A176

Case 2:20-cv-13134-LVP-RSW ECF No. 78-11, PageID.3739 Filed 01/05/21 Page 7 of 14

Mr. Sitto's affidavit, while stating a few general facts, is rife with speculation and

guess-work about sinister motives. Mr. Sitto knew little about the process of the

absentee voter counting board activity. His sinister motives attributed to the City of
Detroit were negated by Christopher Thomas' explanation that all ballots were delivered
to the back of Hall E at the TCF Center. Thomas also indicated that the City utilized a
rental truck to deliver ballots. There is no evidentiary basis to attribute any evil activity

by virtue of the city using a rental truck with out-of-state license plates.

Mr. Sitto contends that tens of thousands of ballots were brought in to the TCF
Center at approximately 4:30 AM on November 4, 2020. A number of ballots
speculative on Mr. Sitto's part, as is his speculation that all of the ballots delivered were
cast for Mr. Biden. It is not surprising that many of the votes being observed by Mr.
Sitto were votes cast for Mr. Biden in light of the fact that former Vice President Biden
received approximately 220,000 more votes than President Trump.

Daniel Gustafson, another affiant, offers little other than to indicate that he witnessed
"large quantities of ballots" delivered to the TCF Center in containers that did not have
lids were not sealed, or did not have marking indicating their source of origin. Mr.

Gustafson's affidavit is another example of generalized speculation fueled by the belief
that there was a Michigan legal requirement that all ballots had to be delivered in a
sealed box. Plaintiffs have not supplied any statutory requirement supporting Mr.
Gustafson's speculative suspicion of fraud.
Patrick Colbeck's affidavit centered around concern about whether any of the
computers at the absent voter counting board were connected to the internet. The
answer given by a David Nathan indicated the computers were not connected to the
6

A177

Case 2:20-cv-13134-LVP-RSW ECF No. 78-11, PageID.3740 Filed 01/05/21 Page 8 of 14

internet. Mr. Colbeck implies that there was internet connectivity because of an icon
that appeared on one of the computers. Christopher Thomas indicated computers were
not connected for workers, only the essential tables had computer connectivity. Mr.

Colbeck, in his affidavit, speculates that there was in fact Wi-Fi connection for workers
use at the TCF Center. No evidence supports Mr. Colbeck's position.

This Court also reads Mr. Colbeck's affidavit in light of his pre-election day Facebook
posts. In a post before the November 3, 2020 election, Mr. Colbeck stated on
Facebook that the Democrats were using COVID as a cover for Election Day fraud. His
predilection to believe fraud was occurring undermines his credibility as a witness.

Affiant Melissa Carone was contracted by Dominion Voting Services to do IT work at
the TCF Center for the November 3, 2020 election. Ms. Carone, a Republican,
indicated that she "witnessed nothing but fraudulent actions take place" during her time
at the TCF Center. Offering generalized statements, Ms. Carone described illegal
activity that included, untrained counter tabulating machines that would get jammed four

to five times per hour, as well as alleged cover up of loss of vast amounts of data. Ms.
Carone indicated she reported her observations to the FBI.

Ms. Carone's description of the events at the TCF Center does not square with any
of the other affidavits. There are no other reports of lost data, or tabulating machines
that jammed repeatedly every hour during the count. Neither Republican nor
Democratic challengers nor city officials substantiate her version of events. The
allegations simply are not credible.

7

A178

Case 2:20-cv-13134-LVP-RSW ECF No. 78-11, PageID.3741 Filed 01/05/21 Page 9 of 14

Lastly, Plaintiffs rely heavily on the affidavit submitted by attorney Zachery Larsen.
Mr. Larsen is a former Assistant Attorney General for the State of Michigan who alleged
mistreatment by city workers at the TCF Center, as well as fraudulent activity by
election workers. Mr. Larsen expressed concern that ballots were being processed

without confirmation that the voter was eligible. Mr. Larsen also expressed concern that
he was unable to observe the activities of election official because he was required to
stand six feet away from the election workers. Additionally, he claimed as a Republican
challenger, he was excluded from the TCF Center after leaving briefly to have

something to eat on November 4th. He expressed his belief that he had been excluded
because he was a Republican challenger.

Mr. Larsen's claim about the reason for being excluded from reentry into the absent
voter counting board area is contradicted by two other individuals. Democratic
challengers were also prohibited from reentering the room because the maximum

occupancy of the room had taken place. Given the COVID-19 concerns, no additional
individuals could be allowed into the counting area. Democratic party challenger David
Jaffe and special consultant Christopher Thomas in their affidavits both attest to the fact
that neither Republican nor Democratic challengers were allowed back in during the

early afternoon of November 4,h as efforts were made to avoid overcrowding.
Mr. Larsen's concern about verifying the eligibility of voters at the AVCB was
incorrect. As stated earlier, voter eligibility was determined at the Detroit Election
Headquarters by other Detroit city clerk personnel.

The claim that Mr. Larsen was prevented from viewing the work being processed at
the tables is simply not correct. As seen in a City of Detroit exhibit, a large monitor was
8

A179

Case 2:20-cv-13134-LVP-RSW ECF No. 78-11, PageID.3742 Filed 01/05/21 Page 10 of 14

at the table where individuals could maintain a safe distance from poll workers to see
what exactly was being performed. Mr. Jaffe confirmed his experience and observation
that efforts were made to ensure that all challengers could observe the process.

Despite Mr. Larsen's claimed expertise, his knowledge of the procedures at the
AVCB paled in comparison to Christopher Thomas'. Mr. Thomas' detailed explanation

of the procedures and processes at the TCF Center were more comprehensive than Mr.

Larsen's. It is noteworthy, as well, that Mr. Larsen did not file any formal complaint as
the challenger while at the AVCB. Given the concerns raised in Mr. Larsen's affidavit,
one would expect an attorney would have done so. Mr. Larsen, however, only came
forward to complain after the unofficial vote results indicated his candidate had lost.

In contrast to Plaintiffs' witnesses, Christopher Thomas served in the Secretary of
State's Bureau of Elections for 40 years, from 1977 through 2017. In 1981, he was
appointed Director of Elections and in that capacity implemented Secretary of State
Election Administration Campaign Finance and Lobbyist disclosure programs. On
September 3, 2020 he was appointed as Senior Advisor to Detroit City Clerk Janice

Winfrey and provided advice to her and her management staff on election law
procedures, implementation of recently enacted legislation, revamped absent voter
counting boards, satellite offices and drop boxes. Mr. Thomas helped prepare the City
of Detroit for the November 3, 2020 General Election.

As part of the City's preparation for the November 3rd election Mr. Thomas invited
challenger organizations and political parties to the TCF Center on October 29, 2020 to
have a walk-through of the entire absent voter counting facility and process. None of
Plaintiff challenger affiants attended the session.
9

A180

Case 2:20-cv-13134-LVP-RSW ECF No. 78-11, PageID.3743 Filed 01/05/21 Page 11 of 14

On November 2, 3, and 4, 2020, Mr. Thomas worked at the TCF Center absent voter
counting boards primarily as a liaison with Challenger Organizations and Parties. Mr.
Thomas indicated that he "provided answers to questions about processes at the
counting board's resolved dispute about process and directed leadership of each
organization or party to adhere to Michigan Election Law and Secretary of State
procedures concerning the rights and responsibilities of challengers."
Additionally, Mr. Thomas resolved disputes about the processes and satisfactorily
reduced the number of challenges raised at the TCF Center.
In determining whether injunctive relief is required, the Court must also determine
whether the Plaintiffs sustained their burden of establishing they would suffer

irreparable harm if an injunction were not granted. Irreparable harm does not exist if
there is a legal remedy provided to Plaintiffs.
Plaintiffs contend they need injunctive relief to obtain a results audit under Michigan
Constitution Article 2, § IV, Paragraph 1 (h) which states in part "the right to have the
results of statewide elections audited, in such as manner as prescribed by law, to
ensure the accuracy and integrity of the law of elections." Article 2, § IV, was passed by

the voters of the state of Michigan in November, 2018.
A question for the Court is whether the phrase "in such as manner as prescribed by
law" requires the Court to fashion a remedy by independently appointing an auditor to
examine the votes from the November 3, 2020 election before any County certification
of votes or whether there is another manner "as prescribed by law".
Following the adoption of the amended Article 2, § IV, the Michigan Legislature
amended MCL 168.31a effective December 28, 2018. MCL 168.31a provides for the
Secretary of State and appropriate county clerks to conduct a results audit of at least
10

A181

Case 2:20-cv-13134-LVP-RSW ECF No. 78-11, PageID.3744 Filed 01/05/21 Page 12 of 14

one race in each audited precinct. Although Plaintiffs may not care for the wording of
the current MCL 168.31a, a results audit has been approved by the Legislature. Any

amendment to MCL 168.31a is a question for the voice of the people through the
legislature rather than action by the Court.
It would be an unprecedented exercise of judicial activism for this Court to stop the
certification process of the Wayne County Board of Canvassers. The Court cannot defy
a legislatively crafted process, substitute its judgment for that of the Legislature, and
appoint an independent auditor because of an unwieldy process. In addition to being an
unwarranted intrusion on the authority of the Legislature, such an audit would require

the rest of the County and State to wait on the results. Remedies are provided to the
Plaintiffs. Any unhappiness with MCL 168.31a calls for legislative action rather than
judicial intervention.
As stated above, Plaintiffs have multiple remedies at law. Plaintiffs are free to
petition the Wayne County Board of Canvassers who are responsible for certifying the
votes. (MCL 168.801 and 168.821 et seq.) Fraud claims can be brought to the Board of

Canvassers, a panel that consists of two Republicans and two Democrats. If
dissatisfied with the results, Plaintiffs also can avail themselves of the legal remedy of a
recount and a Secretary of State audit pursuant to MCL 168.31a.
Plaintiff's petition for injunctive relief and for a protective order is not required at this
time in light of the legal remedy found at 52 USC § 20701 and Michigan's General

Schedule #23 - Election Records, Item Number 306, which imposes a statutory
obligation to preserve all federal ballots for 22 months after the election.
In assessing the petition for injunctive relief, the Court must determine whether there
will be harm to the Plaintiff if the injunction is not granted, as Plaintiffs' existing legal
11

A182

Case 2:20-cv-13134-LVP-RSW ECF No. 78-11, PageID.3745 Filed 01/05/21 Page 13 of 14

remedies would remain in place unaltered. There would be harm, however, to the

Defendants if the Court were to grant the requested injunction. This Court finds that
there are legal remedies for Plaintiffs to pursue and there is no harm to Plaintiffs if the
injunction is not granted. There would be harm, however, to the Defendants if the
injunction is granted. Waiting for the Court to locate and appoint an independent,
nonpartisan auditor to examine the votes, reach a conclusion and then finally report to

the Court would involve untold delay. It would cause delay in establishing the
Presidential vote tabulation, as well as all other County and State races. It would also
undermine faith in the Electoral System.
Finally, the Court has to determine would there be harm to the public interest. This
Court finds the answer is a resounding yes. Granting Plaintiffs' requested relief would
interfere with the Michigan's selection of Presidential electors needed to vote on
December 14, 2020. Delay past December 14, 2020 could disenfranchise Michigan

voters from having their state electors participate in the Electoral College vote.
Conclusion

Plaintiffs rely on numerous affidavits from election challengers who paint a picture of
sinister fraudulent activities occurring both openly in the TCF Center and under the
cloak of darkness. The challengers' conclusions are decidedly contradicted by the
highly-respected former State Elections Director Christopher Thomas who spent hours

and hours at the TCF Center November 3rd and 4th explaining processes to challengers
and resolving disputes. Mr. Thomas' account of the November 3rd and 4th events at the
TCF Center is consistent with the affidavits of challengers David Jaffe, Donna
MacKenzie and Jeffrey Zimmerman, as well as former Detroit City Election Official, now
contractor, Daniel Baxter and City of Detroit Corporation Counsel Lawrence Garcia.
12

A183

Case 2:20-cv-13134-LVP-RSW ECF No. 78-11, PageID.3746 Filed 01/05/21 Page 14 of 14

Perhaps if Plaintiffs' election challenger affiants had attended the October 29, 2020
walk-through of the TCP Center ballot counting location, questions and concerns could

have been answered in advance of Election Day. Regrettably, they did not and
therefore, Plaintiffs' affiants did not have a full understanding of the TCF absent ballot

tabulation process. No formal challenges were filed. However, sinister, fraudulent

motives were ascribed to the process and the City of Detroit. Plaintiffs' interpretation of
events is incorrect and not credible.

Plaintiffs are unable to meet their burden for the relief sought and for the above
mentioned reasons, the Plaintiffs' petition for injunctive relief is DENIED. The Court
further finds that no basis exists for the protective order for the reasons identified above.
Therefore, that motion is DENIED. Finally, the Court finds that MCL 168.31a governs
the audit process. The motion for an independent audit is DENIED.

It is so ordered.

This is not a final order and does not close the case.

November 13, 2020

Hon. Timothy|M. Kenr#

^

Chief Judge

/

Third Judicial Circuit Court of Michigan

13

A184

Case 2:20-cv-13134-LVP-RSW ECF No. 78-12, PageID.3747 Filed 01/05/21 Page 1 of 13

EXHIBIT 11

A185

Case 2:20-cv-13134-LVP-RSW ECF No. 78-12, PageID.3748 Filed 01/05/21 Page 2 of 13

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF WAYNE

CHERYL A. COSTANTINO and,
EDWARD P. MCCALL, JR.,

Case No. 20-014780-AW
Hon. Timothy M. Kenny

Plaintiffs,

vs.

CITY OF DETROIT; DETROIT ELECTION

COMMISSION; JANICE WINFREY, in her official

capacity as the CLERK OF THE CITY and the
Chairperson of the DETROIT ELECTION COMMISSION;
CATHY M. GARRETT, in her official capacity as the
CLERK OF WAYNE COUNTY; and the WAYNE COUNTY
BOARD OF CANVASSERS,

Defendants.
GREAT LAKES JUSTICE CENTER

FINK BRESSACK

David A. Kallman (P34200)

David H. Fink (P28235)

Erin E. Mersino (P70886)

Darryl Bressack(P67820)

Jack C. Jordan (P46551)

38500 Woodward Ave., Suite 350

Stephen P. Kallman (P75622)

Bloomfield Hills, MI 48304

5600 W. Mount Hope Hwy.

(248) 971-2500

Lansing, MI 48917

dfink@fmkbressack.com

(517) 322-3207

dbressack@fmkbressack.com

Attorneys for Plaintiffs

Attorneys for City ofDetroit, City ofDetroit
Election Commission and Janice Winfrey
CITY OF DETROIT LAW DEPARTMENT

Lawrence T. Garcia (P54890)
Charles N. Raimi (P29746)
James D. Noseda (P52563)

2 Woodward Ave., 5th Floor
Detroit, MI 48226
(313) 237-5037

garcial@detroitmi.goc
raimic@detroitmi.gov
nosej @detroitmi. gov
Attorneys for City ofDetroit, City ofDetroit
Election Commission and Janice Winfrey

AFFIDAVIT OF CHRISTOPHER THOMAS

1

A186

Case 2:20-cv-13134-LVP-RSW ECF No. 78-12, PageID.3749 Filed 01/05/21 Page 3 of 13

Being duly sworn, Christopher Thomas, deposes and states the following as true, under
oath:
1.

I am a Senior Advisor to Detroit City Clerk Janice Winfrey beginning on September

3, 2020 until December 12, 2020. In this capacity I advise the Clerk and management staff on
election law procedures, implementation of recently enacted legislation, revamped absent voter
counting board, satellite offices and drop boxes, Bureau of Election matters and general
preparation for the November 3, 2020 General Election.
2.

I served in the Secretary of State Bureau of Election for 40 years beginning in May

1977 and finishing in June 2017. In June 1981 I was appointed Director of Elections and in that

capacity implemented four Secretaries of State election administration, campaign finance and
lobbyist disclosure programs.
3.

In 2013, I was appointed to President Barack Obama's Commission on Election

Administration and served until a final report was submitted to the President and Vice-President
in January 2014.
4.

I am a founding member of the National Association of State Election Directors

and severed as its president in 1997 and 2013.
5.

On November 2, 3 and 4, 2020, 1 worked at the TCF Center absent voter counting

boards primarily as liaison with challenger parties and organizations. I provided answers to
questions about processes at the counting board tables, resolved disputed about process and
directed leadership of each organization or party to adhere to Michigan Election Law and Secretary
of State procedures concerning the rights and responsibilities of challengers. I have reviewed the
complaint and affidavits in this case.

2

A187

Case 2:20-cv-13134-LVP-RSW ECF No. 78-12, PageID.3750 Filed 01/05/21 Page 4 of 13

6.

It is clear from the affidavits attached to the Complaint that these challengers do

not understand absent voter ballot processing and tabulating. It is clear also that they did not
operate through the leadership of their challenger party, because the issues they bring forward were
by and large discussed and resolved with the leadership of their challenger party. The leadership
on numerous occasions would ask me to accompany them to a particular counting board table to

resolve an issue. I would always discuss the issue with counting board inspectors and their
supervisors and the challengers. The affiants appear to have failed to follow this protocol
established in a meeting with challenger organizations and parties on Thursday, October 29, 2020
at the TCF Center where a walk-through of the entire process was provided. A few basics are in
order: The Qualified Voter File (QVF) is a statewide vote registration file and was not available

to counting boards. E-pollbook (EPB) is a computer program used in election day precincts to
create the poll list of voters casting ballots. Supplemental poll lists contain names of voters who
cast an absent voter ballot on Sunday, Monday and Tuesday.

At the processing tables no ballots

are scanned. A poll list is not used to confirm whether any specific voter's ballot is counted.
7.

To increase the accuracy of the poll list, the Detroit Department of Elections

employed the Secretary of State e-pollbook (EPB) to assist in creating the poll list. For each of the
counting boards, the EPB held all the names of voters who requested and returned an absent voter

ballot by mid-afternoon Sunday, November 1. The download on Sunday was necessary to prepare
for the pre-processing granted by a recently enacted law that allows larger municipalities to process

ballots, but not to tabulate them, for 10 hours on Monday. (To clarify some apparent confusion by
Plaintiffs, Wayne County does not tabulate City of Detroit absent voter ballots.)
8.

Absent voter ballots received Sunday after the download to EPB, all day Monday

until 4 p.m. and Tuesday by 8 p.m. were not in the EPB. They would be added either by manually

3

A188

Case 2:20-cv-13134-LVP-RSW ECF No. 78-12, PageID.3751 Filed 01/05/21 Page 5 of 13

entering the voter names into the EPB or on supplemental paper poll lists printed from the

Qualified Voter File (QVF).
9.

Zachery Larsen is raising an issue about return ballot envelopes where the barcode

on the label would not scan and the voter's name was not on the supplemental list. He was
observing the correction of clerical errors, not some type of fraud. In every election, clerical errors

result in voters being left off the poll list, whether it is a paper poll list or the EPB. These errors
are corrected so that voters are not disenfranchised. Michigan law ensures that voters are not
disenfranchised by clerical errors.
10.

On Wednesday, November 4 it was discovered that the envelopes for some ballots

that had been received prior to November 3 at 8 p.m., had not been received in the QVF. They
would not scan into the EPB and were not on the supplemental paper list. Upon reviewing the
voters' fdes in the QVF, Department of Elections staff found that the final step of processing
receipt of the ballots was not taken by the satellite office employees. The last step necessary to
receive a ballot envelope requires the satellite employee to enter the date stamped on the envelope
and select the "save" button. They failed to select "save".
11.

A team of workers was directed to correct those clerical errors by entering the date

the ballots were received in the satellite office and selecting "save". This action then placed the
voter into the Absent Voter Poll List in the QVF so that the ballot could be processed and counted.

None of these ballots were received after 8 p.m. on election day. Most were received on Monday,

November 2nd - the busiest day for the satellite offices.
12.

The return ballot envelopes for each of these voters are marked with the date

received and initialed by satellite employees who verified the voter signatures. By entering the
date on which the ballot was received, no QVF data was altered. The date field was empty because

4

A189

Case 2:20-cv-13134-LVP-RSW ECF No. 78-12, PageID.3752 Filed 01/05/21 Page 6 of 13

the satellite workers did not select 'save', thus failing to complete the transaction. The
"backdating" allegation is that on November 4 the staff entered the correct dates the ballots were

received - all dates were November 3 or earlier. The date of receipt was not backdated.
13.

These return ballot envelopes were discussed with several Republican challengers.

Two challengers were provided a demonstration of the QVF process to show them how the error
occurred, and they chose not to fde a challenge to the individual ballots.
14.

The inspectors at the counting boards were able to manually enter voters into the

EPB. The return ballot envelope could easily be observed and every key stroke of the EPB laptop
operator was clearly visible on the large screen at one comer of the table. The Department of

Elections, at some expense, provided large monitors (see attached photo) to keep the inspectors
safe and provide the challengers with a view of what was being entered, without crossing the 6foot distancing barrier. Instead of creating problems for challengers, the monitors made observing
the process very transparent.
15.

The EPB has an "Unlisted Tab" that allows inspectors to add the names of voters

not listed. The EPB is designed primarily for use in election day polling places and reserves the
Unlisted Tab to enter voters casting provisional ballots. In polling places, voters are verified by
providing their date of birth. Consequently, the EPB is designed with a birthdate field that must be

completed to move to the next step. When using this software in an absent voter counting board, a
birthdate is not necessary to verify voters, as these voters are verified by signature comparisons (a
process which was completed before the ballots were delivered to the TCF Center). Inspectors at
the TCF Center did not have access to voters' birthdates. Therefore, due to the fact that the software
(but not the law or the Secretary of State) requires the field be completed to move to the next step,
1/1/1900 was used as a placeholder. This is standard operating procedure and a standard date used

5

A190

Case 2:20-cv-13134-LVP-RSW ECF No. 78-12, PageID.3753 Filed 01/05/21 Page 7 of 13

by the State Bureau of Elections and election officials across the state to flag records requiring
attention. The date of 1/1/1900 is recommended by the Michigan Secretary of State for instances
in which a placeholder date is needed.
16.

When Republican challengers questioned the use of the 1/1/1900 date on several

occasions, I explained the process to them. The challengers understood the explanation and,
realizing that what they observed was actually a best practice, chose not to raise any challenges.
17.

Ballots are delivered to the TCF Center after they are processed at the Department

of Elections main office on West Grand Boulevard. On election day, ballots are received from the
post office and the satellite offices. It takes several hours to properly process ballots received on
election day. It appears that some of the affidavits submitted by Plaintiffs are repeating false

hearsay about ballots being delivered, when actually television reporters were bringing in wagons
of audio-video equipment. All ballots were delivered the same way— from the back of the TCF
Hall E.
18.

Early in the morning on Wednesday, November 4, approximately 16,000 ballots

were delivered in a white van used by the city. There were 45 covered trays containing
approximately 350 ballots each. The ballots were not visible as the trays had a sleeve that covered
the ballots.
19.

The ballots delivered to the TCF Center had been verified by the City Clerk's staff

prior to delivery in a process prescribed by Michigan law. Thus, when Jessy Jacob complains that

she "was instructed not to look at any of the signatures on the absentee ballots, and I was instructed
not to compare the signature on the absentee ballot with the signature on file" it was because that
part of the process had already been completed by the City Clerk's Office in compliance with the
statutory scheme.

6

A191

Case 2:20-cv-13134-LVP-RSW ECF No. 78-12, PageID.3754 Filed 01/05/21 Page 8 of 13

20.

It would have been impossible for any election worker at the TCF Center to count

or process a ballot for someone who was not an eligible voter or whose ballot was not received by

the 8:00 p.m. deadline on November 3, 2020. No ballot could have been "backdated," because no
ballots received after 8:00 p.m. on November 3, 2020 were ever at the TCF Center. No voter not
in the QVF or in the "Supplemental Sheets" could have been processed, or "assigned" to a "random

name" because no ballot from a voter not in one of the two tracking systems, was brought to the
TCF Center.
21.

Mr. Larsen complains he was not given a full opportunity to stand immediately

behind or next to an election inspector. As stated, monitors were set up for this purpose. Moreover,
election inspection were instructed to follow the same procedure for all challengers. The Detroit
Health Code and safety during a pandemic required maintaining at least 6-feet of separation. This

was relaxed where necessary for a challenger to lean in to observe something and then lean back
out to return to the 6-foot distancing. The inspectors could see and copy the names of each person
being entered into the e-pollbook. If an inspector did not fully accommodate a challenger's

reasonable request and the issue was brought to the attention of a supervisor, it was remedied.
Announcements were made over the public address system to inform all inspectors of the rules.
If what Mr. Larsen says is accurate, any inconvenience to him was temporary, had no effect on the
processing of ballots, and certainly was not a common experience for challengers.
22.

Jessy Jacob alleges she was instructed by her supervisor to adjust the mailing date

of absentee ballot packages being sent out to voters in September 2020. The mailing date recorded
for absentee ballot packages would have no impact on the rights of the voters and no effect on the
processing and counting of absentee votes.

7

A192

Case 2:20-cv-13134-LVP-RSW ECF No. 78-12, PageID.3755 Filed 01/05/21 Page 9 of 13

23.

Michigan Election Law requires clerks to safely maintain absent voter ballots and

deliver them to the absent voter counting board. There is no requirement that such ballots be

transported in sealed ballot boxes. To my knowledge, they are not sealed by any jurisdiction in
Michigan in a ballot box prior to election day. Employees bring the ballot envelopes to the TCF
Center, which is consistent with chain of custody. The only ballots brought to TCF that are not in

envelopes are blank ballots used to duplicate ballots when necessary.
24.

At no time after ballots were delivered to TCF on Sunday, November 1, did any

ballot delivery consisted of "tens of thousands of ballots".
25.

Reference is made to a "second round of new ballots" around 9:00 p.m. on

Wednesday, November 4. At or about 9:00 p.m. on November 4, 2020 the Department of Elections
delivered additional blank ballots that would be necessary to complete the duplication of military
and overseas ballots. No new voted ballots were received. The affidavits are likely referring to
blank ballots that were being delivered in order to process AY and military ballots in compliance
with the law.
26.

In the reference to

a "second round of new ballots" there

are numerous

misstatements indicative of these challengers' lack of knowledge and their misunderstanding of
how an absent voter counting board operates. These statements include "confirm that the name on
the ballot matched the name on the electronic poll list" - there are no names on ballots.
27.

No absentee ballots received after the deadline of 8:00 p.m. on November 3, 2020,

were received by or processed at the TCF Center. Only ballots received by the deadline were
processed.
28.

Plaintiffs reference "Supplement Sheets with the names of all persons who have

registered to vote on either November 2, 2020 or November 3, 2020." Some of the names are

8

A193

Case 2:20-cv-13134-LVP-RSW ECF No. 78-12, PageID.3756 Filed 01/05/21 Page 10 of 13

voters who registered to vote on those days, but the vast majority are voters who applied for and
voted an absent voter ballot.
29.

Plaintiffs use "QVF" in place of "EPB". The QVF is a statewide voter registration

fde; an EPB for a counting board is a fde of the voters who applied for and returned an absent
voter ballot for that counting board.
30.

There is no "election rule" requiring all absent voter ballots be recorded in the QVF

by 9:00 p.m. on November 3, 2020.
31.

Plaintiffs also misunderstand the process when they state ballots were "filled out

by hand and duplicated on site." Instead, ballots were duplicated according to Michigan law.
Michigan election law does not call for partisan challengers to be present when a ballot is

duplicated; instead, when a ballot is duplicated as a result of a "false read," the duplication is
overseen by one Republican and one Democratic inspector coordinating together. That process

was followed.
32.

Regarding access to TCF Hall E by challengers, there is also much misinformation

contained in the statements of challengers. Under the procedure issued by the Secretary of State
there may only be 1 challenger for each qualified challenger organization at a counting board.
Detroit maintains

134 counting board, thus permitting a like number of challengers per

organization.
33.

In mid-aftemoon on Wednesday, I observed that few challengers were stationed at

the counting board tables. Rather, clusters of 5, 10 or 15 challengers were gathered in the main
aisles at some tables. I conducted a conversation with leaders of the Republican Party and
Democratic Party about the number of challengers in the room and their locations. It became clear
that more than 134 challengers were present for these organizations. No one was ejected for this

9

A194

Case 2:20-cv-13134-LVP-RSW ECF No. 78-12, PageID.3757 Filed 01/05/21 Page 11 of 13

reason, but access to Hall E was controlled to ensure that challenger organizations had their full

complement and did not exceed the ceiling any further than they already had.
34.

Challengers were instructed to sign out if they needed to leave Hall E. For a short

period of time—a few hours—because there were too many challengers in Hall E for inspectors to
safely do their jobs, new challengers were not allowed in until a challenger from their respective
organization left the Hall. However, as stated above, each challenger organization, including
Republican and Democrat, continued to have their complement of challengers inside of the Hall
E.

35.

As stated previously, challengers are expected to be at their stations next to a

counting board. Unfortunately, this was not the behavior being displayed. Instead, challengers

were congregating in large groups standing in the main aisles and blocking Election Inspectors'
movement. In one instance, challengers exhibited disorderly behavior by chanting "Stop the Vote."
I believed this to be inappropriate threatening of workers trying to do their jobs. Such action is
specifically prohibited in Michigan election law. Nevertheless, challengers were permitted to

remain.

36.

The laptop computers at the counting boards were not connected to the Internet.

Some of the computers were used to process absent voter ballot applications in mid-October and
were connected to the QVF. On election day and the day after election day, those computers were
not connected and no inspector at the tables had QVF credentials that would enable them to access
the QVF.
37.

The Qualified Voter File has a high level of security and limitation on access to the

file. For example, it is not true that a person with QVF credentials in one city is able to access data
in another city's file within the QVF. That is not possible.

10

A195

Case 2:20-cv-13134-LVP-RSW ECF No. 78-12, PageID.3758 Filed 01/05/21 Page 12 of 13

38.

A point of much confusion in these claims is centered on the law that permits a city

clerk to verify the signatures on absent voter ballots before election day. Inspectors at absent voter
counting boards do not verify the signatures on the return ballot envelopes. Department of
Elections staff may use a voter's signature on an application to verify the voter's signature on

return ballot envelope. Or the staff may use the voter's signature in the QW to make the

comparison. Often using the QVF is more efficient than the application signatures.
39.

I am not aware of any valid challenge being refused or ignored or of any challengers

being removed because they were challenging ballots. Ballot challengers are an important part of

the democratic process and were fully able to participate in the process at the TCF Center.
40

In conclusion, upon reviewing Plaintiffs' Complaint, Affidavits, and Motion, I can

conclude based upon my own knowledge and observation that Plaintiffs' claims are misplaced and

that there was no fraud, or even unrectified procedural errors, associated with processing of the
absentee ballots for the City of Detroit,

I affirm that the representations above are true.
Further, Affiant sayeth not.

Date:

November 11, 2020

—.

ISTOPHER THOMAS

Subscribed and sworn to before me

this 1 f —1 day of /Oc

, 2020.

j ^
Uu re,- „ <~f\
Notary P^blic^A/vCy M"ShJ-€&a)j '$T&r£ Or MlO-fl
County
My Commission Expires:

A)& ( a) "Q&tf-i- 1

£Pl —tP£) -

CjXkjJtSj f M

11

A196

^

Case 2:20-cv-13134-LVP-RSW ECF No. 78-12, PageID.3759 Filed 01/05/21 Page 13 of 13

J5

A197

Case 2:20-cv-13134-LVP-RSW ECF No. 78-13, PageID.3760 Filed 01/05/21 Page 1 of 5

EXHIBIT 12

A198

Case 2:20-cv-13134-LVP-RSW ECF No. 78-13, PageID.3761 Filed 01/05/21 Page 2 of 5

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF WAYNE
CHERYL A. COSTANTINO and,
EDWARD P. McCALL, JR.,

Case No. 20-014780-AW

Plaintiffs,

Hon. Timothy M. Kenny

vs.
CITY OF DETROIT; DETROIT ELECTION
COMMISSION; JANICE WINFREY, in her official
capacity as the CLERK OF THE CITY and the
Chairperson of the DETROIT ELECTION COMMISSION;
CATHY M. GARRETT, in her official capacity as the
CLERK OF WAYNE COUNTY; and the WAYNE COUNTY
BOARD OF CANVASSERS,
Defendants.
GREAT LAKES JUSTICE CENTER
David A. Kallman (P34200)
Erin E. Mersino (P70886)
Jack C. Jordan (P46551)
Stephen P. Kallman (P75622)
5600 W. Mount Hope Hwy.
Lansing, MI 48917
(517) 322-3207
Attorneys for Plaintiffs

FINK BRESSACK
David H. Fink (P28235)
Darryl Bressack(P67820)
38500 Woodward Ave., Suite 350
Bloomfield Hills, MI 48304
(248) 971-2500
dfink@finkbressack.com
dbressack@finkbressack.com
Attorneys for City of Detroit, City of Detroit
Election Commission and Janice Winfrey
CITY OF DETROIT LAW DEPARTMENT
Lawrence T. García (P54890)
Charles N. Raimi (P29746)
James D. Noseda (P52563)
2 Woodward Ave., 5th Floor
Detroit, MI 48226
(313) 237-5037
garcial@detroitmi.goc
raimic@detroitmi.gov
nosej@detroitmi.gov
Attorneys for City of Detroit, City of Detroit
Election Commission and Janice Winfrey

AFFIDAVIT OF DANIEL BAXTER

A199

Case 2:20-cv-13134-LVP-RSW ECF No. 78-13, PageID.3762 Filed 01/05/21 Page 3 of 5

Being duly sworn, Daniel Baxter, deposes and states the following as true, under oath:
1. From 1985 until 2019, I was employed by the Detroit Department of Elections, with a two
year hiatus, from 2013 to 2015, when I served as the Director of Elections for Montgomery
County, Alabama.
2. From 2005 until 2019, except during my tenure at Montgomery County, I served as
Director of the Detroit Department of Elections.
3. Since September 1, 2020, I have served as Special Project Election Consultant for the
Detroit Department of Elections, charged with administering all activities associated with
the Central Counting Board for the November 3, 2020 General Election.
4. I was present at the Central Counting Board at the TCF Center, where absentee ballots
were counted on Monday, November 2, 2020 from 5:30 AM until after midnight; on
Tuesday, November 3, 2020 from 6:00 AM until midnight; and on Wednesday, November
4, 2020, from 7:00 AM until Thursday, November 5, 2020, at 6:00 AM.
5. The Detroit Department of Elections completed its final count at or around 10:00 PM on
Wednesday, November 4, 2020.
6. The Detroit Department of Elections has submitted its final count to the Wayne County
Board of Canvassers.
7. Jessy Jacob was a furloughed employee from another City department, assigned to the
Department of Elections for limited, short-term, purposes, in September, 2020. Despite her
long tenure with the City of Detroit, her tenure with the Department of Elections was brief,
and her responsibilities were limited.
8. Ms. Jacob helped support work at two Absentee Voting Satellite Locations.

A200

Case 2:20-cv-13134-LVP-RSW ECF No. 78-13, PageID.3763 Filed 01/05/21 Page 4 of 5

9. Ms. Jacob’s affidavit, dated November 7, 2020, suggests that she did not understand many
of the processes that she observed, and for which she was not responsible.
10. During training, all staff were instructed that their primary responsibility when voters came
to the satellite locations was to facilitate the services requested by the voter.
11. If a voter was interested in voting by absentee ballot, staff were instructed to issue the voter
an application, verify the voter’s identity through a form of identification approved by the
State of Michigan and issue a ballot based on Department of Elections procedures.
12. Staff was also instructed that if a voter did not have appropriate proof of identity, the voter
should not be turned away; instead, the voter was to be offered an Affidavit of Voter Not
in Possession of Photo ID.
13. Staff was instructed that the Department of Elections is strictly non-partisan, meaning the
Department and its employees do not offer opinions on candidates or on proposals.
14. If a voter was issued an absent voter ballot and then applied for a second ballot at a satellite
office, the voter would be required to request in writing that the first ballot be spoiled. If
that does not occur, the Qualified Voter File alerts the satellite staff that there is an absent
voter ballot already issued. In order to prevent double voting, until the first ballot is
canceled, a second ballot cannot be issued. In the event the first ballot is returned, it is
verified in the Qualified Voter File and rejected as a duplicate.
15. After her work on the election was completed, Ms. Jacob was again furloughed.
16. Prior to the filing of this lawsuit, Ms. Jacob did not report any of the issues addressed in
her affidavit to any of her supervisors.

A201

Case
Case 2:20-cv-13134-LVP-RSW
2:20-cv-13134-LVP-RSW ECF
ECF No.
No. 78-13,
78-13, PageID.3764
PageID.3764 Filed
Filed 01/05/21
01/05/21 Page
Page 5
5 of
of 5
5

that the
the representations
representations above
above are
are true.
true.
affirm that
II affirm
Further, Affiant
Affiant sayeth
sayeth not.
not.
Further,

Date:
Date: November
November 1
1 1,
1 , 2020
2020

and sworn
Subscribed
sworn to
to before
before me
me
Subscribedand

//Ä-day of
this
this _fJrjLday
of AIou^/h be
Jhe rr

AXT
-^^DSNIEITBAXf

,, 2020.
2020.

oiary Publ
Publ
oiary
Noia

County of:
COQ nvMy Commission
Commission Expires:
Expires: ////gz./
My

I

J ALDR

TARYPUBLIC,

MYCORmSSlON
.mvcomi

ACTING in COUNTY

STATE OF
Mt
WAYNE
"*24, 2021

A202

Case 2:20-cv-13134-LVP-RSW ECF No. 78-14, PageID.3765 Filed 01/05/21 Page 1 of 16

EXHIBIT 13

A203

J

16
of 16
2 of
Page 2
01/05/21 Page
Filed 01/05/21
78-14, PageID.3766 Filed
Case
2:20-cv-13134-LVP-RSW ECF No. 78-14,
Case 2:20-cv-13134-LVP-RSW
*

AFFIDAVTT OF CHRISTOPHER THOMAS

Being duly sworn, Christopher Thomas, deposes and states the following as true, under

!
oath:

1,

I have served as a Senior Advisor to Detroit City Clerk Janice Winfrey since

September 2020. In this capacity I advise the Clerk and management staff on election law
procedures, implementation of recently enacted legislation, revamped absent voter counting board,

satellite offices and drop boxes, Bureau of Elections matters and general preparation for the

November 3, 2020 General Election. I was involved in nearly all aspects of the election in the City,
including the processing and tabulation at the TCF Center.

2.

I served in the Secretary of State Bureau ofElection for 40 years beginning in May

1977 and finishing in June 2017, In June 1981, 1 was appointed Director of Elections and in that
capacity implemented four Secretaries of State election administration, campaign finance and
lobbyist disclosure programs.
3.

In 2013, I was appointed to President Barack Obama's Commission on Election

Administration and served until a final report was submitted to the President and Vice-President
in January 2014,

4.

I am a founding member of the National Association of State Election Directors

and served as its president in 1997 and 2013.

5.

I have reviewed the Motion for Leave to File Bill of Complaint ("Motion"), the

proposed Bill of Complaint ("BOC") and attached Declarations. This Affidavit addresses some of
the factual errors in those documents.
6.

In November 2020, City of Detroit absentee ballots were counted at 134 absent

voter counting boards in Hall E of the TCF Center, a large convention center in downtown Detroit.

1

A204

16
of 16
3 of
Page 3
01/05/21 Page
Filed 01/05/21
PageID.3767 Filed
78-14, PageID.3767
Case
2:20-cv-13134-LVP-RSW ECF No. 78-14,
Case 2:20-cv-13134-LVP-RSW

Contrary to several statements made by the Plaintiff, the City of Detroit tabulates absentee ballots
for Detroit voters, not the County of Wayne,

7.

The City of Detroit is the only jurisdiction in the State of Michigan that is eligible

to tabulate absent voter ballots by ballot style rather than by physical precinct, By lawJurisdictions
with 250 or more precincts (Detroit is the only such jurisdiction in Michigan) may tabulate by

ballot style. So, absent voter ballots in the City of Detroit are tabulated by absent voter counting
boards, not by precincts.
8.

A Detroit counting board is not the same as a precinct. A precinct has geographic

dimensions that allow it to be shown on a map. A Detroit counting board by comparison is an
aggregate of 1 or more precincts with the same ballot style. A. ballot style is defined by its political
geography, and encompasses ballots for which all offices, candidates, and proposals are the same.

Detroit has 501 physical precincts that operate in various building locations across the city on

election day. These 501 precincts do not count absent voter ballots on election day; they only
counted ballots of voters who appeared at the precinct polling place marked a ballot and inserted
it into a precinct tabulator. Absent voter ballots for voters who reside in the precincts are tabulated
by absent voter counting boards, most ofwhich include absent voter ballots of voters from several

precincts, The absent voter ballots from Detroit's 501 precincts are distributed among 134 absent
voter counting boards, depending on the ballot style.
9.

According to Plaintiff, "the TCF was the only facility within Wayne County

authorized to count ballots for the City ofDetroit." (BOC f?5). That is not correct. The TCF Center

was the only facility within Wayne County authorized to count absentee ballots for the City of
Detroit. Votes cast at polling places on election day were counted at those polling places, not at
the TCF Center.

2

A205

16
of 16
4 of
Page 4
01/05/21 Page
Filed 01/05/21
78-14, PageID.3768 Filed
Case
2:20-cv-13134-LVP-RSW ECF No. 78-14,
Case 2:20-cv-13134-LVP-RSW
i

10.

Plaintiff asserts, based upon the Cicchetti Declaration, that there were 174,384

absentee ballots in Wayne County "not tied to a registered voter." (BOC at ([97), Mr. Cicchetti
clearly misunderstood whatever statistics he is referencing. His statement "174,384 absentee

ballots out of 566,694 ballots tabulated (about 30.8%) were counted without a registration number
for precincts in the City of Detroit" is apparently based upon his belief that absent voter ballots

could only be reported as related to specific physical precincts. As noted above, however, the City
;;

•i

of Detroit absent voter ballots are counted by ballot styles, meaning the counting boards do not
correspond to a specific precinct as most have ballots from multiple precincts. The Wayne County

Clerk reports the 134 absent voter counting boards separate from the precincts. No registration
number is included because the percentage turnout of a counting board containing several different

precincts has no meaning and is not directly related to the specific precincts. Thus, there is no
requirement to report registration totals of the various precincts within each counting board. In

fact, there is no legal requirement to report voter registration numbers for any precincts or counting
boards. There were over 174,000 absentee ballots counted at the TCF Center, but they were not

counted "without a registration number." Every ballot counted had a corresponding application
executed by a registered voter in the City of Detroit. They were counted with a rigorous process
of verification and tabulation.

11.

There is reference to Wayne County and

Detroit precincts, being

"unbalanced," a situation which occurs when the number of votes does not match the
number of ballots in the precincts. This is generally die result of human error and occurs

in each election cycle, especially in more populated areas throughout the country. The
minor imbalances in precincts and counting boards in Wayne County and Detroit for the
November general election accounts for a vanishingly small number of votes In the

3

A206

16
of 16
5 of
Page 5
01/05/21 Page
Filed 01/05/21
78-14, PageID.3769 Filed
No. 78-14,
Case
2:20-cv-13134-LVP-RSW ECF No.
Case 2:20-cv-13134-LVP-RSW

August 2020 election, 53.6% of Wayne County precincts and counting boards were
balanced, while in November 2020, 71.9% were balanced. The percentage of out-of-

balance precincts, with an imbalance of 5 or more, was also lower in November 2020 than
August 2020, with 8.1% being out of balance by more than 5 in August and 5 .7% out of
balance by 5 or more in November.

1 2.

The City of Detroit had 501 precincts and 134 absent voter counting boards. Less

than 36% of the total were out of balance, A counting board is out of balance if there are: (1)

more ballots than voters or (2) more voters than ballots. In total 591 voters and ballots account
for the imbalances. When voters and ballots are separated there are 148 more names than there
are ballots, meaning that out of 174,384 votes there are 148 more names in the poll books than
there are ballots. The imbalance is .0008 (eight ten-thousandths of a 1%). Of the 94 out of balance

counting boards, there are 87 counting board with an imbalance of 1 1 or fewer voters/ballots;
within the 87 counting boards, 48 are imbalanced by 3 or fewer voters/ballots. There are seven
counting boards with higher imbalances that range from 13 more ballots to 71 fewer voters.

Jurisdictions throughout the State, including jurisdictions with far fewer voters than
Detroit, also had out of balance precincts. Indeed, the predominantly white jurisdiction

of Livonia had a higher percentage of precincts out of balance than the predominantly
African American City of Detroit. Nevertheless, in discussions at frie Wayne County
Canvassing Board one canvassing board member proposed the certification of all
jurisdictions in Wayne County other than Detroit. None of the out of balance statistics

suggest impropriety or provided a reason to not certify. This occurs everywhere in every
election because elections are run by human beings who make mistakes.

4

A207

16
of 16
6 of
Page 6
01/05/21 Page
78-14, PageID.3770 Filed 01/05/21
No. 78-14,
Case
2:20-cv-13134-LVP-RSW ECF No.
Case 2:20-cv-13134-LVP-RSW

6

I

13.

On November 2, 3 and 4, 2020, 1 worked at the TCI' Center absent voter counting

boards primarily as liaison with challenger parties and organizations. I provided answers to
questions about processes at the counting board tables, resolved disputes about process and

directed leadership of each organization or party to adhere to Michigan Election Law and Secretary
of State procedures concerning the rights and responsibilities of challengers. I have reviewed the
claims in this case.
14.

It is clear from the affidavits and the claims made by Plaintiff that the witnesses

identified—Melissa Carone, Jessy Jacob and Zachary Larsen—do not understand absent voter
ballot processing and tabulating. The affidavits of those witnesses were first submitted in
Costantino v, Detroit et al, Wayne County Circuit Case No. 20-0 i 4780-AW. I submitted
Affidavits to the Michigan courts in response to the affidavits of those witnesses.

15.

A few basics about how the vote count is managed helps explain some of the

misunderstandings of the witnesses. The Qualified Voter File (QVF) is a statewide vote
registration file and was not available to counting boards. E-pollbook (EPS) is a computer program

used in election day precincts to create the poll list of voters casting ballots. Supplemental poll
lists contain names of voters who cast an absent voter ballot on Sunday, Monday and Tuesday. At

the processing tables no ballots are scanned. A poll list is not used to confirm whether any specific
voter's ballot is counted.

16.

To increase the accuracy of the poll list, the Detroit Department of Elections

employed the Michigan Secretary of State EPB to assist in creating the poll list For each of the
absent voter counting boards, the EPB held all the names of voters who requested an absent voter
ballot by mid-afternoon Sunday, November 1. The download on Sunday was necessary to prepare

5

A208

16
of 16
7 of
Page 7
01/05/21 Page
Filed 01/05/21
PageID.3771 Filed
78-14, PageID.3771
Case
2:20-cv-13134-LVP-RSW ECF No. 78-14,
Case 2:20-cv-13134-LVP-RSW

for the pre-processing granted by a recently enacted state law that, allows larger municipalities to
process ballots, but not to tabulate them, for 10 hours on Monday.

17.

Absent voter ballots received Sunday after the download to EPB, all day Monday

until 4 p.m. and Tuesday by 8:00 p.m. were not in the EPB. They would be added either by
manually entering the voter names into the EPB or on supplemental paper poll lists printed from
the QVF.

18.

The affidavit of Mellissa Carone is particularly inaccurate and troubling. She was

not an Election Inspector, nor was she a challenger. She was a contract worker working for
Dominion Voting Systems, to assist with occasional malfunctions of the tabulating machines. She

has no known training in election law or procedures, and her affidavit and public statements have
displayed a startling ignorance of how votes are counted.

19,

Ms. Carone believes that she saw evidence that ballots were counted more than

once at the TCF Center. Her main allegation—that hundreds or thousands of ballots were counted
twice—cannot possibly be true. She says she saw on a computer that 50 of the same ballots had
been counted 8 times, and that she saw numerous similar instances "countless times" throughout
the day. She does not say she saw multiple scans, just that she saw the numbers on various

scanners. If what she said were true, at the very least, 350 extra votes would show up for at least
one absent voter counting board, resulting in that board being grossly out of balance. According
to her affidavit, large numbers of extra votes would show up in "countless" precincts. However, a
mistake like that would be caught very quickly on site. What Ms. Carone thinks she saw would

also be caught by the Detroit Department of Elections and the Wayne County Canvassing Board
during the canvassing which occurs after every election as a matter of law. A slight disparity
between the number of voters and the number of ballots might occur, but nothing like the numbers

6

A209

16
of 16
8 of
Page 8
01/05/21 Page
Filed 01/05/21
78-14, PageID.3772 Filed
No. 78-14,
Case
2:20-cv-13134-LVP-RSW ECF No.
Case 2:20-cv-13134-LVP-RSW

Z;

s

she describes could possibly occur and be missed by the Department of Elections, the Election
Inspectors, the challengers and the Wayne County Board of Canvassers.
20.

Ms. Carone's misunderstanding of what she observed may stem from the fact that

as a routine part of the tabulation process, ballots are often fed through the high-speed reader more
than once. For instance, if there is a jam in the reader, all ballots in the stack may need to be pulled

out and run through again. Or, if there is a problem ballot (e.g., stains, tears, stray markings, ballot
from a different counting board, etc.) in a stack, the problem ballot, and the several that were

scanned by the high-speed machine after the problem was detected, will need to be re-scanned. At
times, it will be most efficient to re-run several ballots, while at others, it will be more efficient to
re-scan the entire batch. To an untrained observer it may appear that the ballot is being counted
twice, however, the election worker will have cancelled the appropriate count on the computer
screen. Any human error in the process would be identified during the canvass. If not, the number

of voters at the absent voter counting board would be dramatically different than the number of
counted votes.
21.

Ms. Carone's speculation about 100,000 new ballots is also not possible. On

Sunday, November 1, 2020, roughly 140,000 absent voter ballots were delivered to TCF for the
Monday pre-processing; on Monday and Tuesday there were approximately 20,000 ballots
delivered; and, on Wednesday at around 3-3:30 a.m., the final roughly 16,000 ballots were

delivered. If 100,000 instead of 16,000 ballots had been delivered, Detroit's total turnout would
be 84,000 ballots more than what was reported. Her reference to an announcement "on the news"

ofthe discovery of 100,000 new ballots in Michigan appears to be based on a repeatedly debunked
conspiracy theory in which a clerk in Shiawassee County accidentally typed in an extra 0 and
quickly discovered and fixed the error, See, e.g., https://www.factcheck.org/2020/ll/clerical-

7

A210

16
of 16
9 of
Page 9
01/05/21 Page
Filed 01/05/21
78-14, PageID.3773 Filed
No. 78-14,
Case
2:20-cv-13134-LVP-RSW ECF No.
Case 2:20-cv-13134-LVP-RSW

error-prompts-unfoundedclaims-about-michigan-results/.

Regardless

of the

source

of her

confusion, there is no way 100,0(10 new ballots could have been surreptitiously broughl to the TCF
Center as she describes.

22,

Bailots are delivered to the TCF Center after they are processed at the Department

of Elections main office on West Grand Boulevard. On election day, ballots are received from the

post office and the satellite offices. It takes several hours to properly process ballots received on
election day. Ms, Carone might have heard false rumors about ballots being delivered, when
actually television reporters were bringing in wagons of audio-video equipment. All ballots were
delivered the same way— from the back of the TCF Hall E.
23.

Plaintiff is using the Affidavit of Jessy Jacob to assert that signatures on absentee

ballots were not verified. The Affidavit, however, demonstrates nothing more than that Ms. Jacob

did not understand the process. She states that "(w]hile I was at the TCF Center, I was instructed

not to look at any of the signatures on the absentee ballots, and I was instructed not to compare the
signature on the absentee ballot with the signature on file." Ms. Jacob, who had no prior experience
as an Election Inspector, did not understand that signature verification had occurred before any
ballots were delivered to the TCF Center.
24,

Michigan law permits a city clerk to verify the signatures on absent voter ballots

before election day. Inspectors at absent voter counting boards do not verify the signatures on the
return ballot envelopes. Before ballots were delivered to the TCF Center for counting, Department

of Elections staff complete the verification process. Staff may use a voter's signature on an
application that was previously verified by the QVF to verify the voter's signature on the ballot

envelope, or the staff may use the voter's signature in the QVF to make the comparison

8

A211

4
I

16
of 16
10 of
Page 10
01/05/21 Page
Filed 01/05/21
78-14, PageID.3774 Filed
No. 78-14,
Case
2:20-cv-13134-LVP-RSW ECF No.
Case 2:20-cv-13134-LVP-RSW

I

4
It

25.

The BOC asserts that "Wayne County made the policy decision to ignore

Michigan's statutory signature-verifi cation requirement for absentee ballots." (BOC at*J93) There
I

is no basis for this claim Under Michigan law, the verification is done at the City, not the County
level, and the City of Detroit followed strict procedures to verify signatures.

26.

The ballots delivered to the TCF Center had been verified by the Detroit City

Clerk's staff prior to delivery in a process prescribed by Michigan law. Thus, when Jessy Jacob
states that she "was instructed not to look at any of the signatures on the absentee ballots, and I

was instructed not to compare the signature on the absentee ballot with the signature on file" it

was because that part of the process had already been completed by the City Clerk's satellite office
staff in compliance with state law.

27.

The Affidavit of Jessy Jacob is also used to support the allegations of ballots being

"back-dated." It is once again clear that the allegations arise from the fact that Ms. Jacob did not
understanding what she was observing. On Wednesday, November 4 it was discovered that there

had been an operator error at the satellite offices with respect to the verification of a relatively

small number of ballots. While the ballot envelopes had been initialed as having been verified and
stamped as having been received prior to November 3 at 8 p.m., the election workerfs] had not

completed the final clerical step of selecting the "save" button in the computer system. Thus, those
ballots would not scan into the EPB at the TCF Center and were not on the supplemental paper
list.

28.

A team of employees was directed to correct those clerical errors by entering the

date the ballots were received in the satellite office and selecting "save." The date of receipt was

not being backdated; it was being noted in the system. Completing this clerical step placed the
voter into the Absent Voter Poll List in the QVF so that the ballot could be processed and counted.

9

A212

11 of 16
Page 11
01/05/21 Page
Filed 01/05/21
PageID.3775 Filed
78-14, PageID.3775
No. 78-14,
Case
of 16
2:20-cv-13134-LVP-RSW ECF No.
Case 2:20-cv-13134-LVP-RSW

on
Again, none of these ballots were received after 8:00 p.m, on election day. Most were received

Monday, November 2nd - the busiest day for the satellite offices. Two challengers were provided
a demonstration of the QVF process to show them how the error occurred, and they chose not to
file a challenge to the individual ballots.

29.

It would have been impossible for any election worker at the TCF Center to count

or process a ballot for someone who was not an eligible voter or whose ballot was not received by
the 8:00 p.m. deadline on November 3, 2020, No ballot could have been "backdated," because no

ballots received after 8:00 p.m. on November 3, 2020 were ever at the TCF Center. No voter not
in the QVF or in the "Suppl emental Sheets" could have been processed, or "assigned" to a "random
name" because no ballot from a voter not in one of the two tracking systems, was brought to the
TCF Center.

30,

Jessy Jacob alleges she was instructed by her supervisor to adjust the mailing date

of absentee ballot packages being sent out to voters in September 2020. The mailing date recorded
for absentee ballot packages would have no impact on the rights of the voters and no effect on the

processing and counting of absentee votes. Any adjustment to mailing date was done to more
accurately reflect the date the ballot would be mailed, which in many cases was done on a date
after the day the application was processed.

31.

Michigan Election Law requires clerks to safely maintain absent voter ballots and

deliver them to the absent voter counting board. There is no requirement that such ballots be

transported in sealed ballot boxes. To my knowledge, they are not sealed by any jurisdiction in
Michigan in a ballot box prior to election day. Employees bring the ballot envelopes to the TCF
Center, which is consistent with chain of custody. The only ballots brought to TCF that are not in
envelopes are blank ballots used to duplicate ballots when necessary.

10

A213

r

16
of 16
12 of
Page 12
01/05/21 Page
Filed 01/05/21
78-14, PageID.3776 Filed
No. 78-14,
Case
2:20-cv-13134-LVP-RSW ECF No.
Case 2:20-cv-13134-LVP-RSW

I

32.

At no time after ballots were delivered to TCF on Sunday, November 1, did any

ballot delivery consisted of "tens of thousands of ballots'!
33 .

Contrary to the affidavit of Jessy Jacob, there is no legal requirement that all absent

voter ballots be recorded in the QVF by 9:00 p.m. on November 3, 2020.

34.

The QVF has a high level of security and limitation on access to the file. For

example, it is not true (as claimed by Jessy Jacob) that a person with QVF credentials in one city
is able to access data in another city's file within the QVF. That is not possible.
35.

In his affidavit, Zachery Larsen raises an issue about return ballot envelopes where

the barcode on the label would not scan and the voter's name was not on the supplemental list. He

was observing the correction of clerical errors, not some type of fraud. In every election, clerical
errors result in voters being left off the poll list, whether it is a paper poll list or the EPB. These

errors are corrected so that voters are not disenfranchised. Michigan law ensures that voters are
not disenfranchised by clerical errors.

36.

Mr. Larsen also states that he saw an inspector at Counting Board 23 type into the

computer system a name other than that of the voter appearing on the envelope because the voter

was already in the EPB, But, if the voter were already checked in, the inspector would not have
the envelope with a ballot in it Mr. Larsen asserts he saw the name "Pope" typed into the EPB
when there was already a person with that last name in the EPB. But, at Counting Board 23, there

are three people with the last name Pope who voted in the election. One returned their ballot in
October and therefore would have been in the EPB (since the information was downloaded from
the QVF on Sunday November 1, 2020). The two other voters with the last name of Pope voted
on Monday, November 1, so their names would not be in the EPB. Mr. Larsen apparently observed

11

A214

16
of 16
13 of
Page 13
01/05/21 Page
Filed 01/05/21
78-14, PageID.3777 Filed
No. 78-14,
Case
2:20-cv-13134-LVP-RSW ECF No.
Case 2:20-cv-13134-LVP-RSW

one of those voters being hand entered into the system, as was necessary if they were not already
in the EPB

37.

The City has conducted an internal inquiry with respect to Mr. Larsen' s assertions

regarding Counting Board 23. At that Counting Board, 2,855 ballots were tabulated with 2,856
associated envelopes. Each envelope is associated with validly registered voters and applications
for absent voter ballots. The only voters whose names were typed into the system at that Counting

Board were voters whose barcode did not bring up a ballot and whose name did not appear on the
supplemental list. All such ballot envelopes were signed, verified and date/time-stamped as having
been received before 8:00 p.m. on Tuesday, November 3, 2020.
38.

Mr. Larsen also objects that he was not given a full opportunity to stand

immediately behind or next to an election inspector operating the EPB laptop computer. In
anticipation of viewing problems due to necessary social distancing to address COVID-19

concerns, large monitors were set up at each absent voter counting board. Moreover, election
inspectors were instructed to follow the same procedure for all challengers The Detroit Health
Code and safety during a pandemic required maintaining at least 6-feet of separation. This was
relaxed where necessary for a challenger to lean in to observe something and then lean back out to

return to the 6-foot distancing. The challengers could see and copy the names of each person being
entered into the EPB, If an inspector did not fully accommodate a challenger's reasonable request
and the issue was brought to the attention of a supervisor, it was remedied. Announcements were

made over the public address system to inform all inspectors of the rules. If what Mr. Larsen says

is accurate, any inconvenience to him was temporary and had no effect on the processing ofballots.
39,

It is clear also that Mr. Larsen did not operate through the leadership of bis

challenger party, because the issues he brings forward were by and large discussed and resolved

12

A215

16
of 16
14 of
Page 14
78-14, PageID.3778 Filed 01/05/21 Page
No. 78-14,
Case
2:20-cv-13134-LVP-RSW ECF No.
Case 2:20-cv-13134-LVP-RSW

;

I

with the leadership of their challenger party. The leadership on numerous occasions would ask me

to accompany them to a particular counting board table to resolve an issue. I would always discuss
the issue with counting board inspectors and their supervisors and the challengers. Mr. Larsen
appears to have failed to follow this protocol, which was established in a meeting with challenger

organizations and parties on Thursday, October 29, 2020 at the TCF Center where a walk-through

of the entire process was provided. Indeed, in the Costantino matter, counsel for plaintiffs
acknowledged that Mr. Larsen had not attended that meeting.
40.

Mr. Larsen makes some allegations relating to ballots without "secrecy sleeves,"

but many ballots were returned without the secrecy sleeves. Michigan law does not invalidate
ballots returned without a secrecy sleeve.
41.

In mid-afternoon on Wednesday, November 4, 2020, I observed that few

challengers were stationed at the counting board tables. Rather, clusters of 5, 10 or 15 challengers

were gathered in the main aisles at some tables. I conducted a conversation with leaders of the
Republican Party and Democratic Party about the number of challengers in the room and their

locations. It became clear that more than 134 challengers were present for these organizations. No
one was ejected for this reason, but access to Hall E was controlled to ensure that challenger
organizations had their full complement and did not exceed the ceiling any further than they
already had. Challengers were instructed to sign out if they needed to leave Hall E. For a short

period of time—a few hours—because there were too many challengers in Hall E for inspectors to

safely do their jobs, new challengers were not allowed in until a challenger from their respective
organization left the Hall. However, each challenger organization, including Republican and
Democrat, continued to have their challengers inside of Hall E.

13

A216

78-14, PageID.3779 Filed 01/05/21 Page 15 of 16
No. 78-14,
Case
2:20-cv-13134-LVP-RSW ECF No.
Case 2:20-cv-13134-LVP-RSW

42 ,

I am not aware of any valid challenge being refused or ignored or of any challengers

being removed because they were challenging ballots. Ballot challengers are part of the electoral
process in Michigan and were fully able to participate in the process at the TCF Center.

43.

The description of the Biden/Tnimp votes in Michigan is incorrect. (BOC at f77)

Based upon the certified totals, Vice President Biden received 2,804,040 votes, and President
Trump received 2,649,852 votes, for a margin of 154,188 votes.
44.

The statement that "only 587,618 Michigan voters requested absentee ballots" in

2016 (BOC at f88) is not correct; Dr. Cicchetti acknowledges that the number is 1,277,405, in his
Declaration

(Declaration

Tfl 7).

See

also

https://www.eac.gov/sites/default/files/eac_assets/

1 /6/Mich igan_-_E AVS J20 1 6_Data_Brief_-_508 pdf.

45.

During my employment with the Secretary of State, the Bureau of Elections

compiled unofficial results from the 83 counties, adding county totals only after the ballots are

tabulated in a county. The real "election night reporting" is done by the county clerks. The county
clerks compile results from cities and townships in their respective counties. In Michigan, there
are over 1,500 cities and townships. Typically, precinct results are the first returns to be publicly
posted on county clerk websites. These returns begin appearing within an hour after the 8 p.m.
closing of the polls and continue until nearly complete around midnight. Absent voter ballot results

are slower to appear on county websites. Some jurisdictions will report partial mail ballot returns
after 8 p.m.; however, most jurisdiction do not report mail ballot returns until alt tabulation is
completed. In election years before 2020, the bulk of mail ballots were reported between midnight

and 5 a.m. The mail ballots for November 2020 continued to be reported well into Wednesday
with some final results being reported on Thursday,

14

A217

a

!

PageID.3780 Filed 01/05/21 Page 16 of 16
78-14, PageID.3780
No. 78-14,
ECF No.
Case
2:20-cv-13134-LVP-RSW ECF
Case 2:20-cv-13134-LVP-RSW

!

46.

In conclusion, upon reviewing the various affidavits and statements made by
/

Plaintiff, I can readily conclude based upon my own knowledge and observation that there was no
fraud, or even unrectified procedural errors, associated with processing of the absentee ballots for
the City of Detroit,

I affirm that the representations above are true.

Further, Affiant sayeth not.

I

Date: December 10, 2020
STOPHER THOMAS

Subscribed and sworn to before me

this 10^ day of December, 2020.

Kl54B£RLYS^HLT\T,Notary Public
County of Macomb

My Commission Expires: 08/08/24
Acting in the County of Macomb
Notarized using electronic/remote technology

Notary located in Macomb County, State of Michigan

Signatory located in,*^£j3j3£fsJ County, State off/\l£lrl/GA/\l
KiMfSERLY s. hunt

NOTARY PUBLIC, STATE OF MI

v
COUNTY OF MACOMB
MY COMMISSION EXPIRES Aug 8, 2024
A.eTINO IN COUNTY

r

15

A218

Case 2:20-cv-13134-LVP-RSW ECF No. 78-15, PageID.3781 Filed 01/05/21 Page 1 of 5

EXHIBIT 14

A219

Case 2:20-cv-13134-LVP-RSW ECF No. 78-15, PageID.3782 Filed 01/05/21 Page 2 of 5

The O

ce of Secretary of State Jocelyn Benson



SOS

Hand audit of all Presidential Election votes in
Antrim County con rms previously certi ed results,
voting machines were accurate
DECEMBER 17, 2020
A hand audit by bipartisan election o cials of all the votes cast for
president in Antrim County con rmed today that the result certi ed
last month by the bipartisan Board of Antrim County canvassers was
accurate. The audit proved again that the disinformation campaign
surrounding Antrim’s presidential election and its use of Dominion vote-tabulation machines
was completely meritless.
“Today’s full audit in Antrim County con rmed the truth and a rmed the facts: Dominion’s
voting machines accurately tabulated the votes cast for president in Antrim County,” said
Secretary of State Jocelyn Benson. “It is time for the disinformation campaigns to stop, and for
elected and other leaders on both sides of the aisle to unequivocally a rm that the election
was secure and accurate.”
In the hand-tallied total, when compared with the machine-tabulated and certi ed results the
net di erence was only 12 votes out of 15,718 total votes.
Previously Certi ed Results
Trump: 9,748
Biden: 5,960
Hand-Tallied Audit Results (preliminary)
Trump: 9,759
Biden: 5,959




The slight di erences in counts were in line with what is typically seen in hand recounts, as
human counters may not award a vote to a pen mark on a ballot oval, where the machine
counted it as a vote, or vice-versa. Human counters might also identify invalid write-in votes that
need to be awarded to a di erent candidate. But the fact that the totals are so close con rms
that the reporting error prior to certi cation was not related to tabulation, as has been falsely
claimed without evidence.
The audit of the Antrim County presidential votes was a zero-limit risk-limiting audit, meaning it
con rmed to absolute certainty that the outcome of the presidential election in Antrim County
was correct by tallying every vote cast for president. In January, the Bureau of Elections and

local and county clerks will complete a statewide risk-limiting audit of the Presidential Election

A220

Case 2:20-cv-13134-LVP-RSW ECF No. 78-15, PageID.3783 Filed 01/05/21 Page 3 of 5
in which a random sample of ballots will be drawn statewide. It is expected to a rm that ballotcounting machines were accurate across the state, as was demonstrated by a pilot statewide
risk-limiting audit following Michigan’s March 10 Presidential Primary Election.
###
For media questions, contact
Tracy Wimmer at 517-281-1876.
We welcome questions and comments at the Contact the Secretary of State page.
Customers may call the Department of State Information Center to
speak to a customer-service representative at 888-SOS-MICH (767-6424).

SOS Home
FAQ
Online Services
Forms
Contact the Secretary of State
FOIA

MICHIGAN.GOV HOME
ADA
MICHIGAN NEWS
POLICIES

COPYRIGHT 2021 STATE OF MICHIGAN



A221

Case 2:20-cv-13134-LVP-RSW ECF No. 78-15, PageID.3784 Filed 01/05/21 Page 4 of 5

November 7, 2020

Isolated User Error in Antrim County Does Not Affect Election Results,
Has no Impact on Other Counties or States
The error in reporting unofficial results in Antrim County Michigan was the result of a user error
that was quickly identified and corrected; did not affect the way ballots were actually
tabulated; and would have been identified in the county canvass before official results were
reported even if it had not been identified earlier. This further explanation of the issue is based
on the Bureau of Elections’ preliminary review of the issue. The County Clerk and County Board
of Canvassers will be able to provide any further detail during the ongoing county canvass.
Antrim County uses the Dominion Voting Systems election management system and voting
machines (tabulators), which count hand-marked paper ballots. Counties use election
management systems to program tabulators and also to report unofficial election results.
After Antrim County initially programmed its election software for the November Election, the
county identified in October two local races where the ballot content had to be updated. The
county received updated programming from its election programming vendor, Election Source.
The updated programming correctly updated the election software for the county.
When the software was reprogrammed, the County also had to update the software on all of
the media drives that are placed in tabulators to ensure tabulators communicate properly with
the election management system. The county did update the media drives that went into the
tabulators with the corrected local races, but did not update the media drives on the tabulators
for the rest of the county. Because the Clerk correctly updated the media drives for the
tabulators with changes to races, and because the other tabulators did not have changes to
races, all tabulators counted ballots correctly.
However, because the county did not update the media drives for the tabulators that did not
have changes to races, those tabulators did not communicate properly with the County’s
central election management system software when the county combined and reported
unofficial results. Every tabulator recorded ballots correctly but the unofficial reports were
erroneous.
These errors can always be identified and corrected because every tabulator prints a paper
totals tape showing how the ballots for each race were counted. After discovering the error in
reporting the unofficial results, the clerk worked diligently to report correct unofficial results by
reviewing the printed totals tape on each tabulator and hand-entering the results for each race,
for each precinct in the county.
Again, all ballots were properly tabulated. The user error affected only how the results from the
tabulators communicated with the election management system for unofficial reporting. Even if
the error had not been noticed and quickly fixed, it would have been caught and identified

A222

Case 2:20-cv-13134-LVP-RSW ECF No. 78-15, PageID.3785 Filed 01/05/21 Page 5 of 5
during the county canvass when printed totals tapes are reviewed. This was an isolated error,
there is no evidence this user error occurred elsewhere in the state, and if it did it would be
caught during county canvasses, which are conducted by bipartisan boards of county
canvassers. The Antrim County Canvass is currently ongoing, and the Board of County
Canvassers and County Clerk will be able to provide any further necessary details during the
course of the county canvass.
As with other isolated user errors that have occurred in the reporting of unofficial results both
in this and previous elections, this is not the result of any intentional misconduct by an election
official or because of software or equipment malfunctioning or failing to work properly.
Municipal and county clerks are dedicated public servants who work hard and with integrity.
Sometimes they make honest mistakes, and when they do there are many checks and balances
in the election system to ensure they can be identified and corrected so that the official
results reflect the complete, accurate count of all votes.
Additional information
https://www.dominionvoting.com
https://www.cisa.gov/rumorcontrol

A223

Case 2:20-cv-13134-LVP-RSW ECF No. 78-16, PageID.3786 Filed 01/05/21 Page 1 of 9

EXHIBIT 15

A224

Case
2:20-cv-13134-LVP-RSW ECF
anse2||0-cv-13134-LVP-RSW
ECF No.
No. 78-16,
78-16, PageID.3787
PageID.3787 Filed
Filed 01/05/21
01/05/21 Page
Page 2
2 of
of 9
9

ri

ca

MENU
MENU

MICHIGAN
Michigan's nonpartisan,
nonpartisan, nonpro
nonprofitt news
news source
source
Michigan's

Michigan Government
Government
Michigan

GOP
GOP calls
calls for
for Michigan
Michigan election
election probe.
probe. Officials
Officials say
say
their claims
claims are
are weak.
weak.
their

H

1

Hi

T
»

DETROIT

"

JH
I Jdl il|

I

DEPARTMENT

OF

%

; *i

r-

r

CENTRAL

¥

WF^i

> j

-

' ^

I ec

1

ELECTIONS

COUNTING
BOARD =

I

.

K
-

J

L-

I

The Republican
Republican National
National Committee
Committee says
says it
it is
is deploying
deploying lawyers
lawyers to
to investigate
investigate possible
possible voting
voting irregularities
irregularities
The
in
cials say
in Michigan.
Michigan. Elections
Elections of
officials
say each
each of
of their
their “irregularities”
"irregularities" has
has a
a simple
simple explanation.
explanation. (BridgeDetroit
(BridgeDetroit
photo by
by Ralph
Ralph Jones)
Jones)
photo

lUl November
November 6,
6, 2020
2020
Jonathan Oosting,
Oosting, Paula
Paula Gardner,
Gardner, Madeline
Madeline Halpert
Halpert
Jonathan

Michigan
Michigan Government
Government

A225

2:20-cv-13134-LVP-RSW
ECF No. election
78-16, PageID.3788 Filed 01/05/21 Page 3 of 9
2020Case
Michigan
election, 2020 U.S. presidential

BLOOMFIELD HILLS — The Republican National Committee is deploying legal teams to Michigan
and three other battleground states to investigate what its calls “irregularities” and
unsubstantiated claims of voter fraud ampli ed by President Donald Trump.
Michigan’s GOP-led Legislature, meanwhile, will convene oversight committees Saturday to begin
an “inquiry” into the state election and counting procedures.
RNC Chair Ronna McDaniel, who lives in Michigan, announced the legal effort Friday in Oakland
County, claiming the party is reviewing more than “100 incident reports” from Republican
challengers who this week ooded Detroit’s absentee ballot counting board.
Related stories:

Trump, who now claims fraud, got more votes in Detroit than most Republicans
Trump’s options narrow in Michigan. Lawsuit, recount seen as long shots.
What happened when conservatives tried to halt Detroit’s election count
Democrat Joe Biden won 94 percent of the vote in Detroit, a liberal stronghold, and won the state
by nearly 150,000 votes, according to unof cial results. Trump, however, falsely claimed Thursday
that he won Michigan, calling Detroit one of the most corrupt cities in the nation.
McDaniel made few new allegations and did not offer any evidence to back up claims made by
Trump and other Republicans. Democrats and other critics have accused the president of
attempting to undermine faith in the democratic process, but McDaniel urged the public and press
to delay nal judgement on the outcome of the election.
“We need to pursue these irregularities and we need people to be patient and give us the time to
investigate,” she said. “These are serious allegations.”
The RNC has also sent legal teams to Arizona, Georgia and Pennsylvania, states where Biden is
leading and could secure enough Electoral College votes to defeat Trump. Unlike Michigan, where
the count is complete, workers in those states continue to tally a ood of absentee ballots that have
generally favored Biden.

A226

McDaniel
did2:20-cv-13134-LVP-RSW
not say whether Republicans
will78-16,
petition
for a Michigan
Case
ECF No.
PageID.3789
Filedrecount,
01/05/21which
Pagea4candidate
of 9
can request after ongoing county and state canvasses.
“I’m not going to jump the gun, but these irregularities are so concerning that all of us should be
worried,” she said.
Here’s a look at the GOP allegations about the Michigan election, and explanations from state and
local of cials who dispute the claims.

The claim: Poll workers ordered to “change the date” on ballots
McDaniel accused Detroit senior elections adviser Chris Thomas of ordering poll workers to
“change the date” on “a bundle of ballots” at the city’s absentee counting board, which was located
inside the downtown TCF Center.
Those ballots “should not have been immediately counted because there was no evidence the
ballots were received by the state-mandated deadline of Nov. 3,” she said, telling reporters that
Republicans have referred the matter to the U.S. Attorney’s Of ce for the Eastern District of
Michigan.
The Trump campaign made similar claims in a lawsuit rejected Thursday by Michigan Court of
Claims Judge Cynthia Stephens, who dismissed a poll challenger af davit as “hearsay.”
In a Friday statement, Thomas said he was saddened by the “unfounded allegations” regarding the
Detroit election. The back-dating accusations are “wrong and reveal the person making them
doesn’t know Michigan’s election process,” he said.
Thomas, who worked 36 years as the state’s election director, told Bridge Michigan on Thursday
that no late ballots were counted in Detroit.
There were roughly 200 ballots that had not been “fully logged” into the state’s Quali ed Voter File
when they were received at satellite clerk’s of ces, he said. The ballot envelopes were physically
stamped with a receipt date, however, so the city directed workers at the TCF Center to use that
stamp date to enter them as received in the Quali ed Voter File, he explained.

A227

“When they
up the satellite of ces,ECF
theyNo.
brought
furloughed [workers]
who did
a great
Caseset
2:20-cv-13134-LVP-RSW
78-16, in
PageID.3790
Filed 01/05/21
Page
5 of 9 job but
they may not have dotted all the I’s and crossed all the T’s in some instances,” Thomas said. “It was
not a huge number of ballots.”
He added Friday: “The scenario described actually shows a process designed to eliminate errors
working to do just that.”

The claim: ‘Software glitch’ may have affected many counties
McDaniel cited what she called a “major software issue” in Antrim County, where local of cials
initially reported a lopsided advantage Biden in the Republican stronghold, and questioned whether
the software “could have caused problems in other counties as well.”
There’s no evidence of an Antrim-like vote swing in any other Michigan county. There, a tally that
showed Biden up by about 3,000 votes has been corrected to show Trump carried the county by
about 2,500 votes.
Antrim County Clerk Sheryl Guy, a Republican, told the Detroit Free Press that of cials sent the
initial results to the state without checking them. They later discovered the mistake and xed it.
Cox, the Michigan GOP Chair, suggested that other counties that use the same software “need to
closely examine their results for similar discrepancies.”
Michigan has 83 counties; Antrim is one of 69 counties that use Dominion Voting Systems
equipment, according to recent state data.
Unof cial results show Trump won 63 of those counties, while Biden won six: Wayne, Kent, Ingham,
Saginaw, Marquette and Leelanau.
That aligns with historical trends. Wayne, Ingham, Saginaw and Marquette counties are typically
Democratic counties, while Kent has been trending Democratic. Leelanau has favored Republican,
but Trump won the county by less than 500 votes in 2016.
Kent County Clerk Lisa Posthumus Lyons, a Republican who was the party’s nominee for lieutenant
governor in 2018, told Bridge she has "full faith" in the Dominion product that both Antrim and
Kent counties use.

A228

"What happened
in Antrim County appears
to be
a human
error in dealing
with the
software,
Case 2:20-cv-13134-LVP-RSW
ECF No.
78-16,
PageID.3791
Filed 01/05/21
Page
6 of 9 and
errors occur,” she said.

The claim: 2,000 ballots ‘given to Democrats’ in Oakland County
Suggesting a pattern of vote total irregularities, McDaniel told reporters that “just last night in
[Rochester Hills], we found 2,000 ballots that had been given to Democrats, that were Republican
ballots, due to a clerical error,” McDaniel said.
Rochester Hills Clerk Tina Barton, a Republican, acknowledged there was a local input error when
vote totals were sent to Oakland County, but the discrepancy was xed as soon as it was
discovered, she said, calling Romney’s framing “unfortunate.”
“Two thousand ballots weren’t suddenly found,” Barton told Bridge. “It was a glitch when the le
was sent in. As soon as it was caught, it was corrected.”
On election night, as the city sent results to the county, a le from one absentee ballot district did
not appear to properly transmit, Barton said.
So workers sent it a second time, without realizing the rst had actually gone through. They later
discovered it had been added to an in-person voting precinct tally rather than absentee count, she
said.
As a result, those absentee ballots were essentially counted twice in unof cial results initially
posted on the Oakland County website. Democrats voted by absentee ballot more often across
Michigan, so the error did in ate the Democratic vote tally, Barton said.
The correct tallies were posted on Oakland County’s website Thursday. According to the updated
numbers, Biden beat Trump by 108,066 votes in Oakland County, winning 56 percent of the vote.
Barton noted that Michigan has a “pretty robust” canvass process in which the county and state will
review local votes before certifying the election.
“So there are measures in place. There are gatekeepers to the process, and obviously the process
worked here. We did nd that the le was sent twice.”

A229

In a Friday
evening
statement, Barton added:
a Republican,
I amFiled
disturbed
thatPage
this is
Case
2:20-cv-13134-LVP-RSW
ECF No.“As
78-16,
PageID.3792
01/05/21
7 of 9
intentionally being mischaracterized to undermine the election process.”

The claim: GOP challengers ‘locked out’ of Detroit absentee counting board
Michigan GOP Chair Laura Cox claimed that of cials locked Republican challengers out of an
absentee ballot counting board at the TCF Center and “knowingly created a system” that did not
allow Republicans “to have the number of challengers we’re legally obligated to have.”
She and McDaniel also both said that at one point, workers at the TCF Center put cardboard over
windows of the counting room.
They did that to “conceal the truth,” Cox alleged. “What else could they be hiding?”
City of cials have called similar claims gross exaggerations.
It’s true that some poll watchers were temporarily barred from entering the Detroit counting board
on Wednesday, but the city said that was because so many were already inside that there were
concerns about the safety of workers given COVID-19.
The place was “packed” with poll challengers from both political parties when the health
department and police decided to limit additional access as a safety measure, Thomas said. There
were “way too many people. If we don’t all end up with COVID, it’d be a miracle.”
GOP poll challengers who were shut out began banging on the windows. Workers put cardboard
over the windows because election workers felt intimidated by people banging on windows, city
of cials told The Detroit Free Press.
Some of the GOP challengers were “badly trained” and “very disruptive and kept trying to slow
things down,” said Mark Brewer, an election attorney, and former chair of the state Democratic
Party who served as a Democratic challenger at the TCF Center.
“When you’re challenging, you’re permitted to observe and make legitimate challenges, but I was
there all day and didn’t see one legitimate challenge.”

Playing by the rules?

A230

About 100
supporters
of President Trump
lled78-16,
the ofPageID.3793
ce of the Oakland
County Republican
Case
2:20-cv-13134-LVP-RSW
ECF No.
Filed 01/05/21
Page 8 of 9 Party
headquarters for the press event on Friday, many holding signs and a few cheering as McDaniel.
Among the crowd was Jennifer Seidl of Farmington, who said she is concerned about the
atmosphere and activities at TCF Center. She’s described what she saw to party of cials, from a
relatively calm Wednesday morning to heightened tension later that day and Thursday.
By midday, far fewer Republican challengers were present and the mood had changed.
“They were talking at the tables about intimidation and ‘don’t let them near you’ and “don’t let them
talk to you,’” Seidl said. “They wouldn’t let us in to see the ballots.”
She’s waiting for assurances that the election was fair, or that irregularities will be con rmed. The
outcome of the races don’t need to be changed as part of that, she added.
“Whoever wins wins,” she said. “That’s the process. That’s what happens. But I want it to be done
fairly.”
While McDaniel mentioned taking complaints to the af davit stage, it’s unclear if the Michigan GOP
has obtained any sworn statements about anything that happened in a polling place.
However, Rocky Raczkowski, chair of the Oakland County Republican Party, said after McDaniel’s
appearance that the complaints are being vetted and the party has rejected some as not worth
pursuing.
“We tried to focus and walk them through what’s legal and what’s not legal,” Raczkowski said.
“Emotions are high. They shouldn’t be. We should let the system play out.”
McDaniel and Cox tried to appeal to all voters by saying getting the process right will improve
future elections. They did so, though, by repeatedly criticizing Gov. Gretchen Whitmer and
Secretary of State Jocelyn Benson, Thomas and Detroit of cials.
“It shouldn’t take us this long to count votes. Why is it that we always have issues in a speci c area?”
Raczkowski said. “Why is it always in Democratic areas? “
Raczkowski rejected the possibility that the party focusing on the majority-Black city of Detroit
could be motivated by race.

A231

He claimed
other cities such as Grand
were
able to complete
the countPage
without
Casethat
2:20-cv-13134-LVP-RSW
ECF Rapids
No. 78-16,
PageID.3794
Filed 01/05/21
9 of 9issues.
“This is not color or race,” Raczkowski said. “It’s the propensity of the Democratic Party to not play
by the rules.”
Raczkowski did not mention that Kent County took nearly as long to count ballots as Detroit. Nor
did the GOP send hundreds of poll watchers to scrutinize the process there.

Protests in Detroit
While McDaniel was speaking in Bloom eld Hills, more than 200 Trump supporters, most of them
white and middle-age, gathered in front of the TCF Center in Detroit, protesting the city’s already
complete absentee ballot count.
Protesters held signs reading “Stop the steal” and “Voting closed on Nov. 3rd.” and chanted “No
voter fraud! No voter fraud!”
Brett Waldrop, 45, of Monroe County, was one of the attendees. He was also one of several election
challengers with the conservative Election Integrity Fund who were barred from entering the TCF
Center in Detroit on Wednesday due to capacity issues related to COVID-19.
“They wouldn’t let us watch,” Waldrop told Bridge. “If they’re not doing anything wrong, why don’t
they allow the actual laws to work?"
When asked to cite speci c incidents of fraud that occurred at the TCF Center, Waldrop told Bridge,
“I don’t have any speci c examples.”
Ralph Gaines, 29, of Detroit, one of a dozen counter-protesters who remained on the other side of a
fence separating the protesters, said he came because he believes every vote should be counted.
“Here in Michigan, everybody did what they were supposed to do,” Gaines said. “These protesters
are just listening to Trump and his rhetoric, and now they want to voice their opinions in the wrong
way.”

Bridge Michigan reporter Mike Wilkinson contributed to this report.
Related Articles:

A232

Case 2:20-cv-13134-LVP-RSW ECF No. 78-17, PageID.3795 Filed 01/05/21 Page 1 of 2

EXHIBIT 16

A233

Case 2:20-cv-13134-LVP-RSW ECF No. 78-17, PageID.3796 Filed 01/05/21 Page 2 of 2

HAND COUNT CALCULATION SHEET

OFFICE: President of the United States
COUNTY:

Antrim

Biden
Jurisdiction
TOTAL VOTES

5960

5959

TOTAL CHANGE

Banks Township, Precinct 1
Central Lake Township, Precinct 1
Chestonia Township, Precinct 1
Custer Township, Precinct 1
Echo Township, Precinct 1
Elk Rapids Township, Precinct 1
Elk Rapids Township, Precinct 1 AVCB
Forest Home Township, Precinct 1
Helena Township, Precinct 1
Jordan Township, Precinct 1
Kearney Township, Precinct 1
Mancelona Township, Precinct 1
Mancelona Township, Precinct 2
Milton Township, Precinct 1
Milton Township, Precinct 1 AVCB
Star Township, Precinct 1
Torch Lake Township, Precinct 1
Warner Township, Precinct 1

Trump

Democratic Party
Hand
Original Count
Net
-1

9748

9759

-1

349
549
93
240
198
202
784
610
306
183
471
276
247
143
626
161
462
60

349
549
93
240
198
201
783
610
306
182
470
277
247
143
624
166
461
60

0
0
0
0
0
-1
-1
0
0
-1
-1
1
0
0
-2
5
-1
0

Jorgenson

Republican Party
Hand
Original Count
Net
11

189

190

11

756
906
197
521
392
414
611
753
431
371
743
835
646
478
543
462
526
163

758
906
197
521
392
415
614
753
430
369
743
835
646
478
545
468
526
163

2
0
0
0
0
1
3
0
-1
-2
0
0
0
0
2
6
0
0

Hawkins

Libertarian Party
Hand
Original Count
Net
1

28

28

1

11
16
3
11
8
12
5
19
4
13
16
20
13
12
6
10
7
3

A234

11
16
3
11
8
12
5
19
4
14
16
20
13
12
6
10
7
3

0
0
0
0
0
0
0
0
0
1
0
0
0
0
0
0
0
0

Blankenship

Green Party
Hand
Original Count
Net
0

16

17

0

2
6
0
1
2
4
5
0
1
1
3
0
1
0
0
0
2
0

2
6
0
1
2
4
5
0
1
1
3
0
1
0
0
0
2
0

0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0

De La Fuente

U.S. Taxpayers Party
Hand
Original Count
Net
1

Natural Law Party
Hand
Original Count
Net
8

9

1

1
1
0
2
1
2
2
1
0
1
0
0
2
0
2
0
1
0

1
1
0
2
1
2
2
1
0
1
0
0
3
0
2
0
1
0

0
0
0
0
0
0
0
0
0
0
0
0
1
0
0
0
0
0

1
1

1
0
0
0
0
0
0
1
1
0
0
1
0
1
2
0
1
0

1
0
0
0
0
0
0
1
1
0
0
1
0
2
2
0
1
0

0
0
0
0
0
0
0
0
0
0
0
0
0
1
0
0
0
0

Case 2:20-cv-13134-LVP-RSW ECF No. 78-18, PageID.3797 Filed 01/05/21 Page 1 of 5

EXHIBIT 17

A235

Case 2:20-cv-13134-LVP-RSW ECF No. 78-18, PageID.3798 Filed 01/05/21 Page 2 of 5

Democracy Dies in Darkness

Sidney Powell’s secret ‘military intelligence expert,’
key to fraud claims in election lawsuits, never worked
in military intelligence
By Emma Brown, Aaron C. Davis and Alice Crites
Dec. 11, 2020 at 6:29 p.m. EST
The witness is code-named “Spyder.” Or sometimes “Spider.” His identity is so closely guarded that lawyer Sidney
Powell has sought to keep it even from opposing counsel. And his account of vulnerability to international sabotage is a
key part of Powell’s failing multistate effort to invalidate President-elect Joe Biden’s victory.
Powell describes Spyder in court filings as a former “Military Intelligence expert,” and his testimony is offered to
support one of her central claims. In a declaration filed in four states, Spyder alleges that publicly available data about
server traffic shows that voting systems in the United States were “certainly compromised by rogue actors, such as Iran
and China.”
Spyder, it turns out, is Joshua Merritt, a 43-year-old information technology consultant in the Dallas area. Merritt
confirmed his role as Powell’s secret witness in phone interviews this week with The Washington Post.
Records show that Merritt is an Army veteran and that he enrolled in a training program at the 305th Military
Intelligence Battalion, the unit he cites in his declaration. But he never completed the entry-level training course,
according to Meredith Mingledorff, a spokeswoman for the U.S. Army Intelligence Center of Excellence, which
includes the battalion.
“He kept washing out of courses,” said Mingledorff, citing his education records. “He’s not an intelligence analyst.”
In an interview, Merritt maintained that he graduated from the intelligence training program. But even by his own
account, he was only a trainee with the 305th, at Fort Huachuca in Arizona, and for just seven months more than 15
years ago.
His separation papers, which he provided to The Post, make no mention of intelligence training. They show that he
spent the bulk of his decade in the Army as a wheeled vehicle mechanic. He deployed to the wars in Iraq and
Afghanistan, where he said he worked in security and route clearance. He held the rank of specialist when he was
honorably discharged in 2013, having received several commendations.

A236

2:20-cv-13134-LVP-RSW
ECF No. 78-18,
PageID.3799
Filed
01/05/21analyst
Pageunder
3 of 5
MerrittCase
acknowledged
that the declaration’s description
of his work
as an “electronic
intelligence
305th
Military Intelligence” is misleading. He said it should have made clear that his time in the 305th was as a student, not
as a working intelligence expert.
He blamed “clerks” for Powell’s legal team, who he said wrote the sentence. Merritt said he had not read it carefully
before he signed his name swearing it was true.
“That was one thing I was trying to backtrack on,” he said on Thursday. “My original paperwork that I sent in didn’t
say that.”
On Friday afternoon, as his name increasingly circulated on social media, Merritt said he had decided to remove
himself from the legal effort altogether. He said he plans to close his business and relocate with his family.
Asked about Merritt’s limited experience in military intelligence, Powell said in a text to The Post: “I cannot confirm
that Joshua Merritt is even Spider. Strongly encourage you not to print.”
Of her description of him as a military intelligence expert, she said, “If we made a mistake, we will correct it.”
Federal judges have in the past week rejected all four of the complaints Powell has filed seeking to overturn the
presidential election — lawsuits popularly known as the “kraken” suits, after a mythical sea creature she has harnessed
as a sort of mascot — ruling either that the challenges should have been filed in state courts or were meritless.
In Michigan, attorneys for the state argued that Powell's complaint was based on "fantastical conspiracy theories" that
belong in the "fact-free outer reaches of the Internet." A federal judge ruled this week that the allegation that votes
were changed for Biden relied on an "amalgamation of theories, conjecture, and speculation."
A federal judge in Arizona similarly tossed out a case Wednesday that relied in part on an affidavit from Merritt,
writing that allegations “that find favor in the public sphere of gossip and innuendo cannot be a substitute for earnest
pleadings and procedure in federal court” and “most certainly cannot be the basis for upending Arizona’s 2020 General
Election.”
Powell is appealing all four of those losses.
Merritt told The Post that, because judges are dismissing the cases without giving the Powell team a chance to fully
present evidence, “we’re just going to supply the evidence through other directions,” including to lawmakers and
members of the intelligence community. He said Russell Ramsland, a former colleague and fellow witness for Powell,
had asked him to brief Rep. Louie Gohmert (R-Tex.), a leading proponent of fanciful claims about the 2020 election.
Gohmert did not respond to a request for comment.
The 305th Military Intelligence Battalion at Fort Huachuca has taken on a special significance among supporters of
Powell’s lawsuits. Some popular conspiracy theories contend that the unit — rather than Merritt, a former member
who was discharged years ago — has determined that China and Iran manipulated the U.S. vote. In late November,
Thomas McInerney, a retired lieutenant general in the Air Force and a proponent of election fraud claims, said that
President Trump and Powell have “got the 305th Military Intelligence Battalion working with them” and that “the
Kraken is the 305th Military Intelligence Battalion.”
The battalion is an entry-level training unit. It has not had an operational mission since World War II. Mingledorff said
soldiers there “do not collect, analyze or provide intelligence in any way.”

A237

Case 2:20-cv-13134-LVP-RSW
No. 78-18,
PageID.3800
Filed
Page
of 5
Army records
provided by Merritt show that ECF
he enlisted
in 2003.
He first aimed to
be a 01/05/21
medic, but did
not 4
graduate
from a training program at Fort Sam Houston in Texas, according to records in the Army Training Requirements and
Resource System, Mingledorff said. He was “recycled,” or allowed to repeat the training course — but again did not
graduate, she said, citing the records.
In 2004, Merritt transferred to the 305th Military Intelligence Battalion, the records show. He had a spot reserved in
an electronic intercept analyst course with the 305th, but records show he did not meet the prerequisites and was
dropped from the program, Mingledorff said.
Merritt’s military separation papers show that he completed three education courses — two involving work on wheeled
vehicles and one on leadership.
Merritt told The Post he completed the medic and intelligence trainings as well. He said that for both programs, the
particular career path he was studying for changed by the time his training ended. He maintained that this pattern left
him in a sort of military bureaucratic limbo, in the service but without a specific job until he became a wheeled vehicle
mechanic in 2005.
He provided a document labeled “unofficial transcript” that he said showed that he completed the intelligence and
medic courses. Mingledorff declined to comment on that document but said the records she examined were clear.
Army education records also show several distance-learning and in-person trainings over the course of his service,
many of which were not completed, Mingledorff said.
He said he was unable to complete some online courses while serving overseas because of the demands of his job.
Merritt was honorably discharged from the Army in 2013, after a decade of service, including deployments to the wars
in Iraq in 2005-2006 and Afghanistan in 2009-2010, according to his separation papers. His commendations included
the Combat Action Badge, which is authorized for soldiers who are “present and actively engaging or being engaged by
the enemy, and performing satisfactorily in accordance with prescribed rules of engagement.”
Merritt told The Post he left the military because he had had reached a “retention control point” and was unlikely to be
promoted. Under Army rules, soldiers are only permitted to serve a certain number of years at a particular rank.
Merritt said cybersecurity was a hobby when he was in the Army, and it became a profession once he was out. He said
he is neither a Republican nor a Democrat but a “Constitutionalist” who is just trying to do his part to ensure fair
elections in the United States. “Right now you’re looking at two political parties that all they care about is power, they
don’t care about people,” he said. “I swore my life to my Constitution and that’s what I keep it at.”
He used his GI Bill funds to study network security administration at ITT Tech in Arlington, Tex. He said he earned an
associate degree from the school, part of a nationwide chain of for-profit colleges that shut down in 2016.
He went on to intern and work in several positions related to cybersecurity, he said. In 2017, he joined a small Dallasarea firm called Allied Special Operations Group, where Ramsland says he is part of the management team.
Merritt said it was there that he began to work on election security and came to believe the system was rife with
vulnerabilities. Soon, he said, he was a frequent guest in right-wing videos, appearing under the pseudonym “Jekyll,”
in shadow and with his voice disguised as he warned that the U.S. election system was vulnerable to being corrupted
on a massive scale.

A238

Case
2:20-cv-13134-LVP-RSW
ECF
No. 78-18,
PageID.3801
Filed
01/05/21
Page 5 of 5
In 2018,
he said,
he helped investigate what he
described
as suspected
fraud in races
affecting
five candidates,
including former Kentucky governor Matt Bevin (R) and former Texas congressman Pete Sessions (R). Merritt said he
found many elections-related companies plagued by vulnerabilities.
Bevin did not respond to a request for comment.
In a phone interview, Sessions described Merritt as a “top, top computer forensic expert.”
After two decades in Congress, Sessions’s 2018 loss to Democrat Colin Allred, a former professional football player,
was viewed by some on election-conspiracy sites as implausible. Merritt said he worked behind the scenes, conducting
election-fraud analysis. Sessions would not disclose Merritt’s precise work or whether he was paid, but said of Merritt:
“He may have been involved in certain elements of that. It is true there were people who were aware of those things.”
Sessions won a comeback victory in November and will return to Congress next year. He said he was unswayed by the
Army’s disclosure that Merritt had never completed electronic intelligence training.
“Get the best computer expert you know, have him call and query Josh. Josh will run circles around that person,”
Sessions said.
No charges were brought in connection with these allegations, Merritt said.
Merritt formed his own firm, Cyberoptyx, in 2019. He said the company — which consists of himself and a handful of
contractors — specializes in building “cyberinfrastructure” such as making websites and setting up servers. It also does
3-D printing.
Merritt said he became involved in the Powell litigation through Ramsland. Ramsland has also submitted affidavits as
part of Powell’s lawsuits, including one that drew attention for mistakenly using voting data from Minnesota to allege
evidence of voter fraud in Michigan.
Merritt said he provides information to Powell’s legal team through intermediaries he knows only by username. He
said he is not being paid for his work on the case.
Ramsland did not respond to messages left at his home or on a cellphone registered in his name.
Merritt said he had sought to stay anonymous because he feared for the safety of his family if his name became known.
Someone came up with his pseudonym based on the spider-like shape of the diagrams in his declaration, he said.
His name slipped into the court record, though little noticed, on Nov. 25. The Powell team filed a carefully redacted
declaration from its secret witness, but a bookmark in the file uploaded to the court’s computer system was visible:
“Declaration of JOSHUA MERRITT.”
“One jackwagon forgot to clear out the data. I was really pissed,” Merritt said. “The guy was like, ‘I’m sorry,’ and I was
like, ‘Well, you know, that and a bag of chips will still leave me hungry.’ ”
On Wednesday night, after a Reuters reporter tweeted about that flub and drew widespread attention to his name,
Merritt was bracing for what might come.
“This is not the 15 minutes I wanted,” he said.

Aaron Schaffer, Aaron Blake, Dan Lamothe and Dalton Bennett contributed.

A239

Case 2:20-cv-13134-LVP-RSW ECF No. 78-19, PageID.3802 Filed 01/05/21 Page 1 of 5

EXHIBIT 18

A240

Case 2:20-cv-13134-LVP-RSW ECF No. 78-19, PageID.3803 Filed 01/05/21 Page 2 of 5

ELECTIONS

Trump tweet wrongly suggests there
were defects with Michigan voting
machines
Paul Egan and Clara Hendrickson Detroit Free Press
Published 6:41 p.m. ET Dec. 15, 2020

Updated 8:01 p.m. ET Dec. 15, 2020

The claim: “68% error rate in Michigan Voting Machines.
Should be, by law, a tiny percentage of one percent.”
In a Tuesday tweet, Trump claimed there was a “68% error rate in Michigan Voting
Machines. Should be, by law, a tiny percentage of one percent.”
He suggested Michigan Secretary of State Jocelyn Benson would face legal scrutiny for the
alleged errors. “Did Michigan Secretary of State break the law? Stay tuned!” Trump wrote.
Trump was reacting to a consultant’s report that a judge made public Monday in connection
with an election lawsuit in Antrim County, in northern Michigan, where a misapplied
software update initially led to incorrect unofficial results being reported on election night.
But Trump’s tweet misinterprets the findings of the report, which itself presents a misleading
picture.
Michigan vote tabulators do not read ballots incorrectly 68% of the time. Nor is that
statement true if applied only to the Antrim County tabulators in the Nov. 3 election. And the
report Trump reacted to, while ambiguous and inaccurate on the subject of errors, does not
make that claim.
The report is signed by cybersecurity analyst Russell James Ramsland Jr. of Allied Security
Operations Group, a firm whose representatives have provided analyses and affidavits for
lawsuits brought by Trump allies, falsely alleging voter fraud and election irregularities.
In one such analysis on voter turnout, Ramsland mistook voting jurisdictions in Minnesota
for Michigan towns. In another, filed in support of a federal lawsuit in Michigan, he made

A241

Case 2:20-cv-13134-LVP-RSW ECF No. 78-19, PageID.3804 Filed 01/05/21 Page 3 of 5

inaccurate claims about voter turnout in various municipalities, misstating them as much as
tenfold.
The scrutiny of Antrim’s ballots arises from an error in the reporting of unofficial results on
election night, which initially showed voters in the heavily GOP county casting more votes for
Democrat Joe Biden than for Trump. Trump allies have seized on that error, and other
alleged irregularities, in their fruitless quest for evidence of election rigging through
equipment made by Dominion Voting Systems.
More: Affidavit in Michigan lawsuit makes wildly inaccurate claims about voter turnout in
state
More: Rudy Giuliani cites affidavit about Michigan that erroneously includes Minnesota
locations
State and county officials say the reporting error, which was corrected soon after the election,
was the result of human error by County Clerk Sheryl Guy, a Republican, before the election.
Guy said that after learning some candidates in local races were omitted from the ballot, she
needed to update the ballot information stored on media drives attached to the tabulating
machines. But she mistakenly made the changes only in some precincts, instead of all of
them, leading to mismatched data when the unofficial countywide tallies were being
compiled, and an inaccurate report of the unofficial results, Guy and Benson have said.
The investigation of Antrim’s equipment arose from a different issue in the case. In granting
a request for “forensic imaging” of the data and software inside the Dominion tabulators,
Judge Kevin Elsenheimer of Michigan’s 13th Circuit Court was responding to concerns about
a closely decided proposal to allow a marijuana dispensary in the village of Central Lake.
Ramsland’s firm, Allied Security, conducted the investigation.
In his report, Ramsland claimed, “The allowable election error rate established by the
Federal Election Commission guidelines is of 1 in 250,000 ballots (.0008%).” On the Antrim
machines, he wrote, he “observed an error rate of 68.05%.”
The FEC regulates campaign finance, not voting equipment, and has no such guideline. The
federal agency that does deal with voting equipment is the Election Assistance Commission.
Antrim County’s Dominion tabulators are certified by the EAC. In Michigan, 65 out of the
state’s 83 counties use voting systems manufactured by Dominion.

A242

Case 2:20-cv-13134-LVP-RSW ECF No. 78-19, PageID.3805 Filed 01/05/21 Page 4 of 5

Moreover, the error rate identified by Ramsland is not a measure of ballot counting errors.
Ramsland did not have access to the paper ballots as part of his investigation, according to
Jake Rollow, a spokesman for the Secretary of State’s office. Ramsland acknowledged that he
was not referring to ballot tabulation errors, even though the purported benchmark he
compared it to is “1 in 250,000 ballots.”
Rather, Ramsland wrote, the error rate applies to the 15,676 “total lines or events” in
Antrim’s tabulation logs. “Most of the errors were related to configuration errors that could
result in overall tabulation error or adjudication,” he wrote, without giving more details or
saying that they did result in such errors.
The EAC certification requirements that Antrim’s Dominion machines had to meet establish
certain error thresholds for the computer code that runs the systems, but the tabulation logs
track something else.
Tammy Patrick, a senior adviser to the elections program at the Washington, D.C.based Democracy Fund, explained in an email to the Free Press that tabulation logs “aren’t
the lines of code that run the system. They're logs of activities occurring in the process of
tabulation. The lines of code that are reviewed in certification are the actual software codes."
She said Ramsland’s report was “confusing many, many things.”
The Free Press called Allied Security Operations Group and left a voice message requesting to
speak with Ramsland. The call was not returned. The White House and Trump campaign did
not respond to email inquiries regarding Trump’s tweet. And the EAC also did not respond to
requests for additional information regarding its certification process.
State officials say they are not sure what Ramsland is referencing when he reports a 68%
error rate.
Guy, the Antrim County clerk, believes that the 68% error rate reported by Ramsland may be
related to her original error updating the ballot information. The software generated scores
of error reports when the county initially merged election results from various tabulators that
did not contain the same ballot information, she said.
“The equipment is great — it’s good equipment,” Guy said. “It’s just that we didn’t know what
we needed to do (to properly update ballot information). We needed to be trained on the
equipment that we have.”

A243

Case 2:20-cv-13134-LVP-RSW ECF No. 78-19, PageID.3806 Filed 01/05/21 Page 5 of 5

Our ruling
Trump claimed that there was a 68% error rate in the tabulation machines used in Michigan,
far more than the law allowed. The apparent source for his claim is a report from an
investigation of tabulation equipment from one county that purportedly identified a 68.05%
error rate.
The author of the report said the error rate applied not to the number of ballots counted, but
rather to the lines or events listed in the tabulators’ activity logs.
Trump’s tweet refers to a “law” about benchmark error rates. There is no such law. The
report he alluded to refers to FEC guidelines that don’t exist either.
Election officials have explained that the error in unofficial election night reporting in
Antrim County was the result of human error, not an error with the software or tabulation
machines used in the county.
We rate this claim False.
Contact Paul Egan: 517-372-8660 or pegan@freepress.com. Follow him on Twitter
@paulegan4. Read more on Michigan politics and sign up for our elections newsletter.
Clara Hendrickson fact-checks Michigan issues and politics as a corps member with Report
for America, an initiative of The GroundTruth Project. Contact Clara at
chendrickson@freepress.com or 313-296-5743 for comments or to suggest a fact-check.
Become a subscriber.

A244

Case 2:20-cv-13134-LVP-RSW ECF No. 78-20, PageID.3807 Filed 01/05/21 Page 1 of 12

EXHIBIT 19

A245

Case 2:20-cv-13134-LVP-RSW ECF No. 78-20, PageID.3808 Filed 01/05/21 Page 2 of 12

IN THE SUPREME COURT
_________________
ANGELIC JOHNSON, et al.
Petitioners,

Supreme Court Case No. _______

v
JOCELYN BENSON, et al.,
Respondents.
SPECIAL COUNSEL FOR THOMAS MORE SOCIETY—
AMISTAD PROJECT
Ian A. Northon, Esq. (P65082)
Gregory G. Timmer (P39396)
RHOADES MCKEE, PC*
55 Campau Avenue
Suite 300
Grand Rapids, MI 49503
Tel.: (616) 233-5125
Fax: (616) 233-5269
ian@rhoadesmckee.com
ggtimmer@rhoadesmckee.com

Erin Elizabeth Mersino, Esq. (P70886)
GREAT LAKES JUSTICE CENTER*
5600 W. Mt. Hope Highway
Lansing, Michigan 48917
(517) 322-3207
erin@greatlakesjc.org
*for identification purposes only
COUNSEL FOR PETITIONERS

Robert J. Muise, Esq. (P62849)
AMERICAN FREEDOM LAW CENTER*
PO Box 131098
Ann Arbor, Michigan 48113
Tel: (734) 635-3756
Fax: (801) 760-3901
rmuise@americanfreedomlawcenter.org

EXPERT REPORT OF MATTHEW BRAYNARD

A246

RECEIVED by MSC 11/26/2020 2:44:12 AM

STATE OF MICHIGAN

Case 2:20-cv-13134-LVP-RSW ECF No. 78-20, PageID.3809 Filed 01/05/21 Page 3 of 12

INTRODUCTION
I have been retained as an expert witness on behalf of Petitioners in the above

captioned proceeding. I expect to testify on the following subject matters: (i) analysis of
the database for the November 3, 2020 election for the selection of Presidential Electors
in the State of Wisconsin (“State”); (ii) render opinions regarding whether individuals
identified in the State’s voter database actually voted; and (iii) render opinions regarding
whether individuals identified in the State’s voter database were actually qualified to vote
on election day.
This is a statement of my relevant opinions and an outline of the factual basis for
these opinions. The opinions and facts contained herein are based on the information
made available to me in this case prior to preparation of this report, as well as my
professional experience as an election data analyst.
I reserve the right to supplement or amend this statement on the basis of further
information obtained prior to the time of trial or in order to clarify or correct the
information contained herein.
II.

DOCUMENTS REVIEWED

I reviewed the following documents in arriving at my opinions.
1.

The voter records and election returns as maintained on the State’s election
database;

2

A247

RECEIVED by MSC 11/26/2020 2:44:12 AM

I.

Case 2:20-cv-13134-LVP-RSW ECF No. 78-20, PageID.3810 Filed 01/05/21 Page 4 of 12

Records maintained by the National Change of Address Source which is
maintained by the United States Postal Service and which is available for
licensed users on the internet. I am a licensed member.

3.

Records developed by the staff of my call centers and social media
researchers; and

4.

A national voter database maintained by L2 Political;

In addition, I discussed the facts of this matter with Petitioner’s attorney Ian
Northon and members of his legal team.
III.

PROFESSIONAL QUALIFICATIONS
I have attached hereto as Exhibit 1 a true and correct copy of my resume. As

detailed in the resume, I graduated from George Washington University in 2000 with a
degree in business administration with a concentration in finance and management
information systems. I have been working in the voter data and election administration
field since 1996. I have worked building and deploying voter databases for the
Republican National Committee, five Presidential campaigns, and no less than onehundred different campaigns and election-related organizations in all fifty states and the
U.S. Virgin Islands. I worked for eight years as a senior analyst at the nation’s premier
redistricting and election administration firm, Election Data Services, where I worked
with states and municipalities on voter databases, delineation, and litigation support
related to these matters. Also, while at Election Data Services, I worked under our
contract with the US Census Bureau analyzing voting age population. Since 2004, I
have worked for my own business, now known as External Affairs, Inc., providing
3

A248

RECEIVED by MSC 11/26/2020 2:44:12 AM

2.

Case 2:20-cv-13134-LVP-RSW ECF No. 78-20, PageID.3811 Filed 01/05/21 Page 5 of 12

organizations in the areas of voter targeting, polling/research, fundraising, branding, and
online development and strategy. My firm has worked for over two-hundred candidates
from president to town council and over a dozen DC-based policy/advocacy
organizations.
With respect to publications I have authored in the last 10 years, I have not
authored any publications in the last ten years.
IV.

COMPENSATION
I have been retained as an expert witness for Petitioners. I am being compensated

for a flat fee of $40,000.
V.

PRIOR TESTIMONY
I have not provided testimony as an expert either at trial or in deposition in the last

four years.
VI.

STATEMENT OF OPINIONS
As set forth above, I have been engaged to provide expert opinions regarding

analysis in the November 3, 2020 election of Presidential electors. Based on my review
of the documents set forth above, my discussions with statisticians and analysts working
with me and at my direction, my discussions with the attorneys representing the
Petitioners, I have the following opinions:
1. From the State’s database for the November 3, 2020 election and our call center
results, it is my opinion to a reasonable degree of scientific certainty that out of the
3,507,410 individuals who the State’s database identifies as applying for and the

4

A249

RECEIVED by MSC 11/26/2020 2:44:12 AM

statistical and data analysis for local, state, and federal candidates and policy

Case 2:20-cv-13134-LVP-RSW ECF No. 78-20, PageID.3812 Filed 01/05/21 Page 6 of 12

2. From the State’s database for the November 3, 2020 election and our call center
results, it is my opinion to a reasonable degree of scientific certainty that out of the
139,190 individuals who the State’s database identifies as having not returned an
absentee ballot, that in my sample of this universe, 24.14% of these absentee
voters in the State did not request an absentee ballot.
3. From the State’s database for the November 3, 2020 election and our call center
results, it is my opinion to a reasonable degree of scientific certainty that out of the
139,190 individuals who the State’s database identifies as having not returned an
absentee ballot, that in my sample of this universe, 22.95% of those absentee
voters did in fact mail back an absentee ballot to the clerk’s office.
4. From the State’s database for the November 3, 2020 election, the NCOA database,
and our call center results, it is my opinion to a reasonable degree of scientific
certainty that out of the 51,302 individuals had changed their address before the
election, that in my sample of this universe, 1.38% of those individuals denied
casting a ballot.
5. From the State’s database for the November 3, 2020 election and the NCOA
database and other state’s voter databases, it is my opinion to a reasonable degree
of scientific certainty, that at least 13,248 absentee or early voters were not
residents of the State when they voted.
6. From the State’s database for the November 3, 2020 election and comparing that
data to other states voting data and identifying individuals who cast early/absentee
ballots in multiple states, it is my opinion to a reasonable degree of scientific
certainty, that at least 317 individuals in the State voted in multiple states.
VII.

BASIS AND REASONS SUPPORTING OPINIONS.
It is my opinion that due to the lax controls on absentee voting in the November 3,

2020 election that the current unofficial results of that election include tens of thousands
of individuals who were not eligible to vote or failed to record ballots from individuals
that were.

5

A250

RECEIVED by MSC 11/26/2020 2:44:12 AM

State sending an absentee ballot, that in my sample of this universe, 12.23% of
those absentee voters did not request an absentee ballot to the clerk’s office.

Case 2:20-cv-13134-LVP-RSW ECF No. 78-20, PageID.3813 Filed 01/05/21 Page 7 of 12

obtained from L2 Political and which L2 Political obtained from the State’s records on,
among other things, voters who applied for an absentee or early voter status. I received
this database from L2 Political in a table format with columns and rows which can be
searched, sorted and filtered. Each row sets forth data on an individual voter. Each
column contained information such as the name of the voter, the voter’s address, whether
the voter applied for an absentee ballot, whether the voter voted and whether the voter
voted indefinitely confined status.
Second, we are able to obtain other data from other sources such as the National
Change of Address Database maintained by the United States Postal Service and licensed
by L2 Political. This database also in table format shows the name of an individual, the
individual’s new address, the individual’s old address and the date that the change of
address became effective.
Third, I conducted randomized surveys of data obtained from the State’s database
by having my staff or the call center’s staff make phone calls to and ask questions of
individuals identified on the State’s database by certain categories such as absentee voters
who did not return a ballot. Our staff, if they talked to any of these individuals, would
then ask a series of questions beginning with a confirmation of the individual’s name to
ensure it matched the name of the voter identified in the State’s database. The staff
would then ask additional questions of the individuals and record the answers.
Fifth, attached as Exhibits 2 is my written analysis of the data obtained.
Below are the opinions I rendered and the basis of the reasons for those opinions.
6

A251

RECEIVED by MSC 11/26/2020 2:44:12 AM

First, State maintains a database for the November 3, 2020 election which I

Case 2:20-cv-13134-LVP-RSW ECF No. 78-20, PageID.3814 Filed 01/05/21 Page 8 of 12

I obtained this data from the State via L2 Political after the November 3, 2020,
Election Day. This data identified 3,507,410 individuals as having applied for an
absentee ballot and the State sending an absentee ballot to these individuals.
I then had my staff make phone calls to a sample of this universe. When
contacted, I had my staff confirm the individual’s identity by name. Once the name was
confirmed, I then had staff ask if the person requested an absentee ballot or not for the
November General Election. Staff then recorded the number of persons who answered
yes. Of the 834 persons who agreed to answer the question of whether the person
requested an absentee ballot for the November general election, 732 individuals answered
yes to the question whether they requested an absentee ballot and 102 individuals
answered no to the question. Attached as Exhibit 2 is my written analysis containing
information from the data above on absentee voters. Paragraph 2 of Exhibit 2 presents
this information. Based on these results, 12.23% of our sample of these absentee voters
in the State did not request an absentee ballot.
2. From the State’s database for the November 3, 2020 election and our call center
results, it is my opinion to a reasonable degree of scientific certainty that out of the
139,190 individuals who the State’s database identifies as having not returned an
absentee ballot, that in my sample of this universe, 24.19% of these absentee
voters in the State did not request an absentee ballot.

7

A252

RECEIVED by MSC 11/26/2020 2:44:12 AM

1. From the State’s database for the November 3, 2020 election and our call
center results, it is my opinion to a reasonable degree of scientific certainty
that out of the 3,507,410 individuals who the State’s database identifies as
applying for and the State sending an absentee ballot, that in my sample of
this universe, 12.23% of those absentee voters did not request an absentee
ballot to the clerk’s office.

Case 2:20-cv-13134-LVP-RSW ECF No. 78-20, PageID.3815 Filed 01/05/21 Page 9 of 12

Election Day. This data identified 139,129 absentee voters who were sent a ballot but
who failed to return the absentee ballot.
I then had my staff make phone calls to a sample of this universe. When
contacted, I had my staff confirm the individual’s identity by name. Once the name was
confirmed, I then had staff ask if the person requested an absentee ballot or not. Staff
then recorded the number of persons who answered yes. My staff then recorded that of
the 1,050 individuals who answered the question, 796 individuals answered yes to the
question whether they requested an absentee ballot. My staff recorded that 254
individuals answered no to the question whether they requested an absentee ballot.
Attached as Exhibit 2 is my written analysis containing information from the data above
on absentee voters. Paragraph 2 of Exhibit 2 presents this information.
Based on these results, 24.19% of our sample of these absentee voters in the State
did not request an absentee ballot.
3. From the State’s database for the November 3, 2020 election and our call
center results, it is my opinion to a reasonable degree of scientific certainty
that out of the 96,771 individuals who the State’s database identifies as
having not returned an absentee ballot, that in my sample of this universe,
15.37% of those absentee voters did in fact mail back an absentee ballot to
the clerk’s office.
Next, I then had staff ask the individuals who answered yes, they requested an
absentee ballot, whether the individual mailed back the absentee ballot or did not mail
back the absentee ballot. Staff then recorded that of the 740 individuals who answered
the question, 241 individuals answered yes, they mailed back the absentee ballot. Staff

8

A253

RECEIVED by MSC 11/26/2020 2:44:12 AM

I obtained this data from the State via L2 Political after the November 3, 2020,

Case 2:20-cv-13134-LVP-RSW ECF No. 78-20, PageID.3816 Filed 01/05/21 Page 10 of 12

Paragraph 2 of Exhibit 2 presents this information.
Based on these results, 47.52% of our sample of these absentee voters in the State
did not request an absentee ballot.
4. From the State’s database for the November 3, 2020 election, the NCOA
database, and our call center results, it is my opinion to a reasonable degree
of scientific certainty that out of the 26,673 individuals had changed their
address before the election, that in my sample of this universe, 1.11% of
those individuals denied casting a ballot.
On Exhibit 2, in paragraph 4, I took the State’s database of all absentee or early
voters and matched those voters to the NCOA database for the day after election day.
This data identified 51,302 individuals whose address on the State’s database did not
match the address on the NCOA database on election day. Next, I had my staff call the
persons identified and ask these individuals whether they had voted. My call center staff
identified 501 individuals who confirmed that they had casted a ballot. My call center
staff identified 7 individuals who denied casting a ballot. Our analysis shows that 1.38%
of our sample of these individuals who changed address did not vote despite the State’s
data recorded that the individuals did vote.
5. From the State’s database for the November 3, 2020 election and the
NCOA data and other state’s voter data, it is my opinion to a reasonable
degree of scientific certainty, that at least 6,924 absentee or early voters
were not residents of the State when they voted.
On Exhibit 2, in paragraph 1, I took the State’s database of all absentee or early
voters and matched those voters to the NCOA database for the day after Election Day.
This data identified 12,120 individuals who had moved of the State prior to Election Day.

9

A254

RECEIVED by MSC 11/26/2020 2:44:12 AM

recorded 499 individuals answered no, they did not mail back the absentee ballot.

Case 2:20-cv-13134-LVP-RSW ECF No. 78-20, PageID.3817 Filed 01/05/21 Page 11 of 12

identified 1,170 who registered to vote in a state other than the State subsequent to the
date they registered to vote in the State. When merging these two lists and removing the
duplicates, and accounting for moves that would not cause an individual to lose their
residency and eligibility to vote under State law, these voters total 13,248.
6. From the State’s database for the November 3, 2020 election and
comparing that data to other states voting data and identifying individuals
who cast early/absentee ballots in multiple states, it is my opinion to a
reasonable degree of scientific certainty, that at least 234 individuals in the
State voted in multiple states.
On Exhibit 2, in paragraph 2, I had my staff compare the State’s early and
absentee voters to other states voting data and identified individuals who cast
early/absentee ballots in multiple states. My staff located 317 individuals who voted in
the State and in other states for the November 3, 2020 general election.
VIII. EXHIBITS TO BE USED AT TRIAL TO SUMMARIZE OR EXPLAIN
OPINIONS
At the present time, I intend to rely on the documents produced set forth above as
possible exhibits.
REMAINDER OF PAGE LEFT INTENTIONALLY BLANK
SIGNATURE PAGE TO FOLLOW

10

A255

RECEIVED by MSC 11/26/2020 2:44:12 AM

Further, by comparing the other 49 states voter databases to the State’s database, I

Case
Case 2:20-cv-13134-LVP-RSW
2:20-cv-13134-LVP-RSW ECF
ECF No.
No. 78-20,
78-20, PageID.3818
PageID.3818 Filed
Filed 01/05/21
01/05/21 Page
Page 12
12 of
of 12
12

RECEIVED by MSC 11/26/2020 2:44:12 AM

f -

Dated:

^

M

Matthew Braynard

O

HH

<

M

o

<3*

2

GO

n

to

o.
to
o
to
o
to

4^
4^

to

>

11

A256

ApfperediX ix0OO288

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3819 Filed 01/05/21 Page 1 of 16

EXHIBIT 20

A257

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3820 Filed 01/05/21 Page 2 of 16

STATE OF MICHIGAN
IN THE SUPREME COURT
ANGELIC JOHNSON and,
LINDA LEE TARVER,

MSC No. 162286

Petitioners,
vs.
JOCELYN BENSON, in her official
capacity as Michigan Secretary of State;
JEANNETTE BRADSHAW, in her
official capacity as Chair of the Board of
State Canvassers for Michigan; BOARD
OF STATE CANVASSERS FOR
MICHIGAN; and GRETCHEN
WHITMER, in her official capacity as
Governor of Michigan,
Respondents,
RHOADES MCKEE, PC
Ian A. Northon, Esq. (P65082)
Gregory G. Timmer (P39396)
55 Campau Avenue, Suite 300
Grand Rapids, MI 49503
Tel.: (616) 233-5125
Fax: (616) 233-5269
ian@rhoadesmckee.com
ggtimmer@rhoadesmckee.com
Attorneys for Petitioners
AMERICAN FREEDOM LAW CENTER
Robert J. Muise, Esq. (P62849)
PO Box 131098
Ann Arbor, Michigan 48113
Tel: (734) 635-3756
Fax: (801) 760-3901
rmuise@americanfreedomlawcenter.org
Attorneys for Petitioners

FINK BRESSACK
David H. Fink (P28235)
Darryl Bressack(P67820)
Nathan J. Fink (P75185)
38500 Woodward Ave., Suite 350
Bloomfield Hills, MI 48304
(248) 971-2500
dfink@finkbressack.com
dbressack@finkbressack.com
nfink@finkbressack.com
Attorneys for Proposed IntervenorRespondent City of Detroit
CITY OF DETROIT LAW DEPARTMENT
Lawrence T. García (P54890)
Charles N. Raimi (P29746)
James D. Noseda (P52563)
2 Woodward Ave., 5th Floor
Detroit, MI 48226
(313) 237-5037
garcial@detroitmi.goc
nosej@detroitmi.gov

A258

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3821 Filed 01/05/21 Page 3 of 16
2

GREAT LAKES JUSTICE CENTER
Erin Elizabeth Mersino, Esq. (P70886)
5600 W. Mt. Hope Highway
Lansing, Michigan 48917
(517) 322-3207
erin@greatlakesjc.org
Attorneys for Petitioners

Attorneys for Proposed IntervenorRespondent City of Detroit

______________________________________________________________________________
AFFIDAVIT OF CHARLES STEWART III
Being duly sworn, Charles Stewart III, deposes and states the following as true, under oath:
1.

I am the Kenan Sahin Distinguished Professor of Political Science at the

Massachusetts Institute of Technology, where I have been on the faculty since 1985. In that time,
I have done research and taught classes at the graduate and undergraduate levels in the fields of
American politics, research methodology, elections, and legislative politics.
2.

Since November 2020 I have been a member of the Caltech/MIT Voting

Technology Project (VTP). The VTP is the nation’s oldest academic project devoted to the study
of voting machines, voting technology, election administration, and election reform. I have been
the MIT director of the project for 15 years.
3.

I am the founding director of the MIT Election Data and Science Lab (MEDSL),

which was founded in January 2016. MEDSL is devoted to the impartial, scientific analysis of
elections and election administration (sometimes called election science) in the United States.
4.

I have been the author or co-author of numerous peer-reviewed publications and

books in political science, and in particular, the area of election administration and election
science.

A259

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3822 Filed 01/05/21 Page 4 of 16
3
5.

I have attached an abridged version of my curriculum vitae to this statement, as

Appendix 1.
6.

As a part of my academic research, I have regularly designed public opinion

surveys to probe questions related to the conduct of elections in the United States. I have been
the principal investigator of modules pertaining to election science that were part of the
Cooperative Election Study in 2012, 2013, 2014, 2016, 2018, 2019, and 2020.
7.

I was the principal investigator of the project that led to the creation and design of

the Survey of the Performance of American Elections (SPAE). The SPAE is the only large-scale
academic survey that focuses on the experience of voters in federal elections. I supervised the
development of the survey instrument and the reporting of the results. This survey, which
interviews over 10,000 voters following every presidential election, has been implemented
following the 2008, 2012, 2016, and 2020 elections.
8.

I have reviewed the reports written by Mr. Matthew Braynard and Professor

Qianying (Jennie) Zhang and submitted in this case.

Mr. Braynard’s Report
9.

Mr. Braynard claims that he has evidence concerning whether individuals from

the Michigan voter file actually voted and whether those individuals identified as having voted
were actually qualified to vote on Election Day.
10.

It is my opinion, based on my knowledge as an expert in the fields of political

science, election administration, and survey research, that Mr. Braynard’s conclusions are
without merit.

A260

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3823 Filed 01/05/21 Page 5 of 16
4
11.

Mr. Braynard states on page 6 that he received what he claims to be the Michigan

voter registration database and a file of absentee ballot voters from the company L2 Political. It
is important to note that Mr. Braynard did not receive a “raw” copy of the Qualified Voter File
(QVF) directly from the state, but from an intermediary. L2 is known to augment information in
state voter files, so that they can be of use to political campaigns. Mr. Braynard offers no
discussion of whether L2 made any enhancements to the files he used and, if they did, whether
those enhancements affected his analysis.
12.

The central data-gathering method in this report is based on calling samples of

individuals who were in either one of the files provided to Mr. Brainard by L2. Mr. Brainard
does not discuss where he got those phone numbers. I know, because I purchased a copy of the
QVF in May of this year, that the QVF does not have phone numbers. Therefore, the telephone
numbers Mr. Braynard used had to be added by someone else. They may have been added by L2,
but they may have been added through another process that is not specified in the report.
13.

Mr. Braynard generally describes his approach on page 6. He claims that a full

description of his analysis is attached in Exhibit 2, but it is not in fact attached. All we can
gather from the description we do have is that he, or his call center staff, drew a random sample
from the two L2-provided datasets and made some telephone calls. The very brief description of
the research raises numerous questions that one would normally address in a report of this nature.
Among these questions are


How was the randomization implemented?



What efforts were made to “convert” non-responses to responses?



Who was the call center?



Over what period of time were the calls made?

A261

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3824 Filed 01/05/21 Page 6 of 16
5


What precisely was that the script that callers followed as they talked to people they
reached?



What quality assurance measures were taken by the call center staff to ensure that the
callers followed the protocol and recorded results accurately?

14.

On page 7, point 1, Mr. Braynard states that the callers spoke to 834 individuals.

He gives no indication of how many people had to be called to reach these 834. With telephone
surveys, it is common for response rates to be around 2% – 5%. With such low response rates, it
is necessary to understand whether the respondents were at all representative of the universe they
are intended to represent. Without serious attention to this question of representativeness, we
have no assurance that the results of the survey are not tainted by a problem known in the
profession as non-response bias. This issue of non-response bias attends all of the analyses Mr.
Braynard presents.
15.

In this section, Mr. Braynard also writes that 12.23% of his sample of individuals

who were in the absentee-ballot request file did not, in fact, request an absentee ballot. He
reaches this conclusion based on a naïve interpretation of the responses. The fact that 12.23% of
this sample says they did not request an absentee ballot does not support a conclusion that
12.23% of people who are recorded as requesting an absentee ballot did not actually request one.
Instead, the most likely conclusion is that the lion’s share—if not all—of these responses were
given by people who were called by mistake.
16.

My criticism in the previous paragraph is based on what is known about the

quality of database matching between voter files and commercial telephone lists. In 2018, the
Pew Research Center issued a report that, among other things, addressed the problem of

A262

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3825 Filed 01/05/21 Page 7 of 16
6
matching telephone numbers to voter files.1 That report found that firms who do this type of
matching are successful between 55% and 91% of the time. In other words, for data sets of the
type Mr. Braynard is using, between 45% and 9% of the telephone numbers will be incorrect.
Therefore, if 12% of the sample stated they did not request an absentee ballot, it is likely that the
callers were simply talking to the wrong people.
17.

On page 7, point 2, Mr. Braynard claims that 24.19% of those who are recorded

as not returning an absentee ballot did not request one. This analysis has essentially the same
flaws as the analysis under point 1.
18.

On page 8, point 3, Mr. Braynard claims that 15.37% of those who are recorded

as having not returned an absentee ballot did, in fact, return one. These results were quite
unremarkable and are entirely consistent with a well-known problem in the study of political
participation called “social desirability bias.” Social desirability bias is the tendency of survey
subjects to give socially desirable responses instead of answering with their true feelings or
behaviors. This is especially problematic in studying sensitive topics, of which politics is one.
19.

The problem of over-stating that one has participated in an election has led to a

large literature on this topic. It is common practice among survey researchers to gauge the degree
of over-reporting. For instance, in the 2016 Cooperative Election Study, follow-up research
established that 29% of those who had originally stated to the researchers that they had voted by
mail had, in fact, not voted at all. Therefore, it is reasonable to conclude that the results reported
under point 3 are due to misreporting by respondents.
20.

On page 9, point 4, Mr. Braynard reports the analysis of a sample of individuals

who are reported as having voted absentee or early and who also match to the NCOA database.
Pew Research Center, “Commercial Voter Files and the Study of U.S. Politics,” February 15, 2018,
https://www.pewresearch.org/methods/2018/02/15/commercial-voter-files-and-the-study-of-u-s-politics/.
1

A263

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3826 Filed 01/05/21 Page 8 of 16
7
He reports that 1% of these individuals denied that they actually cast a ballot. There are two
problems here. First, the numbers in this section are inconsistent. Is it 1.11%, as in the summary,
or 1.38%, as in the body of the report? Second, it is my understanding that Michigan does not
have early voting. My conclusion, therefore, is that this claim has all of the hallmarks of analysis
intended for another state that got inadvertently cut and pasted into this report.
21.

On page 9, point 5, Mr. Braynard claims that he identified a number of voters who

were no longer residents of Michigan on Election Day. There are at least two problems with this
analysis. First, there are legitimate reasons why a resident of Michigan would file an NCOA
notice that they had moved outside of the state, and still would be residents of the state. I myself
have done this in the couple of times in my lifetime, when I had opportunities to spend a year in
another state as a part of my profession. Students, military members assigned to a post outside of
Michigan, and others pursuing business opportunities on a short-term basis are likely to file an
NCOA form so that critical mail, such as bills, is forwarded to them during the period of their
temporary absence. In addition, without Exhibit 2, it is impossible to judge precisely what Mr.
Braynard did to arrive at the numbers that are reported in the section.
22.

Finally, on page 10, point 6, Mr. Braynard claims to have found at least 234

individuals in Michigan who voted in multiple states. First, there are two numbers in the section,
234 and 317. Again, this looks like a case of cut-and-paste report writing. More importantly, his
conclusion is based on an assumption that the matching is 100% correct. It is my experience that
matching that “finds” double voting often does so because of false matches. Therefore, if one
were to further investigate these cases, it is likely that the number of multiple voters is
significantly less that the numbers reflected here. And, even if there were a couple dozen
multiple voters in Michigan, this hardly reflects widespread fraud in the conduct of the election.

A264

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3827 Filed 01/05/21 Page 9 of 16
8
23.

In addition to these substantive problems, the report has numerous careless errors

which reflect on the seriousness with which we should take his analysis. For instance, in the very
first paragraph of his report, Mr. Braynard refers to the state of Wisconsin, rather than to
Michigan. This raises the obvious question of whether Mr. Braynard is simply cutting and
pasting from reports written about other states, using equally dubious methodologies to reach
similarly baseless conclusions. If Mr. Braynard cannot keep track of which state he is analyzing,
I worry about the quality of the analysis underlying the report.
24.

On page 3, Mr. Braynard states that he has attached a copy of his resume as

Exhibit 1. However, Exhibit 1 was not attached to the report. Therefore, there is no independent
way to judge Mr. Braynard’s training or actual experience in data analysis based on evidence in
his report. What he describes however on page 3 does not give me confidence that he is qualified
to design credible survey research in this area. He describes working for a small, if important,
data analysis firm, Election Data Services, where he worked under the supervision of a PhD
political scientist doing work appropriate to a recent graduate with a business degree. He owns a
firm that reportedly engages in statistical analysis and consulting for political campaigns.
However, owning a firm that provides statistical and data analysis is quite different from being
able to design and implement that analysis.

Report of Qianying “Jennie” Zhang
25.

Dr. Zhang’s report adds nothing to Mr. Braynard’s analysis. Dr. Zhang merely

recapitulates the claims in Mr. Braynard’s report and then calculates a series of confidence
intervals around those estimates.

A265

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3828 Filed 01/05/21 Page 10 of 16
9
26.

Dr. Zhang writes that she assumes the sampling was done correctly and that the

answers reflect the true behavior of the respondents. In other words, she assumes the data are
good but, as I have shown, they are not. Dr. Zhang is not, nor does she claim to be, an expert in
survey research. I have no doubts about the calculations that she performed. However, there is
also no reason for an expert in survey research to ask a professor of finance to calculate
confidence intervals. The calculation of confidence intervals is a routine task undertaken by
survey researchers in their normal capacity many times every day—usually automated using
statistical software. The failure of Mr. Braynard to calculate confidence intervals himself
underscores the fact that he is not an expert in the area of public opinion research.
27.

I will note inconsistencies in some of the numbers between Mr. Braynard’s and

Dr. Zhang’s reports. For instance, Mr. Braynard claims that there were 139,129 absentee voters
who were sent a ballot but who failed to return the absentee ballot; Dr. Zhang puts this number at
139,190. This is a small discrepancy, but it does make me wonder what data Dr. Zhang was
looking at.

A266

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3829 Filed 01/05/21 Page 11 of 16
l0
I atflnrr that the representations above are tnte.

F

ufiher. Affiant sayeth not.

Date: December 4. 2020

cTl;urr

STEWART III

Subscribed and sworn to before mc
day of December" 2020.

this{L
r--

KIMBERLY S.HUNT.
Public
County of Macomb
My' Comntission Expires: 08/08/24
Acting in the Count)' of Macornb
Notarized using electronic/remote technology
Notary located in Macomb County, State of Michigan
Signatory located inlUrcSet County. State ot

A267

KIMBERLY S. HUNT
NOTARY PUBLO, STAIEOFH

Cot NW 0F
AcTrNc

rN

\
M

MACOfrtB

MY COlWtflSStON EXptRESATtr8,

couury or

\ftfi1i

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3830 Filed 01/05/21 Page 12 of 16
10
Curriculum Vitae
CHARLES HAINES STEWART III
Kenan Sahin Distinguished Professor of Political Science
The Massachusetts Institute of Technology
Department of Political Science
Cambridge, Massachusetts 02139
617-253-3127
CStewart@mit.edu
Education
1985

Ph.D., Stanford University.

1983

A.M., Stanford University

1979

B.A., Emory University

Professional experience
Teaching
1985–1989

Assistant Professor of Political Science

1989–1999
1990–1993
1999–present

Associate Professor of Political Science
Cecil and Ida Green Career Development Associate Professor of Political Science (3yr. term)
Professor of Political Science

2007–present
2016-present

Kenan Sahin Distinguished Professor of Political Science
Affiliate Faculty, Institute for Data, Systems, and Society

Administrative
2002–2005
Associate Dean of Humanities, Arts, and Social Sciences
2002–present

Co-director, Caltech/MIT Voting Technology Project

2005–2010

Head of the Department of Political Science

2015–present

Director, MIT Election Data and Science Lab

Awards (abbreviated)
1994
1999

Mary Parker Follett Award, for Best Published Essay or Article, 1993-1994, Politics and History
Section, American Political Science Association (with Barry Weingast).
Franklin L. Burdette Pi Sigma Alpha Award, for Best Paper Presented at the 1998 Annual
Meeting of the American Political Science Association. (“Architect or Tactician? Henry Clay
and the Institutional Development of the U.S. House of Representatives”)

A268

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3831 Filed 01/05/21 Page 13 of 16
11
2002
2002
2011
2013

Jewell-Loehenberg Award, for best article to have appeared in the Legislative Studies Quarterly,
Legislative Studies Section, American Political Science Association (with Steven Ansolabehere
and James M. Snyder, Jr.)
Jack Walker Award, honoring an article or published paper of unusual significance and
importance to the field, Political Organizations and Parties Section, American Political Science
Association (with Steven Ansolabehere and James M. Snyder, Jr.)
Elected Fellow, American Academy of Arts and Sciences
Patrick J. Fett Award, honoring the best paper on the scientific study of Congress and the
Presidency at the previous meeting of the Midwest Political Science Association (“The Value of
Committee Assignments in Congress since 1994")

Grants (abbreviated)
1991–93
2003–06
2005–07

National Science Foundation, “The Development of the Committee System in the House,
1870-1946,” SES-91-12345
John S. and James L. Knight Foundation, “Internet and Electronic Voting”
National Science Foundation, “Collaborative Research: U.S. Senate Elections Data Base,
1871–1913" (with Wendy Schiller).

2007–10

Pew Charitable Trusts and JEHT Foundation, “The 2008 Survey of the Performance of
American Elections”

2008–10

Ewing Marion Kauffman Foundation, “Congressional and Executive Staff Seminar”

2012–13

Pew Charitable Trusts, “Measuring Elections”

2013–15

Pew Charitable Trusts, “Measuring Elections”

2013–14

2014–17

Democracy Fund, “Voting in America: Matching Problems to Solutions”
William and Flora Hewlett Foundation, “Voting in America: Matching Problems to
Solutions”
Democracy Fund, “Polling Place of the Future”

2016–17

Pew Charitable Trusts, “The 2016 Survey of the Performance of American Elections

2017–21

William and Flora Hewlett Foundation, “The MIT Election Data and Science Lab”

2018–21

Democracy Fund, “The MIT Election Data and Science Lab”

2017–18

Carnegie Foundation of New York, Andrew Carnegie Fellow

2017–19

Joyce Foundation, “State Election Landscapes”

2013–14

Publications (abbreviated)
Books
2015
Electing the Senate. Princeton. University Press (with Wendy Schiller)
2014 Measuring American Elections. Cambridge University Press (with Barry Burden)
2012 Fighting for the Speakership: The House and the Rise of Party Government. Princeton
University Press (with Jeffery A. Jenkins).
2010 Committees in the U.S. Congress, 1993–2010. CQ Press (with Garrison Nelson).

A269

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3832 Filed 01/05/21 Page 14 of 16
12
2002
2001
1989

Committees in the United States Congress, 1789–1946, 4 vols. Congressional Quarterly Press
(with David Canon and Garrison Nelson).
Analyzing Congress. W. W. Norton. [2nd edition, 2012]
Budget Reform Politics: The Design of the Appropriations Process in the House, 1865-1921.
Cambridge University Press.

Chapters in edited collections
2020 “Polling Place Quality and Access” (with Robert Stein and Christopher Mann) in The Future of
Election Administration, eds. Mitchell Brown, Bridgett A. King, and Kathleen Hale. Palgrave
MacMillan.
2020 “The Elections Performance Index: Past, Present, and Future” in The Future of Election
Administration, eds. Mitchell Brown, Bridgett A. King, and Kathleen Hale. Palgrave MacMillan.
2017 “Election Administration in 2016: A Tale of Two Cities” (with Terry Susan Fine) in
Conventional Wisdom, Parties, and Broken Barriers in the 2016 Election, eds. Jennifer C. Lucas,
Christopher J. Galdieri, and Tauna Starbuck Sisco.
2014 “Measuring American Elections” in Measuring American Elections, eds. Barry C. Burden and
Charles Stewart III.
2014 “The Performance of Election Machines and the Decline of Residual Votes in the U.S.” in
Measuring American Elections, eds. Barry C. Burden and Charles Stewart III.
2014 “Understanding Voter Attitudes toward Election Fraud Across the United States.” (With Thad E.
Hall) in Advancing Electoral Integrity, eds. Pippa Norris, Richard W. Frank, and Ferran Martinez
i Coma.
2014 “What Hath HAVA Wrought? Consequences, Intended and Unintended, of the Post-Bush v. Gore
Reforms,” in Bush v. Gore Ten Years Later, eds. R. Michael Alvarez and Bernard Grofman.
2011 “Congressional Committees in a Partisan Era: The End of Institutionalization as We Know It?” in
New Directions in Congressional Politics, ed. Jamie Ll. Carson, Routledge.
2008 “Function follows Form: Voting Technology and the Law,” in America Votes!, ed. Benjamin E.
Griffith American Bar Association.
2008 “Improving the Measurement of Election System Performance in the United States” in
Mobilizing Democracy: A Comparative Perspective on Institutional Barriers and Political
Obstacles, eds. Margaret Levi, James Johnson, Jack Knight, and Susan Stokes, Russell Sage.
2006 “Architect or Tactician? Henry Clay and the Institutional Development of the U.S. House of
Representatives” in Process, Party, and Policy Making: New Advances in the Study of the
History of Congress, eds David W. Brady and Mathew D. McCubbins, Stanford University Press.
2005 “Congress in the Constitutional System,” in Institutions of Democracy: The Legislative Branch,
ed. Sarah Binder and Paul Quirk, Oxford University Press.
2002 “The Evolution of the Committee System in the U.S. Senate” (with David Canon), in Senate
Exceptionalism, ed., Bruce Oppenheimer, Ohio University Press.
2002 “Order from Chaos: The Transformation of the Committee System in the House, 1810–1822,” in
Party, Process, and Political Change in Congress: New Perspectives on the History of Congress,
eds. David Brady and Mathew McCubbins, Stanford University Press.
2001 “The Evolution of the Committee System in Congress,” in Congress Reconsidered, 7th edition,
eds., Lawrence Dodd and Bruce I. Oppenheimer. Congressional Quarterly Press.
1992 “Committees from Randall to Clark,” in The Atomistic Congress, eds. Ron Peters and Allen
Hertzke. M.E. Sharpe.
1992 “Responsiveness in the Upper Chamber: The Constitution and the Institutional Development of
the U.S. Senate,” in The Constitution and the American Political Process, ed. Peter Nardulli.
University of Illinois Press.
1991 “Lessons from the Post-Civil War Era,” in Causes and Consequences of Divided Government,
eds. Gary Cox and Samuel Kernell. Westview Press.

A270

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3833 Filed 01/05/21 Page 15 of 16
13
1991

“Tax Reform in the 1980s,” in Politics and Economics in the 1980s, eds. Alberto Alesina and
Geoffrey Carliner. University of Chicago Press, pp. 143-170.

Articles in refereed journals (Abbreviated)
2020 “Reconsidering Lost Votes by Mail” Harvard Review of Data Science.
2020 “Abstention, Protest, and Residual Votes in the 2016 Election,” (with R. Michael Alvarez,
Stephen Pettigrew, and Cameron Wimpy) Social Science Quarterly. 101(2): 925–939.
https://doi.org/10.1111/ssqu.12757.
2020 “Protecting the Perilous Path of Election Returns: From the Precinct to the News,” (with Stephen
Pettigrew) Ohio State Technology Law Journal 2020: 588–638.
2020 “Explaining the Blue Shift in Election Canvassing,” (with Edward B. Foley) Journal of Political
Institutions and Political Economy 1(2): 239–265. http://dx.doi.org/10.1561/113.00000010.
2020 “The Relationship of Public Health with Continued Shifting of Party Voting in the United
States,” (with Jason H. Wasfy, Emma W. Healy, and Jinghan Cui) Social Science & Medicine
252(May 2020): 112921. https://doi.org/10.1016/j.socscimed.2020.112921.
2019 “Causal Inference and American Political Development: The Case of the Gag Rule,” (with
Jeffery A. Jenkins) Public Choice. https://doi.org/10.1007/s11127-019-00754-9.
2019 “Learning from Each Other: Causal Inference and American Political Development,” (with
Jeffery A. Jenkins and Nolan McCarty) Public Choice. https://doi.org/10.1007/s11127-01900728-x.
2019 “Waiting to Vote in the 2016 Presidential Election: Evidence from a Multi-county Study,” (with
Robert M. Stein, et al) Political Research Quarterly.
https://doi.org/10.1177%2F1065912919832374.
2019 “Voter ID Laws: A View from the Public,” (with Paul Gronke, et al) Social Science Quarterly
100(1): 215–232.
2018 “The Deinstitutionalization (?) of the House of Representatives: Reflections on Nelson Polsby’s
“The Institutionalization of the U.S. House of Representatives” at Fifty” (with Jeffery A. Jenkins)
Studies in American Political Development 32(2): 166–187.
2018 “Pedagogical Value of Polling-Place Observation by Students” (with Christopher B. Mann, et al)
PS: Political Science & Politics 51(4): 831–837.
2018 “Learning from Recounts,” (with Stephen Ansolabehere, Barry C. Burden, and Kenneth R.
Mayer) Election Law Journal 17(2): 100–116.
2017 “County Community Health Associations of Net Voting Shift in the 2016 U.S. Presidential
Election,” (with Jason Wasfy and Vijeta Bhambhani) PLOS ONE, Oct. 2, 2017,
https://doi.org/10.1371/journal.pone.0185051.
2017 “The 2016 U.S. Election: Fears and Facts about Electoral Integrity,” Journal of Democracy
28(2): 50–62.
2015 “Partisanship and Voter Confidence, 2000–2012,” (with Michael W. Sances). Electoral Studies
40: 176–188.
2015 “Waiting to Vote” (with Stephen Ansolabehere). Election Law Journal. 14(1): 47–53.
2013 “U.S. Senate Elections before the 17th Amendment: Party Cohesion and Conflict, 1871–1913"
(with Wendy J. Schiller and ). Journal of Politics 75(3): 835–847.
2013 “Voting Technology, Vote-by-Mail, and Residual Votes in California, 1990–2010" (with Dustin
Beckett and R. Michael Alvarez). Political Research Quarterly 66(4): 658–70.
2011 “Adding up the Costs and Benefits of Voting by Mail.” Election Law Journal 10(3): 1–5.
2011 “Voter Opinions about Election Reform” (with R. Michael Alvarez, Thad E. Hall and Ines Levin)
Election Law Journal 10(2): 73–87.
2006 “Residual Vote in the 2004 Election” Election Law Journal 5(2): 158–169.
2005 “Studying Elections: Data Quality and Pitfalls in Measuring the Effects of Voting Technologies”
(with R. Michael Alvarez and Stephen Ansolabehere). The Policy Studies Journal 33(1): 15–24.

A271

Case 2:20-cv-13134-LVP-RSW ECF No. 78-21, PageID.3834 Filed 01/05/21 Page 16 of 16
14
2005
2003
2001
2001
2000
1999
1998

“Residual Votes Attributable to Technology” (with Stephen Ansolabehere). Journal of Politics
67(2): 365–389.
“Out in the Open: The Emergence of Viva Voce Voting in House Speakership Elections” (with
Jeff Jenkins). Legislative Studies Quarterly, 28(4): 481–508.
“The Effects of Party and Preferences on Congressional Roll Call Voting (with Stephen D.
Ansolabehere and James M. Snyder, Jr.). Legislative Studies Quarterly, 26(4): 533-572.
“Candidate Positioning in U.S. House Elections,” (with Stephen D. Ansolabehere and James M.
Snyder, Jr.). American Journal of Political Science, 45(1): 136–159.
“Old Voters, New Voters, and the Personal Vote: Using Redistricting to Measure the Incumbency
Advantage” (with Stephen D. Ansolabehere and James M., Snyder, Jr.), American Journal of
Political Science, 44(1): 17–34.
“The Value of Committee Seats in the United States Senate, 1947–91,” (with Tim Groseclose),
American Journal of Political Science. 43(3): 963–973.
“The Value of Committee Seats in the House, 1947-1991,” (with Tim Groseclose) American
Journal of Political Science, 42(2): 453–474.

Articles in law reviews (last ten years)
2020 “Protecting the Perilous Path of Election Returns: From the Precinct to the News,” (with Stephen
Pettigrew) Ohio State Technology Law Journal 2020: 587–637.
2016 “Revisiting Public Opinion on Voter Identification,” (with Stephen Ansolabehere and Nathaniel
Persily) Stanford Law Review 68(6): 1455–89.
2013 “Waiting to Vote,” Journal of Law and Politics 28(4): 439–463.
2013 “Voter ID: Who Has Them? Who Shows Them?” Oklahoma Law Review 66(4): 21–52.
2013 “Regional Differences in Racial Polarization in the 2012 Presidential Election: Implications for
the Constitutionality of Section 5 of the Voting Rights Act,” Harvard Law Review Forum 126:
205–220.
2010 “Losing Votes by Mail,” in Journal of Legislation and Public Policy 13(3): 573-602.
2010 “Race, Region, and Vote Choice in the 2008 Election: Implications for the Future of the Voting
Rights Act.” (with Stephen Ansolabehere and Nathaniel Persily) Harvard Law Review 123(6):
1385–1436.

A272

Case 2:20-cv-13134-LVP-RSW ECF No. 78-22, PageID.3835 Filed 01/05/21 Page 1 of 2

EXHIBIT 21

A273

Case 2:20-cv-13134-LVP-RSW ECF No. 78-22, PageID.3836 Filed 01/05/21 Page 2 of 2
MARK A. ARMITAGE
STATE OF MICHIGAN
EXECUTIVE DIRECTOR
LOUANN VAN DER WIELE

MEMBERS

CHAIRPERSON

REV. MICHAEL MURRAY

ATTORNEY DISCIPLINE BOARD

VICE-CHAIRPERSON

WENDY A. NEELEY
DEPUTY DIRECTOR

KAREN M. DALEY

DULCE M. FULLER

ASSOCIATE COUNSEL

SECRETARY

SHERRY L. MIFSUD

JAMES A. FINK
JOHN W. INHULSEN
JONATHAN E. LAUDERBACH
BARBARA WILLIAMS FORNEY
KAREN D. O'DONOGHUE
MICHAEL B. RIZIK, JR.

OFFICE ADMINISTRA TOR

ALLYSON M. PLOURDE
CASE MANAGER

OWEN R. MONTGOMERY
CASE MANAGER

JULIE M. LOISELLE
211 WEST FORT STREET, SUITE 1410
DETROIT, MICHIGAN 48226·3236
PHONE: 313-963-5553 I FAX: 313-963-5571

RECEPTIONISTISECRHARY

www.adbmich.org

NOTICE OF SUSPENSION
(By Consent)
Case Nos. 16-127-JC; 16-128-GA

Notice Issued: December 8, 2016
Gregory J. Rohl, P 39185, Novi, Michigan, by the Attorney Discipline Board Tri-County
Hearing Panel #63.
Suspension - 30 Days, Effective December 1, 2016
The respondent and the Grievance Administrator filed a stipulation for a consent order of
discipline, in accordance with MCR 9.115(F)(5), which was approved by the Attorney Grievance
Commission and accepted by the hearing panel. The stipulation contained respondent's
admissions that he was convicted of disorderly conduct, in violation of MCl 750.1671 F, and
telecommunications service - malicious use, in violation of MCl 750.540E, in People of the State
of Michigan v Gregory Joseph Rohl, Wayne County Circuit Court Case No. 11-853-01-FH; and
admissions to the allegations that he committed professional misconduct when he failed to make
reasonable efforts to ensure that his firm had in effect measures giving reasonable assurance that
his non-lawyer assistants' conduct was compatible with his professional obligations and failed to
make reasonable efforts to ensure that his non-lawyer assistants' conduct was compatible with his
professional obligations.
Based on the parties' stipulation, respondent's convictions, and his admissions in the
stipulation, the panel found that respondent engaged in conduct that violated the criminal laws of
the State of Michigan, in violation of MCR 9.104(5). Respondent was also found to have violated
MRPC 5.3(a) and(b).
In accordance with the stipulation of the parties, the hearing panel ordered that
respondent's license to practice law in Michigan be suspended for 30 days. Costs were assessed
in the amount of $1,588.52.

/ltu.JJ2 ~<7
-~
~
U>Mark A. Armitage

A274

c

o
t/5
C
JC

o

STATE OF MICHIGAN
5
ts

IN THE THIRD JUDICIAL CIRCUIT COURT FOR THE COUNTY OF WAYNE

03

5

Q_
05
Xj"

Cheryl A. Costaritino and
Edward P. McCall, Jr.
Plaintiffs,
Hon. Timothy M. Kenny

o
CM

o
CM
00

Case No. 20-014780-AW

City of Detroit; Detroit Election
Commission; Janice M. Winfrey,

in her official capacity as the
Clerk of the City of Detroit and
the Chairperson and the Detroit
Election Commission; Cathy Garrett,
cr
UJ

o

In her official capacity as the Clerk of

Wayne County; and the Wayne County
Board of Canvassers,
Defendants.

z
D

o
o
UJ

z

>

<

£

OPINION & ORDER

ts
CO

0

At a session of this Court
Held on: November 13. 2020
In the Coleman A. Young Municipal Center

County of Wayne, Detroit, Ml
si
CO

O

PRESENT: Honorable Timothy M. Kenny

Chief Judge
LU

Third Judicial Circuit Court of Michigan

o
US
UI.

O

This matter comes before the Court on Plaintiffs' motion for preliminary injunction,

>_

2
z

o

protective order, and a results audit of the November 3, 2020 election. The Court

having read the parties' filing and heard oral arguments, finds:

LU

LL

With the exception of a portion of Jessy Jacob affidavit, all alleged fraudulent claims

£

<
I

o
00
ho
o
CM

brought by the Plaintiffs related to activity at the TCF Center. Nothing was alleged to
1

A275

have occurred at the Detroit Election Headquarters on West Grand Blvd. or at any
polling place on November 3, 2020.
The Defendants all contend Plaintiffs cannot meet the requirements for injunctive

relief and request the Court deny the motion.
When considering a petition for injunction relief, the Court must apply the following
four-pronged test:
1.

The likelihood the party seeking the injunction will prevail on the merits.

2.

The danger the party seeking the injunction will suffer irreparable harm if the
injunction is not granted.

3.

The risk the party seeking the injunction would be harmed more by the absence
an injunction than the opposing party would be by the granting of the injunction.

4.

The harm to the public interest if the injunction is issued. Davis v City of Detroit

Financial Review Team, 296 Mich. App. 568, 613; 821 NW2nd 896 (2012).
In the Davis opinion, the Court also stated that injunctive relief "represents an
extraordinary and drastic use of judicial power that should be employed sparingly and
only with full conviction of its urgent necessity." Id. at 612 fn 135 quoting Senior
Accountants, Analysts and Appraisers Association v Detroit, 218 Mich. App. 263, 269;

553 NW2nd 679(1996).
When deciding whether injunctive relief is appropriate MCR 3.310 (A)(4) states that
the Plaintiffs bear the burden of proving the preliminary injunction should be granted. In
cases of alleged fraud, the Plaintiff must state with particularity the circumstances
constituting the fraud. MCR 2.1 1 2 (B) (1 )
Plaintiffs must establish they will likely prevail on the merits. Plaintiffs submitted
seven affidavits in support of their petition for injunctive relief claiming widespread voter
2

A276

fraud took place at the TCF Center. One of the affidavits also contended that there was
blatant voter fraud at one of the satellite offices of the Detroit City Clerk. An additional

affidavit supplied by current Republican State Senator and former Secretary of State
Ruth Johnson, expressed concern about allegations of voter fraud and urged "Court
intervention", as well as an audit of the votes.
In opposition to Plaintiffs' assertion that they will prevail, Defendants offered six
affidavits from individuals who spent an extensive period of time at the TCF Center. In
addition to disputing claims of voter fraud, six affidavits indicated there were numerous
instances of disruptive and intimidating behavior by Republican challengers. Some
behavior necessitated removing Republican challengers from the TCF Center by police.

After analyzing the affidavits and briefs submitted by the parties, this Court
concludes the Defendants offered a more accurate and persuasive explanation of
activity within the Absent Voter Counting Board (AVCB) at the TCF Center.
Affiant Jessy Jacob asserts Michigan election laws were violated prior to November
3, 2020, when City of Detroit election workers and employees allegedly coached voters

to vote for Biden and the Democratic Party. Ms. Jacob, a furloughed City worker
temporarily assigned to the Clerk's Office, indicated she witnessed workers and
employees encouraging voters to vote a straight Democratic ticket and also witnessed
election workers and employees going over to the voting booths with voters in order to
encourage as well as watch them vote. Ms. Jacob additionally indicated while she was
working at the satellite location, she was specifically instructed by superiors not to ask
for driver's license or any photo ID when a person was trying to vote.
The allegations made by Ms. Jacob are serious. In the affidavit, however, Ms. Jacob
does not name the location of the satellite office, the September or October date these
3

A277

acts of fraud took place, nor does she state the number of occasions she witnessed the
alleged misconduct. Ms. Jacob in her affidavit fails to name the city employees
responsible for the voter fraud and never told a supervisor about the misconduct.
Ms. Jacob's information is generalized. It asserts behavior with no date, location,
frequency, or names of employees. In addition, Ms. Jacob's offers no indication of
whether she took steps to address the alleged misconduct or to alter any supervisor

about the alleged voter fraud. Ms. Jacob only came forward after the unofficial results
of the voting indicated former Vice President Biden was the winner in the state of
Michigan.
Ms. Jacob also alleges misconduct and fraud when she worked at the TCF Center.
She claims supervisors directed her not to compare signatures on the ballot envelopes
she was processing to determine whether or not they were eligible voters. She also
states that supervisors directed her to "pre-date" absentee ballots received at the TCF
Center on November 4, 2020. Ms. Jacob ascribes a sinister motive for these directives.

Evidence offered by long-time State Elections Director Christopher Thomas, however,
reveals there was no need for comparison of signatures at the TCF Center because
eligibility had been reviewed and determined at the Detroit Election Headquarters on
West Grand Blvd. Ms. Jacob was directed not to search for or compare signatures
because the task had already been performed by other Detroit city clerks at a previous
location in compliance with MCL 168.765a. As to the allegation of "pre-dating" ballots,

Mr. Thomas explains that this action completed a data field inadvertently left blank
during the initial absentee ballot verification process. Thomas Affidavit, #12. The

entries reflected the date the City received the absentee ballot. Id.

4

A278

The affidavit of current State Senator and former Secretary of State Ruth Johnson

essentially focuses on the affidavits of Ms. Jacob and Zachery Larsen. Senator
Johnson believed the information was concerning to the point that judicial intervention
was needed and an audit of the ballots was required. Senator Johnson bases her
assessment entirely on the contents of the Plaintiffs' affidavits and Mr. Thomas'
affidavit. Nothing in Senator Johnson's affidavit indicates she was at the TCF Center
and witnessed the established protocols and how the AVCB activity was carried out.
Similarly, she offers no explanation as to her apparent dismissal of Mr. Thomas'

affidavit. Senator Johnson's conclusion stands in significant contrast to the affidavit of
Christopher Thomas, who was present for many hours at TCF Center on November 2, 3
and 4. In this Court's view, Mr. Thomas provided compelling evidence regarding the
activity at the TCF Center's AVCB workplace. This Court found Mr. Thomas'
background, expertise, role at the TCF Center during the election, and history of
bipartisan work persuasive.

Affiant Andrew Sitto was a Republican challenger who did not attend the October

29th walk- through meeting provided to all challengers and organizations that would be
appearing at the TCF Center on November 3 and 4, 2020. Mr. Sitto offers an affidavit
indicating that he heard other challengers state that several vehicles with out-of-state

license plates pulled up to the TCF Center at approximately 4:30 AM on November 4th.
Mr. Sitto states that "tens of thousands of ballots" were brought in and placed on eight
long tables and, unlike other ballots, they were brought in from the rear of the room.
Sitto also indicated that every ballot that he saw after 4:30 AM was cast for former Vice
President Biden.

5

A279

Mr. Sitto's affidavit, while stating a few general facts, is rife with speculation and

guess-work about sinister motives. Mr. Sitto knew little about the process of the

absentee voter counting board activity. His sinister motives attributed to the City of
Detroit were negated by Christopher Thomas' explanation that all ballots were delivered
to the back of Hall E at the TCF Center. Thomas also indicated that the City utilized a
rental truck to deliver ballots. There is no evidentiary basis to attribute any evil activity

by virtue of the city using a rental truck with out-of-state license plates.

Mr. Sitto contends that tens of thousands of ballots were brought in to the TCF
Center at approximately 4:30 AM on November 4, 2020. A number of ballots
speculative on Mr. Sitto's part, as is his speculation that all of the ballots delivered were
cast for Mr. Biden. It is not surprising that many of the votes being observed by Mr.
Sitto were votes cast for Mr. Biden in light of the fact that former Vice President Biden
received approximately 220,000 more votes than President Trump.

Daniel Gustafson, another affiant, offers little other than to indicate that he witnessed
"large quantities of ballots" delivered to the TCF Center in containers that did not have
lids were not sealed, or did not have marking indicating their source of origin. Mr.

Gustafson's affidavit is another example of generalized speculation fueled by the belief
that there was a Michigan legal requirement that all ballots had to be delivered in a
sealed box. Plaintiffs have not supplied any statutory requirement supporting Mr.
Gustafson's speculative suspicion of fraud.
Patrick Colbeck's affidavit centered around concern about whether any of the
computers at the absent voter counting board were connected to the internet. The
answer given by a David Nathan indicated the computers were not connected to the
6

A280

internet. Mr. Colbeck implies that there was internet connectivity because of an icon
that appeared on one of the computers. Christopher Thomas indicated computers were
not connected for workers, only the essential tables had computer connectivity. Mr.

Colbeck, in his affidavit, speculates that there was in fact Wi-Fi connection for workers
use at the TCF Center. No evidence supports Mr. Colbeck's position.

This Court also reads Mr. Colbeck's affidavit in light of his pre-election day Facebook
posts. In a post before the November 3, 2020 election, Mr. Colbeck stated on
Facebook that the Democrats were using COVID as a cover for Election Day fraud. His
predilection to believe fraud was occurring undermines his credibility as a witness.

Affiant Melissa Carone was contracted by Dominion Voting Services to do IT work at
the TCF Center for the November 3, 2020 election. Ms. Carone, a Republican,
indicated that she "witnessed nothing but fraudulent actions take place" during her time
at the TCF Center. Offering generalized statements, Ms. Carone described illegal
activity that included, untrained counter tabulating machines that would get jammed four

to five times per hour, as well as alleged cover up of loss of vast amounts of data. Ms.
Carone indicated she reported her observations to the FBI.

Ms. Carone's description of the events at the TCF Center does not square with any
of the other affidavits. There are no other reports of lost data, or tabulating machines
that jammed repeatedly every hour during the count. Neither Republican nor
Democratic challengers nor city officials substantiate her version of events. The
allegations simply are not credible.

7

A281

Lastly, Plaintiffs rely heavily on the affidavit submitted by attorney Zachery Larsen.
Mr. Larsen is a former Assistant Attorney General for the State of Michigan who alleged
mistreatment by city workers at the TCF Center, as well as fraudulent activity by
election workers. Mr. Larsen expressed concern that ballots were being processed

without confirmation that the voter was eligible. Mr. Larsen also expressed concern that
he was unable to observe the activities of election official because he was required to
stand six feet away from the election workers. Additionally, he claimed as a Republican
challenger, he was excluded from the TCF Center after leaving briefly to have

something to eat on November 4th. He expressed his belief that he had been excluded
because he was a Republican challenger.

Mr. Larsen's claim about the reason for being excluded from reentry into the absent
voter counting board area is contradicted by two other individuals. Democratic
challengers were also prohibited from reentering the room because the maximum

occupancy of the room had taken place. Given the COVID-19 concerns, no additional
individuals could be allowed into the counting area. Democratic party challenger David
Jaffe and special consultant Christopher Thomas in their affidavits both attest to the fact
that neither Republican nor Democratic challengers were allowed back in during the

early afternoon of November 4,h as efforts were made to avoid overcrowding.
Mr. Larsen's concern about verifying the eligibility of voters at the AVCB was
incorrect. As stated earlier, voter eligibility was determined at the Detroit Election
Headquarters by other Detroit city clerk personnel.

The claim that Mr. Larsen was prevented from viewing the work being processed at
the tables is simply not correct. As seen in a City of Detroit exhibit, a large monitor was
8

A282

at the table where individuals could maintain a safe distance from poll workers to see
what exactly was being performed. Mr. Jaffe confirmed his experience and observation
that efforts were made to ensure that all challengers could observe the process.

Despite Mr. Larsen's claimed expertise, his knowledge of the procedures at the
AVCB paled in comparison to Christopher Thomas'. Mr. Thomas' detailed explanation

of the procedures and processes at the TCF Center were more comprehensive than Mr.

Larsen's. It is noteworthy, as well, that Mr. Larsen did not file any formal complaint as
the challenger while at the AVCB. Given the concerns raised in Mr. Larsen's affidavit,
one would expect an attorney would have done so. Mr. Larsen, however, only came
forward to complain after the unofficial vote results indicated his candidate had lost.

In contrast to Plaintiffs' witnesses, Christopher Thomas served in the Secretary of
State's Bureau of Elections for 40 years, from 1977 through 2017. In 1981, he was
appointed Director of Elections and in that capacity implemented Secretary of State
Election Administration Campaign Finance and Lobbyist disclosure programs. On
September 3, 2020 he was appointed as Senior Advisor to Detroit City Clerk Janice

Winfrey and provided advice to her and her management staff on election law
procedures, implementation of recently enacted legislation, revamped absent voter
counting boards, satellite offices and drop boxes. Mr. Thomas helped prepare the City
of Detroit for the November 3, 2020 General Election.

As part of the City's preparation for the November 3rd election Mr. Thomas invited
challenger organizations and political parties to the TCF Center on October 29, 2020 to
have a walk-through of the entire absent voter counting facility and process. None of
Plaintiff challenger affiants attended the session.
9

A283

On November 2, 3, and 4, 2020, Mr. Thomas worked at the TCF Center absent voter
counting boards primarily as a liaison with Challenger Organizations and Parties. Mr.
Thomas indicated that he "provided answers to questions about processes at the
counting board's resolved dispute about process and directed leadership of each
organization or party to adhere to Michigan Election Law and Secretary of State
procedures concerning the rights and responsibilities of challengers."
Additionally, Mr. Thomas resolved disputes about the processes and satisfactorily
reduced the number of challenges raised at the TCF Center.
In determining whether injunctive relief is required, the Court must also determine
whether the Plaintiffs sustained their burden of establishing they would suffer

irreparable harm if an injunction were not granted. Irreparable harm does not exist if
there is a legal remedy provided to Plaintiffs.
Plaintiffs contend they need injunctive relief to obtain a results audit under Michigan
Constitution Article 2, § IV, Paragraph 1 (h) which states in part "the right to have the
results of statewide elections audited, in such as manner as prescribed by law, to
ensure the accuracy and integrity of the law of elections." Article 2, § IV, was passed by

the voters of the state of Michigan in November, 2018.
A question for the Court is whether the phrase "in such as manner as prescribed by
law" requires the Court to fashion a remedy by independently appointing an auditor to
examine the votes from the November 3, 2020 election before any County certification
of votes or whether there is another manner "as prescribed by law".
Following the adoption of the amended Article 2, § IV, the Michigan Legislature
amended MCL 168.31a effective December 28, 2018. MCL 168.31a provides for the
Secretary of State and appropriate county clerks to conduct a results audit of at least
10

A284

one race in each audited precinct. Although Plaintiffs may not care for the wording of
the current MCL 168.31a, a results audit has been approved by the Legislature. Any

amendment to MCL 168.31a is a question for the voice of the people through the
legislature rather than action by the Court.
It would be an unprecedented exercise of judicial activism for this Court to stop the
certification process of the Wayne County Board of Canvassers. The Court cannot defy
a legislatively crafted process, substitute its judgment for that of the Legislature, and
appoint an independent auditor because of an unwieldy process. In addition to being an
unwarranted intrusion on the authority of the Legislature, such an audit would require

the rest of the County and State to wait on the results. Remedies are provided to the
Plaintiffs. Any unhappiness with MCL 168.31a calls for legislative action rather than
judicial intervention.
As stated above, Plaintiffs have multiple remedies at law. Plaintiffs are free to
petition the Wayne County Board of Canvassers who are responsible for certifying the
votes. (MCL 168.801 and 168.821 et seq.) Fraud claims can be brought to the Board of

Canvassers, a panel that consists of two Republicans and two Democrats. If
dissatisfied with the results, Plaintiffs also can avail themselves of the legal remedy of a
recount and a Secretary of State audit pursuant to MCL 168.31a.
Plaintiff's petition for injunctive relief and for a protective order is not required at this
time in light of the legal remedy found at 52 USC § 20701 and Michigan's General

Schedule #23 - Election Records, Item Number 306, which imposes a statutory
obligation to preserve all federal ballots for 22 months after the election.
In assessing the petition for injunctive relief, the Court must determine whether there
will be harm to the Plaintiff if the injunction is not granted, as Plaintiffs' existing legal
11

A285

remedies would remain in place unaltered. There would be harm, however, to the

Defendants if the Court were to grant the requested injunction. This Court finds that
there are legal remedies for Plaintiffs to pursue and there is no harm to Plaintiffs if the
injunction is not granted. There would be harm, however, to the Defendants if the
injunction is granted. Waiting for the Court to locate and appoint an independent,
nonpartisan auditor to examine the votes, reach a conclusion and then finally report to

the Court would involve untold delay. It would cause delay in establishing the
Presidential vote tabulation, as well as all other County and State races. It would also
undermine faith in the Electoral System.
Finally, the Court has to determine would there be harm to the public interest. This
Court finds the answer is a resounding yes. Granting Plaintiffs' requested relief would
interfere with the Michigan's selection of Presidential electors needed to vote on
December 14, 2020. Delay past December 14, 2020 could disenfranchise Michigan

voters from having their state electors participate in the Electoral College vote.
Conclusion

Plaintiffs rely on numerous affidavits from election challengers who paint a picture of
sinister fraudulent activities occurring both openly in the TCF Center and under the
cloak of darkness. The challengers' conclusions are decidedly contradicted by the
highly-respected former State Elections Director Christopher Thomas who spent hours

and hours at the TCF Center November 3rd and 4th explaining processes to challengers
and resolving disputes. Mr. Thomas' account of the November 3rd and 4th events at the
TCF Center is consistent with the affidavits of challengers David Jaffe, Donna
MacKenzie and Jeffrey Zimmerman, as well as former Detroit City Election Official, now
contractor, Daniel Baxter and City of Detroit Corporation Counsel Lawrence Garcia.
12

A286

Perhaps if Plaintiffs' election challenger affiants had attended the October 29, 2020
walk-through of the TCP Center ballot counting location, questions and concerns could

have been answered in advance of Election Day. Regrettably, they did not and
therefore, Plaintiffs' affiants did not have a full understanding of the TCF absent ballot

tabulation process. No formal challenges were filed. However, sinister, fraudulent

motives were ascribed to the process and the City of Detroit. Plaintiffs' interpretation of
events is incorrect and not credible.

Plaintiffs are unable to meet their burden for the relief sought and for the above
mentioned reasons, the Plaintiffs' petition for injunctive relief is DENIED. The Court
further finds that no basis exists for the protective order for the reasons identified above.
Therefore, that motion is DENIED. Finally, the Court finds that MCL 168.31a governs
the audit process. The motion for an independent audit is DENIED.

It is so ordered.

This is not a final order and does not close the case.

November 13, 2020

Hon. Timothy|M. Kenr#

^

Chief Judge

/

Third Judicial Circuit Court of Michigan

13

A287

A288

A289

A290

A291

A292

A293

A294

A295

A296

A297

A298

A299

A300

A301

A302

HAND COUNT CALCULATION SHEET
OFFICE: President of the United States
COUNTY:

Antrim

Biden
Jurisdiction
TOTAL VOTES

5960

5959

TOTAL CHANGE

Banks Township, Precinct 1
Central Lake Township, Precinct 1
Chestonia Township, Precinct 1
Custer Township, Precinct 1
Echo Township, Precinct 1
Elk Rapids Township, Precinct 1
Elk Rapids Township, Precinct 1 AVCB
Forest Home Township, Precinct 1
Helena Township, Precinct 1
Jordan Township, Precinct 1
Kearney Township, Precinct 1
Mancelona Township, Precinct 1
Mancelona Township, Precinct 2
Milton Township, Precinct 1
Milton Township, Precinct 1 AVCB
Star Township, Precinct 1
Torch Lake Township, Precinct 1
Warner Township, Precinct 1

Trump

Democratic Party
Hand
Original Count
Net
-1

9748

9759

-1

349
549
93
240
198
202
784
610
306
183
471
276
247
143
626
161
462
60

349
549
93
240
198
201
783
610
306
182
470
277
247
143
624
166
461
60

0
0
0
0
0
-1
-1
0
0
-1
-1
1
0
0
-2
5
-1
0

Jorgenson

Republican Party
Hand
Original Count
Net
11

189

190

11

756
906
197
521
392
414
611
753
431
371
743
835
646
478
543
462
526
163

758
906
197
521
392
415
614
753
430
369
743
835
646
478
545
468
526
163

2
0
0
0
0
1
3
0
-1
-2
0
0
0
0
2
6
0
0

Hawkins

Libertarian Party
Hand
Original Count
Net
1

28

28

1

11
16
3
11
8
12
5
19
4
13
16
20
13
12
6
10
7
3

A303

11
16
3
11
8
12
5
19
4
14
16
20
13
12
6
10
7
3

0
0
0
0
0
0
0
0
0
1
0
0
0
0
0
0
0
0

Blankenship

Green Party
Hand
Original Count
Net
0

16

17

0

2
6
0
1
2
4
5
0
1
1
3
0
1
0
0
0
2
0

2
6
0
1
2
4
5
0
1
1
3
0
1
0
0
0
2
0

0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0
0

De La Fuente

U.S. Taxpayers Party
Hand
Original Count
Net
1

Natural Law Party
Hand
Original Count
Net
8

9

1

1
1
0
2
1
2
2
1
0
1
0
0
2
0
2
0
1
0

1
1
0
2
1
2
2
1
0
1
0
0
3
0
2
0
1
0

0
0
0
0
0
0
0
0
0
0
0
0
1
0
0
0
0
0

1
1

1
0
0
0
0
0
0
1
1
0
0
1
0
1
2
0
1
0

1
0
0
0
0
0
0
1
1
0
0
1
0
2
2
0
1
0

0
0
0
0
0
0
0
0
0
0
0
0
0
1
0
0
0
0

Democracy Dies in Darkness

Sidney Powell’s secret ‘military intelligence expert,’
key to fraud claims in election lawsuits, never worked
in military intelligence
By Emma Brown, Aaron C. Davis and Alice Crites
Dec. 11, 2020 at 6:29 p.m. EST
The witness is code-named “Spyder.” Or sometimes “Spider.” His identity is so closely guarded that lawyer Sidney
Powell has sought to keep it even from opposing counsel. And his account of vulnerability to international sabotage is a
key part of Powell’s failing multistate effort to invalidate President-elect Joe Biden’s victory.
Powell describes Spyder in court filings as a former “Military Intelligence expert,” and his testimony is offered to
support one of her central claims. In a declaration filed in four states, Spyder alleges that publicly available data about
server traffic shows that voting systems in the United States were “certainly compromised by rogue actors, such as Iran
and China.”
Spyder, it turns out, is Joshua Merritt, a 43-year-old information technology consultant in the Dallas area. Merritt
confirmed his role as Powell’s secret witness in phone interviews this week with The Washington Post.
Records show that Merritt is an Army veteran and that he enrolled in a training program at the 305th Military
Intelligence Battalion, the unit he cites in his declaration. But he never completed the entry-level training course,
according to Meredith Mingledorff, a spokeswoman for the U.S. Army Intelligence Center of Excellence, which
includes the battalion.
“He kept washing out of courses,” said Mingledorff, citing his education records. “He’s not an intelligence analyst.”
In an interview, Merritt maintained that he graduated from the intelligence training program. But even by his own
account, he was only a trainee with the 305th, at Fort Huachuca in Arizona, and for just seven months more than 15
years ago.
His separation papers, which he provided to The Post, make no mention of intelligence training. They show that he
spent the bulk of his decade in the Army as a wheeled vehicle mechanic. He deployed to the wars in Iraq and
Afghanistan, where he said he worked in security and route clearance. He held the rank of specialist when he was
honorably discharged in 2013, having received several commendations.

A304

Merritt acknowledged that the declaration’s description of his work as an “electronic intelligence analyst under 305th
Military Intelligence” is misleading. He said it should have made clear that his time in the 305th was as a student, not
as a working intelligence expert.
He blamed “clerks” for Powell’s legal team, who he said wrote the sentence. Merritt said he had not read it carefully
before he signed his name swearing it was true.
“That was one thing I was trying to backtrack on,” he said on Thursday. “My original paperwork that I sent in didn’t
say that.”
On Friday afternoon, as his name increasingly circulated on social media, Merritt said he had decided to remove
himself from the legal effort altogether. He said he plans to close his business and relocate with his family.
Asked about Merritt’s limited experience in military intelligence, Powell said in a text to The Post: “I cannot confirm
that Joshua Merritt is even Spider. Strongly encourage you not to print.”
Of her description of him as a military intelligence expert, she said, “If we made a mistake, we will correct it.”
Federal judges have in the past week rejected all four of the complaints Powell has filed seeking to overturn the
presidential election — lawsuits popularly known as the “kraken” suits, after a mythical sea creature she has harnessed
as a sort of mascot — ruling either that the challenges should have been filed in state courts or were meritless.
In Michigan, attorneys for the state argued that Powell's complaint was based on "fantastical conspiracy theories" that
belong in the "fact-free outer reaches of the Internet." A federal judge ruled this week that the allegation that votes
were changed for Biden relied on an "amalgamation of theories, conjecture, and speculation."
A federal judge in Arizona similarly tossed out a case Wednesday that relied in part on an affidavit from Merritt,
writing that allegations “that find favor in the public sphere of gossip and innuendo cannot be a substitute for earnest
pleadings and procedure in federal court” and “most certainly cannot be the basis for upending Arizona’s 2020 General
Election.”
Powell is appealing all four of those losses.
Merritt told The Post that, because judges are dismissing the cases without giving the Powell team a chance to fully
present evidence, “we’re just going to supply the evidence through other directions,” including to lawmakers and
members of the intelligence community. He said Russell Ramsland, a former colleague and fellow witness for Powell,
had asked him to brief Rep. Louie Gohmert (R-Tex.), a leading proponent of fanciful claims about the 2020 election.
Gohmert did not respond to a request for comment.
The 305th Military Intelligence Battalion at Fort Huachuca has taken on a special significance among supporters of
Powell’s lawsuits. Some popular conspiracy theories contend that the unit — rather than Merritt, a former member
who was discharged years ago — has determined that China and Iran manipulated the U.S. vote. In late November,
Thomas McInerney, a retired lieutenant general in the Air Force and a proponent of election fraud claims, said that
President Trump and Powell have “got the 305th Military Intelligence Battalion working with them” and that “the
Kraken is the 305th Military Intelligence Battalion.”
The battalion is an entry-level training unit. It has not had an operational mission since World War II. Mingledorff said
soldiers there “do not collect, analyze or provide intelligence in any way.”

A305

Army records provided by Merritt show that he enlisted in 2003. He first aimed to be a medic, but did not graduate
from a training program at Fort Sam Houston in Texas, according to records in the Army Training Requirements and
Resource System, Mingledorff said. He was “recycled,” or allowed to repeat the training course — but again did not
graduate, she said, citing the records.
In 2004, Merritt transferred to the 305th Military Intelligence Battalion, the records show. He had a spot reserved in
an electronic intercept analyst course with the 305th, but records show he did not meet the prerequisites and was
dropped from the program, Mingledorff said.
Merritt’s military separation papers show that he completed three education courses — two involving work on wheeled
vehicles and one on leadership.
Merritt told The Post he completed the medic and intelligence trainings as well. He said that for both programs, the
particular career path he was studying for changed by the time his training ended. He maintained that this pattern left
him in a sort of military bureaucratic limbo, in the service but without a specific job until he became a wheeled vehicle
mechanic in 2005.
He provided a document labeled “unofficial transcript” that he said showed that he completed the intelligence and
medic courses. Mingledorff declined to comment on that document but said the records she examined were clear.
Army education records also show several distance-learning and in-person trainings over the course of his service,
many of which were not completed, Mingledorff said.
He said he was unable to complete some online courses while serving overseas because of the demands of his job.
Merritt was honorably discharged from the Army in 2013, after a decade of service, including deployments to the wars
in Iraq in 2005-2006 and Afghanistan in 2009-2010, according to his separation papers. His commendations included
the Combat Action Badge, which is authorized for soldiers who are “present and actively engaging or being engaged by
the enemy, and performing satisfactorily in accordance with prescribed rules of engagement.”
Merritt told The Post he left the military because he had had reached a “retention control point” and was unlikely to be
promoted. Under Army rules, soldiers are only permitted to serve a certain number of years at a particular rank.
Merritt said cybersecurity was a hobby when he was in the Army, and it became a profession once he was out. He said
he is neither a Republican nor a Democrat but a “Constitutionalist” who is just trying to do his part to ensure fair
elections in the United States. “Right now you’re looking at two political parties that all they care about is power, they
don’t care about people,” he said. “I swore my life to my Constitution and that’s what I keep it at.”
He used his GI Bill funds to study network security administration at ITT Tech in Arlington, Tex. He said he earned an
associate degree from the school, part of a nationwide chain of for-profit colleges that shut down in 2016.
He went on to intern and work in several positions related to cybersecurity, he said. In 2017, he joined a small Dallasarea firm called Allied Special Operations Group, where Ramsland says he is part of the management team.
Merritt said it was there that he began to work on election security and came to believe the system was rife with
vulnerabilities. Soon, he said, he was a frequent guest in right-wing videos, appearing under the pseudonym “Jekyll,”
in shadow and with his voice disguised as he warned that the U.S. election system was vulnerable to being corrupted
on a massive scale.

A306

In 2018, he said, he helped investigate what he described as suspected fraud in races affecting five candidates,
including former Kentucky governor Matt Bevin (R) and former Texas congressman Pete Sessions (R). Merritt said he
found many elections-related companies plagued by vulnerabilities.
Bevin did not respond to a request for comment.
In a phone interview, Sessions described Merritt as a “top, top computer forensic expert.”
After two decades in Congress, Sessions’s 2018 loss to Democrat Colin Allred, a former professional football player,
was viewed by some on election-conspiracy sites as implausible. Merritt said he worked behind the scenes, conducting
election-fraud analysis. Sessions would not disclose Merritt’s precise work or whether he was paid, but said of Merritt:
“He may have been involved in certain elements of that. It is true there were people who were aware of those things.”
Sessions won a comeback victory in November and will return to Congress next year. He said he was unswayed by the
Army’s disclosure that Merritt had never completed electronic intelligence training.
“Get the best computer expert you know, have him call and query Josh. Josh will run circles around that person,”
Sessions said.
No charges were brought in connection with these allegations, Merritt said.
Merritt formed his own firm, Cyberoptyx, in 2019. He said the company — which consists of himself and a handful of
contractors — specializes in building “cyberinfrastructure” such as making websites and setting up servers. It also does
3-D printing.
Merritt said he became involved in the Powell litigation through Ramsland. Ramsland has also submitted affidavits as
part of Powell’s lawsuits, including one that drew attention for mistakenly using voting data from Minnesota to allege
evidence of voter fraud in Michigan.
Merritt said he provides information to Powell’s legal team through intermediaries he knows only by username. He
said he is not being paid for his work on the case.
Ramsland did not respond to messages left at his home or on a cellphone registered in his name.
Merritt said he had sought to stay anonymous because he feared for the safety of his family if his name became known.
Someone came up with his pseudonym based on the spider-like shape of the diagrams in his declaration, he said.
His name slipped into the court record, though little noticed, on Nov. 25. The Powell team filed a carefully redacted
declaration from its secret witness, but a bookmark in the file uploaded to the court’s computer system was visible:
“Declaration of JOSHUA MERRITT.”
“One jackwagon forgot to clear out the data. I was really pissed,” Merritt said. “The guy was like, ‘I’m sorry,’ and I was
like, ‘Well, you know, that and a bag of chips will still leave me hungry.’ ”
On Wednesday night, after a Reuters reporter tweeted about that flub and drew widespread attention to his name,
Merritt was bracing for what might come.
“This is not the 15 minutes I wanted,” he said.

Aaron Schaffer, Aaron Blake, Dan Lamothe and Dalton Bennett contributed.

A307

Court of Claims Opinion and Order

STATE OF MICHIGAN
COURT OF CLAIMS

DONALD J. TRUMP FOR PRESIDENT, INC.
and ERIC OSTEGREN,

OPINION AND ORDER

Plaintiffs,
v

Case No. 20-000225-MZ

JOCELYN BENSON, in her official capacity as
Secretary of State,

Hon. Cynthia Diane Stephens

Defendants.
___________________________/

Pending before the Court are two motions. The first is plaintiffs’ November 4, 2020
emergency motion for declaratory relief under MCR 2.605(D). For the reasons stated on the record
and incorporated herein, the motion is DENIED. Also pending before the Court is the motion to
intervene as a plaintiff filed by the Democratic National Committee. Because the relief requested
by plaintiffs in this case will not issue, the Court DENIES as moot the motion to intervene.
According to the allegations in plaintiffs’ complaint, plaintiff Eric Ostegren is a
credentialed election challenger under MCL 168.730. Paragraph 2 of the complaint alleges that
plaintiff Ostegren was “excluded from the counting board during the absent voter ballot review
process.” The complaint does not specify when, where, or by whom plaintiff was excluded. Nor
does the complaint provide any details about why the alleged exclusion occurred.

-1-

A308

Court of Claims Opinion and Order

The complaint contains allegations concerning absent voter ballot drop-boxes. Plaintiffs
allege that state law requires that ballot containers must be monitored by video surveillance.
Plaintiff contends that election challengers must be given an opportunity to observe video of ballot
drop-boxes with referencing the provision(s) of the statute that purportedly grant such access, .
See MCL 168.761d(4)(c).
Plaintiffs’ emergency motion asks the Court to order all counting and processing of
absentee ballots to cease until an “election inspector” from each political party is allowed to be
present at every absent voter counting board, and asks that this court require the Secretary of State
to order the immediate segregation of all ballots that are not being inspected and monitored as
required by law. Plaintiffs argue that the Secretary of State’s failure to act has undermined the
rights of all Michigan voters. While the advocate at oral argument posited the prayer for relief as
one to order “meaningful access” to the ballot tabulation process, plaintiffs have asked the Court
to enter a preliminary injunction to enjoin the counting of ballots. A party requesting this
“extraordinary and drastic use of judicial power” must convince the Court of the necessity of the
relief based on the following factors:
(1) the likelihood that the party seeking the injunction will prevail on the merits,
(2) the danger that the party seeking the injunction will suffer irreparable harm if
the injunction is not issued, (3) the risk that the party seeking the injunction would
be harmed more by the absence of an injunction than the opposing party would be
by the granting of the relief, and (4) the harm to the public interest if the injunction
is issued. [Davis v Detroit Fin Review Team, 296 Mich App 568, 613; 821 NW2d
896 (2012).]
As stated on the record at the November 5, 2020 hearing, plaintiffs are not entitled to the
extraordinary form of emergency relief they have requested.
I.

SUBSTANTIAL LIKELIHOOD OF SUCCESS ON THE MERITS
-2-

A309

Court of Claims Opinion and Order

A. OSTEGREN CLAIM
Plaintiff Ostegren avers that he was removed from an absent voter counting board. It is
true that the Secretary of State has general supervisory control over the conduct of elections. See
MCL 168.21; MCL 168.31. However, the day-to-day operation of an absent voter counting board
is controlled by the pertinent city or township clerk. See MCL 168.764d. The complaint does not
allege that the Secretary of State was a party to or had knowledge of, the alleged exclusion of
plaintiff Ostegren from the unnamed absent voter counting board. Moreover, the Court notes that
recent guidance from the Secretary of State, as was detailed in matter before this Court in Carra
et al v Benson et al, Docket No. 20-000211-MZ, expressly advised local election officials to admit
credentialed election challengers, provided that the challengers adhered to face-covering and
social-distancing requirements. Thus, allegations regarding the purported conduct of an unknown
local election official do not lend themselves to the issuance of a remedy against the Secretary of
State.
B. CONNARN AFFIDAVIT
Plaintiffs have submitted what they refer to as “supplemental evidence” in support of their
request for relief. The evidence consists of: (1) an affidavit from Jessica Connarn, a designated
poll watcher; and (2) a photograph of a handwritten yellow sticky note. In her affidavit, Connarn
avers that, when she was working as a poll watcher, she was contacted by an unnamed poll worker
who was allegedly “being told by other hired poll workers at her table to change the date the ballot
was received when entering ballots into the computer.” She avers that this unnamed poll worker
later handed her a sticky note that says “entered receive date as 11/2/20 on 11/4/20.” Plaintiffs
contend that this documentary evidence confirms that some unnamed persons engaged in

-3-

A310

Court of Claims Opinion and Order

fraudulent activity in order to count invalid absent voter ballots that were received after election
day.
This “supplemental evidence” is inadmissible as hearsay. The assertion that Connarn was
informed by an unknown individual what “other hired poll workers at her table” had been told is
inadmissible hearsay within hearsay, and plaintiffs have provided no hearsay exception for either
level of hearsay that would warrant consideration of the evidence. See MRE 801(c). The note—
which is vague and equivocal—is likewise hearsay. And again, plaintiffs have not presented an
argument as to why the Court could consider the same, given the general prohibitions against
hearsay evidence. See Ykimoff v Foote Mem Hosp, 285 Mich App 80, 105; 776 NW2d 114 (2009).
Moreover, even overlooking the evidentiary issues, the Court notes that there are still no
allegations implicating the Secretary of State’s general supervisory control over the conduct of
elections. Rather, any alleged action would have been taken by some unknown individual at a
polling location.
C. BALLOT BOX VIDEOS
It should be noted at the outset that the statute providing for video surveillance of drop boxes
only applies to those boxes that were installed after October 1, 2020. See MCL 168.761d(2).
There is no evidence in the record whether there are any boxes subject to this requirement, how
many there are, or where they are. The plaintiffs have not cited any statutory authority that requires
any video to be subject to review by election challengers. They have not presented this Court with
any statute making the Secretary of State responsible for maintaining a database of such boxes.
The clear language of the statute directs that “[t]he city or township clerk must use video
monitoring of that drop box to ensure effective monitoring of that drop box.” MCL 168.761d(4)(c)
Additionally, plaintiffs have not directed the Court’s attention to any authority directing the
-4-

A311

Court of Claims Opinion and Order

Secretary of State to segregate the ballots that come from such drop-boxes, thereby undermining
plaintiffs’ request to have such ballots segregated from other ballots, and rendering it impossible
for the Court to grant the requested relief against this defendant. Not only can the relief requested
not issue against the Secretary of State, who is the only named defendant in this action, but the
factual record does not support the relief requested. As a result, plaintiffs are unable to show a
likelihood of success on the merits.
II.

MOOTNESS

Moreover, even if the requested relief could issue against the Secretary of State, the Court
notes that the complaint and emergency motion were not filed until approximately 4:00 p.m. on
November 4, 2020—despite being announced to various media outlets much earlier in the day. By
the time this action was filed, the votes had largely been counted, and the counting is now
complete.

Accordingly, and even assuming the requested relief were available against the

Secretary of State—and overlooking the problems with the factual and evidentiary record noted
above—the matter is now moot, as it is impossible to issue the requested relief. See Gleason v
Kincaid, 323 Mich App 308, 314; 917 NW2d 685 (2018)
IT IS HEREBY ORDERED that plaintiff’s November 4, 2020 emergency motion for
declaratory judgment is DENIED.
IT IS HEREBY FURTHER ORDERED that proposed intervenor’s motion to intervene is
DENIED as MOOT.
This is not a final order and it does not resolve the last pending claim or close the case.

-5-

A312

Court of Claims Opinion and Order

November 6, 2020

____________________________________
Cynthia Diane Stephens
Judge, Court of Claims

-6-

A313

Court of Appeals, State of Michigan
ORDER
Stephen L. Borrello
Donald J Trump for President Inc v Secretary of State

Presiding Judge

Docket Nos.

355378; 355397

Patrick M. Meter

LC No.

2020-000225-MZ

Amy Ronayne Krause
Judges

The motions for immediate consideration are GRANTED.
The motion to intervene filed by the City of Detroit is DENIED, without prejudice to
refiling the motion in the proceedings below should the City of Detroit still deem intervention necessary.
The Democratic National Committee’s motion for leave to file amicus brief in Docket No.
355378 is GRANTED, and the brief received on December 3, 2020 is accepted for filing.
The applications for leave to appeal are DENIED. However, the Democratic National
Committee shall retain its status as amicus curiae in the Court of Claims.
We respond to our dissenting colleague because his assertions are not supported by law
or by fact. As the defendant correctly points out, Michigan’s election results have been certified. Once
the election results have been certified, “[a] candidate for office who believes he or she is aggrieved on
account of fraud or mistake in the canvass or returns of the votes by the election inspectors may petition
for a recount of the votes cast for that office in any precinct or precincts as provided by in this chapter.”
MCL 168.862; see also MCL 168.847, MCL 168.867; MCL 168.879. Recounts are remedial in nature.
Attorney General v Board of State Canvassers, 318 Mich App 242, 252; 896 NW2d 485 (2016), lv den
500 Mich 917 (2016). “ ‘The purpose of a recount is to determine whether the results of the first count
of the ballots should stand or should be changed because of fraud or mistake in the canvass of the votes .
. . ’ ” Id., quoting Michigan Education Ass’n Political Action Committee v Secretary of State, 241 Mich
App 432, 440; 616 NW2d 234 (2000), lv den 463 Mich 997 (2001).
Here, plaintiff filed its purportedly emergent application on November 6, 2020, but did
not perfect the filing until 11:21 p.m. on November 30, 2020, when it filed its brief in support. The
Wayne County Board of Canvassers certified the results of the November 3rd election on November 17,
2020, almost a full two weeks before plaintiff perfected the instant application. The Michigan Board of
State Canvassers certified the presidential election results on November 23, 2020, a full week before
plaintiff perfected its application. 1 Plaintiff does not address whether the certification of the election

1

The Secretary of State represents that the Governor has sent Michigan’s official slate of presidential
electors to the United States Secretary of the Senate.

A314

result by the Board of State Canvassers had any impact on the viability of its suit below or on the
viability of the instant application.
Perhaps the reason for plaintiff failing to discuss the impact of the certification is because
such action by the Michigan State Board of Canvassers clearly rendered plaintiff’s claims for relief
moot. The Michigan State Board of Canvassers’ certification of the presidential election results and the
legislative directive found in MCL 168.862, requires plaintiff to pursue its fraud allegations by way of a
recount of the ballots cast in Wayne County. Because plaintiff failed to follow the clear law in
Michigan relative to such matters, their action is moot. MCL 168.862.

_______________________________
Presiding Judge
Meter, J., would grant leave to appeal in each case, with the direction that the Clerk draw a random 3
judge panel to decide the cases within 3 days of filing of these orders, without oral argument.
The issue of mootness is more than the "elephant in the room". The issues are not moot because state
electors have not yet been seated, the Electoral College has not yet been assembled, and Congress has not
yet convened to consider whether to exercise its powers under Art.2, Sec. 1 and Am 20.
Further plaintiff’s prayer for segregation of absentee ballots has, on information, not yet been ordered by
defendant Secretary of State. Also, the right of plaintiff to election inspectors and to observe video of
ballot drop boxes is self-evident under state law, thus entitling plaintiff to, at the least, declaratory relief.

December 4, 2020

A315

STATE OF MICHIGAN

GRETCHEN WHITMER
GOVERNOR

OFFICE OF THE GOVERNOR
LANSING

GARLIN GILCHRIST II
LT. GOVERNOR

AMENDED CERTIFICATE OF ASCERTAINMENT OF THE ELECTORS OF THE
PRESIDENT AND VICE PRESIDENT OF THE UNITED STATES OF AMERICA
I, Gretchen E. Whitmer, Governor of the State of Michigan, certify that at the general
election held in Michigan on Tuesday, November 3, 2020:
The following persons nominated by the Democratic Party, each having received
2,804,040 votes, were duly elected as Electors of the President and Vice President of the
United States of America:

Chris Cracchiolo
Timothy E. Smith
Blake Mazurek
Bonnie J. Lauria
Bobbie Walton
Mark Edward Miller
Conner Wood
Robin Smith
Walter C. Herzig III
Carolyn Holley
Susan Nichols
Steven Rzeppa
Helen Moore
Michael Kerwin
Chuck Browning
Marseille Allen

5140 Arrowhead Ct. , Williamsburg, MI 49690
14883 Crescent St., 105, Grand Haven, MI 49417
3458 Olderidge Dr. NE, Grand Rapids, MI 49525
3931 Mines Rd., West Branch, MI 48661
8412 Mapleview Dr., Davison, MI 48423
122 Sydelle Ave., Kalamazoo, MI 49006
319 N. Bowen St., Jackson, MI 49202
3004 Andrea Dr., Lansing, MI 48906
320 Stratford Rd., Ferndale, MI 48220
727 White St., Port Huron, MI 48060
44099 Deep Hollow Circle, Northville, MI 48168
2985 Anna Ct. , Trenton, MI 48183
8335 Indiana St., Detroit, MI 48204
17517 Birchcrest Dr., Detroit, MI 48221
20091 Herzog Dr., Rockwood, MI 48173
4442 Jena Ln., Flint, MI 48507

Votes received by other candidates for the office of Elector of the President and Vice
President of the United States of America are as follows:
The following persons nominated by the Republican Party each received 2,649,852
votes: John Haggard; Kent Vanderwood; Terri Lynn Land; Gerald Wall; Amy Facchinello;
Rose Rook; Hank Choate; Mari-Ann Henry; Clifford Frost; Stanley Grat; Marian Sheridan;
Timothy King; Michele Lundgren; Mayra Rodriguez; Meshawn Maddock; and Kathy
Berden.
The following persons nominated by the Libertarian Party each received 60,381
votes: David Holmer; Alexander Avery; Vicki Hall; Richard Hewer; Angela Thornton;
Rafael Wolf; James Lewis Hudler; Jon Elgas; Greg Stempfle; Jim Fulner; Joseph LeBlanc;
Claranna Gelineau; Andrew Chadderdon; Scott Avery Boman; Connor Nepomuceno; and
Andy Evans.

GEORGE W. ROMNEY BUILDING • 111 SOUTH CAPITOL AVENUE • LANSING, MICHIGAN 48909
www.michigan.gov
Printed by mt>mben of:

A316
. -....G),3

The following persons nominated by the Green Party each received 13,718 votes:
Stephen Boyle; Destiny Clayton; Jean-Michel Creviere; Frank Foster, Jr.; Jennifer
Kurland; Melissa Noelle Lambert; John Anthony La Pietra; Robin Laurain; Daniel MartinMills; Jessiea McCallie-Arquette; Louis Novak; Jeffery Jon Rubley II; Rick Sauermilch;
Amanda Slepr; N. J. Sparling; and Marcia Squier.
The following persons nominated by the U.S. Taxpayers Party each received 7,235
votes: Mary Sears; Christine Schwartz; William Mohr II; Doug Levesque; Patrick Lambert;
Aaron Nichols; Edward J. Sanger; Victoria Monroe; Lester Townsend; Christopher Rudy;
William A. Kohn, Jr.; Paul Stahl; Marc Sosnowski; Cecile A. Harrity; Robert Gale; and
Gerald Van Sickle.
The following persons nominated by the Natural Law Party each received 2,986
votes: Connie Tewes; Mary Schutt; Dan Royer; Paul A. Natke; Shelly L. Reynolds; Donald
Meyer; Gene Capatina; Ramzi Masri-Elyafaoui; Jacob Schlau; James Radatz; Daniel S.
Smith; Mark Moylan; Guy Purdue; Nicholas Malzone; Robert Forreider; and Daniel B.
Smith.
The following persons nominated by write-in candidate Brian T. Carroll each
received 963 votes: Michael Maturen; Robert Clark II; Jason Kennedy Duncan; Paul L.
DuBois; Timothy Doubblestein; Jason Gatties; Lucy Ellen Moye; Lloyd A. Conway; Linnaea
Joyce Licavoli; Tsai-Yi Watts; John Henry Svoboda; Benjamin Setterholm; Brandon Barry
Mullins; Daniel Patrick Meloy; Elisa J. Kolk; and Matthew James Williams.
The following persons nominated by write-in candidate Jade Simmons each received
89 votes: Cecilia Lester; Tyler Prough; James Ryans; Chelsea Slocum; Raymond Hall;
Dana Morris; Janasia Johnson; Terrel Boyd; Constance Clay; Erika Couch; Tyrone Pickens;
Karalyn Schubring; Michele Coleman; Grant Philson; Jherrard Hardeman; and Gertrude
Taylor.
The following persons nominated by write-in candidate Tom Hoefling each received
32 votes: Mark A. Aungst; Scott Suchecki; Richard Nagel; Mark Zimmerman; Justin
Phillips; Kimberly Cleveland; Thomas Frederick; Kurt Richards; Georgia S. Halloran;
Dawne Worden; Kim Millard; Alan G. Sides; DaWone Allison; Samuel Denson; Joshua
Ohlman; and Suzanne M. Stuut.
The following persons nominated by write-in candidate Kasey Wells each received 5
votes: Sandra Murrell; Ronald Klett; Andrew Colclasure; Charity Archer; Paul Atkins;
Shiquita Reed; Mark Jeffrey; Brian W. Gibbs, Jr.; William W. Brown; Patricia Gorzelski;
Anthony Jackson; Jeremy Mortensen; Justen Grieve; Shiesha Davis; Matthew Shepard;
and Miranda Ames.
(cont.)

2

A317

Given under my hand and the Great Seal of the State of Michigan.

Date:

December 30, 2020

~

-GOVERNOR

Time:

By the Governor:

3

A318

STATE OF MICHIGAN

GRETCHEN WHITMER
GOVERNOR

OFFICE OF THE GOVERNOR
LANSING

GARLIN GILCHRIST II
LT. GOVERNOR

CERTIFICATE OF ASCERTAINMENT OF THE ELECTORS OF THE PRESIDENT
AND VICE PRESIDENT OF THE UNITED STATES OF AMERICA
I, Gretchen E. Whitmer, Governor of the State of Michigan, certify that at the general
election held in Michigan on Tuesday, November 3, 2020:
The following persons nominated by the Democratic Party, each having received
2,804,040 votes, were duly elected as Electors of the President and Vice President of the
United States of America:

Chris Cracchiolo
Timothy E. Smith
Blake Mazurek
Bonnie J. Lauria
Bobbie Walton
Mark Edward Miller
Connor Wood
Robin Smith
Walter C. Herzig III
Carolyn Holley
Susan Nichols
Steven Rzeppa
Helen Moore
Michael Kerwin
Chuck Browning
Marseille Allen

5140 Arrowhead Ct., Williamsburg, MI 49690
14883 Crescent St., 105, Grand Haven, MI 49417
3458 Olderidge Dr. NE, Grand Rapids, MI 49525
3931 Mines Rd., West Branch, MI 48661
8412 Mapleview Dr., Davison, MI 48423
122 Sydelle Ave., Kalamazoo, MI 49006
319 N. Bowen St., Jackson, MI 49202
3004 Andrea Dr., Lansing, MI 48906
320 Stratford Rd., Ferndale, MI 48220
727 White St., Port Huron, MI 48060
44099 Deep Hollow Circle, Northville, MI 48168
2985 Anna Ct., Trenton, MI 48183
8335 Indiana St., Detroit, MI 48204
17517 Birchcrest Dr., Detroit, MI 48221
20091 Herzog Dr., Rockwood, MI 48173
4442 Jena Ln., Flint, MI 48507

Votes received by other candidates for the office of Elector of the President and Vice
President of the United States of America are as follows:
The following persons nominated by the Republican Party each received 2,649,852
votes: John Haggard; Kent Vanderwood; Terri Lynn Land; Gerald Wall; Amy Facchinello;
Rose Rook; Hank Choate; Mari-Ann Henry; Clifford Frost; Stanley Grot; Marian Sheridan;
Timothy King; Michele Lundgren; Mayra Rodriguez; Meshawn Maddock; and Kathy
Berden.
The following persons nominated by the Libertarian Party each received 60,381
votes: David Holmer; Alexander Avery; Vicki Hall; Richard Hewer; Angela Thornton;
Rafael Wolf; James Lewis Hudler; Jon Elgas; Greg Stempfle; Jim Fulner; Joseph LeBlanc;
Claranna Gelineau; Andrew Chadderdon; Scott Avery Boman; Connor Nepomuceno; and
Andy Evans.

GEORGE W. ROMNEY BUILDING • 111 SOUTH CAPITOL AVENUE • LANSING, MICHIGAN 48909
www.michigan.gov

'@ _.,_
A319

Printed by members of:

..... _1""",-· :"t, ~
-'.'-

SEIU

The following persons nominated by the Green Party each received 13,718 votes:
Stephen Boyle; Destiny Clayton; Jean-Michel Creviere; Frank Foster, Jr.; Jennifer
Kurland; Melissa Noelle Lambert; John Anthony La Pietra; Robin Laurain; Daniel MartinMills; Jessica McCallie-Arquette; Louis Novak; Jeffery Jon Rubley II; Rick Sauermilch;
Amanda Slepr; N . J. Sparling; and Marcia Squier.
The following persons nominated by the U.S. Taxpayers Party each received 7,235
votes: Mary Sears; Christine Schwartz; William Mohr II; Doug Levesque; Patrick Lambert;
Aaron Nichols; Edward J. Sanger; Victoria Monroe; Lester Townsend; Christopher Rudy;
William A. Kohn, Jr.; Paul Stahl; Marc Sosnowski; Cecile A. Harrity; Robert Gale; and
Gerald Van Sickle.
The following persons nominated by the Natural Law Party each received 2,986
votes: Connie Tewes; Mary Schutt; Dan Royer; Paul A. Natke; Shelly L. Reynolds; Donald
Meyer; Gene Capatina; Ramzi Masri-Elyafaoui; Jacob Schlau; James Radatz; Daniel S.
Smith; Mark Moylan; Guy Purdue; Nicholas Malzone; Robert Forreider; and Daniel B.
Smith.
The following persons nominated by write-in candidate Brian T. Carroll each
received 947 votes: Michael Maturen; Robert Clark II; Jason Kennedy Duncan; Paul L.
DuBois; Timothy Doubblestein; Jason Gatties; Lucy Ellen Moye; Lloyd A. Conway; Linnaea
Joyce Licavoli; Tsai-Yi Watts; John Henry Svoboda; Benjamin Setterholm; Brandon Barry
Mullins; Daniel Patrick Meloy; Elisa J. Kolk; and Matthew James Williams.
The following persons nominated by write-in candidate Jade Simmons each received
88 votes: Cecilia Lester; Tyler Prough; James Ryans; Chelsea Slocum; Raymond Hall;
Dana Morris; Janasia Johnson; Terrel Boyd; Constance Clay; Erika Couch; Tyrone Pickens;
Karalyn Schubring; Michele Coleman; Grant Philson; Jherrard Hardeman; and Gertrude
Taylor.
The following persons nominated by write-in candidate Tom Hoefling each received
32 votes: Mark A. Aungst; Scott Suchecki; Richard Nagel; Mark Zimmerman; Justin
Phillips; Kimberly Cleveland; Thomas Frederick; Kurt Richards; Georgia S. Halloran;
Dawne Worden; Kim Millard; Alan G. Sides; DaWone Allison; Samuel Denson; Joshua
Ohlman; and Suzanne M. Stuut.
The following persons nominated by write-in candidate Kasey Wells each received 5
votes: Sandra Murrell; Ronald Klett; Andrew Colclasure; Charity Archer; Paul Atkins;
Shiquita Reed; Mark Jeffrey; Brian W. Gibbs, Jr.; William W. Brown; Patricia Gorzelski;
Anthony Jackson; Jeremy Mortensen; Justen Grieve; Shiesha Davis; Matthew Shepard;
and Miranda Ames .
(cont.)

2

A320

Given under my hand and the Great Seal of the State of Michigan.

Date:

November 23, 2020

Time:

GOVERNOR
By the Governor:

3

A321

1/14/2021

2020 Electoral College Results | National Archives

2020 Electoral College Results
President
Main
Opponent
Electoral
Vote
Vice
President
V.P.
Opponent:

Joseph R. Biden Jr. [D]
Donald J. Trump [R]
Winner: 306

Main Opponent: 232

Total/Majority: 538/270

Kamala D. Harris [D]
Michael R. Pence [R]
For the first time since adopting their respective systems, both Maine
and Nebraska split their electoral votes:
Maine distributes its electoral votes proportionally, with two atlarge electors representing the statewide winning presidential and
vice presidential candidates and one elector each representing the
winners from its two Congressional districts. For only the second
time since adopting this system, Maine's four electoral votes were
split between the two major party tickets.

Notes

Nebraska distributes its electoral votes proportionally, with two atlarge electors representing the statewide winning presidential and
vice presidential candidates and one elector each representing the
winners from its three Congressional districts. For only the
second time since adopting this system, Nebraska's five electoral
votes were split between the two major party tickets.
During the electoral vote count, objections were filed with respect to
the Arizona and Pennsylvania electoral votes, but neither House
sustained the objection, so all votes were counted.

Electoral College Certi cates and Votes by State

https://www.archives.gov/electoral-college/2020

A322

1/4

1/14/2021

2020 Electoral College Results | National Archives

Click on the name of a State to see its Certificate of Ascertainment.
Click on the number of electoral votes for each state to see its Certificate of Vote.
For President
State

Number of
Electoral Votes for
Each State

Joseph R.
Biden Jr.,
of Delaware

For Vice-President
Kamala D.
Harris,
of
California

Donald J.
Trump,
of Florida

Michael R.
Pence,
of Indiana

Alabama

9

-

9

-

9

Alaska

3

-

3

-

3

Arizona

11

11

-

11

-

Arkansas

6

-

6

-

6

California

55

55

-

55

-

Colorado

9

9

-

9

-

Connecticut

7

7

-

7

-

Delaware

3

3

-

3

-

District of
Columbia

3

3

-

3

-

Florida

29

-

29

-

29

Georgia

16

16

-

16

-

Hawaii

4

4

-

4

-

Idaho

4

-

4

-

4

Illinois

20

20

-

20

-

Indiana

11

-

11

-

11

Iowa

6

-

6

-

6

Kansas

6

-

6

-

6

https://www.archives.gov/electoral-college/2020

A323

2/4

1/14/2021

2020 Electoral College Results | National Archives

Kentucky

8

-

8

-

8

Louisiana

8

-

8

-

8

Maine *

4

3

1

3

1

Maryland

10

10

-

10

-

Massachusetts

11

11

-

11

-

Michigan

16

16

-

16

-

Minnesota

10

10

-

10

-

Mississippi

6

-

6

-

6

Missouri

10

-

10

-

10

Montana

3

-

3

-

3

Nebraska **

5

1

4

1

4

Nevada

6

6

-

6

-

New
Hampshire

4

4

-

4

-

New Jersey

14

14

-

14

-

New Mexico

5

5

-

5

-

New York

29

29

-

29

-

North Carolina

15

-

15

-

15

North Dakota

3

-

3

-

3

18

-

18

-

18

Oklahoma

7

-

7

-

7

Oregon

7

7

-

7

-

20

20

-

20

-

Ohio

Pennsylvania

https://www.archives.gov/electoral-college/2020

A324

3/4

1/14/2021

2020 Electoral College Results | National Archives

Rhode Island

4

4

-

4

-

South
Carolina

9

-

9

-

9

South Dakota

3

-

3

-

3

Tennessee

11

-

11

-

11

Texas

38

-

38

-

38

Utah

6

-

6

-

6

Vermont

3

3

-

3

-

Virginia

13

13

-

13

-

Washington

12

12

-

12

-

West Virginia

5

-

5

-

5

Wisconsin

10

10

-

10

-

Wyoming

3

-

3

-

3

306

232

306

232

Total

538

*Maine appoints its electors proportionally. Biden-Harris won in the First
Congressional District and took the state; Trump-Pence won the Second
Congressional District. Maine's electoral votes were proportionally
awarded accordingly: for President, Biden 3 and Trump 1; for Vice
President, Harris 3 and Pence 1.
Notes

**Nebraska appoints its electors proportionally. Trump-Pence won in
the First and Third Congressional Districts and took the state; BidenHarris won the Second Congressional District. Nebraska's electoral votes
were proportionally awarded accordingly: for President, Trump 4 and
Biden 1; for Vice President, Pence 4 and Harris 1.

The U.S. National Archives and Records Administration
1-86-NARA-NARA or 1-866-272-6272

https://www.archives.gov/electoral-college/2020

A325

4/4

UR

IB
U

U

E PL

NU

Congressional Record

M

S

United States
of America

PROCEEDINGS AND DEBATES OF THE

Vol. 167

117 th CONGRESS, FIRST SESSION

WASHINGTON, WEDNESDAY, JANUARY 6, 2021

No. 4

House of Representatives
The House met at noon and was
called to order by the Speaker pro tempore (Mr. SWALWELL).
f

DESIGNATION OF THE SPEAKER
PRO TEMPORE
The SPEAKER pro tempore laid before the House the following communication from the Speaker:
WASHINGTON, DC,
January 6, 2021.
I hereby appoint the Honorable ERIC
SWALWELL to act as Speaker pro tempore on
this day.
NANCY PELOSI,
Speaker of the House of Representatives.
f

sspencer on DSK126QN23PROD with HOUSE

PRAYER
The Chaplain, Reverend Margaret
Grun Kibben, offered the following
prayer:
O God, our refuge and our strength, a
very present help in times of discord
and
trouble.
Mountains
crumble,
waters rage, nations roar, and yet we
need not be afraid, for even now You
abide with us in these times of great
discord, uncertainty, and unrest.
We, who have pledged to defend our
Constitution against all enemies, we
pray Your hedge of protection around
this Nation. Defend us from those adversaries, both foreign and domestic,
outside these walls and perhaps within
these Chambers, who sow seeds of acrimony to divide colleagues and conspire
to undermine trust in Your divine authority over all things.
The journey of this experiment in democracy is perilous and demanding,
fraught with anger and discontent. But
wise rulers still seek You.
So help us, God, to find You in the
midst of us.
So help us, God, to see Your gracious
plan even in the events of these days.
So help us, God, to serve You and
this Nation with Godliness and dignity.
We lay before You the gifts of our
hopes, our dreams, our deliberations,

and our debates, that You would be revealed and exalted among the people.
We pray these things in the strength
of Your holy name.
Amen.
f

THE JOURNAL
The SPEAKER pro tempore. Pursuant to section 5(a)(1)(A) of House Resolution 8, the Journal of the last day’s
proceedings is approved.
f

PLEDGE OF ALLEGIANCE
The SPEAKER pro tempore. Will the
gentleman from Kansas (Mr. MANN)
come forward and lead the House in the
Pledge of Allegiance.
Mr. MANN led the Pledge of Allegiance as follows:
I pledge allegiance to the Flag of the
United States of America, and to the Republic for which it stands, one nation under God,
indivisible, with liberty and justice for all.
f

APPOINTMENT OF TELLERS ON
THE PART OF THE HOUSE TO
COUNT ELECTORAL VOTES
The SPEAKER pro tempore. Pursuant to Senate Concurrent Resolution 1,
and the order of the House of January
4, 2021, the Chair announces the Speaker’s appointment of two Members as
tellers on the part of the House to
count the electoral votes:
The gentlewoman from California
(Ms. LOFGREN); and
The gentleman from Illinois (Mr.
RODNEY DAVIS).
f

COMMUNICATION FROM THE
CLERK OF THE HOUSE
The SPEAKER pro tempore laid before the House the following communication from the Clerk of the House of
Representatives:

OFFICE OF THE CLERK,
HOUSE OF REPRESENTATIVES,
Washington, DC, January 5, 2021.
Hon. NANCY PELOSI,
Speaker, House of Representatives,
Washington, DC.
DEAR MADAM SPEAKER: Pursuant to the
permission granted in Clause 2(h) of Rule II
of the Rules of the U.S. House of Representatives, I have the honor to transmit a sealed
envelope received from the White House on
January 5, 2021 at 5:05 p.m., said to contain
a message from the President regarding additional steps addressing the threat posed by
applications and other software developed or
controlled by Chinese companies.
With best wishes, I am,
Sincerely,
CHERYL L. JOHNSON,
Clerk of the House.
f

ADDRESSING THE THREAT POSED
BY APPLICATIONS AND OTHER
SOFTWARE DEVELOPED OR CONTROLLED BY CHINESE COMPANIES—MESSAGE
FROM
THE
PRESIDENT
OF
THE
UNITED
STATES (H. DOC. NO. 117–6)
The SPEAKER pro tempore laid before the House the following message
from the President of the United
States; which was read and, together
with the accompanying papers, referred
to the Committee on Foreign Affairs
and ordered to be printed:
To the Congress of the United States:
Pursuant to the International Emergency Economic Powers Act (50 U.S.C.
1701 et seq.) (IEEPA), the National
Emergencies Act (50 U.S.C. 1601 et seq.),
and section 301 of title 3, United States
Code, I hereby report that I have issued
an Executive Order declaring additional steps to be taken concerning the
national emergency with respect to the
information and communications technology and services supply chain declared in Executive Order 13873 of May
15, 2019 (Securing the Information and
Communications Technology and Services Supply Chain) to deal with the
threat posed by applications and other

b This symbol represents the time of day during the House proceedings, e.g., b 1407 is 2:07 p.m.
Matter set in this typeface indicates words inserted or appended, rather than spoken, by a Member of the House on the floor.
H75

.
VerDate Sep 11 2014

06:58 Jan 08, 2021

Jkt 019060

PO 00000

Frm 00001

A326
Sfmt 0634

Fmt 7634

E:\CR\FM\A06JA7.000

H06JAPT1

sspencer on DSK126QN23PROD with HOUSE

H114

that the teller has verified to be regular in form and authentic?
There was no objection.
The VICE PRESIDENT. Hearing
none, this certificate from Vermont,
the Parliamentarian has advised me, is
the only certificate of vote from the
State that purports to be a return from
the State and that has annexed to it a
certificate of an authority from that
State purporting to appoint or ascertain electors.
Senator BLUNT. Mr. President, the
certificate of the electoral vote of the
State of Vermont seems to be regular
in form and authentic, and it appears
therefrom that Joseph R. Biden, Jr., of
the State of Delaware received 3 votes
for President and KAMALA D. HARRIS of
the State of California received 3 votes
for Vice President.
The VICE PRESIDENT. Are there
any objections to counting the certificate of the vote of the State of
Vermont that the teller has verified as
regular in form and authentic?
There was no objection.
The VICE PRESIDENT. Hearing
none, this certificate from the Commonwealth of Virginia, the Parliamentarian has advised, is the only certificate of vote from that State that purports to be a return from the State and
that has annexed to it a certificate of
an authority from that same State purporting to appoint or ascertain electors.
Ms. LOFGREN. Mr. President, the
certificate of the electoral vote of the
Commonwealth of Virginia seems to be
in regular in form and authentic, and it
appears therefrom that Joseph R.
Biden, Jr., of the State of Delaware received 13 votes for President and
KAMALA D. HARRIS of the State of California received 13 votes for Vice President.
The VICE PRESIDENT. Are there
any objections to counting the certificate of the vote of the Commonwealth
of Virginia that the teller has verified
as appearing regular in form and authentic?
There was no objection.
The VICE PRESIDENT. Hearing
none, this certificate from Washington,
the Parliamentarian has advised, is the
only certificate of vote from that State
that purports to be a return from the
State and that has a certificate of an
authority from the same State purporting to appoint or ascertain electors.
Senator KLOBUCHAR. Mr. President, the certificate of the electoral
vote of the State of Washington seems
to be regular in form and authentic,
and it appears therefrom that Joseph
R. Biden, Jr., of the State of Delaware
received 12 votes for President and
KAMALA D. HARRIS of the State of California received 12 votes for Vice President.
The VICE PRESIDENT. Are there
any objections to counting the certificate of the vote of the State of Washington that the teller has verified and
appears to be regular in form and authentic?

VerDate Sep 11 2014

January 6, 2021

CONGRESSIONAL RECORD — HOUSE

06:58 Jan 08, 2021

Jkt 019060

There was no objection.
The VICE PRESIDENT. Hearing
none, this certificate from West Virginia, the Parliamentarian has advised,
is the only certificate of vote from that
State that purports to be a return from
the State and that has annexed to it a
certificate of an authority from the
State purporting to appoint or ascertain electors.
Mr. RODNEY DAVIS of ILLINOIS.
Mr. President, the certificate of the
electoral vote of the State of West Virginia seems to be regular in form and
authentic, and it appears therefrom
that Donald J. Trump of the State of
Florida received 5 votes for President
and MICHAEL R. PENCE of the State of
Indiana received 5 votes for Vice President.
The VICE PRESIDENT. Are there
any objections to counting the certificate of the vote for the State of West
Virginia that the teller has verified appears to be regular in form and authentic?
There was no objection.
The VICE PRESIDENT. Hearing
none, this certificate from Wisconsin,
the Parliamentarian has advised, is the
only certificate from that State that
purports to be a return from the State
and that has annexed to it a certificate
of an authority from the State purporting to appoint or ascertain electors.
Ms. LOFGREN. Mr. President, the
certificate of the electoral vote of the
State of Wisconsin seems to be regular
in form and authentic, and it appears
therefrom that Joseph R. Biden, Jr., of
the State of Delaware received 10 votes
for President and KAMALA D. HARRIS of
the State of California received 10
votes for Vice President.
The VICE PRESIDENT. For what
purpose does the gentleman from Texas
rise?
Mr. GOHMERT. Mr. President, I object to the electoral votes of the State
of Wisconsin because 71 House Members, all of who condemn violence as we
witnessed today, are firmly committed
to the resolution of disagreements in
civil, lawful, peaceful institutions with
full and fair debate, free of violence.
And though not a single court has allowed an evidentiary hearing to listen
to the significant body of evidence of
fraud, and though some seize on the
court’s failure to misrepresent that no
court would listen to the evidence as
saying evidence did not exist; while
Democrat leaders in Milwaukee illegally and unconstitutionally created
more than 200 illegal polling places;
tens of thousands of votes were
changed by workers, despite election
workers’ objections, plus so many
other illegalities to fraudulently create
a 20,000-vote lead, we object, along with
a Senator who now has withdrawn his
objection.
The VICE PRESIDENT. Sections 15
and 17 of title 3 of the United States
Code require that any objection be presented in writing, signed by a Member
of the House of Representatives and a
Senator.

PO 00000

Frm 00040

A327
Sfmt 0634

Fmt 7634

Is the objection in writing and signed
by a Member and a Senator?
Mr. GOHMERT. It is in writing. It is
signed by a Member, but it is not
signed and objected to by a Senator,
Mr. President.
The VICE PRESIDENT. In that case,
the objection cannot be entertained.
This certificate from Wyoming, the
Parliamentarian has advised, is the
only certificate of vote from that State
and purports to be a return from the
State and has annexed to it the certificate of an authority from the same
State purporting to appoint or ascertain electors.
Senator BLUNT. Mr. President, the
certificate of the electoral vote of the
State of Wyoming seems to be regular
in form and authentic, and it appears
therefrom that Donald J. Trump of the
State of Florida received 3 votes for
President and MICHAEL R. PENCE of the
State of Indiana received 3 votes for
Vice President.
The VICE PRESIDENT. Are there
any objections to counting a certificate of the vote of the State of Wyoming that the teller has verified appears to be regular in form and authentic?
There was no objection.
The VICE PRESIDENT. Hearing
none, the Chair advises Members of
Congress the certificates having been
read, the tellers will ascertain and deliver the result to the President of the
Senate.
Senator KLOBUCHAR. The undersigned, ROY BLUNT and AMY KLOBUCHAR, tellers on the part of the Senate; ZOE LOFGREN and RODNEY DAVIS,
tellers on the part of the House of Representatives, report the following as
the result of the ascertainment and
counting of the electoral votes for
President and Vice President of the
United States for the term beginning
on the 20th day of January, 2021. The
report we make is that Joe Biden and
KAMALA HARRIS will be the President
and the Vice President, according to
the ballots that have been given to us.
The tellers delivered to the President
of the Senate the following statement
of results:
JOINT SESSION OF CONGRESS FOR THE COUNTING
OF THE ELECTORAL VOTES FOR PRESIDENT
AND
VICE
PRESIDENT
OF
THE
UNITED
STATES—OFFICIAL TALLY

The undersigned, ROY BLUNT and
AMY KLOBUCHAR tellers on the part of
the Senate, ZOE LOFGREN and RODNEY
DAVIS tellers on the part of the House
of Representatives, report the following as the result of the ascertainment and counting of the electoral
vote for President and Vice President
of the United States for the term beginning on the twentieth day of January, two thousand and twenty one.
For President
Electoral votes
of each State
Alabama—9 ..................
Alaska—3 ......................
Arizona—11 ...................
Arkansas—6 ..................

E:\CR\FM\K06JA7.079

H06JAPT1

For Vice President

Joseph R.
Biden, Jr.

Donald J.
Trump

Kamala
D. Harris

Michael
R. Pence

................
................
11
................

9
3
................
6

................
................
11
................

9
3
................
6

January 6, 2021
For President
Electoral votes
of each State
California—55 ...............
Colorado—9 ..................
Connecticut—7 .............
Delaware—3 ..................
District of Columbia—3
Florida—29 ...................
Georgia—16 ..................
Hawaii—4 .....................
Idaho—4 .......................
Illinois—20 ....................
Indiana—11 ..................
Iowa—6 .........................
Kansas—6 .....................
Kentucky—8 ..................
Louisiana—8 .................
Maine—4 .......................
Maryland—10 ................
Massachusetts—11 ......
Michigan—16 ................
Minnesota—10 ..............
Mississippi—6 ..............
Missouri—10 .................
Montana—3 ..................
Nebraska—5 .................
Nevada—6 ....................
New Hampshire—4 .......
New Jersey—14 .............
New Mexico—5 ..............
New York—29 ...............
North Carolina—15 .......
North Dakota—3 ...........
Ohio—18 .......................
Oklahoma—7 ................
Oregon—7 .....................
Pennsylvania—20 .........
Rhode Island—4 ...........
South Carolina—9 ........
South Dakota—3 ...........
Tennessee—11 ..............
Texas—38 .....................
Utah—6 .........................
Vermont—3 ...................
Virginia—13 ..................
Washington—12 ............
West Virginia—5 ...........
Wisconsin—10 ..............
Wyoming—3 ..................
Total—538 ...........

For Vice President

Joseph R.
Biden, Jr.

Donald J.
Trump

Kamala
D. Harris

Michael
R. Pence

55
9
7
3
3
................
16
4
................
20
................
................
................
................
................
3
10
11
16
10
................
................
................
1
6
4
14
5
29
................
................
................
................
7
20
4
................
................
................
................
................
3
13
12
................
10
................
306

................
................
................
................
................
29
................
................
4
................
11
6
6
8
8
1
................
................
................
................
6
10
3
4
................
................
................
................
................
15
3
18
7
................
................
................
9
3
11
38
6
................
................
................
5
................
3
232

55
9
7
3
3
................
16
4
................
20
................
................
................
................
................
3
10
11
16
10
................
................
................
1
6
4
14
5
29
................
................
................
................
7
20
4
................
................
................
................
................
3
13
12
................
10
................
306

................
................
................
................
................
29
................
................
4
................
11
6
6
8
8
1
................
................
................
................
6
10
3
4
................
................
................
................
................
15
3
18
7
................
................
................
9
3
11
38
6
................
................
................
5
................
3
232

sspencer on DSK126QN23PROD with HOUSE

ROY BLUNT,
AMY KLOBUCHAR,
Tellers on the part of
the Senate.
ZOE LOFGREN,
RODNEY DAVIS,
Tellers on the part of
the House of Representatives.

The VICE PRESIDENT. The state of
the vote for President of the United
States, as delivered to the President of
the Senate, is as follows:
The whole number of the electors appointed to vote for President of the
United States is 538, of which a majority is 270.
Joseph R. Biden, Jr., of the state of
Delaware, has received for President of
the United States 306 votes;
Donald J. Trump, of the state of
Florida, has received 232 votes;
The state of the vote for Vice President of the United States, as delivered
to the President of the Senate, is as
follows:
The whole number of the electors appointed to vote for Vice President of
the United States is 538, of which a majority is 270.
KAMALA D. HARRIS, of the state of
California, has received for Vice President of the United States 306 votes;
MICHAEL R. PENCE, of the state of Indiana, has received 232 votes.
This announcement of the state of
the vote by the President of the Senate
shall be deemed a sufficient declaration of the persons elected President
and Vice President of the United
States, each for the term beginning on
the twentieth day of January, two

VerDate Sep 11 2014

H115

CONGRESSIONAL RECORD — HOUSE

06:58 Jan 08, 2021

Jkt 019060

thousand and twenty one, and shall be
entered, together with the list of the
votes, on the Journals of the Senate
and House of Representatives.
b 0340
The VICE PRESIDENT. The whole
number of electors appointed to vote
for President of the United States is
538. Within that whole number, a majority is 270.
The votes for President of the United
States are as follows:
Joseph R. Biden, Jr., of the State of
Delaware has received 306 votes.
Donald J. Trump of the State of Florida has received 232 votes.
The whole number of electors appointed to vote for Vice President of
the United States is 538. Within that
whole number, a majority is 270.
The votes for Vice President of the
United States are as follows:
KAMALA D. HARRIS of the State of
California has received 306 votes.
Michael R. Pence of the State of Indiana has received 232 votes.
This announcement of the state of
the vote by the President of the Senate
shall be deemed a sufficient declaration of the persons elected President
and Vice President of the United
States, each for the term beginning on
the 20th day of January, 2021, and shall
be entered, together with the list of the
votes, on the Journals of the Senate
and House of Representatives.
The Chair now recognizes for the purpose of a closing prayer the 62nd Chaplain of the United States Senate, Chaplain Barry C. Black.
Chaplain BLACK. Lord of our lives
and sovereign of our beloved Nation,
we deplore the desecration of the
United States Capitol Building, the
shedding of innocent blood, the loss of
life, and the quagmire of dysfunction
that threaten our democracy.
These tragedies have reminded us
that words matter and that the power
of life and death is in the tongue. We
have been warned that eternal vigilance continues to be freedom’s price.
Lord, You have helped us remember
that we need to see in each other a
common humanity that reflects Your
image. You have strengthened our resolve to protect and defend the Constitution of the United States against
all enemies domestic, as well as foreign.
Use us to bring healing and unity to
a hurting and divided Nation and
world. Thank You for what You have
blessed our lawmakers to accomplish
in spite of threats to liberty.
Bless and keep us. Drive far from us
all wrong desires, incline our hearts to
do Your will, and guide our feet on the
path of peace. And God bless America.
We pray in Your sovereign name.
Amen.
The VICE PRESIDENT. The purpose
of the joint session having concluded,
pursuant to Senate Concurrent Resolution 1, 117th Congress, the Chair declares the joint session dissolved.
(Thereupon, at 3 o’clock and 44 minutes a.m., the joint session of the two
Houses of Congress was dissolved.)

PO 00000

Frm 00041

A328
Sfmt 0634

Fmt 7634

The SPEAKER pro tempore (Ms.
JACKSON LEE). Pursuant to Senate Concurrent Resolution 1, the electoral vote
will be spread at large upon the Journal.
f

ADJOURNMENT
The SPEAKER pro tempore. Pursuant to section 5(a)(1)(B) of House Resolution 8, the House stands adjourned
until 11 a.m. on Monday, January 11,
2021.
Thereupon (at 3 o’clock and 48 minutes a.m.), under its previous order, the
House adjourned until Monday, January 11, 2021, at 11 a.m.
f

PUBLIC BILLS AND RESOLUTIONS
Under clause 2 of rule XII, public
bills and resolutions of the following
titles were introduced and severally referred, as follows:
By Mr. CLOUD (for himself, Mr. ALLEN,
Mr. STEUBE, Mr. DAVIDSON, Mr.
BERGMAN, Mr. PALMER, Mr. RUTHERFORD, and Mr. BAIRD):
H.R. 217. A bill to amend title 38, United
States Code, to direct the Secretary of Veterans Affairs to enforce the licensure requirement for medical providers of the Department of Veterans Affairs; to the Committee on Veterans’ Affairs.
By Mr. PFLUGER (for himself, Mr.
TONY GONZALES of Texas, Mrs. BICE
of Oklahoma, Mr. JACKSON, Ms.
HERRELL, Mr. BABIN, Mr. ROY, Mr.
CRENSHAW, Mr. FALLON, and Mr.
ARRINGTON):
H.R. 218. A bill to prohibit the Secretary of
the Interior and the Secretary of Agriculture
from issuing moratoriums on issuing new oil
and gas leases and drill permits on certain
Federal lands; to the Committee on Natural
Resources, and in addition to the Committee
on Agriculture, for a period to be subsequently determined by the Speaker, in each
case for consideration of such provisions as
fall within the jurisdiction of the committee
concerned.
By Mr. DOGGETT:
H.R. 219. A bill to amend the Trade Act of
1974 to exclude from eligibility for the generalized system of preferences any country
that fails to effectively enforce its environmental laws or meet its international environmental obligations, and for other purposes; to the Committee on Ways and Means.
By Mr. EMMER (for himself and Mr.
RODNEY DAVIS of Illinois):
H.R. 220. A bill to make supplemental appropriations to carry out farm stress programs, provide for expedited additional support under the farm and ranch stress assistance network, and for other purposes; to the
Committee on Agriculture.
By Ms. ESHOO:
H.R. 221. A bill to amend title 5, United
States Code, to modify the oath of office
taken by individuals in the civil service or
uniformed services, and of other purposes; to
the Committee on Oversight and Reform.
By Ms. ESHOO (for herself and Mr.
MCEACHIN):
H.R. 222. A bill to treat the Tuesday next
after the first Monday in November in the
same manner as any legal public holiday for
purposes of Federal employment, and for
other purposes; to the Committee on Oversight and Reform.
By Mr. ESPAILLAT (for himself and
Mr. SIRES):
H.R. 223. A bill to direct the Secretary of
Health and Human Services to reimburse

E:\CR\FM\A06JA7.020

H06JAPT1

